<html>
<title> - COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
      COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME III

=======================================================================

                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               ----------                              

                       MARCH 21 and JUNE 20, 2012

                               ----------                              

                           Serial No. 112-78

                               ----------                              

       Printed for the use of the Committee on Homeland Security





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/















     COMPILATION OF HEARINGS ON ISLAMIST RADICALIZATION--VOLUME III

=======================================================================

                                HEARINGS

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       MARCH 21 and JUNE 20, 2012

                               __________

                           Serial No. 112-78

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-517 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

                       WEDNESDAY, MARCH 21, 2012
                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                               Witnesses

Mr. Mitchell D. Silber, Director, Intelligence Analysis, NYPD 
  Intelligence Division, New York City Police Department:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Christopher E. Swecker, Former Assistant Director, Federal 
  Bureau of Investigation:
  Oral Statement.................................................    12
  Prepared Statement.............................................    15
Mr. Michael A. Braun, Managing Partner, Spectre Group 
  International, LLC:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Matthew Levitt, Director, Stein Program on Counterterrorism 
  and Intelligence, The Washington Institute For Near East 
  Policy:
  Oral Statement.................................................    29
  Prepared Statement.............................................    32
Mr. Colin H. Kahl, Senior Fellow, Center for a New American 
  Security:
  Oral Statement.................................................    42
  Prepared Statement.............................................    44

                        WEDNESDAY, JUNE 20, 2012
                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................    75
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    77
  Prepared Statement.............................................    79

                               Witnesses

Dr. M. Zuhdi Jasser, President and Founder, American Islamic 
  Forum for Democracy:
  Oral Statement.................................................    81
  Prepared Statement.............................................    83
Ms. Asra Q. Nomani, Private Citizen:
  Oral Statement.................................................    91
  Prepared Statement.............................................    93
Dr. Qanta A.A. Ahmed, MD, FACP, FCCP, FAASM, Private Citizen:
  Oral Statement.................................................   106
  Prepared Statement.............................................   107
Ms. Faiza Patel, Co-Director, Liberty and National Security 
  Program, Brennan Center for Justice:
  Oral Statement.................................................   114
  Prepared Statement.............................................   116

                             For the Record

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Statement of Charles Kurzman, Department of Sociology, 
    University of North Carolina, Chapel Hill....................   131
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Statement of John Cohen, Principal Deputy Counterterrorism 
    Coordinator and Senior Advisor to the Secretary, United 
    States Department of Homeland Security.......................   148
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security:
  Report: ``The Radicalization of Muslim-Americans: The Committee 
    on Homeland Security's Investigation of the Continuing 
    Threat''.....................................................   152

                                Appendix

Questions From Ranking Member Bennie G. Thompson for Qanta A.A. 
  Ahmed..........................................................   173
Questions From Ranking Member Bennie G. Thompson for M. Zuhdi 
  Jasser.........................................................   173
Questions From Ranking Member Bennie G. Thompson for Asra Q. 
  Nomani.........................................................   173
Questions From Ranking Member Bennie G. Thompson for Faiza Patel.   174


            IRAN, HEZBOLLAH, AND THE THREAT TO THE HOMELAND

                              ----------                              


                       Wednesday, March 21, 2012

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:39 a.m., in Room 
311, Canon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, Rogers, McCaul, 
Bilirakis, Miller, Cravaack, Meehan, Quayle, Long, Duncan, 
Turner, Thompson, Jackson Lee, Cuellar, Richardson, Higgins, 
Richmond, Clarke of Michigan, Hochul, and Hahn.
    Also present: Representative Green.
    Chairman King. Morning. The Committee on Homeland Security 
will come to order. The committee is meeting this morning to 
examine the threat to the U.S. homeland posed by Iran and the 
foreign terrorist organization, Hezbollah.
    The Chair wishes to remind our guests today that 
demonstrations in the audience, including the use of signs, 
placards and T-shirts, as well as verbal outbursts, are a 
violation of the rules of the House. The Chair wishes to thank 
our guests for their cooperation in maintaining order, proper 
decorum. I now recognize myself for an opening statement.
    We meet today at a perilous time. Since 9/11, America's 
counter-terror officials have focused on finding al-Qaeda 
operatives inside America, as well as homegrown radicalized 
Islamist extremists ready to perpetrate violence against our 
people.
    Now, as Iran moves closer to nuclear weapons, and there is 
increasing concern over war between Iran and Israel, we must 
also focus on Iran's secret operatives, and their No. 1 
terrorist proxy force, Hezbollah, which we know is in America. 
That is right. We know Hezbollah operatives are here. The 
question is whether these Hezbollah operatives have the 
capacity to carry out attacks on the homeland, and how quickly 
they can become fully operational.
    More than 20 Federal investigations since 9/11, identified 
by the Majority's investigative staff, offer a chilling view of 
Iranian and Hezbollah operations here inside the United States. 
In fact, just this week in New York City, in the Southern 
District of New York, another trial has begun of a building 
superintendent who was charged with attempting to provide 
weapons, and support, and supplies to Hezbollah.
    Today, our National interests, namely standing with our 
major ally, Israel, increasingly puts us in the crosshairs of 
the extremist regime in Tehran as it moves dangerously closer 
to making a nuclear bomb. Iran is feeling the heat, and already 
has responded with its trademark terrorist brutality overseas.
    We have seen this before in Beirut, 1983; in Buenos Aires, 
1992 and 1994; Khobar Towers in 1996, when a constituent of 
mine, Captain Adams, was killed; and if Iran had its way, 
Washington, DC also would have witnessed terrible carnage amid 
the smoking rooms of a popular local restaurant only a few 
months ago.
    Many counterterrorism insiders were stunned last October by 
Tehran's brazen plot by its intelligence service dogs to 
assassinate Saudi Arabia's ambassador by bombing this city, 
Washington, DC, our Nation's capital. I congratulate and 
commend the DEA and the FBI for thwarting this attack on our 
capital.
    So will Iran launch terror strikes inside our homeland if 
it feels threatened? In light of last year's bomb plot, in 
light of the 20 Hezbollah cases prosecuted since 9/11, and in 
light of Hezbollah attacks overseas, we have a duty to prepare 
for the worst. Today's investigative hearing is the beginning 
of this committee's effort to size up the serious threat by one 
of international terrorism's most violent murder gangs.
    Now, how many Iranian and Hezbollah terrorists are here 
already? The highly-disciplined soldiers of Hezbollah are 
trained to lie low for years, or for decades. Those who have 
gone up against this enemy for our Government estimate the 
number to be, at a minimum, in the hundreds. Also, there are 55 
Iranian diplomats at its U.N. mission in New York and another 
29 Iranian officials here at its intersection in the District 
of Columbia, according to the Obama administration; many of 
whom, it must be presumed, are intelligence officers.
    Several of their comrades--of these U.N. mission types in 
New York--were removed from the U.N. mission and sent back to 
Iran after the NYPD caught them photographing the city's rail 
systems in the years since 9/11. Additionally, as the NYPD's 
Mitch Silber will point out today, there have been five other 
events, involving the Iranian diplomatic personnel, which 
almost certainly constituted hostile reconnaissance operations 
against New York.
    Now, many have mistakenly assumed that Hezbollah operatives 
here were only capable of fund-raising for the Lebanon-based 
group through criminal fraud, such as counterfeiting and 
cigarette smuggling. But top intelligence officials and leaders 
have told us that Hezbollah is the group most capable of 
flipping its nation-wide network of criminal fund-raising cells 
into an operational terror force capable of great violence on 
orders from its leaders in Iran or Lebanon.
    In 2009, the Obama administration said that Hezbollah is, 
``the most technically capable terrorist group in the world.''
    Now, our witnesses, specifically Chris Swecker, former FBI 
agent, will explain that many arrested on criminal charges 
since 9/11, such as Mahmoud Kourani, were Hezbollah militants--
I believe we have photos here--Hezbollah militants trained in 
weapons, explosives, and spycraft in Lebanon and Iran, where 
the Revolutionary Guards Corps works hand-in-hand with 
Hezbollah. These were people who were prosecuted in the United 
States as Hezbollah operatives several years ago. Chris will go 
into that in much more detail.
    Now, some of the defendants in cases have been known or 
suspected of having combat experience with Hezbollah in 
Lebanon. Now, the numbers also are greater than they may seem 
from looking at the Federal docket, since other suspected 
Hezbollah operatives were quietly deported as criminal aliens 
without their militant backgrounds being publicly disclosed.
    As the Director of National Intelligence, James Clapper, 
General Clapper recently said Iran's leaders are under great 
pressure, and appear to be, ``more willing to conduct an attack 
inside the United States in response to real or perceived U.S. 
actions that threaten the regime.''
    So these threats are real. They could be sooner, rather 
than later. As a committee, as a Congress, and as a Government, 
we simply cannot afford to ignore this threat.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman King. I now recognize the gentleman from 
Mississippi, Mr. Thompson, for his opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman, and for 
calling this hearing today.
    As a Homeland Security Committee, we are charged with the 
responsibility of ensuring this Nation's security. In carrying 
out that mission, we must ask unpopular questions, and seek 
answers which may make people uncomfortable.
    Today's hearing does not pose a question. It makes a 
statement; Iran, Hezbollah, and the threat to the homeland. I 
hope that today's hearing can provide support for this 
statement. However, given that no current Federal officials 
have been asked here to testify today, I am concerned about 
whether the testimony we receive will be based on current 
information.
    As the Homeland Security Committee, it is unusual for us to 
have a hearing about a perceived threat by a proposed foreign 
country. Our jurisdiction involves the security and safety of 
this country within our shores.
    So before we begin to venture into this new territory, a 
word of caution is in order. When we examine our relationship 
with another country, we cannot look at any particular moment 
in time and pretend that it tells the whole story. We cannot 
view the politics, history, and culture of any country clearly 
by seeing a snapshot version.
    Our Nation's relationship with Iran cannot be understood by 
simply looking at this moment in time. Our major break with 
Iran came in 1979, when employees of the American embassy in 
Tehran were taken captive and held as hostages for 444 days. 
This action presented a direct threat to United States citizens 
and the United States interests. We did not go to war with 
Iran.
    In 1988, Iran, allegedly operating through Hezbollah, 
kidnapped and murdered a U.S. Marine in Lebanon. We did not go 
to war with Iran.
    1996, Iran allegedly supported a terrorist group that 
bombed Khobar Towers, a U.S. military residence in Saudi Arabia 
that attacked and killed 19 U.S. servicemen. We did not go to 
war with Iran.
    In these situations, we seemed to follow the advice of Pope 
John Paul II who said, ``War is not always inevitable.'' 
Instead of going to war, Republicans and Democratic 
administrations, Presidents Carter, Reagan, Bush, and Clinton 
imposed sanctions on Iran.
    In recent years, the United States has expanded those 
sanctions. In 2012, the European Union joined the efforts to 
sanction Iran. The European Union has pledged to halt new 
imports of Iranian oil in July.
    In addition, the European Union has imposed new banking 
restrictions on Iran. These restrictions, known as SWIFT code 
sanctions will reach into the global banking system and short-
circuit Iran's money transfer mechanism. Without the ability to 
use the international banking system, it is unlikely that 
Iran's current 25 percent inflation rate will rise and wreak 
economic havoc.
    Yet, some of my friends on the other side say that 
sanctions are no longer good enough. They say that the 
possibility that Iran will have a nuclear weapons create a new 
urgency. I agree that if Iran were on the path of creating a 
nuclear weapon, we would have cause for concern, but Iran is 
not close to having a nuclear weapon.
    James Clapper, Director of the National Intelligence, has 
testified before the Senate that while Iran is expanding its 
uranium enrichment program, he doesn't believe that they have 
made the decision to develop a nuclear weapon.
    I think the Director of National Intelligence deserves our 
trust. If we have any questions about Director Clapper's 
estimation of Iran's capabilities or intentions, we should call 
him before this committee in a classified setting to hear his 
comments. But we should not engage in a public discussion that 
creates fear and delivers misinformation. Further, Mr. 
Chairman, I think, by now, we would have learned that potential 
threats from weapons that do not exist should not determine our 
foreign policy.
    Potential threats from weapons that do not exist can never 
again be the reason to consider sacrificing the lives of 
thousands of Americans in the deserts of a foreign land.
    Securing this Nation demands that we calmly assess the 
threats we face and face down the threats that we know are 
real. Securing this Nation requires both focus and vigilance; 
neither can be achieved where there is fear and misinformation.
    With that, Mr. Chairman, I yield back.
    Chairman King. Thank you. I would just like to assure the 
Ranking Member if he was listening to my opening statement, we 
are not focusing on foreign policy here today at all. What we 
are talking about is an internal threat to this country which 
General Clapper has said is now the No. 1 domestic concern as 
far as international terrorism; the threat of Iran to carry out 
its hacks within this country and all of the policies you are 
talking about, many of which I support including the increased 
sanctions.
    The question is will that drive Iran to launch Hezbollah 
attacks in this country and General Clapper, the director of 
National Intelligence, is extremely concerned about that.
    I would think as the Committee on Homeland Security, if we 
don't believe it is within our jurisdiction to determine 
whether or not a foreign entity is going to carry out terrorist 
attacks within our country, then we are not doing our job.
    To me this is clearly--and to me it is not even a question. 
This is clearly within our jurisdiction and that is why I 
intend to proceed with the hearing and subsequent hearings if 
we have to.
    Mr. Thompson. Well, if the gentleman will yield, I look 
forward to the testimony to see whether or not the witnesses 
stick to just what you said.
    Chairman King. We may, in view of your suggestion, ask 
General Clapper to come in and follow up a subsequent hearing 
on his statement that Iran and Hezbollah are the No. 1 domestic 
threat to the United States today.
    So, with that, let me thank all the witnesses for being 
here today. I will give more extensive introductions as they go 
along, but Mitchell Silber is the director of intelligence 
analysis with the Intelligence Division of the NYPD.
    Mr. Chris Swecker is the former assistant director for the 
criminal investigative division and acting executive assistant 
director for law enforcement services of the FBI, which I 
believe, as I understand the hierarchy, was the No. 3 position 
in the FBI at that time.
    Mr. Michael Braun is a managing partner with Spectre Group 
International and an expert in this field.
    Dr. Matthew Levitt is a senior fellow and director of the 
Washington Institute's Stein Program on Counterterrorism and 
Intelligence.
    Dr. Colin Kahl is an associate professor in the Security 
Studies Program at Georgetown University. He was called as your 
witness, Mr. Ranking Member, and we are really delighted to 
have him here today and I spoke to him earlier.
    Our first witness is Mitchell Silber who is the director of 
intelligence analysis for the New York Police Department's 
Intelligence Division. Mr. Silber is an expert in the field of 
counterterrorism. He has done absolutely outstanding work with 
the NYPD in putting together their extensive counterterrorism 
program.
    Mr. Silber, let me just thank you and Commissioner Kelly 
and the NYPD, as a New Yorker, for the truly outstanding work 
you have done and say, in spite of the irrational and 
indefensible attacks against you and Commissioner Kelly by the 
New York Times, by the Associated Press, and other unknowing 
and misguided politicians, I want to thank you for the job you 
have done and continue to do, especially, yes, for the 14 plots 
against New York that you have stopped and for not yielding at 
all in the face of all the misguided cheap attacks made against 
you over the last several months.
    With that, Mr. Silber is recognized.

    STATEMENT OF MITCHELL D. SILBER, DIRECTOR, INTELLIGENCE 
  ANALYSIS, NYPD INTELLIGENCE DIVISION, NEW YORK CITY POLICE 
                           DEPARTMENT

    Mr. Silber. Good morning. Thank you for this opportunity to 
testify. Mr. Chairman, Members of the committee, as you know, 
over the past decade, the mission of the New York City Police 
Department has expanded to address the evolving threat of 
international and homegrown terrorism.
    Grounded in existing law and fully in accordance with the 
U.S. Constitution, we have built and intelligence and 
counterterrorism program that has served as a deterrent and 
helped to protect the city from 14 terrorist plots since 
September 11, 2001.
    As the director for the intelligence analysis at the NYPD, 
my responsibility is to dispassionately assess the impact of 
geo-political trends and tensions including the increasing 
threat of war on the security of New York City.
    Data back to at least 2005, we have considered the 
possibility that efforts to halt the development of Iran's 
suspected nuclear weapons program could trigger a full-blown 
conflict in the Persian Gulf involving Iran, Israel, and 
potentially the United States.
    In light of New York's symbolic importance as a terrorist 
target, its large Jewish population, locations of Israeli 
interest and status as one of the two outposts of Iranian 
diplomatic presence in the United States via its United Nations 
mission, the city remains the most likely venue for global 
tensions with Iran to spill over onto American soil.
    A terrorist act by Iran or Hezbollah in New York City could 
serve as retaliation for real or perceived U.S. support or 
involvement in military action against Iran's nuclear 
facilities or against its regime.
    While it is not my role to weigh in on potential U.S. 
diplomatic and military strategy, the NYPD is responsible for 
considering all of the possibilities and taking all the 
precautions necessary to keep New York City safe.
    Previous conduct by Iranians present in New York City with 
official diplomatic cover suggests that, on several occasions, 
going back nearly a decade, Iran may have conducted hostile 
reconnaissance of the city's landmarks and infrastructure.
    Three occasions, in June 2002, November 2003, and May 2004 
involved Iranian mission guards videotaping infrastructure and 
public transportation and New York City landmarks.
    The last of these resulted in the expulsion of two guards 
by the United States for engaging in activities that were not 
consistent with their duties, in other words, spying.
    Three similar instances, which have not been previously 
discussed publicly, occurred in May 2005 and in September 2008 
during the United Nations General Assembly; and, also, in 
September 2010, again, during the United Nations General 
Assembly when Federal air marshals observed four individuals 
taking photos and videotaping the water line and structural 
area of the heliport landing pad near Wall Street which they 
deemed suspicious.
    In a field interview, all four of the individuals stated 
they were employed at the Islamic Republic of Iran Broadcasting 
Company and produced U.N. press cards as identification.
    Hezbollah and its supporters also have a presence in New 
York and surrounding area. Based on the NYPD's investigative 
findings, the majority of these individuals hail from Hezbollah 
strongholds in southern Lebanon, including towns as Bint Jbeil, 
Aytaroun and Yater, which in 2006 was a battlefield for Israeli 
forces and Hezbollah fighters.
    Some of these individuals in New York are family members of 
Hezbollah political leaders or Hezbollah fighters who have been 
killed or associates of known ranking members of Hezbollah, or 
in some rare cases have received military training from 
Hezbollah in Lebanon.
    Based on the nature of these close and continuing 
relationships with members of Hezbollah in Lebanon, the notion 
that Hezbollah agents from abroad might seek to leverage the 
local community in New York, whether wittingly or not, as 
facilitators is a credible threat.
    The NYPD has spent significant time and effort studying the 
past modus operandi of Iranian and Hezbollah terrorist attacks 
worldwide in order to develop strategies to thwart any attack 
in the city. Most notable are the 1992 and 1994 bombings of 
Israeli and Jewish targets in Argentina which killed 29 and 85 
people, respectively.
    In these cases, Iran used its diplomatic presence in Buenos 
Aires to target, design, coordinate, and order the execution of 
the attacks which were then carried out by Hezbollah operatives 
from aboard who leveraged the local Lebanese community, as in 
many cases, unwitting facilitators.
    We have also studied closely a recent series of attacks 
plausibly linked to Iran in countries as diverse as Georgia, 
India, and Thailand. These attacks have heightened the NPYD's 
concern regarding the threat posed by Iran or Hezbollah to New 
York City.
    This is because the plots clearly demonstrate that Iran 
and/or Hezbollah remain deeply committed to striking against 
Israeli and Western targets and they are willing to deploy a 
variety of methods in order to do so further complicating our 
job of detecting and preventing such an attack.
    Our study of these plots leaves us two notable conclusions.
    First, the conspirators gave high priority to hitting 
Jewish and Israeli targets in a third country; and second that 
these attacks are part of a political calculus aimed at 
advancing Iranian strategic goals in the geopolitical sphere. 
It is therefore possible that as the pressure on Iran continues 
to mount or if war breaks out, Iran may choose to strike in the 
United States or for the reasons already mentioned, New York 
City may present the ideal target.
    Given the recent alleged Iranian directed plot against a 
foreign diplomat here in Washington, Iran's increasingly 
bellicose rhetoric and its recent as well as long history of 
sponsoring terrorist attacks abroad, the NYPD must remain 
vigilant in attempting to detect and disrupt any attack by Iran 
or its proxies. Anything less would be abdicating our duty to 
protect New Your City and its residents.
    Thank you.
    [The statement of Mr. Silber follows:]
                Prepared Statement of Mitchell D. Silber
                             March 21, 2012
    Over the past decade, the mission of the New York City Police 
Department has expanded greatly to address the evolving threat of 
international and homegrown terrorism. Grounded in existing law and 
fully in accordance with the U.S. Constitution, we have built an 
intelligence and counterterrorism program that has served as a 
deterrent and has helped to protect the city from fourteen terrorist 
plots since September 11, 2001.
    As the director of intelligence analysis for the New York City 
Police Department, my responsibility is to dispassionately assess the 
impact of geopolitical trends and tensions, including the increasing 
threat of war--on the security of New York City. Dating back to at 
least 2005, we have considered the possibility that efforts to halt the 
development of Iran's suspected nuclear weapons program could trigger a 
full-blown conflict in the Persian Gulf involving Iran, Israel, and 
potentially the United States.
    In light of New York's symbolic importance as a terrorist target, 
its large Jewish population, locations of Israeli interest, and status 
as one of two outposts of Iranian diplomatic presence in the United 
States via its United Nations mission, the city remains the most likely 
venue for global tensions with Iran to spill over onto American soil. A 
terrorist attack by Iran or Hezbollah in New York City could serve as 
retaliation for real or perceived U.S. support or involvement in 
military action against Iran's nuclear facilities or against its 
regime.
    While it is not my role to weigh in on potential U.S. diplomatic 
and military strategy, the NYPD is responsible for considering all of 
the possibilities and taking all the precautions necessary to keep New 
York City safe.
    Over the last 6 months, our analysts have studied terrorist plots 
with a plausible nexus to Iran that have been attempted or carried out 
in Azerbaijan, India, Georgia, Thailand, as well as here in Washington. 
What we have learned has heightened our concerns. Disconcertingly, 
these plots demonstrate that Iran and/or Hezbollah remain committed to 
striking against Israeli and Western targets. Further complicating the 
task of law enforcement is the diversity of methods evinced by these 
plots, including differences in the profile of perpetrators, types of 
explosives used, delivery method, and tradecraft.
    For example, In Baku, Azerbaijan in mid-January 2012, Azerbaijani 
authorities detained three men on charges of planning to attack two 
Israelis employed by a Jewish school in Baku. According to Azerbaijani 
authorities, the men received smuggled arms and equipment from Iranian 
agents--including a sniper rifle with silencer, pistols, sixteen pieces 
of plastic explosives and detonators which were smuggled into 
Azerbaijan from Iran via the Caspian Sea, overseen by Iranian 
intelligence services. Just last Wednesday, March 14, Azeri officials 
announced the arrest of 22 Azeri citizens for cooperating with the 
Iranian Revolutionary Guard Corps (IRGC). The Azeri National Security 
Ministry alleged that the individuals, some of whom were recruited by 
Iran as far back as 1999, received weapons and spying training at 
Iranian military facilities. The suspects were reportedly directed by 
the IRGC to stage attacks against Western embassies and their 
employees, including those of the U.S. and Israel.
    In Bangkok, Thailand, on January 12, 2012, Thai police arrested 
Hussein Atris, a Lebanese man carrying a Swedish passport, at the 
Bangkok airport and raided a three-story commercial building to which 
he was linked, recovering bomb-making materials including 4,380 kg of 
urea-based fertilizer and 290 liters of ammonium nitrate. These 
materials were believed to be intended for use in an attack in Thailand 
or to be shipped abroad for use elsewhere. According to Swedish media 
reports, one of his relatives, Germany resident Muhammad Atris, was 
involved in the Iranian assassination of four Kurdish opposition 
figures in 1992.
    In Tblisi, Georgia, on February 13, 2012, a ``sticky bomb'' was 
affixed to a vehicle carrying an Israeli diplomat; the bomb was 
detected and diffused without causing harm.
    In a rare coordinated attack, at approximately the same time as the 
failed bombing in Tblisi, a motorcyclist attached an almost identical 
``sticky bomb'' to a minivan belonging to the Israeli Embassy in New 
Delhi. The explosion injured four people, including the wife of an 
Israeli Ministry of Defense representative. Reports indicate that the 
embassy may have been targeted and surveyed by an Indian national who 
used his press credentials to obtain access and escape scrutiny.
    The next day, in Bangkok, Thailand, a cache of explosives kept in a 
rented house in downtown Bangkok by a group of Iranian nationals was 
detonated in an accidental explosion. An Iranian man, one of the 
occupants of the house, escaped armed with grenades, which he then 
threw at a taxi and at police, grievously wounding himself and causing 
no other casualties. Following the explosion and his attempt to flee, 
Thai authorities identified three other Iranians wanted in connection 
with the explosion, including a woman who had already returned to Iran, 
and arrested one Iranian national attempting to fly to Malaysia. 
Interestingly, telephonic analysis suggests a direct connection between 
the Bangkok and the New Delhi plots.
    While the timing of some of these foiled plots around the world 
suggest a linkage to and retribution for the fourth anniversary of the 
assassination of Imad Mughniyeh, Hezbollah's infamously effective 
operational leader, they also seem to be calibrated to provide direct 
retaliation for the assassination of several Iranian nuclear scientists 
in Iran in recent months.
    While these incidents all occurred overseas, another plot uncovered 
in the past 6 months has forced a recalculation of the odds that Iran 
and its surrogate, Hezbollah, might seek to strike out against targets 
on American soil if hostilities commenced in the Persian Gulf or even 
as the Iranian regime feels itself increasingly under pressure. This 
was the plot foiled last October--obviously absent overt hostilities--
in which a naturalized U.S. citizen of Iranian descent, directed by the 
Iranian Revolutionary Guard Corps, hired an individual whom he thought 
was a member of a Mexican drug cartel to assassinate the Saudi 
ambassador to the United States. The plan involved blowing up a 
Washington, DC, restaurant--potentially killing hundreds of Americans 
in the process.
    In the wake of this plot, the Director of National Intelligence 
James Clapper testified in January to the Senate Select Committee on 
Intelligence that Iranian officials ``are now more willing to conduct 
an attack in the United States in response to real or perceived U.S. 
actions that threaten the regime.''
    The NYPD has long been concerned about the possibility of 
asymmetrical attacks by Iran and/or Hezbollah occurring in New York 
City. Thus we also have spent significant time and effort studying the 
modus operandi of Iranian and Hezbollah terrorist attacks worldwide 
that occurred prior to the ones discussed above.
    Most notable are the 1992 and 1994 bombings of Israeli and Jewish 
targets in Argentina, which killed 29 and 85 people, respectively. With 
this in mind, we sent a team to Argentina to study the modus operandi 
of those attacks and to meet with Argentine security officials who 
worked the investigations. Coupled with open source information, this 
is what the NYPD learned:
    Iran has a proven record of using its official presence in a 
foreign city to coordinate attacks, which are then carried out by 
Hezbollah agents from abroad, often leveraging the local community--
whether wittingly or not--as facilitators. In the Argentinian cases, 
Iranian agents were sent to Argentina years before the attacks, where 
they integrated into society and became Argentine nationals. For 
example, Mohsen Rabbani is believed to have been in charge of 
coordinating the 1994 attack and is subject to an Interpol arrest 
warrant for his involvement. He first came to Argentina, 11 years 
earlier, in 1983, where he subsequently became the main imam at At-
Tauhid, an Iranian-funded mosque in Buenos Aires.
    After traveling to Iran in August 1993 to participate in a meeting 
that allegedly gave the planned attack the green light, Mr. Rabbani 
returned to Argentina as a cultural attache to the Iranian Embassy, 
conveniently providing him diplomatic immunity. Then, Hezbollah agents 
from abroad received logistical support from members of the local 
Lebanese-Shiite community and the Iranian Embassy to carry out the 
attack.
    Besides a better understanding of the operational and logistical 
relationship between Iranian and Hezbollah personnel on the ground for 
these two attacks, our team returned from Buenos Aires with two other 
important takeaways: First, the high priority that the conspirators 
gave to hitting specifically Jewish and Israeli targets in a third 
country; and second, the strong belief that both of these attacks did 
not happen in Argentina by accident--rather they were designed to 
pressure Buenos Aires to resume nuclear cooperation with Iran--
something Argentina had backed out from, under American pressure.
    So now in 2012, with pressure from the United States and the West 
over Iran's nuclear program increasingly escalating, the NYPD must 
assume that New York City and its plethora of Jewish and Israeli 
targets could be targeted by Iran or Hezbollah in the event that 
hostilities break out in the Persian Gulf. Moreover, like Buenos Aires, 
the presence of Iran's U.N. mission in New York City allows officials 
from Iran's Ministry of Intelligence to live and operate in New York 
with official diplomatic cover.
    We believe this is neither an idle nor a new threat. Between 2002 
and 2010, the NYPD and Federal authorities detected at least 6 events 
involving Iranian diplomatic personnel that we struggle to categorize 
as anything other than hostile reconnaissance of New York City.
    The first event occurred in June of 2002 and involved Iranian 
Mission security guards. The second event occurred at 2AM on November 
16, 2003 when uniformed NYPD officers riding a southbound 7 train 
observed two males filming the subway train tracks. The men, who 
initially claimed diplomatic immunity, turned out to be security guards 
at the Iranian Mission who had recently arrived in New York. Despite 
two warnings from the State Department about this inappropriate 
behavior, in May 2004, two more Iranian Mission security guards were 
observed videotaping infrastructure, public transportation and New York 
City landmarks. One month later, the guards were expelled by the United 
States for ``engaging in activities that were not consistent with their 
duties''--in other words, spying.
    However, this official reprimand was not sufficient and suspicious 
activities by Iranian diplomatic personnel have continued. In May 2005, 
6 individuals associated with the Government of Iran were interviewed 
by the NYPD in response to a lead called into the NYC safe hotline. The 
individuals were on a local sight-seeing cruise, and the captain of the 
ship deemed their behavior suspicious. The individuals had divided into 
groups of two, each with a map, while photographing and videotaping NYC 
landmarks such as the Brooklyn and Manhattan Bridges. They were also 
reportedly speaking on their cell phones in an unusual manner. 
Responding to the lead, the NYPD learned that one of the individuals 
was employed at the Permanent Mission of Iran to the United Nations, 
and the other five had diplomatic immunity based on their individual 
positions within the Iranian government. After sharing the information 
with Federal authorities and conferring with the United Nations Law 
Enforcement division, the individuals were released without incident.
    In September 2008, during the United Nations General Assembly, 
several members of the Iranian Delegation were observed taking 
photographs of the MTA railroad tracks inside of Grand Central Station. 
The NYPD was able to interview three of the individuals, who confirmed 
that they had been inside the station, but claimed that no photos were 
taken. One individual produced a camera that contained photos of the 
Brooklyn Bridge, a location the three had also visited. Again, the 
information was shared with Federal authorities and the individuals 
were released without incident.
    Finally, in September 2010, again during the United Nations General 
Assembly, Federal Air Marshals observed suspicious behavior at the Wall 
Street Heliport. Four individuals were taking still photos and 
videotaping the waterline and structural area of the heliport landing 
pad from the vehicle parking lot area. According to the Air Marshals, 
the individuals were not behaving like other tourists at the location. 
For example, one individual held his camera at waist level while 
filming, and the footage was focused on the structure of the heliport 
instead of the actual helicopters coming in and out of the location. In 
a field interview, all four of the individuals stated they were 
employed at the Islamic Republic of Iran Broadcasting Company (IRIB), 
and produced UN Press access cards as identification. Information on 
the subjects was shared with the JTTF/NYC, NYPD Counter Terrorism 
Bureau and Intelligence Division, and the individuals were released 
without incident.
    Moreover, the Iranian government also has an unofficial presence in 
New York via the Alavi Foundation, a non-profit ostensibly devoted to 
charity works and promoting Islamic culture. In December 2009, Preet 
Bharara, U.S. Attorney for the Southern District of New York, described 
Alavi as having ``effectively been a front for the government of 
Iran.'' A contemporaneous complaint filed by Mr. Bharara's office led 
to the seizure of Alavi's assets--including the Islamic Institute of 
New York, the largest Shiite mosque in the city and the location most 
closely affiliated with Iran's U.N. mission.
    Hezbollah and its supporters have a presence in New York and the 
surrounding area as well. Their provision of aid to Hezbollah manifests 
in a variety of ways for this community of supporters. For example, in 
2008, two Staten Island men pleaded guilty to providing material 
support to Hezbollah for hosting Hezbollah's satellite television 
channel, al Manar. In another notable case, 26 people--including a 
former Brooklyn resident--were indicted in Federal court in 
Philadelphia in 2009 for conspiring to provide material support to the 
terrorist group by procuring weapons and using proceeds from the sale 
of fraudulent passports, counterfeit money, and stolen money.
    In addition, there have been some cases of Lebanese-linked 
businesses in the tri-State area and elsewhere being implicated in a 
variety of illegitimate and semi-legitimate business activities, 
including trademark counterfeiting, car exports, and money-laundering--
all believed to be benefiting Hezbollah. The details of a massive 
money-laundering scheme were revealed in a civil suit filed against 
several Lebanese financial institutions, including the Lebanese 
Canadian Bank, last December by the Drug Enforcement Administration and 
the U.S. Attorney for the Southern District of New York.
    In light of what we have learned about events in Argentina and 
elsewhere, we must assume that familial, political, and military links 
between Hezbollah supporters in New York City and the Hezbollah 
organization in their towns of origin in Lebanon are robust and 
dynamic. For example, individuals of concern hail from Hezbollah 
strongholds in southern Lebanon, including towns like Bint Jbeil, 
Yaroun, and Yatar, which were the battlefields for Israeli forces and 
Hezbollah fighters in their 2006 war. Some individuals in New York are 
family members of Hezbollah political leaders or Hezbollah fighters who 
have been killed, are associates of known ranking members of Hezbollah, 
or have received military training from Hezbollah in Lebanon. Simply 
put, the risk that Hezbollah agents from abroad would seek to leverage 
the local community in New York as facilitators--whether wittingly or 
not--must be considered.
    Given a spate of recent Iranian-linked attacks abroad, the alleged 
IRGC plot against a foreign diplomat in Washington, Iran's increasingly 
bellicose rhetoric, and its long history of sponsoring terror attacks, 
the NYPD must remain vigilant in attempting to detect and disrupt any 
attack by Iran or its proxies. Anything less would be abdicating our 
duty to protect New York City and its residents.

    Chairman King. Thank you, Mr. Silber.
    Our next witness, Christopher Swecker, was the former 
Assistant Director for the Criminal Investigative Division and 
the acting Executive Assistant Director for Law Enforcement 
Services at the FBI, a position he retired from in 2006. As I 
mentioned before, this is my understanding it was the No. 3 
position in the FBI.
    In his 24-year career with the FBI, Mr. Swecker served a 
number of capacities including a supervisor in the Legal 
Counsel Division and assistant special agent in charge in Miami 
and Houston and he served as a special agent in charge in 
Charlotte, North Carolina until 2004 and in that capacity he 
led the investigation of a large Hezbollah funding raising and 
smuggling case.
    Mr. Swecker, you are recognized for 5 minutes and thank you 
for being here today.

STATEMENT OF CHRISTOPHER E. SWECKER, FORMER ASSISTANT DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Swecker. Good morning Mr. Chairman and Members of the 
committee. Thank you for inviting me to speak to the committee 
today on a topic that is so vital to our National security.
    I should preface my remarks today be saying and emphasizing 
that I am appearing as a concerned U.S. citizen, not an 
official spokesperson for the FBI. Any opinions that I give you 
this morning will be those of my own and not necessarily those 
of the FBI.
    As assistant director of the FBI's criminal division from 
2004 to 2006 and acting executive assistance director, I saw 
first-hand how terrorist organizations use criminal activities 
to support terrorism around the globe. I also spent the fall of 
2003 as the FBI's on-scene commander in Iraq on a mission that 
was focused primarily on counterterrorism matters. In that 
capacity, I saw terrorism first-hand in attacks against U.S. 
citizens--over a dozen of them, including the U.N. bombing--and 
I saw the total commitment displayed by these foreign fighters 
and jihadists that were operating in that theater.
    I am here today to talk to you about a specific case 
involving Hezbollah. As you know, it is an Iranian-sponsored 
paramilitary group that in 1997 was formally designated by the 
State Department as a terrorist organization.
    While al-Qaeda has gained attention and notoriety with a 
series of sensational attacks, Hezbollah has quietly and 
strategically operated below the radar screen by avoiding overt 
terrorist attacks in the United States. But nevertheless, 
Hezbollah is responsible for the death of hundreds of U.S. 
citizens and including 241 U.S. Marines in the bombing of the 
Beirut barracks. During a U.N. peacekeeping mission, they 
killed 17 Americans.
    They also are responsible for the TWA Flight 847 hijacking 
that resulted in the brutal murder of our courageous Navy 
diver, Robert Stethem at the hands of Imad Mughniyah. Mughniyah 
was a fugitive with a $25 million on his head when he was 
reportedly killed in 2008.
    Hezbollah operatives were also responsible for the murder 
of CIA Station Chief William Buckley in 1985 and responsible 
for, as was just mentioned, the bombings of Jewish targets in 
Argentina, demonstrating their global reach. Other more current 
plots are well known.
    Hezbollah has been referred to as the A-Team because of 
their superior organization, paramilitary set-up and the state 
sponsorship of their overseers in the Iranian government.
    I am here to talk to you today about one of the best 
examples of how Hezbollah operates in the United States. This 
case that I am going to talk about serves as a warning that 
while Hezbollah terrorist organization has been focused 
primarily on fundraising activities in the United States, their 
sophistication, presence, and deep entrenchment in American 
society and business has a potential to provide a platform to 
supporting more lethal capability that should be of concern to 
all Americans.
    This case, Operation Smoke Screen, was initiated in 1998 
and involved a wide-ranging multi-agency investigation of what 
was believed to be Hezbollah consisting of a core group of 
eight members from Lebanon, who along with a network of over a 
dozen associates were determined to be involved in a series of 
criminal and terrorist-related activities.
    The investigation was able to prove that proceeds from 
their criminal activities were funneled to Hezbollah operatives 
to form a procurement chain that originated in Charlotte, North 
Carolina, stretched though to Detroit, Michigan, into Canada 
and ultimately Lebanon.
    The case involved the direct participation with the 
highest-ranking Hezbollah procurement officials at the time, 
Hassan Lakkis, who is now an international fugitive from the 
Charlotte indictment.
    Another significant Hezbollah figure, Sheik Abbas Harake 
was indicted in a second superseding indictment in 2002. Harake 
was a prominent Hezbollah military leader who was in direct 
contact with Charlotte cell leader Mohamad Hammoud over 50 
times just prior to a cell member, Said Harb, traveling to 
Lebanon to deliver an envelope of money to Harake by way of 
Hammoud's mother.
    This case set precedent for many future terrorism 
prosecutions and was essentially--it was noteworthy because it 
used criminal violations in conjunction with counterterrorism 
statutes to preempt and neutralize a terrorist group operating 
on U.S. soil.
    The initial indictment charged 25 defendants in a 77-count 
indictment. There were charges of cigarette smuggling, 
interstate transportation of stolen property, immigration 
fraud, credit card fraud, bank fraud, fraud by wire, mail 
fraud, conspiracy to provide material support to a terrorist 
organization, RICO, and money laundering.
    A total of six of the defendants were charged with 
providing material support through a terrorist organization. 
This was the first time we ever used RICO in a terrorist 
prosecution.
    This case is significant because of the breathtaking 
sophistication, scope, and organizational depth of this group, 
their military training and ease in which they manipulated the 
U.S. financial system.
    During the investigation, and the indictment lays this out, 
in one count of that indictment, over 71 overt acts were 
alleging a conspiracy by three key members to provide material 
support including financial services, false documentation, 
communications equipment, explosives and physical assets to 
facilitate violent attacks by Hezbollah. Over 500 bank accounts 
were examined. Over $8 million in criminal proceeds were 
identified.
    They used business fronts such as gas stations purchased 
with a fraudulent SBA loan, a restaurant, two tobacco shops and 
a painting business to disguise their activities.
    A U.S. Embassy employee in Cyprus and corrupt immigration 
officials in Venezuela were bribed to obtain VISAs for cell 
members to enter the United States.
    Seven individuals were indicted for engaging in fraudulent 
marriages with cell members in attempts to obtain legal status. 
Several of the members were subjected to multiple deportation 
orders, but were able to avoid deportation by making false 
claims of asylum or through their fictitious marriages.
    Cell members manufactured false documents, driver's 
licenses, Social Security cards, and passports to support their 
multiple identities.
    Scores of credit cards were obtained, run up to their 
credit limits and ultimately busted out. Some of the proceeds 
were utilized----
    Chairman King. Mr. Swecker, if you could try to conclude 
your testimony in a few seconds. Thank you.
    Mr. Swecker. Well let me wrap this up. There were many 
other activities that were alleged in the indictment and the 
indictment is a public document that can be read by just about 
anyone. I would encourage anyone who wants to understand how 
Hezbollah operates in the United States to read that March 2001 
indictment.
    You will see some photos today that we found of them in 
their training in Beirut; some were militia members in Beirut--
card-carrying militia members. They were in direct contact with 
some of the highest-level figures in Hezbollah.
    So with that, Mr. Chairman, I will rest on the rest of my 
statement which will be a part of the record, I am sure. Out of 
respect for the committee's time, I just want to note that this 
was a multiagency investigation and it involved many other 
agencies--ATF, Diplomatic Security, Charlotte-Mecklenburg 
Police Department, the RCMP and the Canadian Intelligence 
Service.
    Thank you.
    [The statement of Mr. Swecker follows:]
              Prepared Statement of Christopher E. Swecker
    Good morning Mr. Chairman and Members of the committee. Thank you 
for inviting me to speak to this committee on a topic that is so vital 
to our National security. I should preface my remarks today by 
emphasizing that I am appearing as a concerned U.S. Citizen and not an 
official spokesman for the FBI.
    I retired from my position of assistant director in charge of the 
of the FBI's Criminal Investigative Division in July, 2006 with over 24 
years of service. As assistant director of the FBI's Criminal Division 
from 2004 to 2006 and acting executive assistant director of the FBI's 
Law Enforcement Services Branch for my last 6 months of service I saw 
first-hand how Terrorist organizations use criminal activities to 
support terrorism around the globe. During the course of my career I 
was also the special agent in charge of the North Carolina Office from 
July 1999 through April 2004 when we worked several significant 
terrorism cases including the capture of the Olympic Bomber, Eric 
Rudolph, and the neutralization of an active Hezbollah cell which I 
will describe further. I also spent the fall of 2003 as the FBI's on-
scene commander in Iraq on a mission that was focused primarily on 
Counterterrorism matters. In that capacity I saw first-hand the impact 
of terrorist attacks on U.S. civilians and the total commitment 
displayed by foreign jihadists as we analyzed and conducted forensic 
examinations of over a dozen suicide bombings, including the tragic 
attack on the U.N. Headquarters.
    I am here today to talk to you about a specific case involving 
Hezbollah, an Iranian sponsored paramilitary group that in 1997 was 
formally designated by the U.S. State Department as a Terrorist 
Organization and subject to U.S. sanctions. While al-Qaeda has gained 
attention and notoriety with a series sensational attacks Hezbollah has 
quietly and strategically operated below the radar screen by avoiding 
overt terrorist actions in the United States. Nevertheless Hezbollah is 
responsible for the death of hundreds of U.S. Citizens including 241 
U.S. marines in the bombing of the Beirut barracks during a U.N. peace 
keeping mission and the bombing of the U.S. Embassy in Beirut that 
killed 17 Americans in 1983 and other heinous attacks. One notorious 
Hezbollah leader, Imad Mugniyah, led the hijacking of TWA flight 847 in 
1985 that resulted in the brutal shooting of the brave U.S. Navy Diver 
Robert Stethem. Mugniyah was a fugitive with a $25 million bounty on 
his head when he was reportedly killed in 2008. Hezbollah operatives 
were also responsible for the murder of CIA Station Chief William 
Buckley in 1985 and lethal bombings of Jewish targets in Argentina 
demonstrating their global reach. Other more current alleged plots 
involving Iran are well known. Hezbollah has been referred to as the 
``A Team'' because of their superior organization, paramilitary setup 
and the state sponsorship of their overseers in the Iranian government.
    The case I am here to talk to you about today is one of the best 
examples of how Hezbollah operates in the United States. This case 
serves as a warning that while the Hezbollah Terrorist Organization has 
been focused primarily on fund-raising activities in the United States 
their sophistication, presence, and deep entrenchment in American 
society and business has the potential to provide a platform to support 
a more lethal capability that should be of concern to all Americans.
    In my capacity as head of the FBI's North Carolina Field Office I 
had overall responsibility for an investigation of one of the most 
significant terrorism prosecutions in the country.
    This case, dubbed ``Operation Smokescreen'', was initiated in 1998 
and involved an wide-ranging multi-agency investigation of what was 
believed to be a Hezbollah cell consisting of a core group of eight 
individuals from Lebanon who, along with a network of over a dozen 
associates were determined to be involved in a series of criminal and 
terrorist related activities. The investigation was able to prove that 
some proceeds of their criminal activities were funneled to Hezbollah 
operatives who formed a procurement chain that originated in Charlotte, 
NC stretched through Detroit, MI, Canada and ultimately Lebanon.
    The case involved the direct participation one of the highest-
ranking Hezbollah procurement officials at the time, Hassan Hilu Laqis, 
who is now an international fugitive from the Charlotte indictment. 
Another significant Hezbollah figure Sheikh Abbas Harake was indicted 
in second superseding indictment in March 2002. Harake was a prominent 
Hezbollah military leader who was in direct phone contact with 
Charlotte cell leader Mohammed Hammoud over 50 times immediately before 
cell member Said Harb travelled to Lebanon to deliver an envelope of 
money to Harake by way of Hammoud's mother. This case set precedent for 
many future terrorism prosecutions and was especially noteworthy 
because it used criminal violations in conjunction with 
counterterrorism statutes to preempt and neutralize a terrorist group 
operating on United States soil. The case involved three waves of 
indictments. The core charges contained in a superseding indictment 
dated March 28, 2001 captioned United States v Mohammad Yousef Hammoud, 
et. al. named 25 defendants in a 77-count Federal bill of indictment. 
Included in these 77 counts were charges of cigarette smuggling; 
interstate transportation of stolen property; immigration fraud; credit 
card fraud; bank fraud; fraud by wire; mail fraud; conspiracy to 
provide material support to a terrorist organization; providing 
material support to a terrorist organization, RICO and money 
laundering. Ultimately six defendants were charged with providing 
material support to a terrorist organization. The case involved the 
first trial ever under this statute. The case also involved the first 
time the RICO statute was used in a terrorist related indictment. The 
cell leader, Mohammed Hammoud, was sentenced to 155 months in prison 
after a 6-week trial in Charlotte, NC in 2002. The balance of the 
defendants were sentenced to prison terms, probation, or subjected to 
deportation. Several high-ranking Hezbollah figures remain fugitives 
and are believed to be residing in Lebanon.
    This case is significant because of the breathtaking 
sophistication, scope, and organizational depth of this group, their 
military training and the ease of which they manipulated the U.S. 
financial system. The investigation revealed that the Hezbollah members 
and their associates were involved in the following activities:
  <bullet> Seventy-one overt acts were alleged in one count of the 
        indictment alleging a conspiracy by three key members of the 
        organization to provide material support to Hezbollah including 
        currency, financial services, training, false documentation and 
        identification, communications equipment, explosives, and other 
        physical assets to facilitate violent attacks by Hezbollah. 
        Over 500 bank accounts were examined and over $8 million in 
        criminal proceeds identified.
  <bullet> The defendants used business fronts such as a gas station 
        purchased with a fraudulent SBA loan, a restaurant, two tobacco 
        shop shops, and a painting business to disguise their 
        activities.
  <bullet> A U.S. Embassy employee in Cyprus and corrupt Immigration 
        officials in Venezuela were bribed to obtain Visas for cell 
        members to enter the United States.
  <bullet> Seven individuals were indicted for engaging in fraudulent 
        marriages with cell members or associates in attempts to obtain 
        legal immigration status.
  <bullet> Several of the members were subjected to multiple 
        deportation orders but were able to avoid deportation by making 
        false claims of asylum or hiring corrupt individuals to engage 
        in sham marriages.
  <bullet> Some were involved in multiple marriages simultaneously.
  <bullet> Cell members manufactured false documentation such as 
        Driver's Licenses, Social Security cards, and Passports to 
        support multiple identities for cell members and their 
        associates.
  <bullet> Scores of credit cards were obtained, run up to or past 
        their credit limits, and ultimately ``busted out.''
  <bullet> Some of the proceeds were utilized to leverage the purchase 
        of truckloads of cigarettes at North Carolina outlets which 
        were smuggled to Detroit and other low tax cities where they 
        were sold without valid tax stamps garnering millions of 
        dollars in illicit profits.
  <bullet> One member made over $500,000 in various credit card ``bust 
        out'' schemes.
  <bullet> Fictitious identities were utilized to obtain phony credit 
        cards and set up bank accounts.
  <bullet> Criminal Proceeds were laundered through bank accounts and 
        businesses.
  <bullet> One cell member bribed a bank employee in the amount of 
        $1,500 to permit a closed bank account to be reactivated and 
        permitting the member to commit check fraud on the reopened 
        account.
  <bullet> At least 30 bank accounts at least ten banks and investment 
        companies were utilized to support the cell's illegal 
        operations and were seized by the U.S. Government.
  <bullet> Members built up an arsenal of weapons and trained to keep 
        up their skills.
  <bullet> Some of the members were active Hezbollah militia with 
        extensive military training.
  <bullet> Several cell members smuggled stolen dual use military 
        electronics equipment to Canada for shipment to Hezbollah 
        members in Lebanon.
  <bullet> Numerous acts of purchasing or financing the purchase of 
        dual-use military equipment for shipment to Hezbollah 
        operatives in Lebanon were alleged.
    I encourage anyone who is interested understanding how a Hezbollah 
cell operates in the United States to read the March 28, 2002 
superseding indictment. It describes the above activities and much 
more. Most importantly it describes a strategy of violating U.S. laws 
in various and diverse ways to support terrorist activities. The irony 
of committing crimes in the United States that undermine our financial 
systems while utilizing the proceeds to finance terrorism should not go 
unnoticed.
    One insidious aspect of the cell was its potential lethal nature. 
During the course of the trial, Charlotte Hezbollah cell ring leader 
Mohammed Hammoud wrote a letter from jail to an associate soliciting 
assistance in assassinating the lead Prosecutor and using explosives to 
blow up the Federal courthouse and destroy the evidence against the 
cell. In the letter, which was introduced at his sentencing hearing, 
Hammoud wrote ``His assignment is to put bullets in the head of the 
arrogant (expletive deleted) prosecutor or to annihilate with 
explosives the evidence against us.''
    Photos were located during the searches of cell members showing 
Hammoud and another cell member with assault weapons training at an 
apparently remote outdoor location near Charlotte, NC. Other photos of 
another cell member, Mohamed Darwiche, in full militia gear armed with 
a rocket launcher and mounted machine gun were located and introduced 
at trial. One photo showed a teenage Hammoud posing with an assault 
rifle in front of a photo of Iranian Ayatollah Khomeini titled 
``Mohammed at the Hezbollah Center.'' One chilling video showed a room 
full of over 40 men outfitted in suicide vests passing in review 
labeled ``Matyr's squad'' (sic). Hezbollah propaganda video tapes were 
found where Hezbollah members could be heard chanting ``death to 
America, death to Israel.'' Another photo of concern depicted Hammoud 
and Darwiche posing in front of the White House.
    Finally there was a communication between cell member and the 
Lebanon based Hezbollah procurement official Hassan Laquis that 
mentioned a willingness to do ``anything you or the father want me to 
do, and I mean anything.'' Mr. Chairman, I think that statement sums up 
the threat. The Charlotte cell had the infrastructure, discipline, 
financing, motivation, and inspiration to be more than a cell involved 
in criminal activities and terrorist financing. The case illustrates 
the formidable capabilities of such cells and it would not strain 
credibility to think that Charlotte, NC cell was typical. They were in 
direct contact with the highest leadership of Hezbollah including 
leaders such as Hassan Nasrallah, Secretary General of the 
organization. Evidence was introduced at trial that Charlotte members 
followed the teachings of Sheik Mohammed Fadlallah the mastermind 
behind the U.S. Embassy Hostage crisis in 1980 and whose last act 
before he died in 2010 was to issue a fatwa authorizing the use of 
suicide bomb attacks.
    Mr. Chairman out of respect for the committee's time I have not 
reviewed every aspect of this case but would like it to be noted that 
this investigation and prosecution involved the FBI, ATF, Diplomatic 
Security, Charlotte Mecklenburg Police Department, Iredell County 
Sherriff's Office and unprecedented participation of the Royal Canadian 
Mounted Police (RCMP) and Canadian Security Intelligence Service 
(CSIS). Most importantly the United States Attorney's Office in the 
Western District of North Carolina did an extraordinary job of a very 
complex and difficult series of indictments and two cliff hanging 
trials. At the time the ``wall'' between intelligence investigations 
and criminal investigations made it extremely difficult to ``connect 
the dots'' between the criminal acts and the cell's terrorist 
activities.It is only through the skill and perseverance of the 
investigators and prosecutors that this case was successful.
    This concludes my opening remarks and I would be happy to answer 
any questions.

    Chairman King. Thank you Mr. Swecker.
    I would ask the witnesses to try to keep their remarks as 
close to 5 minutes. Your full statement will be made part of 
the record.
    Next witness, Dr. Michael Braun, is a Managing Partner at 
Spectre Group International. Prior to that, Mr. Braun had a 33-
year career in law enforcement. In 2008, he retired from the 
U.S. DEA as assistant administrator and chief of operations.
    There was time at DEA Mr. Braun had oversight 
responsibility for all of DEA's operational programs and 
projects in Afghanistan in 2004 through 2008, and was the 
architect of the DEA's recent significant expansion in 
Afghanistan. He also serves as the Department of Defense's 
chief of staff for the Inter-Ministry of Interior Coalition, 
Divisional Authority in Iraq.
    Mr. Braun, thank you for your service and you are 
recognized for 5 minutes.

STATEMENT OF MICHAEL A. BRAUN, MANAGING PARTNER, SPECTRE GROUP 
                       INTERNATIONAL, LLC

    Mr. Braun. Thank you Chairman King, Ranking Member 
Thompson, and other distinguished Members of this committee for 
the opportunity to speak with you today about the growing 
threat that Iran, Hezbollah, and other related terrorist groups 
pose to our homeland.
    I applaud you initiative for calling this very important 
hearing. Quite candidly, I would rather be talking about this 
threat today than at some future date before a Congressional 
oversight committee that is trying to get to the bottom of the 
next wave of attacks across our country, where we could 
potentially lose hundreds or even thousands.
    You are going to get the perspective of a career Federal 
narcotics agent who served on both coasts, both our Northern 
and Southern borders in the Midwest, throughout Latin America 
and as you said, Congressman King, in Iraq.
    Iran, Hezbollah and the Quds Force, the revolutionary guard 
core, special forces unit, that is responsible--or special 
forces division that is responsible for foreign clandestine 
operations including assignations, pose a real threat to our 
country, as I said.
    Both these groups are now heavily involved in the global 
cocaine trade and as a result of that activity, they have come 
much closer into our neighborhood and even closer onto our 
doorstep. They are now operating and working in close proximity 
and collaborating with Mexican and Colombian drug-trafficking 
cartels, not only in the Western Hemisphere, but other 
locations such as Guinea Bissau in West Africa.
    Thanks to Venezuela and Hugo Chavez, these operatives from 
both of these very threatening terrorist groups are pouring 
into our neighborhood, into the Western Hemisphere.
    The Hezbollah Quds Force are masters at identifying 
existing elicit infrastructures around the world and leveraging 
and exploiting them for all they are worth. This has been their 
modus operandi for decades.
    If anyone thinks for a moment these groups don't recognize 
the strategic importance of the illicit infrastructures that 
the Mexican and Colombian cartels have built over the last 60 
to 70 years, infrastructures to support the weekly movement of 
tons of drugs by jet and turboprop aircraft, by fully 
submersible submarines capable of moving eight or more tons of 
cocaine from the North Coast of Columbia all the way into 
Northern Mexico, then they are simply ignorant or naive. That 
is all there is to it.
    There are many nasty by-products that stem from this 
growing confluence of drugs and terror. Let me tell you about 
one. Congressman King, you already mentioned it.
    Last month, General Clapper, our Director of National 
Intelligence, testified before the Senate Committee on 
Intelligence about the intel community's growing concern that 
Iran may be capable, and may be poised at hitting us here at 
home as things heat up between our two countries.
    The key example he used to drive home that concern was the 
Iranian Quds Force plot to assassinate the Saudi Arabian 
ambassador to the United States that the DEA and FBI thankfully 
foiled.
    That DEA informant was being recruited by a Quds Force 
operative. The Quds Force operative believed that the informant 
was a member of the ultraviolent Los Zetas Mexican drug-
trafficking organization. Fortunately, he wasn't.
    That event has been assessed by every three-letter agency 
in our Government's security apparatus, and was proven to be 
credible. That is why the DNI used that example. Can Iran hit 
us here at home? You bet they can. How would they most likely 
do it? Most assuredly, they would use Hezbollah, and they would 
use the Quds Force.
    What really worries me is that the Quds Force controls 
Iran's strategic missile program. So the big question is, 
``Will they be the holder of the keys to Iran's future nuclear 
weapons arsenal?'' That is the same terrorist organization that 
made a concerted attempt to assassinate the Saudi Arabian 
ambassador right here in the United States, with a car bomb of 
all things; not a weapons system that would be used in a 
surgical strike.
    We really need to get focused and get down to some tough 
business, but get focused about addressing this very powerful 
threat posed to our Nation.
    Finally, you have done a great job since 9/11, all of you 
on this committee, and your predecessors, at keeping America 
safe. Our military has done a great job at keeping us safe. Our 
law enforcement and public safety personnel have done a 
tremendous job of keeping us safe.
    But I happen to believe, like many experts in this town, 
that we are involved in a war unlike any that we have ever seen 
before. It is a long war. Like any other war, there comes a 
time when you need to make some midcourse adjustments. I think 
that that is what we are facing right now. There are some 
things that we need to do to shore up some gaps. I look forward 
to addressing those during this hearing. Thank you.
    [The statement of Mr. Braun follows:]
                 Prepared Statement of Michael A. Braun
                              introduction
    Chairman King, Ranking Member Thompson, and distinguished Members 
of the committee, I would like to thank you for the opportunity to 
testify today on the threat posed by Iran and Hezbollah on our 
Homeland. Last month our Nation's Director of National Intelligence 
testified before the Senate Intelligence Committee regarding our 
intelligence community's growing concern about Iran's ability to attack 
America's homeland. He used a recently foiled Iranian Quds Force plot 
to assassinate the Saudi Arabian Ambassador to the United States here 
in Washington, DC, as a key example to support his concern. The Quds 
Force, the special forces branch of the Iran Revolutionary Guard Corps 
(IRGC) responsible for clandestine foreign operations, including 
assassinations, attempted to recruit one or more members of the ultra-
violent Los Zetas Mexican drug trafficking cartel to carry out the 
attack. Based on the Director's revelations, today's hearing takes on 
an even greater level of significance.
    My comments will focus on the threat posed to our homeland by 
Iran's most menacing proxy, the Hezbollah, as well as the Quds Force. 
It is important to realize that where you find one--you find the other. 
The Quds Force was responsible for standing-up Hezbollah, and has 
leveraged and exploited the intimate relationship those groups share on 
countless occasions over the years. Both of these groups are now 
heavily involved in the global drug trade, and their participation in 
that effort presents them with myriad opportunities with which to build 
their terrorist and criminal capacity in the Western Hemisphere and 
elsewhere. The Hezbollah has been designated by our Department of State 
as a Foreign Terrorist Organization (FTO), and our Department of 
Treasury has declared the Quds Force as a Specially Designated Global 
Terrorist Organization.
    We have heard about the Hezbollah for many years, while the Quds 
Force has lurked in the shadows for most of its existence. In the 
context of this hearing, it is important that we remember the Quds 
Force is also responsible for Iran's strategic missle program and many 
experts believe they will be holding the keys to the country's nuclear 
weapons program if it makes it off the ground. The security challenges 
posed by these terrorist organizations' expanding involvement in the 
global cocaine and heroin trade are enormous and I believe it will be 
abundantly clear by the end of this hearing that most of the security 
challenges facing our Nation by this threat are not being appropriately 
and adequately addressed. What is even more threatening are the broader 
strategic implications, the by-product if you will, this activity has, 
and will continue to produce.
    Before entering the private sector on November 1, 2008, I served 
for almost 4 years as the Assistant Administrator and Chief of 
Operations of the U.S. Drug Enforcement Administration (DEA), and for 1 
year as the Agency's Acting Chief of Intelligence. I was also assigned 
to a number of DEA offices throughout the United States, including 
service on both our Southern and Northern borders, on both our East and 
West Coasts, in the Midwest, and three years engaged in paramilitary 
operations targeting the logistical infrastructure of major Latin 
American drug trafficking cartels in remote and austere locations in 
several South and Central American countries. It is through my 34 years 
in law enforcement that I sit before you today, deeply concerned about 
Iran's growing presence in the Western Hemisphere and beyond.
    You will receive a career, Federal narcotic agent's perspective on 
how groups like the Hezbollah and Quds Force operate and work hard to 
build relations with organized crime, terrorist, insurgent, and 
smuggling organizations in permissive (under-governed or ungoverned) 
environments in the Western Hemisphere and around the world, and the 
related dangers posed by this growing phenomenon. We must understand 
that the Hezbollah and Quds Force are absolute masters at building 
these nefarious relations in order to leverage and exploit them for 
what they are most worth: To help them advance their agendas far from 
home. If anyone thinks for one moment that these terrorist 
organizations do not understand that the Mexican drug trafficking 
cartels now dominate drug trafficking in our country, reportedly in 
more than 250 cities, then they are ignorant or very naive. And these 
groups most assuredly recognize the strategic value of exploiting that 
activity, and all that has been built to support it over several 
decades, for moving their vision forward in our part of the world.
    I have made several recommendations in my Statement for the Record 
and have others I would be happy to share with the members of your 
staffs, but one stands out more than all of the others. Well over half 
of the groups our government has designated as Foreign Terrorist 
Organizations are now involved in one or more aspects of the global 
drug trade. The confluence of drugs and terror is happening at speeds 
far faster than most in Washington, DC choose to admit, while our 
Government's strategies for dealing with terrorism and drugs continue 
to drift farther apart. If we don't change that quickly, I believe we 
could pay a terrible price down the road.
    Much of the Statement for the Record I delivered to you today 
reflects information contained in my Statement for the Record submitted 
on October 12, 2011 to the House Subcommittee on Terrorism, 
Nonproliferation, and Trade at a hearing focused on the growing 
confluence of drugs and terror, as well as in my Statement for the 
Record I delivered to the House Committee on Foreign Affairs at their 
February 2, 2012 hearing concerning Iran's expanding agenda in the 
Western Hemisphere.
    Mr. Chairman I would like to thank you, Ranking Member Thompson and 
the other Members of this important committee and many of your 
colleagues in Congress for all you have done to support the 
counterterrorism and counter-narcotics efforts of our Nation and many 
other countries. I appreciate the fact that it is in that spirit you 
called us here today, to discuss the threat posed by Iran on our 
homeland. I look forward to contributing to this important hearing in a 
most positive way and to working with the outstanding professionals on 
your respective staffs to help you in anyway possible on this important 
subject.
 Attachment.--The Threat Posed To Our Homeland by Iran, Hezbollah and 
      Other Groups And the Growing Confluence of Drugs and Terror
By Michael A. Braun
         the list of ``usual suspects'' has grown significantly
    The nexus between drugs and terrorism is growing at a rate far 
faster than most policy makers in Washington, DC choose to admit, and 
far fewer will even talk about. In many ways this is not an entirely 
new threat; various U.S. Drug Enforcement Administration (DEA) leaders 
have testified before Congress on many occasions over the past 35 years 
regarding the illicit global drug trade funding terrorist organizations 
and insurgencies around the world.
    Prior to the 9/11 attacks on our Nation, experts usually found 
themselves talking about the terrorist organizations based in the 
Western Hemisphere when making the connection between drugs and 
terrorism, with an occasional mention of insurgent groups such as the 
Burma (now Myanmar) based Shan United Army, led by the notorious heroin 
trafficker Khun Sa, who dominated the sourcing of heroin to the United 
States for the better part of a decade in the 1980's and 1990's. 
However, after 9/11 the number of U.S. designated Foreign Terrorist 
Organizations (FTOs) that are involved in one or more aspects of the 
global drug trade began to increase dramatically.
    Today the Western Hemisphere's ``usual suspects,'' the 
Revolutionary Armed Forces of Colombia (FARC), the remnants of the 
United Self Defense Forces (AUC) in Colombia, and the Sendero Luminoso 
(Shining Path) of Peru, all designated as FTOs by the U.S., European 
Union and many other countries, certainly remain involved in the drug 
trade, but the list has grown to include FTOs such as Hezbollah, Hamas 
and al-Qaeda in the Islamic Maghreb (AQIM), to name just a few.
    The DEA has conservatively linked at least half of the FTOs with 
involvement in one or more aspects of the global drug trade, but I 
believe that number to be far greater, especially when considering that 
there are so many ways to make hundreds of millions, if not billions of 
dollars in the industry. Generating contraband revenue from involvement 
in the industry can include the taxing of farmers, taxing finished 
drugs and the movement of drugs and precursor chemicals across borders, 
providing security to traditional cartels at clandestine laboratories, 
cache sites and airstrips, the manufacture of drugs, the transportation 
of drugs, and the distribution of drugs.
    The real threat posed by this activity are the countless 
opportunities groups like the Quds Force and Hezbollah are presented 
with to develop and nurture relationships with organized crime and 
terrorist groups here in the Western Hemisphere, in Africa, Europe and 
many other countries. They are provided with many opportunities to 
learn from the most sophisticated organized crime syndicates in the 
world: The Colombian and Mexican drug trafficking cartels, which 
include the FARC. And these relationships most likely provide the Quds 
Force and Hezbollah with opportunities to leverage the transportation, 
money laundering, arms trafficking, corruption, human trafficking and 
smuggling infrastructures of the Colombian and Mexican drug trafficking 
cartels, as well as other organized crime and terrorist groups around 
the world.
    Two recent examples come to mind that drive home these points. The 
plot to assassinate the Saudi Arabian Ambassador to the United States 
that was recently foiled by the Federal Bureau of Investigation (FBI) 
and the U.S. Drug Enforcement Administration (DEA) qualifies as the 
perfect example of the threat posed by the ability of Iran's proxies to 
operate freely in the Western Hemisphere, and their ability to 
collaborate with organized crime. A member of the Quds Force and an 
American of Iranian ancestry hired a DEA informant, believing the 
source to be a member of the ultra-violent Los Zetas drug trafficking 
organization, to carry out the assassination of the Saudi Ambassador--
on U.S. soil. Many experts in our intelligence community rushed to 
judgment and initially declared the plot to be far-fetched and lacking 
credibility, because they believed the Quds Force to be far more 
sophisticated in their tradecraft than that conspiracy revealed. 
However, let me remind you that the Director of National Intelligence, 
Mr. James Clapper, used this plot as an example of Iran's willingness 
to attack the homeland and our interests abroad just this past January 
when he testified before the Senate Intelligence Committee. Rest 
assured he used this conspiracy as his principal example during 
testimony because it has been assessed and heavily scrutinized from 
every angle and has been determined credible.
    Couple that incident with the recent Department of Treasury 
Financial Crimes Enforcement Network (FinCEN) findings against the 
Hezbollah, and the Lebanese Canadian Bank based in Beirut, as well as 
several of the bank's affiliates for money laundering hundreds of 
millions of dollars of Hezbollah's cocaine dollars, and you are left 
with undisputable evidence that the Hezbollah and Quds Force are 
heavily involved in the global drug trade. The FinCEN findings are 
based on a long-term complex international conspiracy investigation by 
the DEA that is still playing out, which has also identified over 70 
used-automobile dealerships here in the United States that are strongly 
suspected of supporting the conspiracy. Let me add that few, if any of 
those businesses existed before the 9/11 attacks on our country. That 
alone should send shockwaves through our intelligence and Federal law 
enforcement communities. Sadly, I don't think its happening.
    I believe the DEA finds itself in much the same situation as its 
predecessor agency, the Federal Bureau of Narcotics (FBN), found itself 
in the 1950s when FBN Director Harry Anslinger was working hard to 
alert Congress, the Department of Justice and the Nation on the 
pervasiveness of Italian organized crime in the United States, while 
the Federal Bureau of Investigation's (FBI) J. Edgar Hoover was 
vehemently denying its existence. Many in our Government, at all 
levels, simply do not understand the potential consequences posed by 
the confluence of drugs and terror; therefore, they ignore it.
                               why drugs?
    More and more FTOs, just like the Hezbollah and Quds Force, are 
turning to the global drug trade, and to a lesser degree, other 
transnational criminal activity, to fund their operations, because our 
country and our partners have been enormously successful in prosecuting 
the Global War on Terror (GWOT). There are two principal reasons for 
this growing phenomenon: state sponsorship for terrorist organizations 
continues to decline, and our Government and coalition partners have 
succeeded in significantly disrupting the funding stream to terrorist 
organizations from very powerful, private donors.
    There is a third motivation that appears to be unique to al-Qaeda 
(AQ). Our Government has so disrupted AQ's ability to direct and manage 
(command and control) its cells and nodes around the globe, that the 
organization has been forced to shift from a ``corporate'' leadership 
model to a ``franchise'' mode of operation. In other words AQ's cells 
and nodes, in many ways, have been left up to their own devices to 
function, including self-sufficiency when it comes to funding their 
operations. Some of these cells and nodes are resorting to drug 
trafficking to do just that. The AQ cell, or affiliated cell, depending 
upon with whom you speak, that was responsible for the Madrid train 
bombings, funded that operation almost in its entirety through the sale 
of MDMA (3,4-methylene-dioxymethamphetamine), also known as ecstasy, 
and hashish.
    There are myriad transnational criminal endeavors in which 
terrorist organizations can and do engage; however, nothing comes close 
to producing the kind of revenue that the global drug trade generates. 
The United Nations (UN) estimates that the global drug trade generates 
about $322 billion dollars annually, and estimates that the revenue 
generated by the drug trade flowing between Mexico, the United States 
and Canada is $147 billion dollars annually. The Office of National 
Drug Control Policy (the U.S. Drug Czar's office) estimates that our 
fellow citizens generate about $65 billion dollars a year attempting to 
satisfy their insatiable appetite for drugs. By comparison, the United 
Nations estimates that the next closest illicit global market, alien 
trafficking, generates approximately $32 billion dollars and that the 
illicit global arms trade generates about $10 billion dollars annually. 
Significantly, these statistics have been hotly debated and disputed by 
many experts, but it is difficult to find any others that have been 
compiled by qualified organizations. Suffice it to say, most all of the 
same experts agree the illicit profits made from the global drug trade 
by traditional trafficking cartels and terrorist organizations alike 
are massive, and dwarf all additional revenue generated by other black 
markets.
          the impact and importance of permissive environments
    FTOs and drug trafficking organizations (DTO) both work hard to 
create permissive environments in which to operate, relying heavily on 
the hallmarks of organized crime, corruption, intimidation and ruthless 
violence, to carve out territory in certain regions of the world so 
that they can operate with impunity. Our military and intelligence 
community commonly refer to these areas as ungoverned or under-governed 
space.
    FTOs and DTOs thrive in permissive environments, and invest 
hundreds of millions of dollars a year to disrupt good governance in 
many areas of the world by relentlessly undermining the rule of law. 
They often accomplish this through calculated corruption campaigns 
targeting the entire judicial spectrum including law enforcement, 
prosecutors, judges and prison officials, and security institutions 
consisting of military and intelligence forces, not to mention 
politicians at all levels. A few examples of permissive environments 
include the Tri-Border Area (TBA) of South America, the no-man's land 
where the borders of Paraguay, Argentina, and Brazil come together; 
vast regions of West and North Africa; Afghanistan and the country's 
remote borders with Pakistan and Iran; Bolivia; Venezuela; and perhaps 
certain areas of Mexico.
    When I was serving as the Chief of Operations for the DEA, I asked 
the Agency's Intelligence Division to plot on a world map the locations 
where the 43 (now 50) designated FTOs were based. I then asked them to 
highlight the source countries for illicit drugs, as well as the major 
transit routes for the flow of drugs, precursor chemicals and cash 
associated with the global drug trade. I wasn't at all surprised when 
the end product clearly showed the FTOs and DTOs operating in the same 
permissive environments.
    Hezbollah got their start a few years ago acquiring and shipping 
small 10-15 kilogram quantities of pure cocaine to Europe, Israel, the 
United Arab Emirates, Egypt and other locations where they could sell 
the small drug shipments for up to $1 million dollars in profit. 
Hezbollah operatives and supporters working in the TBA and other areas 
of Latin America are now routinely acquiring and shipping multi-tons of 
cocaine to West and North Africa for onward movement to markets in 
Europe, the Middle East and elsewhere. And where you find Hezbollah, 
you most assuredly find Quds Force operatives working with them. 
Remember that it was the Quds Force that helped stand-up the Hezbollah 
in Lebanon, and they have been inseparable ever since.
    The TBA, with a large Middle Eastern immigrant population, has long 
been of strategic importance to al-Qaeda, Hezbollah and Hamas, and has 
been a very important recruiting ground targeting disenfranchised young 
men who live in abject poverty. The recent Department of Treasury 
Financial Crimes Enforcement Network (FinCEN) findings against the 
Beirut-based Lebanese Canadian Bank, and the Prime Bank of Gambia, 
centered on a long term and still active complex international 
conspiracy investigation by the DEA. The investigation paints a 
troubling picture of the Hezbollah's growing involvement in cocaine 
trafficking and reveals that as much as $200 million dollars per month 
in drug proceeds was being laundered by the terrorist group through the 
financial institutions. It paints an even more troubling picture of the 
strong ties between Hezbollah and the Quds Force when it comes to this 
activity.
    DEA Special Agents and the Counter Narcotics Police of Afghanistan, 
supported by U.S. military and Department of State assets, raided a 
notorious heroin trafficker's compound in 2007 in remote Eastern 
Afghanistan near the Pakistan border. The trafficker was also 
reportedly one of the five founding fathers of the Taliban Ruling Shura 
in Kabul. Seized during the raid were his drug ledgers, which revealed 
that he had sold over $170 million dollars worth of heroin in less than 
1 year; 81 metric tons of the poison. That trafficker was recently 
convicted right here in Washington, DC on counterterrorism and counter-
narcotics charges stemming from the DEA investigation. The bottom 
line--no other transnational criminal activity trumps the global drug 
trade for generating cold hard cash, and permissive environments make 
it all possible.
    However, these areas of the world occupied simultaneously by FTOs 
and DTOs create even more dangerous threats that are more strategic in 
nature than the two more traditional examples mentioned above. This 
milieu has created opportunities for operatives from FTOs and DTOs to 
come together--dangerously close together.
    For example, the Armed Forces of Colombia (FARC), a designated FTO, 
has established a solid foothold in places like the West African nation 
of Guinea Bissau, along with other Colombian drug cartels, as well as 
powerful Mexican drug syndicates. These groups are all vying for the 
same lucrative turf offered by this extremely valuable piece of global 
drug trafficking real estate, which serves as an important transit 
point for the billions of dollars of cocaine now destined for the ever-
expanding cocaine markets in Western Europe, Russia, and other 
countries.
    Remarkably, very few terrorism ``experts'' seem to be troubled by 
the fact that places like Guinea Bissau and the TBA are also occupied 
by the likes of al-Qaeda, Quds Force, Hezbollah and Hamas. If terrorism 
experts believe for 1 minute that the operatives from these FTOs and 
DTOs, who are occupying the same space at the same time, are not 
developing relations, forming alliances, and sharing lessons learned, 
then they are naive at best, or more likely, absolutely working in the 
dark when it comes to understanding how the real underworld operates.
    Let me put it more candidly: If you want to visualize ungoverned 
space or a permissive environment, I tell people to simply think of the 
bar scene in the first ``Star Wars'' movie. Operatives from FTOs and 
DTOs are frequenting the same shady bars, the same seedy hotels and the 
same sweaty brothels in a growing number of areas around the world. And 
what else are they doing? Based on over 37 years in the law enforcement 
and security sectors, you can mark my word that they are most assuredly 
talking business and sharing lessons learned.
    They are developing close interpersonal relationships that are 
tempered and honed in the harshest and most dangerous environments. 
These close interpersonal relationships developing today will most 
assuredly evolve into strategically important inter-organizational 
relationships tomorrow, because many of the brutally tough young 
operatives that have been dispatched to places like Guinea Bissau and 
the TBA by their FTO and DTO leaders will undoubtedly ascend into key 
leadership positions within their respective organizations in the not-
too-distant future.
    We have long known that groups like the Hezbollah and Quds Force 
have the ability to work with some other Middle Eastern FTOs, but what 
will we do when they have the ability to collaborate with a Mexican DTO 
that already dominates drug trafficking in scores of cities throughout 
our country? What do we do when they have the ability to 
collaboratively work with the FARC, an FTO hybrid that is already 
moving hundreds of tons of cocaine from the north coast of Colombia 
into Mexico aboard fully submersible submarines capable of operating at 
a depth of 60 or more feet while loaded with up to 10 tons of cocaine? 
What else could those submarines transport?
    It is not in the best interest of our National security to allow 
these threats to co-mingle and cohabitate anywhere on the globe, 
because the FTOs will only become stronger by developing alliances and 
sharing lessons learned with groups that are far more sophisticated 
organizationally and operationally then they are. The United States 
should be doing all in our Government's power, working closely with 
willing partners, to disrupt and ultimately dismantle these powerful 
threats in places like Guinea Bissau, and the TBA, but we are not. We 
could pay dearly for this failure to act in the future.
    Instead, most U.S. Federal law enforcement agencies, intelligence, 
and military institutions have established separate counter-terrorism 
and counter-narcotics directorates, each having separate goals, 
objectives, policies, and most troublesome, separate funding streams. 
In other words, these directorates remain stove piped 10 years after 9/
11, as the confluence of drugs and terror continues to grow 
exponentially.
    I should add that there are a few instances where this is not the 
case. As an example, the U.S. Attorney's Office for the Southern 
District of New York consistently prosecutes our Nation's most 
important terrorism and international drug cases. Consequently, not 
long ago this district merged its international drug section with its 
foreign terrorism section, because U.S. Attorney Preet Bharara and 
Deputy U.S. Attorney Boyd Johnson (now retired) recognized first-hand 
the unequivocal connection between the two.
    I wish the threat posed by permissive environments ended there, but 
it certainly does not. It is compounded even further by other nefarious 
relationships that typically emerge in these types of atmospheres. In 
Guinea Bissau for example, the Colombian and Mexican cartels have also 
teamed with indigenous organized crime groups, and groups like the 
infamous Tuareg nomads further to the north, that has controlled 
smuggling routes through the Sahara for centuries. The Latin American 
cartels needed to forge these relationships as they built their African 
cocaine smuggling infrastructure. As in this case, indigenous organized 
crime syndicates and smuggling groups are typically very 
unsophisticated, but they are now learning from the most sophisticated 
global organized crime cartels that have ever existed, the Colombian 
and Mexican DTOs and a hybrid FTO, the FARC.
    The Colombian and Mexican cartels are paying these indigenous 
groups ``in kind'' (with cocaine product) for their services with 
helping to smuggle multi-ton shipments of cocaine through West and 
North Africa and into the soft underbelly of Europe. This phenomenon 
has resulted in the creation of new markets for cocaine and crack 
cocaine (base) in West Africa, where these homegrown groups can set and 
control retail market prices with the cocaine they have received as 
payment for their services, expand into surrounding countries, and 
further corrupt already weak governments.
    We begin to see what I refer to as a ``symbiotic destabilization of 
government,'' much as we witnessed in Colombia several years ago, in 
Afghanistan today, and in other parts of the world where FTOs and DTOs 
occupy the same space at the same time. When the FTOs attack government 
forces with brutal violence, the DTOs benefit equally; when the DTOs 
destabilize government through physical attacks or through well planned 
corruption campaigns, the FTOs benefit just as much as organized crime. 
It is a never-ending, vicious circle that continues to degrade already 
weak governance. Yet our response is to invest in counter-terrorism 
projects to build host nation institutional capacity, or to invest in 
counter-narcotics programs to build competence in that realm. However, 
the strategies and objectives of these disparate, yet well-meaning 
endeavors remain unconnected or disjointed. We could accomplish so much 
more with a unified approach to fighting terrorism and the global drug 
trade that supports it. The two are inextricably connected, yet our 
strategy for fighting them remains disjointed.
the emergence of the hybrid terrorist organization; it's all about the 
                                 money
    The Revolutionary Armed Forces of Colombia (FARC), which has been 
active since 1964, was absolutely opposed to becoming involved in the 
cocaine trade until the early 1990s. When the Soviet Union fell and the 
funding stream from Cuba dried up, the FARC executive secretariat, 
realizing they were perfectly poised at the center of gravity for the 
global cocaine trade, made a corporate decision after no more then 10 
minutes of debate: They were in. They really had no choice; the FARC 
would have to become involved in the cocaine trade if they wanted to 
keep their movement alive. The FARC got its start by taxing poor 
farmers, one of the earliest and most renowned organized crime schemes 
and forms of extortion. They then formed alliances with traditional 
drug traffickers and began providing security at clandestine drug 
laboratories and cache sites and the FARC also provided critical 
security at clandestine airstrips and on river transit routes.
    They taxed the movement of drugs through their own country, as well 
as across clandestine smuggling routes with bordering nations. They 
next became involved in the full-scale production, transportation, and 
distribution of cocaine, and are now recognized as the world's largest 
manufacturer and distributor of cocaine, while simultaneously 
recognized by our Department of State as the Western Hemisphere-based 
FTO that poses the greatest threat to our part of the world. They are 
always evolving. They emerged into what I call a ``hybrid terrorist 
organization.'' One part designated FTO, and one part global DTO. And 
groups like the Hezbollah and Taliban are following the same exact 
evolutionary path as the FARC.
    In the context of funding a terrorist organization, it is important 
to understand that the cost of an actual terrorist attack is minimal. 
The Madrid train bombings, which were funded through drug trafficking 
by the al-Qaeda-affiliated cell, only cost about $70 thousand dollars 
to pull off. Although there is no evidence to indicate that any part of 
the 9/11 terrorist attack on the United States was paid for by drug 
trafficking activity, most experts agree that the 9/11 attacks only 
cost al-Qaeda about $500,000.
    On the other hand, it costs hundreds of millions of dollars 
annually for the care and nurturing of a truly global terrorist 
network. Operatives must first be recruited and indoctrinated; they 
must be trained in all manner of clandestine activity, usually in very 
remote, secretive locations; they must be armed by global arms 
traffickers; safe-houses must be acquired and operated around the 
world; counterfeit documents must be acquired; alien traffickers must 
be paid to transport operatives across borders; terrorists cannot 
operate effectively without the latest in costly telecommunications and 
other communications and navigation equipment; and finally, they must 
be paid and provided with large amounts of operational funding, 
including huge quantities of money to corrupt government, military, and 
intelligence officials.
    The only area where FTOs and DTOs really differ is in what 
motivates them. DTOs have always been motivated by greed, while 
religious, cultural, or some other ideology has traditionally motivated 
FTOs. Yet when FTO leaders get a taste for the enormous amounts of 
revenue generated by their involvement in the drug trade, ideology 
quickly goes out the window. Rest assured that the hierarchy of these 
hybrid terrorist organizations continues to leverage ideology for what 
its most worth--recruiting and indoctrinating the young warriors to do 
the dirty work required to keep their criminal enterprises alive and 
healthy.
     a transition made easier by a nearly-identical modus operandi
    The ability of FTOs to carve out a lucrative piece of the global 
drug trade is made all that much easier when you consider that FTOs and 
DTOs operate almost identically. They are both broken down into highly 
compartmentalized cells to thwart the effectiveness of law enforcement, 
military and intelligence services. If one or only a few cells are 
taken down, the chance of inflicting collateral damage to the greater 
organization is virtually impossible; all by calculated design.
    Cell heads only manage the activities of their cell members, and 
the cell head usually receives management and direction, most often by 
way of telecommunications devices that are changed out every few days, 
from someone at a higher level who he or she knows only by a code name. 
And both FTOs and DTOs have the ability to quickly rejuvenate. When 
government experiences success in taking down a number of cells 
simultaneously, the threat quickly morphs into something that does not 
look like or act like what government security forces were focused on 
just a few months earlier.
    As mentioned before, they both rely heavily on the hallmarks of 
organized crime, corruption, intimidation, and brutal violence. A 
survey by the DEA just a few short years ago of its top performing 
confidential informants (human intelligence sources) revealed that the 
single most important enabler to the successful operations of DTOs was 
their ability to corrupt. More simply put, if they cannot successfully 
corrupt then they cannot successfully operate, and they invest hundreds 
of millions of dollars annually to corrupt all levels of government.
    FTOs and DTOs rely on the latest in technology to communicate and 
to navigate with pinpoint accuracy to anywhere on the globe. They are 
masters at exploiting the technological changes taking place at light-
speed in the telecommunications and communications industries. These 
changes help FTOs and DTOs foil the best efforts of law enforcement, 
military, and intelligence services, all of which are hindered by 
antiquated legislative and policy barriers, including right here at 
home.
                        the shadow facilitators
    FTOs and DTOs rely heavily on what I call ``shadow facilitators'' 
to operate effectively: The same arms traffickers, money launderers, 
human traffickers, document forgers, etc.; similar to ``outsourcing'' 
in the private sector. It is efficient, and it saves money. The shadow 
facilitators, wittingly or unwittingly, often serve to bridge the 
divide between FTOs and DTOs operating in the same permissive 
environments around the globe. In ungoverned space, the shadow 
facilitators have the ability to move freely within both circles, where 
they often promote meetings, the formation of alliances, and the 
sharing of lessons learned. They are masters at creating demand for 
their goods and services, concurrently cashing in on the needs and 
requirements of the FTOs, DTOs and other organized crime threats.
                            recommendations
    We need to break down the barriers separating counternarcotics and 
counterterrorism in our Government, which are usually stifled by the 
distinct operational authorities and sources of funding that each 
agency possesses and more importantly that are prohibited from being 
intermingled. We need a whole-of-Government approach to building 
security capacity in troubled areas around the world, and the best way 
to do that is through the development of strategies that require 
interlocking CN/CT principles, goals and objectives.
    Our Government needs to utilize its powerful, corruption-free 
criminal justice process to render more indictments against terrorist 
organizations and shadow facilitators, similar to those rendered in the 
Southern District of New York over the past few years. Working with the 
DEA, these Federal prosecutors indicted the top 50 members of the FARC 
executive secretariat; have convicted the two most significant global 
arms traffickers, Victor Bout and Monzer al-Kasar; and convicted the 
two largest heroin traffickers in the world, Haji Bashir Noorzai and 
Haji Baghko, both of whom were also founding fathers of the Taliban 
Ruling Shura in Kabul. They have exposed these terrorist leaders and 
shadow facilitators for what they truly are, criminals and thugs, 
sending a powerful message to the world community, including vast 
numbers of misinformed people who view them as freedom fighters or 
modern-day Robin Hood figures.
    Monzer al-Kasar and Victor Bout, both mentioned above as the two 
most prolific arms traffickers in modern times, are perfect examples of 
shadow facilitators. Our Government needs to focus more heavily on the 
arms, human and counterfeit document traffickers, and money launderers 
of the world. They often service and support both FTOs and DTOs, and 
can lead us in myriad directions. I believe that our Government's 
failure to focus more heavily on the world's shadow facilitators is a 
significant shortfall in our GWOT strategy.
    We seem to be obsessed with developing security strategies designed 
to ``defend the 1-yard line,'' specifically on our border with Mexico. 
We should have a greater emphasis on developing ``defense-in-depth'' 
strategies when it comes to protecting our homeland. Our Government 
does not have the resources deployed in Latin America we had prior to 
9/11. We need to be identifying threats originating deep in Central and 
South America, as well as the Western Caribbean and Eastern Pacific, 
before they emerge on our doorstep. The DEA has the largest U.S. law 
enforcement presence abroad, including in Latin America, but the agency 
is struggling to keep domestic and foreign offices open, and agents and 
analysts on the payroll.
    After 9/11 a large percentage of our Department of Defense 
detection and monitoring (D&M) assets assigned to countries covered by 
Southern Command's area of responsibility were deployed to other parts 
of the world, and I have been told they have not returned. Yet 
Hezbollah and Quds Force operatives are pouring into Latin America, 
thanks in large part to Hugo Chavez in Venezuela, the undisputed 
gatekeeper for Middle Eastern terrorist groups seeking to enter Latin 
America. Most of this activity appears to be taking place south of 
Mexico, but there are persistent signs that Hezbollah has a strong 
interest in our Southwest Border and has already successfully exploited 
it.
    Many in Government fail to recognize that the most successful way 
of protecting our homeland from terrorists is by maintaining a 
relentless focus on the traditional threats at and beyond our borders: 
Drug trafficking, human trafficking, weapons trafficking, and money 
laundering, including the movement of bulk cash and other proceeds. As 
law enforcement confronts these threats, they are far more likely to 
come in direct or indirect contact with terrorist operatives seeking to 
enter, or who have already entered our country to do us harm.
    We must do a better job of following the money. No doubt, success 
can be experienced by a talented analyst sitting in a pod tracing the 
tens of millions of financial transactions that take place around the 
globe on a daily basis. However, a more productive way to accomplish 
our goals and objectives, especially when considering that most 
terrorist financing takes place clandestinely, is by doing business the 
old fashioned way: Exploiting law enforcement confidential informants, 
judicially approved telecommunications intercepts, and complex 
international, multi-agency conspiracy investigations.
    More leaders in our Government need to understand that when we 
follow the money, we can go in any direction we choose. However, they 
must also understand that drugs are routinely traded for the most 
sophisticated weapons systems in the world, and they are traded for 
money, counterfeit documents, the services of human traffickers and 
other smuggling groups; I call this ``the currency of contraband.'' 
There is ample evidence that the Quds Force routinely attempts to trade 
heroin for sanctioned equipment of military value. The numbers of times 
they succeed in their attempts are anyone's guess. Many in our 
Government have lost site of the importance of seizing drugs and 
precursor chemicals, thus removing them as a source of funding, and in 
bringing those who are responsible for trafficking them to justice.
    I know this committee most often deals with the outstanding law 
enforcement component agencies of the Department of Homeland Security, 
but I am far more familiar with the Department of Justice component 
agencies that also make significant contributions to the defense of our 
homeland and one in particular, the DEA. Many of the following 
suggestions would help to ensure a robust defense-in-depth homeland 
security strategy by simply building on existing, proven programs 
within the DEA. I am told these programs are currently facing major 
obstacles due to budgetary and other challenges, and may in fact be in 
jeopardy. I strongly recommend that you and your staffs meet with DEA 
executive leadership for the most accurate account of the agency's 
needs and requirements.
    Our Government broke the back of traditional Italian organized 
crime in the United States by bringing the heads of the Italian crime 
families, who lived in our country, to justice in Federal court. It is 
important for Congress to understand that the DEA needs additional 
extra-territorial teams and resources to work with foreign counterparts 
to bring the heads of the world's most powerful drug trafficking 
cartels and narco-terrorists to justice in the United States, or in 
other competent jurisdictions. I happen to believe that the DEA needs 
additional extra-territorial teams working as part of the agency's 
Special Operations Division (SOD) (only two currently exist), Foreign-
Deployed Advisory and Support Teams (FAST), and International Training 
Teams, and the logistical and support resources required to field them 
in the most remote and dangerous areas of the world.
    That's where our Nation's most threatening terrorists and organized 
crime adversaries now live and operate and the DEA should be there as 
well building cases with trusted counterparts against powerful threats 
that want to do us harm. It was the DEA extra-territorial teams that 
brought some of the world's most notorious criminals to justice over 
the past few years, the likes of which included Haji Bashir Noorzai, 
Monzer al-Kasar, Haji Juma Khan, and Victor Bout, just to name a few. 
You can only imagine what they could do if they had more than two such 
teams, especially when considering that each team consists of only 
about 10 agents.
    The DEA requires the funding and human resources necessary to open 
additional offices in Africa, and other austere locations where our 
adversaries have unsurprisingly migrated beyond the rule of law. The 
DEA, widely recognized as having the most robust and accurate human 
intelligence program in our Government, requires the funding necessary 
to keep this critically important program in pace with growing demands.
    Let me remind you that our success at foiling the plot to 
assassinate the Saudi Arabian Ambassador to the United States hinged on 
a DEA confidential informant who had been hired to carry out the 
attack--on U.S. soil. I cannot think of a better example to use in 
stressing the importance of additional funding for the DEA's 
confidential informant program then this case, and this program 
contributes immensely to the development of a defense-in-depth homeland 
security strategy.
    The DEA has a model program developed several decades ago wherein 
the agency helps to select and fully vet handpicked teams of foreign 
law enforcement counterparts. Members of these teams undergo background 
investigations, polygraph and urinalysis examinations and extensive 
training as part of their selection process. Most important, they work 
shoulder-to-shoulder with DEA Special Agents on bi-lateral 
investigations for several years after they are selected for these 
prestigious assignments, and it is under these conditions that the real 
vetting naturally takes place during tough and dangerous work; all of 
which is tempered by mutual respect, and honed by genuine, everlasting 
friendships. Most of these vetted officers ascend through the ranks of 
their respective agencies to senior leadership positions, which can 
only spell future success for our Government in the many countries 
where these officers live, work, and lead.
    These Sensitive Investigative Unit and Vetted Unit programs allow 
the DEA to take highly sensitive information and intelligence, sanitize 
it, and share it with their foreign counterparts in a timely manner so 
enforcement operations can be executed safely and effectively without 
compromising the source(s) of information from which it originated. 
Sadly, I have heard this program, which is the best example that I know 
of for the force-multiplier concept in U.S. Federal law enforcement 
abroad, is suffering from insufficient funding. The additional teams 
that are needed in various parts of the world cannot be constituted, 
and in some cases existing teams may have to be disbanded.
    Finally, we as a Government have changed directions far too many 
times in our battle against drug trafficking and abuse over the years, 
and those in harms way who are working hard to attack the problem are 
the ones who usually experience most of the pain stemming from 
Washington's well-meaning ideas. There has been a recent movement to 
focus Government resources on ``Transnational Organized Crime'' (TOC). 
The notion is that DTOs are involved in more than just drug 
trafficking, and I am not disputing that fact. They always have been 
and always will be. However, DTOs receive the vast majority of their 
contraband revenue from the global drug trade, and the DEA and other 
U.S. law enforcement agencies have all the jurisdictional authorities 
required to investigate other crimes the DTOs engage in, so I do not 
understand the reasoning behind this trend.
    The DEA is engaged in far more than liaison work abroad, has 
trained and vetted thousands of their counterparts around the world, 
and has worked hard over the last 40 years to build the infrastructure 
needed to attack the DTOs on their own soil. The only thing that has 
been accomplished with the recent movement to target transnational 
organized crime instead of DTOs is confusion on the part of most of our 
foreign counterparts, and even more confusion on the part of law 
enforcement right here at home. As one DEA Regional Director recently 
said to me, ``If a DTO is making over 90 percent of its revenue from 
the cocaine trade, why would we refer to it as transnational organized 
crime when they're receiving only a pittance from the low level 
activity they're involved in?'' DTOs have always been involved with 
human and arms trafficking, money laundering, cartage theft, and 
shakedown schemes, but it is the stiff penalties they face from Title 
21, United States Code convictions that break their backs. Why are we 
confusing the issue, yet again?
                                summary
    So what's the bottom line? Global DTOs and FTOs live, multiply, and 
operate in exactly the same ungoverned space, at exactly the same time, 
in exactly the same manner. More and more they contend for exactly the 
same money, generated by the same illicit enterprise, drug trafficking. 
They rely on the same shadow facilitators to operate: The arms 
traffickers, alien smugglers, money launderers, and document 
counterfeiters to name just a few. When you compress two or more of 
these well-trained and well-armed threats (FTOs/DTOs) into this space/
time continuum, they are usually left with only two options: They can 
build alliances, or they can fight it out for supremacy, both of which 
undermine peace, security, and stability. And providing peace, 
security, and stability in challenged environments is the single-most 
important thing our country can do in its global war on terrorism. 
Terrorist organizations do not thrive in areas of the world where 
capable security institutions exist, and the rule of law is strong. 
Sadly, as the confluence of terror and drugs continues to grow, our 
counterterrorism and counter-narcotics strategies continue to drift 
further apart. We had better address this matter aggressively and fix 
it quickly with interlocking counterterrorism and counter-narcotics 
strategies and funding streams, or we could pay dearly for it in the 
future.
    Professor James Fearon of Stanford University's Political Science 
Department conducted an exhaustive study entitled, ``Why Do Some Wars 
Last Longer than Others,'' that was published in 2002. I do not want to 
oversimplify the study, but in summation I recall the Professor 
identified 128 civil wars that played out, and in some cases continued 
to play out, from 1945 through 2000. On average 111 of the conflicts 
lasted about 8 years, but Professor Fearon identified 17 of the 128 
that lasted on average over five times longer, or about 40+ years. The 
most significant difference between the two sets was the insurgent and 
anti-government groups involved in the 17 much-lengthier conflicts 
generated their own contraband revenue, often through the sale of 
drugs. Drugs provide a never-ending funding stream straight into the 
war chests of terrorist and insurgent organizations that are hell-bent 
on destroying our way of life. If we continue our war against terrorism 
with far greater enthusiasm and vigor than we battle drugs, we are most 
likely in for a very long and costly fight.
    Finally, the Quds Force is responsible for Iran's Strategic Missile 
Program. When you couple that with the fact the Quds Force plot to 
assassinate the Saudi Arabian Ambassador with a car bomb right here in 
Washington, DC was deemed credible, it leaves me with just one 
troubling question: ``Will the Quds Force also be holding the keys to 
Iran's future nuclear weapons arsenal?'' If the answer is yes, then we 
had better get focused on doing something about it.

    Chairman King. Mr. Braun, thank you very much for your 
testimony.
    Our next witness, Dr. Matthew Levitt, is a senior fellow 
and director of the Washington Institute Stein Program on 
Counterterrorism and Intelligence, where he was the founding 
director in 2001.
    Between 2005 and 2007, Dr. Levitt served as deputy 
assistant secretary for Intelligence and Analysis at the 
Department of Treasury, and then as a State Department 
counterterrorism adviser to the special envoy for Middle East 
Regional Security.
    Prior to that, he provided tactile and strategic analytical 
support for counterterrorism operations of the FBI, focusing on 
fundraising and logistical support networks for Middle Eastern 
terrorist groups. Dr. Levitt, you are recognized for 5 minutes.

    STATEMENT OF MATTHEW LEVITT, DIRECTOR, STEIN PROGRAM ON 
COUNTERTERRORISM AND INTELLIGENCE, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Mr. Levitt. Thank you, Chairman King, Ranking Member 
Thompson, Members of the committee. Thank you for the 
opportunity to testify before you today.
    Just a few months ago, I had the privilege of testifying 
before to this committee's subcommittees on the subject of 
Iranian terrorist operations on American soil. Therefore, I 
will focus my testimony today on the issue of Hezbollah and 
refer Members on the issue of Iran, that previous testimony.
    Hezbollah has long leveraged its global networks for all 
kinds of support activities. The vast majority of these 
sometimes formal, often informal networks are not called upon 
to carry out operations, but to raise funds, procure documents, 
dual-use items, military equipment, et cetera.
    The United States has long seen--Hezbollah has long seen 
the United States as a cash cow. Nonetheless, according to U.S. 
authorities, concern over the threat posed by Hezbollah is well 
placed. While Hezbollah has never carried out an attack in the 
United States, the FBI has reported, and I quote, ``Hezbollah 
subjects have reportedly been tasked with the surveillance of 
potential targets in the United States.'' The FBI has found, 
and I quote ``that such tasking today appears to have been 
intended as a vetting tool to establish individuals' loyalty to 
Hezbollah and Iran.''
    Whatever the purpose, this means Hezbollah surveillance 
enabled the group to have off-the-shelf operational planning it 
can dust off at a future date, if it so desires. The FBI has 
concluded that many subjects based in the United States do have 
the capability to attempt to carry out terrorist attacks, 
should this become this desired objective of the group.
    Now, the Arbabsiar plot, as we have heard, clearly 
indicates, as DNI Clapper has testified, that at least some 
Iranian leaders have decided it is no longer crossing some red 
lines to carry out an attack in the United States. Hezbollah, 
however, makes its own decision making--has its own decision-
making process, and may not automatically jump to carry out an 
attack here in the United States, even if it is asked to do so.
    Recently, several intelligence officials abroad have told 
me that in recent attacks--Hezbollah and Iranian attacks 
abroad--there has been actually little Iranian and Hezbollah 
cooperation, and actually some element of competition between 
the two.
    But to the extent that Hezbollah believes the United States 
is involved in directly targeting or undermining the group, the 
potential for Hezbollah attack against U.S. interests abroad, 
or even on the homeland, becomes more likely.
    It is possible that if there is a confrontation with Iran, 
Hezbollah would be called upon, likely, and could very well 
carry out an attack, but there are reasons to suspect that its 
own decision-making processes, independent of whether or not 
there is a confrontation with Iran, could lead it to do so as 
well.
    There have been many U.S.-led law enforcement exposures of 
Hezbollah's criminal activity. Hezbollah believes that the 
Special Tribunal for Lebanon, which has indicted four Hezbollah 
operatives--one of them, Imad Mughniyah's brother-in-law--a 
very senior individual--they said that this is an American 
plot.
    Hezbollah also believes the United States is behind the 
unrest in Syria, and recently accused the U.S. embassy in 
Lebanon of overseeing operations against Syria.
    So as I look at the Hezbollah threat to the homeland, I 
break it down to four possible threat scenarios. Hezbollah does 
have networks here that it could leverage to carry out a 
foreign-directed attack here. It does have the ability to use 
people here to support individuals sent from abroad to carry 
out an attack, which is its traditional modus operandi for 
spectacular attacks.
    It could call upon its relationships with criminal 
elements, to use those criminal elements to facilitate an 
attack. Finally, we could see some type of homegrown violent 
extremist attack with Iran or Hezbollah, simply called upon its 
sympathizers and supporters to carry out some type of ``active 
resistance,'' as they would call it, in the event of 
confrontation with Iran or Hezbollah.
    According to a 1994 report, should the decision be made to 
strike within the U.S. borders, Hezbollah has the 
infrastructure present to carry out such an attack.
    Consider, for example, the case of Mahmoud Kourani, who was 
smuggled across the border from Mexico in the trunk of a car. 
This is a guy who had training from Lebanon from Hezbollah; 
specialized training in weaponry, spycraft, 
counterintelligence. This was someone who was here raising 
money, but could have done violent things if that was something 
that he was told to do.
    The North Carolina example is just another example. In 
fact, as that case was being tried--and I had the privilege of 
serving as an expert witness in that case--a notional plot was 
discovered where some individuals involved were talking about 
potentially assassinating the prosecutor, or blowing up the 
courthouse.
    Another of the individuals indicted in the Charlotte case 
was Mohammed Dbouk. According to the U.S. Government, he is an 
Iranian-trained Hezbollah operative and an intelligence 
specialist. We later found out after that course, from senior 
U.S. Government official testimony before Congress, that Dbouk 
was such a major player in the Hezbollah organization, that 
when he asked on five separate occasions to be allowed to be a 
suicide bomber, they turned him down because he was too 
important. But he was an individual who was here in Canada 
working with the guys in Charlotte.
    You could also have Hezbollah deploying people who don't 
fit the traditional look of a Hezbollah cell. FBI has reported 
that at one point, a senior Hezbollah person in the United 
States was an Iraqi Shiite cleric in Texas; that Hezbollah's 
looking particularly to recruit people who don't fit the 
traditional Hezbollah profile.
    They could also import professional operatives. Consider 
the fact that Fauzi Ayub had a Canadian passport, lived at one 
point in Dearborn, Michigan. Before he came to North America, 
he was involved in an attempt to hijack an airplane. After 
that, he was involved in an attempt to carry out a terrorist 
attack in Israel. When he was asked by the Israeli judge, ``Did 
you ever tell the Canadians about your involvement in 
terrorism?'' he simply said, ``They never asked.''
    The fact of the matter is that since 9/11, all of us in the 
world, especially in the West, have done a lot to make it much 
more difficult to carry out terrorist attack within our 
borders. This applies not only to al-Qaeda, it applies to 
Hezbollah.
    One of the ways Hezbollah has tried to break out of that 
problem set is to leverage its relationships with criminal 
elements to carry out attacks as well.
    Finally, you could have a situation of homegrown violent 
extremism. When we deported Hani al-Sayegh, who was one of the 
people involved in the bombing of Khobar Towers back in Saudi 
Arabia, U.S. Government put out a warning that we believe that 
this could lead unknown individuals to carry out some type of 
loner attack.
    So in conclusion, I just want to stress, it is by no means 
a foregone conclusion that Hezbollah carries out an attack in 
the United States. But to the extent it believes that its 
interests are threatened, the likelihood grows. It has, in 
fact, carried out significant number of attacks abroad, 
including some we believe targeting U.S. interests abroad.
    I thank you for the opportunity to testify before you, and 
look forward to your questions.
    [The statement of Mr. Levitt follows:]
                  Prepared Statement of Matthew Levitt
                             March 21, 2012
    Chairman King, Ranking Member Thompson, Members of the committee, 
thank you for the opportunity to testify before you today about such a 
critical and timely issue. Just a few months ago, shortly after the 
disruption and exposure of an Iranian plot to assassinate the Saudi 
ambassador here in Washington, DC, I had the privilege of testifying 
before two of this committee's subcommittees on the subject of 
``Iranian Terror Operations on American Soil.''\1\ Since that time, 
more has come to light regarding Iran's willingness to target the 
United States and its allies both abroad and here in the United States.
---------------------------------------------------------------------------
    \1\ Matthew Levitt, ``Iranian Terror Operations on American Soil,'' 
testimony before a Joint Hearing of the Subcommittee on 
Counterterrorism and Intelligence and the Subcommittee on Oversight, 
Investigations, and Management, Committee on Homeland Security, U.S. 
House of Representatives, October 26, 2011, http://
washingtoninstitute.org/templateC07.php?CID=606.
---------------------------------------------------------------------------
    On January 31, 2012, Director of National Intelligence James 
Clapper expressed the intelligence community's concern about ``Iranian 
plotting against U.S. or allied interests overseas.'' Since then, Iran 
and its primary proxy, Lebanese Hizballah, have carried out a string of 
terrorist plots abroad. Some were thwarted, including two plots each in 
Thailand and Azerbaijan. Others were not, including bombings in India 
and Georgia. In Thailand and Azerbaijan, U.S. interests were reportedly 
among the intended targets, while the others focused on Israeli 
targets. Most recently, Azerbaijan's National Security Ministry 
detained 22 Azeris earlier this month for cooperating with Iran's 
Revolutionary Guards, receiving training in the use of weapons and spy 
techniques and plotting attacks on the U.S. and Israeli embassies in 
Baku.\2\
---------------------------------------------------------------------------
    \2\ ``Azerbaijan Arrests 22 over Terror Plot Against US, Israel 
Embassy,'' YNet News, March 14, 2012.
---------------------------------------------------------------------------
    Clearly, America and its allies are already involved in a shadow 
war with Iran, which makes the second development since my last 
appearance before this committee all the more significant: It is no 
longer clear that Iran sees carrying out an attack in the United States 
as crossing some sort of red line.
    The U.S. intelligence community has assessed that Iranian leaders 
appear to be more willing than they may have been in the past to 
approve attacks in the United States. DNI James Clapper not only 
testified about Iranian plotting abroad, he also stated that the 
unprecedented assassination plot targeting the Saudi ambassador 
reflects the reality ``that some Iranian officials--probably including 
Supreme Leader Ali Khamenei--have changed their calculus and are now 
more willing to conduct an attack in the United States in response to 
real or perceived U.S. actions that threaten the regime.''\3\ Iranian 
intelligence agents have long been active in the United States through 
diplomatic stations in New York and through cultural and religious 
centers throughout the country. I discussed Iran's history of 
operational activity in the United States in my prior testimony, and I 
will refer Members there for a discussion of that phenomenon. Today, I 
would like to leverage the research I have conducted around the world 
over the past few years for my forthcoming book Hezbollah: The Global 
Footprint of Lebanon's Party of God (Georgetown University Press) to 
discuss the potential threat of Hizballah attacks targeting the 
homeland.
---------------------------------------------------------------------------
    \3\ James Clapper, ``Unclassified Statement for the Record on the 
Worldwide Threat Assessment of the U.S. Intelligence Community for the 
Senate Select Committee on Intelligence,'' January 31, 2012, p. 5, 
http://www.dni.gov/testimonies/20120131_testimony_ata.pdf.
---------------------------------------------------------------------------
                      hizballah's global footprint
    Hizballah has targeted U.S. interests abroad in the past, including 
airline hijackings, the Beirut bombings, and the bombing of the Khobar 
Towers barracks in the Eastern Province of Saudi Arabia. Its operatives 
have also conducted surveillance of U.S. interests abroad and at home.
    Hizballah has long leveraged its worldwide network of members, 
supporters, and sympathizers to provide the group financial, 
logistical, military, and other types of support. Some members of this 
world-wide support network serve as agents in operations, but the vast 
majority of these sometimes formal, often informal networks are called 
upon not to execute operations, but to raise funds and procure dual-use 
items, false documents, and weapons for Hizballah.
    Hizballah has long seen the United States as a cash cow, where it 
has run charities and engaged in a vast array of criminal activities to 
raise money and procure material for the organization. Nonetheless, 
according to U.S. authorities, concern over the threat posed by 
Hizballah is well placed. Speaking of the rejuvenation of groups such 
as Hamas, Palestinian Islamic Jihad, and the Popular Front for the 
Liberation of Palestine, then-director of the Central Intelligence 
Agency George Tenet warned in 2002 that ``if these groups feel that 
U.S. actions are threatening their existence, they may begin targeting 
Americans directly--as Hizballah's terrorist wing already does'' 
[emphasis added].\4\ Moreover, in February 2003, Tenet referred to 
Hizballah as ``an organization with capability and worldwide presence, 
that is [al-Qaeda's] equal, if not a far more capable organization . . 
. they are a notch above in terms of the relationship with the 
Iranians. The training they received puts them in a state-sponsor 
supported category with a potential for lethality that is quite 
great.''\5\
---------------------------------------------------------------------------
    \4\ George Tenet, ``Worldwide Threat-Converging Dangers in a Post-
9/11 World,'' Senate Select Committee on Intelligence, February 6, 
2002, as published in ``Current and Projected National Security Threats 
to the United States,'' Hearing before the Select Committee on 
Intelligence of the United States Senate, February 6, 2002, 
(Washington: U.S. Government Printing Office, 2002), p. 8.
    \5\ George Tenet, ``Threats to National Security,'' Hearing before 
the Senate Armed Services Committee of the United States Senate, 
February 12, 2003, p. 60, http://www.gpo.gov/fdsys/pkg/CHRG-
108shrg91721/pdf/CHRG-108shrg91721.pdf.
---------------------------------------------------------------------------
    According to FBI testimony, also in 2002, Hizballah operatives have 
conducted surveillance in the United States. While Hizballah has never 
conducted a terrorist attack on U.S. soil, the FBI reported, 
``Hizballah subjects have reportedly been tasked with surveillance of 
potential targets in the United States.'' The FBI found that ``such 
tasking to date appears to have been intended as a vetting tool to 
establish the individual's loyalty to Hizballah and Iran.''\6\ Whatever 
the purpose, this Hizballah surveillance enables the group to develop 
off-the-shelf operational planning that it can dust off and use at a 
future date, if it so desires. The FBI concluded: ``FBI investigations 
to date continue to indicate that many Hizballah subjects based in the 
United States have the capability to attempt terrorist attacks here 
should this be the desired objective of the group.''\7\
---------------------------------------------------------------------------
    \6\ ``Current and Projected National Security Threats to the United 
States,'' Hearing before the Select Committee on Intelligence of the 
United States Senate, February 6, 2002 (Washington: U.S. Government 
Printing Office, 2002), pg. 339.
    \7\ Ibid.
---------------------------------------------------------------------------
    Hizballah has long had a substantial base of supporters in North 
America. This includes some operatives with military and operational 
training and a much larger pool of sympathizers and supporters who 
provide funding and some logistical support to the group but could be 
called upon to support operational activity should the group decide to 
carry out an attack here. Consider, for example, the substantial 
logistical and operational roles played by local Hizballah operatives 
in the 1992 and 1994 Hizballah attacks in Buenos Aires that targeted 
the Israeli embassy and the AMIA Jewish community center, respectively.
           hizballah's perception of u.s. actions against it
    While the Arbabsiar plot against the Saudi ambassador suggests at 
least some Iranian leaders have decided to approve attacks in the 
United States, Hizballah makes decisions of its own and may not 
automatically jump to carry out an attack against the United States 
even if Iran asks it to do so. Recently, several intelligence officials 
have told me that there has been little cooperation between Iranian and 
Hizballah cells carrying out attacks abroad; there has even been some 
element of competition between the two. That said, there is reason for 
concern that Hizballah may decide to carry out attacks against U.S. 
interests as a result of its own decision-making calculus.
    To the extent that Hizballah believes the United States has been 
involved in directly targeting or undermining the group, the potential 
for a Hizballah attack against U.S. interests abroad or even in the 
homeland becomes more likely. Over the past few years, the United 
States has exposed Hizballah activities in Africa, South America, Asia, 
and here at home. The Treasury Department designated the Lebanese-
Canadian Bank as a primary money laundering entity for laundering 
Hizballah drug money and facilitating other trade-based money 
laundering schemes benefiting Hizballah. But none of this compares to 
the stress which the Special Tribunal for Lebanon (STL) has caused 
Hizballah. Hizballah's acute anxiety over the indictments can be seen 
most prominently in its public denunciations of the tribunal as an 
American project based on false communications data fabricated by 
Israeli spies embedded in Lebanon's telecommunications industry. Many 
factors undermine Hizballah's self-promoted image as the incorruptible 
defender of the oppressed, but none as powerfully as the Hariri 
investigation. Charges of engaging in terrorism against fellow Lebanese 
(particularly a Sunni leader such as the late Hariri) are completely at 
odds with the group's longstanding position that it is first and 
foremost part of the fabric of Lebanese society, and only secondarily a 
pan-Shiite or pro-Iranian movement. Hizballah was widely criticized for 
occupying downtown Beirut in March 2008, when the government tried to 
rein in the group's airport surveillance activities and its maintenance 
of a private telecommunications system. At the time, many Lebanese 
viewed Hizballah as putting its own interests ahead of those of the 
country. Yet that incident pales in comparison to the implications of 
the charges brought by the tribunal against four Hizballah members, 
including Imad Mughniyah's brother-in-law, Mustafa Badreddine. 
Hizballah blames this turn of events on Israel and the United States: 
``This American-Israeli tribunal is unconstitutional, illegal, and 
politically motivated.''\8\ Later, Hizballah chief Hassan Nasrallah 
said the STL was part of a new U.S. plot to smear the image of the 
popular resistance movement.\9\
---------------------------------------------------------------------------
    \8\ ``Hizballah Chief Unhappy with Funding Lebanon's `Politically 
Motivated' Tribunal,'' Al-Arabiya, December 1, 2010, http://
english.alarabiya.net/articles/2011/12/01/180337.html.
    \9\ ``STL Part of Psywar against Resistance,'' Press TV, July 2, 
2011, http://www.presstv.ir/detail/187262.html.
---------------------------------------------------------------------------
    Hizballah also believes the United States is behind the unrest in 
Syria, which threatens to topple one of its most important benefactors 
and the conduit through which Iranian funding and material is 
transported to Hizballah in Lebanon. Sheikh Naim Qassem, the deputy 
secretary-general of Hizballah, has said that ``the unrest engulfing 
Syria is a foreign conspiracy fueled by the United States and its 
allies.''\10\ According to Qassem, ``The U.S. and its allies have 
openly showed their inclination to change the governing system of 
Syria, and this is the violation of the Syrian nation's right to 
determine their own destiny through holding dialogue with the system. 
Negotiations should lead to the establishment of political stability 
and security in Syria.''\11\ In the words of Nasrallah, speaking on the 
fourth anniversary of the death of Imad Mughniyah, ``There is an Arab, 
Western, American, and Israeli insistence that there is no solution in 
Syria except toppling the Syrian government.''\12\ In a joint statement 
issued after a meeting of the Hizballah and Amal commands in the 
eastern city of Baalbek, the groups stated that the current turmoil in 
Syria was part of an ``international conspiracy'' targeting Damascus 
for its support for Arab and Muslim resistance movements in the region 
and emphasized their ``firm support for the Islamic Republic in the 
face of American and Israeli threats.''\13\ Recently, Hizballah accused 
the U.S. embassy in Lebanon of overseeing operations against Syria. 
Former Lebanese Information Minister Michel Samaha declared that the 
visits to Beirut of U.S. Undersecretary of Defense for Intelligence 
Michael G. Vickers prove that the U.S. embassy is in ``a war of 
espionage'' with Syria.\14\
---------------------------------------------------------------------------
    \10\ ``U.S. Bloc behind Syria Unrest: Deputy Hizballah Chief,'' 
Tehran Times, November 29, 2011, http://www.tehrantimes.com/politics/
92727-us-bloc-behind-syria-unrest-deputy-Hizballah-chief.
    \11\ Ibid.
    \12\ ``Hizballah Accuses US, Israel of Fuelling Unrest in Syria,'' 
Press TV, February 16, 2012, http://www.presstv.ir/detail/227085.html.
    \13\ Hussein Dabrouk, ``Hizballah, Amal Stand By Iran, Syria 
against U.S., Israeli Threats,'' Daily Star, November 22, 2011, http://
www.dailystar.com.lb/News/Politics/2011/Nov-22/154847-Hizballah-amal-
stand-by-iran-syria-against-us-israeli-threats.ashx#axzz1p1YIRDAl.
    \14\ ``Hizballah Accuses US Embassy in Beirut of Espionage against 
Syria,'' Press TV, March 13, 2012, http://www.presstv.ir/detail/
231402.html.
---------------------------------------------------------------------------
    Finally, the odds are very strong that in the event of an attack on 
Iran's nuclear program, Hizballah would retaliate. Whether it would 
launch rockets at Israel is an open question, since that would bring a 
massive Israeli response. But its worldwide networks would almost 
certainly be called upon to execute the kind of asymmetric terror 
attacks that can be carried out with reasonable deniability and 
therefore make a targeted response more difficult. Muhammad Hejazi, the 
deputy head of Iran's armed forces, hinted that Tehran could order 
proxy militant groups in Gaza and Lebanon to fire rockets into Israel. 
He even implied such a strike could be used preemptively, before an 
attack on Iran. ``We are no longer willing to wait for enemy action to 
be launched against us,'' he told Iran's Fars news agency. ``Our 
strategy now is that we will make use of all means to protect our 
national interests.''\15\ Hizballah leaders have also stated they would 
stand by Iran and any other person that has stood up to the Zionist 
regime.\16\
---------------------------------------------------------------------------
    \15\ Adrian Blomfield, ``Iran Threatens to Use `All Means' in Pre-
emptive Strike on Israel,'' Independent, February 22, 2012, http://
features.rr.com/article/06tXfWiaof64W?q=Hamas.
    \16\ ``U.S. Bloc behind Syria Unrest: Deputy Hizballah Chief,'' 
Tehran Times, November 29, 2011, http://www.tehrantimes.com/politics/
92727-us-bloc-behind-syria-unrest-deputy-Hizballah-chief.
---------------------------------------------------------------------------
    A 1994 FBI report summarizes the concern about the threat of 
Hizballah attacks in the event the group believes the United States 
threatens its interests: ``The Hizballah leadership, based in Beirut, 
Lebanon, would be reluctant to jeopardize the relatively safe 
environment its members enjoy in the United States by committing a 
terrorist act within the U.S. borders. However, such a decision could 
be initiated in reaction to a perceived threat from the United States 
or its allies against Hizballah interests.''\17\
---------------------------------------------------------------------------
    \17\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
                         four threat scenarios
    In light of Hizballah's perception that the United States is 
actively targeting it and its allies, it is worth considering how the 
group might pursue an attack in the United States should it decide to 
do so. There are four ways the group could leverage its passive 
sympathizers and active networks to support such an operation. First, 
Hizballah could leverage local networks to carry out a foreign-directed 
attack. Second, Hizballah could call on individuals or networks to 
provide support to undercover operatives sent in from abroad to carry 
out an attack. Third, Hizballah could call upon its working 
relationships with criminal elements to either provide support for an 
attack or possibly even to carry one out (the Qods Force appears to 
have done just this when it reached out to an assassin tied to Mexican 
drug cartels through Mansour Arbabsiar). Finally, in the event of an 
attack on Iran or Hizballah, they could simply issue a public call for 
sympathizers and supporters to carry out acts of ``resistance'' in 
solidarity with them in the hope of inspiring acts of homegrown violent 
extremism on the part of radicalized Shiite supporters of Hizballah and 
Iran.
    1. Leverage local networks.--Historically, within the larger 
community of people sympathetic to Hizballah here in the United States, 
there have been Hizballah militants with terrorist and military 
training. According to a 1994 FBI report, ``Should the decision be made 
to strike within the U.S. borders, Hizballah has the infrastructure 
present to support or carry out a terrorist act. Certain Hizballah 
members in the United States have received paramilitary training, 
including explosives and firearms training.''\18\ Consider just a 
couple of examples:
---------------------------------------------------------------------------
    \18\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
    On Feb. 4, 2001, Mahmoud Youssef Kourani was smuggled across the 
U.S.-Mexican border in the hidden compartment of a smuggler's car. 
After paying a Beirut consular official $3,000 for a Mexican visa, the 
Lebanese carpenter paid another $4,000 to be smuggled into the United 
States. Settling in Dearborn, Michigan, Kourani reportedly raised at 
least $40,000 for Hizballah.\19\ But he was no mere fundraiser. Court 
documents indicate that he was not only a ``member, fighter, recruiter, 
and fund raiser,'' for Hizballah, but also the brother of Hizballah's 
chief of military security for southern Lebanon. Moreover, before 
coming to the United States, Kourani not only received ``specialized 
training in radical Shiite fundamentalism, weaponry, spy craft, and 
counterintelligence in Lebanon and Iran,'' he was also a Hizballah 
recruiter and fundraising solicitor in southern Lebanon.\20\ In 2005, 
Kourani pled guilty to conspiring to support a terrorist organization 
in exchange for a 4\1/2\ year prison sentence.\21\
---------------------------------------------------------------------------
    \19\ Pauline Arrillaga and Olga R. Rodriguez, ``The Terror-
Immigration Connection,'' MSNBC, July 3, 2005, http://
www.msnbc.msn.com/id/8408009/ns/us_news-security/t/terror-immigration-
connection/; ``Hizballah Fundraiser Sentenced to Prison,'' Los Angeles 
Times, June 15, 2005, http://articles.latimes.com/2005/jun/15/nation/
na-Hizballah15.
    \20\ United States of America v. Mahmoud Youssef Kourani, 
``Indictment,'' U.S. District Court, Eastern District of Michigan, 
Southern Division, Criminal No. 03-81030, November 19, 2003, http://
fl1.findlaw.com/news.findlaw.com/cnn/docs/terrorism/
uskourani111903ind.pdf.
    \21\ ``Hizballah Fundraiser Sentenced to Prison,'' Los Angeles 
Times, June 15, 2005, http://articles.latimes.com/2005/jun/15/nation/
na-Hizballah15.
---------------------------------------------------------------------------
    In the summer of 2000, while investigating an interstate cigarette 
smuggling case, investigators stumbled upon a Hizballah cell based in 
Charlotte, North Carolina. Mohamad Hammoud, the cell's leader, was 
convicted of racketeering and providing material support to 
Hizballah.\22\ During the trail, evidence was presented that members of 
the cell worked closely with Sheikh Abbas Harake, a Hizballah military 
commander in southern Lebanon. In a letter seized by the FBI, Harake 
called Hammoud ``a dear brother who has not forgotten his field of 
work,'' and in an intercepted phone call with Harake, Hammoud 
repeatedly declares ``we're at your service.''\23\ Personal photographs 
of his militancy--Hammoud at the Hizballah Center in Beirut, Hammoud 
and other co-conspirators posing with weapons, and Hammoud proudly 
standing in front of portraits of Ayatollah Khomeini and Hassan 
Nasrallah--were presented at trial, along with evidence of immigration 
fraud by him and members of his extended family, some of whom entered 
the United States illegally via Venezuela and Cyprus by way of false 
visas and fraudulent marriages.\24\ In an undated letter to Hammoud, 
Sheikh Abbas makes clear how the group feels about the United States:
---------------------------------------------------------------------------
    \22\ David E. Kaplan, ``Homegrown Terrorists,'' U.S. News & World 
Report, March 2, 2003, http://www.usnews.com/usnews/news/articles/
030310/10hez.htm.
    \23\ United States of America v. Mahmoud Youssef Hammoud et al., 
United States District Court for the Western District of North 
Carolina, Charlotte Division, Docket No. 3:00-cr-147.
    \24\ United States of America v. Mahmoud Youssef Hammoud et al., 
United States District Court for the Western District of North 
Carolina, Charlotte Division, Docket No. 3:00-cr-147.

``Peace be on the pleasant blood that was shed and irrigated the tree 
of Islam in the east and west, to include the blood of the noblest of 
the Islamic Resistance's martyrs Mr. Abbas Al-Mousawy. As I greeted the 
virtuous ones, I must damn the evil ones. Damn America the criminal, 
and the arrogant Israel that commits injustice and hostility; and 
Allah, you are the everlasting over the enemies of Islam.''\25\
---------------------------------------------------------------------------
    \25\ Letter from Sheikh Abbas Alaa to Mohamad Hammoud, Federal 
Bureau of Investigation, transcribed January 29, 2001, case number 
265B-CE-82188, ID number S04055011.

    While Hammoud awaited trial, Federal authorities discovered a 
notional plot to murder the prosecutor, First Assistant U.S. Attorney 
Kenneth Bell, and bomb Charlotte's Federal courthouse.\26\ An 
intercepted letter from Hammoud to a government informant referred to 
someone whose ``assignment is to put bullets into the skull of the 
arrogant, bastard prosecutor.''\27\ Alternatively, the unknown 
operative who would carry out this assignment should ``annihilate with 
massive explosives the evidence against us--There is no room for error. 
Too much depends on this operation.'' Hammoud wrote, ``I am filled with 
hope and anticipation.''\28\
---------------------------------------------------------------------------
    \26\ U.S. Attorney Anne M. Tompkins, Western District of North 
Carolina, Department of Justice press release, January 27, 2011, http:/
/www.justice.gov/usao/ncw/press/hammoudsentence.html.
    \27\ ``Smuggler May Have Plotted to Kill Prosecutor,'' Star News, 
November 11, 2002, http://news.google.com/
newspapers?nid=1454&dat=20021111&id=GrtOAAAAIBAJ&sjid=aR8EAAAAIBAJ&pg=24
29,3123944; David E. Kaplan, ``Homegrown Terrorists,'' U.S. News & 
World Report, March 2, 2003, http://www.usnews.com/usnews/news/
articles/030310/10hez_4.htm.
    \28\ ``Smuggler May Have Plotted to Kill Prosecutor,'' Star News, 
November 11, 2002, http://news.google.com/
newspapers?nid=1454&dat=20021111&id=GrtOAAAAIBAJ&sjid=aR8EAAAAIBAJ&pg=24
29,3123944.
---------------------------------------------------------------------------
    One of the other people indicted in the Charlotte case was Mohammed 
Dbouk. According to U.S. investigators, Dbouk is an Iranian-trained 
Hizballah operative and ``an intelligence specialist and propagandist 
[who] was dispatched to Canada by Hizballah for the express purpose of 
obtaining surveillance equipment (video cameras and handheld radios and 
receivers) and military equipment (night-vision devices, laser range-
finders, mine and metal detectors, and advanced aircraft analysis 
tools).''\29\ Several indicators suggest that he ranks as a significant 
Hizballah operative. For example, U.S. Attorney Robert Conrad, whose 
office successfully prosecuted the Hizballah case in Charlotte, 
testified before the Senate Judiciary Committee that according to human 
source intelligence, ``Dbouk is such a major player in the Hizballah 
organization that on five separate occasions his application to be a 
martyr was rejected.'' Asked to explain why his application to be sent 
on a martyrdom mission (that is, a suicide or other mission from which 
he would not, or would be unlikely to, return) was rejected, Conrad 
replied, ``He was rejected five times because of his significance to 
the organization.''\30\ With his intelligence, military training, and 
expertise in information operations, Hizballah officials apparently saw 
Dbouk as too valuable a commodity and too significant a player to 
expend on a martyrdom mission. According to the CSIS intercepts, in a 
conversation with someone named Said (last name unknown), Dbouk tried 
to discuss politics, and Said said he wanted to be careful about what 
they discussed on the telephone. Ignoring this kind of operational 
security protocol for which Hizballah is well known, Dbouk responded 
that ``he did not care about anything and was committed to securing all 
the items for the brothers at any cost; he was attempting to avoid 
going to hell and secure a place in heaven by so doing.''\31\
---------------------------------------------------------------------------
    \29\ Robert Fromme and Rick Schwein, ``Operation Smokescreen: A 
Successful Interagency Collaboration,'' FBI Law Enforcement Bulletin 
76, no. 12 (December 2007), http://www.fbi.gov/stats-services/
publications/law-enforcement-bulletin/2007-pdfs/dec07leb.pdf.
    \30\ U.S. Attorney Robert J. Conrad Jr., Western District of North 
Carolina, testimony before Senate Committee on the Judiciary, ``An 
Assessment of the Tools Needed to Fight the Financing of Terrorism,'' 
November 20, 2002.
    \31\ ``CSIS Summaries, Redacted Copy, Trial Testimony,'' United 
States of America v. Mohamad Youssef Hammoud, et al., U.S. District 
Court, Western District of North Carolina, Charlotte Division, Docket 
No. 3:00-cr-147, p. 11.
---------------------------------------------------------------------------
    But Hizballah could also deploy operatives who might not fit a 
typical profile for Lebanese Hizballah, the FBI has warned. In the 
first instance, they may not be Lebanese. At one point, the FBI 
informed, an Iraqi Shiite cleric in Texas who had ties to Iran 
positioned himself in a leadership role for Hizballah in the United 
States. Hizballah members could come from several countries, the FBI 
noted, especially Iraq and Iran. In general, the FBI reported, 
``Hizballah is particularly interested in recruiting non-Lebanese 
Shiites, since they do not fit the normal Hizballah profile and are 
less prone to surveillance and detection.'' Hizballah also had made 
initial contacts with African American Muslims to discuss mutual 
cooperation, the FBI reported. In addition, Hizballah members in the 
United States reached out to overseas members of other terrorist 
groups, including Sunni Hamas and the Lebanese Islamic Group (not the 
Egyptian group by the same name), for the purpose of cementing 
agreements promising to carry out joint attacks against the United 
States or Israel should Islamic interests be threatened.\32\
---------------------------------------------------------------------------
    \32\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
    Hizballah operatives in the United States have also demonstrated 
security consciousness, suggesting they could bring a level of 
operational security into play in the event they were instructed to 
carry out an operation here in the United States. According to the FBI, 
``members of one West Coast cell reportedly initiated a `neighborhood 
watch program' in order to alert cell members of an FBI presence.'' In 
another case, a Hizballah cell in New York was instructed to divide 
into teams as a security precaution. ``Teams were not to discuss 
Hizballah matters outside of their team,'' the FBI reported. ``Secret 
communications could no longer be carried by courier, and letters could 
not contain details such as the names of members.''\33\
---------------------------------------------------------------------------
    \33\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
    2. Import professional operatives.--Another option available to 
Hizballah would be to bring in outsiders to carry out an attack, using 
local sympathizers and operatives only for support functions. This is 
Hizballah's more traditional modus operandi, which it employed in 
Argentina in 1992 and 1994, in Thailand in 1994, and more recently in 
Azerbaijan, Turkey, Thailand, and elsewhere over the past few years.
    Take the 1994 bombing of the AMIA Jewish community center in Buenos 
Aires. Within weeks of the attacks, Argentinean federal police released 
a composite sketch of the suicide bomber to the local press that was 
based on the testimony of several witnesses, including a door-to-door 
survey of neighborhood residents shortly after the bombing. Other 
sketches were publicized of the person who parked the van used in the 
bombing in a nearby garage 3 days before the attack.\34\ But as quickly 
as authorities produced these sketches, and as useful as they would 
later be in definitively identifying the perpetrators as members of a 
Hizballah hit team, they were too late to help apprehend them before 
they escaped the country. The Iranian diplomatic support network left 
the county in waves in the weeks leading up to the attack. The 
exception was Mohsen Rabbani, an Iranian who had lived in Argentina for 
eleven years and was the primary architect of the plot. Just 4 months 
before the attack, Rabbani suddenly became an official Iranian 
diplomat, complete with Iranian diplomatic credentials and immunity. As 
for the Hizballah operatives brought in to execute the bombing, 
Argentinean law enforcement and intelligence officials would later 
determine they left the country about 2 hours prior to the actual 
explosion.\35\
---------------------------------------------------------------------------
    \34\ The sketches were published in the Buenos Aires newspaper 
Clarin on August 1 and 6, 1994, and again on September 28, 1995; see 
copies of the paper and details in written answers to Question for the 
Record for Ambassador Philip Wilcox, testimony at a hearing on 
``Terrorism in Latin America/AMIA Bombing in Argentina'' before the 
Committee on International Relations, House of Representatives, 
September 28, 1995, pp. 111-117.
    \35\ Report by the Investigations Unit of the Office of the 
Attorney General, ``AMIA Case,'' signed by District Attorney Marcelo 
Martinez Burgos, Attorney General Alberto Nisman, and Secretary of the 
Office of the Attorney General Hernan Longo, October 25, 2006.
---------------------------------------------------------------------------
    While some of the operatives, including the suicide bomber, entered 
the country at Argentina's highly unregulated border crossings in the 
Tri-Border Area where Argentina meets Brazil and Paraguay, others 
arrived--presumably with false documents--at Ezeiza International 
Airport on July 1, 1994, and left the morning of the attack through 
Jorge Newbery Metropolitan Airport, some on flights to the Tri-Border 
Area.\36\ Investigators would later trace phone calls placed from pay 
phones at these airports, as well as calls from pay phones near the 
AMIA building during their stay, to a cellular phone in Foz de Iguazu, 
on the Brazilian side of the Friendship Bridge spanning the Parana 
River in the Tri-Border Area. From Foz, as it is locally known, a 
network of Hizballah supporters coordinated the activities of the 
terrorist cell members operating in Buenos Aires. Frequent calls were 
made between phones in Argentina and the cell phone in Foz as 
preparations for the bombing progressed. Then, the day of the attack, 
the flow of calls suddenly stopped.\37\
---------------------------------------------------------------------------
    \36\ Nisman and Burgos's 2006 report states the suicide bomber 
likely came in through the Tri-Border Area. And in an August 16, 2009, 
interview with the author, a senior Argentinean law enforcement officer 
confirmed the investigation had ``definitively'' determined that the 
suicide bomber, Ibrahim Berro entered through the Tri-Border Area.
    \37\ Report by the Investigations Unit of the Office of the 
Attorney General, ``AMIA Case,'' signed by District Attorney Marcelo 
Martinez Burgos, Attorney General Alberto Nisman, and Secretary of the 
Office of the Attorney General Hernan Longo, October 25 2006, pp. 14-
15.
---------------------------------------------------------------------------
    In terms of infiltrating operatives into the United States, 
Hizballah's ability to procure high-quality false passports is of 
particular concern. According to the FBI, ``In an on-going effort to 
bring more members into the United States, Hizballah also alters or 
steals travel documents, passports and visas. In one such operation, 
Hizballah members presented photo-substituted passports and fraudulent 
visa applications at a U.S. Embassy. Eighteen individuals successfully 
obtained passports in this manner.''\38\
---------------------------------------------------------------------------
    \38\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
    Sometimes, Iran helps Hizballah operatives obtain high-quality 
forged travel documents. In March 1996, Hussein Mikdad walked into the 
Iranian embassy in Beirut to have his photograph taken for a forged 
passport. Iranian experts apparently doctored the passport, a 
legitimate passport that was stolen in France and then acquired by 
Hizballah operatives in Europe on the black market. Mikdad successfully 
entered Israel on his false passport and in April 1996 was severely 
injured when the explosive device he was preparing in his east 
Jerusalem hotel room exploded prematurely. According to Israeli 
intelligence, ``Hizballah members operating in Europe invest many 
resources in this activity and succeeded in acquiring many passports 
that are used by the organization's activists in their travels all over 
the world.''\39\
---------------------------------------------------------------------------
    \39\ ``Hizballah's International Terrorism and the Penetration of 
Hizballah Activists into Israel,'' undated Israeli intelligence report 
received by the author August 5, 2003.
---------------------------------------------------------------------------
    Mahmoud Kourani and Mohammed Dbouk are hardly the only examples of 
hardened Hizballah operatives who made their way to the United States 
or Canada. Consider the case of Fawzi Ayub, who lived in Canada but 
also maintained an address in Michigan. In mid-2002, Israeli 
authorities conducting a search in Hebron arrested him; he had entered 
the territories by sea using a forged American passport in the name of 
Frank Mariano Boschi. In Ayub, Hizballah planners secured a Canadian 
passport and a Hizballah veteran who had taken part in sensitive 
operations abroad in the past. In the mid-1980s, he was convicted by a 
Romanian court for his role in a Hizballah plot to hijack an Iraqi 
airliner set to depart from Bucharest and negotiate the release of 
Shiite clerics detained in Iraq in exchange for the Iraqi 
passengers.\40\ Ayub immigrated to Canada in 1988, where he was 
welcomed by family members already there, and he became a Canadian 
citizen in 1992. At first glance, Ayub led a normal life in the Toronto 
area. He married a woman from the Detroit area, just across the 
Ambassador Bridge linking Detroit to Windsor, Ontario. At some point he 
lived in the Dearborn area just outside of Detroit, according to U.S. 
prosecutors.\41\ He studied in the evenings and worked at a grocery 
during the day. But all the while, Ayub remained an active Hizballah 
agent, according to Israeli officials. In the words of one such 
official, ``It's very easy for a guy like Fawzi to live inside Europe, 
to live inside Canada, and do things that are not exactly legal.''\42\ 
While in Canada, Israeli officials maintain, Ayub ``maintained contact 
with senior Hizballah officials and carried out operations.''\43\ Asked 
by an Israeli judge if he told Canadian authorities about previous 
charges of attempting to carry out an act of terrorism, Ayub replied, 
``They never asked.''\44\ A sealed indictment was issued for him in 
Michigan on August 5, 2009, which was unsealed 2 years later in July 
2011.\45\
---------------------------------------------------------------------------
    \40\ Stewart Bell, Cold Terror: How Canada Nurtures and Exports 
Terrorism to the World (Wiley, 2004), p. 81.
    \41\ USA v. Faouzi Ayoub, indictment, case 2:09-cr-20367, filed 
under seal August 5, 2009, unsealed July 2011; see also Robert Snell, 
``Dearborn Man Accused of Bomb Mission on FBI's Most Wanted List,'' 
Detroit News, July 6, 2011.
    \42\ Bell, Cold Terror, pp. 81-82.
    \43\ ``Intensive Intelligence Operation by the ISA Arrested in June 
2002 Senior Hizballah Militant,'' press release communicated by the 
prime minister's advisor, October 30, 2002, http://www.pmo.gov.il/
PMOEng/Archive/Press+Releases/2002/10/Spokesman6728.htm.
    \44\ Bell, Cold Terror, p. 81.
    \45\ United States of America v. Faouzi Ayoub a/k/a Frank Mariano 
Boschi, indictment, U.S. District Court, Eastern District of Michigan, 
Southern Division, August 5, 2009, http://www.investigativeproject.org/
documents/case_docs/1599.pdf; Corey Williams, ``Mich. Man Accused of 
Seeking to Set Bomb in Israel,'' ABC News, July 7, 2011, http://
abcnews.go.com/US/wireStory?id=14013301.
---------------------------------------------------------------------------
    3. Leverage criminal ties.--In light of the counterterrorism 
measures Western security and intelligence agencies have implemented in 
the years since September 11, it is now much harder than it was before 
to carry out attacks in general, and in Western, developed countries in 
particular. This affects the operational capabilities not only of al-
Qaeda but Hizballah and all other groups. One way Hizballah has tried 
to counter this new operational reality has been to reach out to local 
criminal networks with whom its operatives have established connections 
for the purpose of raising funds and procuring dual-use or military 
material, and to leverage those relationships for operational purposes 
as well. By some accounts, Hizballah started to make this shift even 
before 9/11 and simply accelerated it afterward. The group reportedly 
used criminal elements as operatives for some of its activities in 
Europe when it kidnapped retired Israeli military officer Elchanan 
Tannenbaum in the fall 2000. Whenever the trend first started, it is 
now in full swing. And Hizballah has developed a robust network of 
criminal associates in the United States, Canada, and now Mexico.
    Consider, for example, the November 2009 indictment of 10 
individuals, including a member of Hizballah's Political Bureau back in 
Beirut, Hassan Hodroj. The network's criminal schemes were varied, 
including selling counterfeit money, stolen money, and fraudulent 
passports; weapons procurement; and selling stolen goods such as cell 
phones, laptops, Sony PlayStation 2 game consoles, and cars. The stolen 
goods were shipped from Pennsylvania to places where Hizballah is known 
to have a foothold, including Lebanon, Venezuela's Margarita Island, 
and Benin.\46\ But the network was also involved in weapons 
procurement, including Colt M4 Carbine machine guns, pistols, and 
rifles. When the government's cooperating witness (CW), who was the 
network's source for weapons, insisted on being assured by high-level 
Hizballah officials that the weapons were bound for Hizballah and would 
be intercepted, one of the indicted conspirators, Dib Hani Harb, 
immediately picked up the phone and got a senior Hizballah official on 
the line to give the necessary assurances. Later, the CW met with Dib 
Hani Harb's father-in-law, Hassan Hodroj, who is identified in court 
documents as ``publically recognized and acknowledged as a member of 
Hizballah's Political Council.'' Hodroj explained to the CW that even 
though he was a senior Hizballah political official, he was ``involved 
in weapons and technology procurement for Hizballah.'' He demurred when 
the CW offered to procure Glock pistols for Hizballah, stating instead 
that Hizballah needed ``heavy machinery,'' which would be used ``in 
their fight against Jews and to protect Lebanon.'' Hodroj said 
Hizballah also needed ``communications system equipment and spy systems 
from the United States.''\47\ Further to the discussion above about 
Hizballah's procurement of false passports, three of the defendants 
reportedly also generated additional funds for Hizballah by selling 
fraudulent passports. ``The CW and the defendants participated in the 
purchase of two fake passports--one from the United Kingdom and one 
from Canada--for the benefit of Hizballah.''\48\
---------------------------------------------------------------------------
    \46\ United States of America v. Sadek Mohamad Koumaiha et al., 
U.S. District Court, Eastern District, Pennsylvania, 09, November 23, 
2009.
    \47\ FBI Supervisory Special Agent Sameul Smemo Jr., Affidavit in 
Support of Application for Arrest and Seizure Warrants, November 20, 
2009, http://www.investigativeproject.org/documents/case_docs/1466.pdf.
    \48\ ``Four Indicted for Conspiring to Support Hizballah; Six 
Others Charged with Related Crimes,'' U.S. Attorney's Office, Eastern 
District of Pennsylvania, November 24, 2009, http://www.fbi.gov/
philadelphia/press-releases/2009/ph112409.htm.
---------------------------------------------------------------------------
    Also in November 2009, Dani Nemr Tarraf--a Lebanese-born German 
citizen and businessman--was arrested for paying a $20,000 cash deposit 
to an undercover officer in an effort to purchase and ship antiaircraft 
missiles, 10,000 machine guns, night-vision equipment, and shoulder-
fired Stinger missiles to Hizballah.\49\ Further, from January 2007 to 
November 2009, Tarraf obtained and conspired to obtain FIM-92 Stinger 
Missiles, Colt M-4 Carbines machine guns, Glock pistols, sniper-
detection technology, night-vision and thermal-imaging equipment, 
wireless network equipment, lensatic compasses, and two-way radios.\50\ 
According to U.S. officials, the weapons Tarraf sought to procure were 
to be shipped to either Iran or Syria for use by the ``resistance.'' At 
one point, Tarraf insisted he wanted to purchase guided missiles that 
could ``take down an F-16.''\51\ Tarraf ultimately gave a full 
confession to the charged offenses and admitted to being a member of 
Hizballah and to receiving military training from the group.\52\
---------------------------------------------------------------------------
    \49\ MaryClaire Dale, ``Lebanese Man Accused in Arms Buy to Be 
Detained,'' Associated Press, December 8, 2009; Randy Pennell, ``Man 
Arrested in Anti-Aircraft Missile Plot,'' Associated Press, November 
24, 2009.
    \50\ Superseding Indictment, United States of America v. Dani Nemr 
Tarraf et al., U.S. District Court, Eastern District, Pennsylvania, 09-
743.
    \51\ Ibid.
    \52\ Pretrial Detention Order, United States of America v. Dani 
Nemr Tarraf, U.S. District Court, Eastern District, Pennsylvania, 09-
743-01, December 3, 2009.
---------------------------------------------------------------------------
    Further, consider the case of Jamal Yousef, a former member of the 
Syrian military and international arms dealer, who was charged in 2009 
with participating in a narcoterrorism conspiracy. According to U.S. 
prosecutors, Yousef planned to sell the Revolutionary Armed Forces of 
Colombia (FARC) a cache of military-grade weapons in exchange for 
hundreds of kilograms of cocaine. Yousef and his partners claimed that 
``the weapons had been stolen from Iraq and were stored in Mexico'' at 
the home of Yousef's relative, an active member of Hizballah.\53\
---------------------------------------------------------------------------
    \53\ Indictment, United States of America v. Jamal Yousef, Case No 
1:08-cr-01213-UA, U.S. District Court Southern District of New York, 
July 06, 2009.
---------------------------------------------------------------------------
    The possibility also exists that Hizballah could press unwilling 
individuals into operational activity through intimidation and threats 
of violence. In at least one instance, the FBI reports, ``Hizballah 
members have attempted to wrest control of a mosque through 
intimidation and threats of violence. Members of the mosque were told 
that if they did not embrace the beliefs of Hizballah, they would be 
forcibly prevented from admittance.'' In other cases, while most 
donations to Hizballah are given willingly, the FBI reported, ``most 
Lebanese nationals in the United States have family members still 
living in Lebanon, thus availing themselves to extortion.''\54\
---------------------------------------------------------------------------
    \54\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008 http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
    4. Homegrown violent extremism.--Finally, the possibility also 
exists for Hizballah sympathizers or others without formal ties to 
Hizballah to carry out acts of lone-wolf terrorism in solidarity with 
Hizballah and/or Iran. This trend, which to date has been limited to 
violent Sunni Islamist extremism, could manifest itself in the event of 
a direct confrontation with Hizballah or Iran.
    Consider, for example, the case of Hani al-Sayegh, a member of 
Saudi Hizballah who was involved in the bombing of Khobar Towers in 
1996. Like most of his co-conspirators, al-Sayegh fled Saudi Arabia 
after the attack. He took a circuitous route to Canada, traveling from 
Kuwait to Rome to Boston to Ottawa. Confessions from his co-
conspirators and intercepted telephone conversations convinced 
Canadian, American, and Saudi officials that al-Sayegh played a key 
role in the bombing and had maintained contact with Iranian officials--
both in Iran and Canada--since the attack. For example, while in 
Canada, al-Sayegh spoke with his wife in Saudi Arabia and, speaking in 
Persian, with Iranian officials in Iran. ``In these conversations he 
makes oblique references that suggest a possible involvement in the 
Dhahran bombing, and he intimates that some of his cohorts fled at one 
time to Iran.'' In one conversation, he referred to co-conspirators 
being ``in the country of Rafsanjani,'' a reference to Iran's then-
President Hashemi Rafsanjani.\55\
---------------------------------------------------------------------------
    \55\ Thomas Friedman, ``Stay Tuned,'' New York Times, March 25, 
1997.
---------------------------------------------------------------------------
    On March 18, 1997, Royal Canadian Mounted Police arrested al-Sayegh 
at the Queen Mary convenience store on joint orders of the Minister of 
Citizenship and Immigration and the Solicitor General on the grounds 
that he posed ``a security risk to Canada.''\56\ In May, al-Sayegh met 
with American officials and after first insisting he knew nothing about 
the Khobar bombing, he soon confessed to having once been a member of 
the Saudi Hizballah cell that carried out the bombing. Al-Sayegh 
informed that he was recruited by the Iranian Revolutionary Guard and 
had participated not only in the Khobar bombing but in another 
unspecified operation directed by IRGC Gen. Ahmad Sharifi.\57\ He 
agreed to assist U.S. officials investigating the bombing as part of 
his plea bargain. But once he arrived in the United States, he reneged 
on his agreement and sought political asylum here. That effort failed, 
and in October 1999, al-Sayegh was deported to Saudi Arabia. Concerned 
that Hizballah might retaliate against U.S. interests for deporting 
him, the State Department issued a worldwide warning advising U.S. 
citizens ``to take appropriate steps to increase their security 
awareness to lessen their vulnerability.'' The potential existed, U.S. 
officials maintained, that ``someone might try to take retaliatory 
action'' for returning al-Sayegh to Saudi custody.\58\
---------------------------------------------------------------------------
    \56\ Elaine Sciolino, ``U.S. Rebuffed by Syrians over Bombing,'' 
New York Times, March 26, 1997; Anthony DePalma, ``Canada Links Pro-
Iranian Group to Saudi Attack on U.S. Barracks,'' New York Times, March 
28, 1997.
    \57\ Louis J. Freeh, with Howard Means, My FBI: Bringing Down the 
Mafia, Investigating Bill Clinton, and Fighting the War on Terror (New 
York: St. Martin's, 2005), p. 19.
    \58\ ``Suspect in Khobar Towers Bombing Fights Deportation to Saudi 
Arabia,'' CNN.com, October 5, 1999.
---------------------------------------------------------------------------
                               conclusion
    It is by no means a foregone conclusion that Hizballah would carry 
out an attack in the homeland in the event of an attack on Iran, or if 
Hizballah's interests were otherwise threatened by U.S. action. It is 
still far more likely that Hizballah would attempt to carry out attacks 
targeting U.S. and allied interests in places where counterterrorism 
measures are not as robust, as it has over the past few years in 
Turkey, Azerbaijan, Egypt, and Thailand. Hizballah and Iran both prefer 
to carry out attacks for which they can claim reasonable deniability, 
and Hizballah recognizes that executing an attack on American soil 
would put the group squarely in the crosshairs of America's on-going 
struggle against international terrorism, something the group has 
studiously avoided since 9/11. That said, in the event Hizballah 
leaders decide an attack on American soil is in their interest, they do 
have the capability to execute terrorist attacks here in the homeland.
    I thank you for your attention and look forward to answering any 
questions you may have.

    Chairman King. Thank you, Dr. Levitt.
    Our next witness, Dr. Colin Kahl, who is an associate 
professor in the Security Studies Program in the Edmund A. 
Walsh School of Foreign Service at Georgetown University; from 
February 2009 to December 2011, Professor Kahl served as deputy 
assistant secretary of defense for the Middle East.
    In that role, he served as a senior policy adviser to the 
secretary of defense for Egypt, Iran, Iraq, Israel, and 
Palestinian territories, Saudi Arabia, Syria and Yemen, among 
other countries. His works have been published in foreign 
affairs, foreign policy, security, and The Los Angeles Times.
    Dr. Kahl, you are recognized. In the interest of fairness, 
if you go a few minutes over, I am not going to bang the gavel 
unless the Ranking Member insists I do.
    Dr. Kahl, you are recognized.

  STATEMENT OF COLIN H. KAHL, SENIOR FELLOW, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Mr. Kahl. Well, thank you. Chairman King, Ranking Member 
Thompson, distinguished Members of the committee, thank you for 
the opportunity to testify today on the Iranian threat to the 
United States, and specifically on the possible consequences of 
U.S. military action against Iran's nuclear program.
    Although until recently, I served, as you mentioned, as the 
deputy assistant secretary of defense for the Middle East, I 
need to make clear to everybody today that I am speaking today 
in my individual personal capacity, not as a representative of 
the administration.
    President Obama has made clear that an Iranian nuclear 
weapon is unacceptable, and that all options, including 
military force, remain on the table to prevent Iran from 
developing nuclear weapons.
    Yet President Obama has also made clear that he prefers a 
peaceful solution and that there remains a window of 
opportunity to take advantage of unprecedented pressure on Iran 
to reach a lasting diplomatic outcome.
    This is precisely the right approach. Force should remain 
an option. Indeed the credible threat of military action can 
help enable diplomacy. But we have not yet reached the now-or-
never moment for employing the military option against Iran and 
a diplomatic solution is both preferable and ultimately more 
sustainable.
    I base this conclusion on four arguments, which I go into 
in much greater detail in the written testimony.
    First, the nuclear threat from Iran is growing but it is 
not yet imminent. According to U.S. and Israeli intelligence 
officials and independent assessments, it would currently take 
Iran at least 4 months to produce sufficient weapons-grade 
uranium for a single nuclear bomb and at least a year total to 
produce a crude testable nuclear device.
    Once Iran's supreme leader, Ayatollah Ali Houmani decides 
to do so, it would take several more years to develop a 
miniaturized nuclear warhead for a missile.
    Although Iran is clearly positioning itself to developing 
nuclear weapons capability, DNI Director Clapper has testified 
that there is no hard evidence that Houmani has yet made the 
final decision to translate those capabilities into a bomb.
    Moreover, Houmani is unlikely to dash for a weapon anytime 
soon because doing so would require Iran to divert its low 
enriched uranium stockpiles and enrich to weapons-grade level 
at the declared enrichment facilities either at Natanz or at 
Fordo. Because international atomic energy agency inspectors 
would detect those moves, the Iranian regime is unlikely to 
break out until they can dramatically shrink their time line or 
build the weapons in secret, which could be years away. 
Therefore, we have not reached a moment of decision for the use 
of military force.
    Second, a military strike could produce significant 
escalatory and spillover risks. When and if a decision to use 
force is ultimately made, it must be done in full appreciation 
of the likely consequences.
    To reestablish its deterrent, Iran will likely retaliate 
with missile strikes against U.S. bases in the Gulf, proxy and 
terrorist attacks against U.S. diplomatic facilities in Iraq 
and elsewhere, an escalation of lethal aid to insurgents in 
Afghanistan and harassment of international shipping in the 
Strait of Hormuz.
    As our other speakers have noted, retaliation against the 
U.S. homeland is also conceivable. However, ever limited 
retaliation in the region could produce significant American 
casualties and drive pressure to the United States for further 
escalation.
    Although some believe an Iranian response would be 
carefully calibrated, mutual fears and miscalculations could 
lead to escalation on all sides.
    A U.S. strike would also produce significant spillover 
risks including much higher oil prices, the possibility of 
Iranian and proxy retaliation, including Hezbollah attacks 
against Israel, and the prospect of American allies in the Gulf 
being dragged in.
    A unilateral strike against another Muslim country would 
also further destabilize a region already caught up in the 
turmoil of the Arab Spring.
    Third, a strike will only delay, not resolve, Iran's 
nuclear challenge; short of invasion, occupation, and regime 
change, there is actually no way to use military action to 
ensure that Iran abandons its nuclear program.
    As American defense officials have repeatedly noted, a 
near-term attack on Iran's nuclear infrastructure would knock 
the program back at most a few years.
    It should be noted that a possible Israeli strike would 
produce similar risks of escalation and regional instability 
but with even more limited effects on the program.
    Meanwhile, in the aftermath of a strike, Iran would likely 
attempt to rebuild its program in a way that is harder to 
detect and potentially more costly to stop. Almost certainly an 
attack would motivate Iran's hardliners to kick out IAA 
inspectors and incentivize the regime to rapidly rebuild a 
clandestine nuclear infrastructure.
    Fourth, we still have time for diplomacy. The Iranian 
economy is struggling under the weight of unprecedented 
sanctions and Iranian leaders have signaled their willingness 
to return to the negotiating table.
    Diplomacy won't be easy but an opportunity exists for all 
sides to chart a new course and step back from confrontation. 
The immediate goal should be to reach an interim confidence 
building agreement that stops Iran from enriching at the 19.75 
percent level and ships the current 19.75 stockpile out of the 
country in exchange for fuel for the Tehran research reactor.
    The confidence building arrangement should also aim to halt 
further installation of centrifuges at the deeply buried Fordo 
enrichment facility near the Holy City of Qom. This would go a 
long way toward easing Israeli anxieties that drive a potential 
strike this year.
    A final diplomatic settlement that provides sufficient 
transparency and assurances against weaponization efforts, 
while respecting Iranian rights to civilian nuclear program 
under the nuclear nonproliferation treaty, will be more 
difficult to achieve. But unlike military action, it is the 
only sustainable solution.
    As our diplomats work with other members of the P5-plus-one 
to find a solution to the Iranian nuclear threat, I think 
Congress needs to avoid taking steps that unnecessarily box 
them in and limit creative options.
    For example, insisting that all Iranian enrichment 
activities be suspended prior to negotiations or ruling out any 
possibility for limited future enrichment, even under 
extraordinary safeguards, will only make a diplomatic outcome 
more difficult to achieve and therefore make a costly and 
unpredictable military confrontation more likely.
    With that, I will conclude and I look forward to your 
questions.
    Thank you, Mr. Chairman.
    [The statement of Mr. Kahl follows:]
                  Prepared Statement of Colin H. Kahl
                             March 21, 2012
    Chairman King, Ranking Member Thompson, distinguished Members of 
the committee, thank you for the opportunity to testify on the Iranian 
threat to the United States and the possible consequences of U.S. 
military action against Iran's nuclear program.\1\
---------------------------------------------------------------------------
    \1\ Much of this testimony draws on Colin H. Kahl, ``Not Time to 
Attack Iran,'' Foreign Affairs, March/April 2012.
---------------------------------------------------------------------------
    Iran's nuclear ambitions represent one of the greatest challenges 
to the security of the United States and the world. In recent months, 
as Iran's nuclear progress has continued, there has been growing talk 
in Washington of using U.S. military force to prevent Iran from 
developing nuclear weapons.
    President Obama has made clear that:
  <bullet> An Iranian nuclear weapon is ``unacceptable.''
  <bullet> All options--including military force--remain on the table 
        to prevent Iran from developing nuclear weapons.
  <bullet> The administration does not endorse a policy of containing a 
        nuclear-armed Iran.
    Secretary of Defense Panetta has described Iran's development of a 
nuclear weapon as a ``red line,'' and General Martin Dempsey, the 
Chairman of the Joint Chiefs of Staff, has said the United States has a 
viable contingency plan in the event of a conflict with Iran.
    Yet President Obama has also made clear that he prefers a peaceful 
solution and that there remains a window of opportunity to take 
advantage of unprecedented pressure on Iran to reach a lasting 
diplomatic settlement.
    This is precisely the right approach. Force should remain an 
option--indeed, the credible threat of military action can help enable 
diplomacy. But we have not yet reached the now-or-never moment for 
employing the military option, and a diplomatic solution is both 
preferable and the most sustainable path to preventing Iran from 
acquiring nuclear weapons. Military action is, and should remain, a 
last resort--and it should not be used until all non-military avenues 
have been exhausted.
    I base this conclusion on four arguments:
  <bullet> The threat from Iran's nuclear program is growing, but not 
        yet imminent.
  <bullet> The costs of military action are potentially very high, both 
        in terms of the escalatory potential of any U.S. strike and the 
        broader regional and global effects.
  <bullet> Military action is unlikely to result in a permanent 
        solution to Iran's nuclear threat.
  <bullet> Opportunities for a diplomatic solution have not yet been 
        exhausted.
     the nuclear threat from iran is growing, but not yet imminent
    According to U.S. and Israeli intelligence officials, and 
independent assessments by the Institute for Science and International 
Security, it would currently take Iran at least 4 months to produce 
sufficient weapons-grade uranium (WGU) for a single nuclear bomb, and 
at least a year total to produce a crude testable nuclear device, once 
Iran's Supreme Leader Ayatollah Ali Khamanei decides to do so. It would 
take several more years to develop a miniaturized nuclear warhead for a 
missile.
    Although Iran is clearly positioning itself to develop a nuclear 
weapons capability, James Clapper, the Director of National 
Intelligence, has testified that there is no hard evidence that 
Khamenei has yet made the final decision to translate those 
capabilities into a bomb. Moreover, Khamanei is unlikely to dash for a 
weapon anytime soon because doing so would require Iran to divert low-
enriched uranium (LEU) stockpiles and enrich to weapons-grade level at 
the declared enrichment facilities at Natanz or Fordow. Because 
International Atomic Energy Agency (IAEA) inspectors would detect such 
moves, the Iranian regime is unlikely to ``break out'' until they can 
dramatically reduce the time line to build several bombs or build a 
weapon at new covert facilities. This could be years away.
    Therefore, we have not yet reached a moment of decision for the use 
of force.
                     escalation and spillover risks
    Moreover, when and if a decision to use force is made, it must be 
done in full appreciation of the likely consequences.
    Should the United States decide to strike Iran's nuclear program, 
escalation will be difficult to manage on all sides. To reestablish its 
deterrent, Iran will likely retaliate with missile strikes against U.S. 
bases in the Gulf, proxy and terrorist attacks against U.S. diplomatic 
facilities in Iraq and elsewhere, an escalation of lethal aid to 
insurgents in Afghanistan, and harassment of international shipping in 
the Strait of Hormuz. Even such ``limited'' retaliation could produce 
significant American casualties and drive pressures in the United 
States for further escalation. And, because of the threat to the global 
economy, the United States could not turn the other cheek in the face 
of even minor Iranian provocations in the Strait of Hormuz.
    Moreover, although some believe an Iranian response would be 
carefully calibrated to avoid further escalation with the United 
States, there are reasons to believe this might not be the case.
    Regardless of U.S. intentions, an American attack on Iran's nuclear 
program would hit the crown jewel of the Iranian regime. It would 
therefore be difficult for Washington to communicate limited aims to 
Tehran. When combined with a decades-long history of mutual distrust, 
an Iranian predisposition to view all U.S. actions as aimed at regime 
change, the lack of reliable communication channels, and the inevitable 
fog of war, the prospects for an Iranian overreaction are high.
    Mutual fears and miscalculations could also lead to rapid 
escalation. In the immediate aftermath of a U.S. strike, the Iranians 
will fear further de-capitation strikes against their missile and naval 
forces and their command-and-control systems, encouraging them to use 
their retaliatory capabilities early in the crisis before they lose 
them.
    At the very least, to protect their military assets, Iran will 
likely activate its integrated air defense network and begin dispersing 
its ballistic missiles, anti-ship cruise missiles, fast attack naval 
craft, submarines, and mines. It will be difficult for the United 
States to discern whether these steps are purely defensive or a prelude 
to offensive operations--and the moves themselves will be incredibly 
threatening to U.S. forces and commercial shipping in the Gulf and 
Strait of Hormuz. Once a crisis starts, the incentives for pre-emption 
on both sides, and the prospects for miscalculation and inadvertent 
escalation, will therefore be very high.
    A U.S. strike would likely produce significant spillover risks as 
well, including: Much higher oil prices at a precarious time for the 
global economy; the possibility of Iranian and proxy retaliation 
against Israel leading to a wider war in Gaza, Lebanon, or Syria; and 
the prospect of American allies in the Gulf entering the fray. A 
unilateral attack against another Muslim country would also further 
destabilize a region already caught up in the turmoil of the Arab 
Spring. And, by allowing Iran to play the victim and demonstrate its 
``resistance'' credentials through retaliation against the United 
States and Israel, a strike could help resuscitate Iranian ``soft 
power'' across the Middle East at the very moment when Tehran is facing 
historic isolation and its only state ally in Syria is wobbling.
    Ultimately, if the United States and Iran go to war, there is no 
doubt that the United States would win in the narrow operational sense. 
Indeed, with the impressive array of U.S. naval and air forces already 
deployed in the Gulf, the United States could probably knock Iran's 
military capabilities back 20 years in a matter of weeks. But a U.S.-
Iranian conflict would not be the clinical, tightly controlled, limited 
encounter some predict, and the prospects for further destabilizing the 
region would be high.
    a strike will only delay, not resolve, iran's nuclear challenge
    The potential risks associated with a strike are therefore 
significant. The benefits are also likely to be more limited than some 
strike advocates assume.
    Short of invasion, occupation, and regime change, there is no way 
to use military action to ensure that Iran abandons its nuclear 
program. As senior U.S. defense officials have repeatedly noted, a 
near-term attack on Iran's nuclear infrastructure would knock the 
program back, at most, a few years. (It should be noted that a possible 
Israeli strike would produce similar risks of escalation and regional 
instability with even more limited effects on Iran's program.)
    Meanwhile, in the aftermath of a strike, Iran would likely attempt 
to rebuild its nuclear program in a way that is harder to detect and 
potentially more costly to stop. Almost certainly, an attack would 
motivate Iran's hardliners to kick out IAEA inspectors and incentivize 
the regime to rapidly rebuild a clandestine nuclear infrastructure.
    An attack could also rally domestic Iranian opinion around 
weaponization. Currently, there seems to be consensus among Iranians 
that the country has a right to a robust civilian nuclear program, but 
there is no domestic agreement yet on the pursuit of nuclear weapons. 
An attack could tilt the internal debate over the nature of Iran's 
nuclear program in favor of those advocating for a nuclear deterrent to 
prevent future attacks. And, depending on the target set, a strike 
could also produce significant Iranian casualties, increasing popular 
support for a regime that is otherwise struggling to maintain its 
legitimacy. As a result, there is a risk that a strike would doubly 
backfire by driving Iran to go for the bomb while strengthening the 
regime.
    To prevent Iran from reconstituting its nuclear program after a 
strike, the United States would have to be prepared to encircle an even 
more hostile adversary with a costly containment regime--much like the 
12-year effort to bottle up Saddam Hussein after the 1991 Gulf War--and 
be prepared to re-attack at a moment's notice. Moreover, in the absence 
of clear evidence that Iran was dashing for a bomb, a U.S. strike risks 
shattering international consensus, making post-war containment more 
difficult to implement. And, with inspectors gone, it would be much 
harder to detect and prevent Iran's clandestine rebuilding efforts.
    In short, far from being a substitute for containment, a military 
strike could be the prelude to a decades-long containment commitment 
against an even more implacable nuclear foe.
                           time for diplomacy
    Fortunately, we still have time for other options. Through its 
initial engagement efforts and subsequent success in forging 
international consensus to pressure the Iranian regime to live up to 
its obligations, the Obama administration has established the 
conditions for diplomatic progress. U.S.-backed pressure measures are 
clearly having an effect. The Iranian economy is struggling under the 
weight of unprecedented sanctions and Iranian leaders have signaled 
their willingness to return to the negotiating table. Diplomacy won't 
be easy, and we should manage our expectations of an immediate 
breakthrough, but an opportunity exists for all sides to chart a new 
course and step back from confrontation.
    The immediate goal should be to reach an interim confidence-
building agreement that stops Iran from enriching at the 19.75 percent 
level and ships the current 19.75 percent LEU stockpile out of the 
country in exchange for fuel for the Tehran Research Reactor. This 
would substantially reduce the near-term risk that Iran will succeed in 
compressing its dash time to generate WGU. A confidence-building 
arrangement should also aim to halt further installation of centrifuges 
at the deeply-buried Fordow enrichment facility near Qom. This would go 
a long way toward easing the immediate threat driving a potential 
Israeli military strike this year, and would therefore buy time for 
further diplomacy.
    A final diplomatic settlement that provides sufficient transparency 
and assurances against weaponization efforts while respecting Iranian 
rights to a civilian nuclear program under the Nuclear Non-
Proliferation Treaty (NPT) will be more difficult to achieve. But, 
unlike military action, it is the only sustainable solution. The 
Supreme Leader's repeated insistence that Iran's program is solely for 
peaceful civilian purposes, as well as his statements that the 
acquisition or use of nuclear weapons would be a ``grave sin'' against 
Islam, may or may not reflect his true beliefs. But they provide a 
public discourse that would allow the regime to climb down from the 
current nuclear crisis without losing face, so long as there are clear 
benefits to any final agreement and Iran's rights under the NPT are 
respected.
    As our diplomats work with the other members of the P5+1 (the 
permanent U.N. Security Council members, plus Germany) to find a 
solution to the Iranian nuclear threat, Congress should avoid taking 
steps that unnecessarily box them in and limit creative options. For 
example, insisting that all Iranian enrichment activities be suspended 
prior to negotiations, or ruling out any possibility for limited future 
enrichment even under extraordinary safeguards, will only make a 
diplomatic outcome more difficult to achieve, and therefore make a 
costly and unpredictable military confrontation more likely.
                               conclusion
    Some argue that highlighting the potential costs of an attack on 
Iran's nuclear program discredits the military option. The opposite is 
the case. Those who speak too cavalierly or clinically about ``surgical 
strikes'' and call publicly for a rush to war with Iran display an 
under-appreciation of the way the conflict is likely to unfold--both in 
terms of its inherent unpredictability and its human costs--and risk 
conveying to Iran that America is determined to go to war no matter 
what they do. That is a recipe for accelerating Iran's drive for a 
nuclear deterrent and creating a self-fulfilling prophecy of military 
confrontation.
    President Obama clearly understands the costs of war. But that has 
not stopped him from using force abroad--unilaterally or as part of a 
coalition--in defense of American National interests, even when doing 
so was politically risky. The President's decision to surge in 
Afghanistan, his support for the Libya operation, his relentless global 
counterterrorism campaign, and his authorization of the daring raid 
that brought bin Laden to justice provide ample demonstration. 
Moreover, even as the administration completed the drawdown in Iraq, it 
re-postured U.S. forces elsewhere in the region to clearly communicate 
to Iran that the United States would defend our partners and interests. 
So, when President Obama says all options are on the table to prevent 
the emergence of a nuclear-armed Iran, there is every reason to believe 
him, and it would be a serious mistake for Iran or anyone else to doubt 
American resolve. (As he recently told journalist Jeffrey Goldberg, ``I 
don't bluff.'')
    But the President is also right that we have not yet reached the 
now-or-never moment. Force is, and should remain, a last resort, not a 
first choice.

    Chairman King. Thank you, Dr. Kahl.
    As I stated, the full testimony of all the witnesses will 
be made part of the record.
    Does that Ranking Member have a unanimous consent request?
    Mr. Thompson. Yes. I would like to ask unanimous consent 
that a gentleman from Texas, Mr. Green, be authorized to sit 
for the purpose of questioning witnesses during the hearing.
    Chairman King. I have no objection but in the interest of 
fiscal austerity, can we start charging him rent for all the 
time he spends here with us?
    Mr. Thompson. Given that he is from Texas, I am sure he can 
accommodate you.
    Mr. Green. I am prepared, thank you, Mr. Chairman.
    Chairman King. Without objection, so ordered.
    Mr. Braun, regarding the Quds Force and as I said the title 
of the hearing is ``Iran and Hezbollah,'' but of course any 
offshoots, any variations of that, also are part of the scope 
of the hearing.
    Do you believe that the IRGC will be able to leverage the 
existing Hezbollah network that operates in this country to 
potentially conduct a terror operation?
    Mr. Braun. Well, with their past track record, you know, 
receives any weight whatsoever, then I would say yes, it is, 
you know, it is what they do.
    The Quds Force helped stand up Hezbollah many years ago. 
Where you find one, no matter where you go in world, where you 
find one, you most assuredly find the other.
    I am told that DEA agents and other investigators are 
routinely bumping into both of these threats as they are 
focused on criminal investigations, working with counterparts 
in austere places like the Macaroon Coast in the tri-border of 
South America, certainly in West Africa and in North Africa.
    As I said, both of these groups, their modus operandi is to 
identify existing elicit infrastructures and to leverage and 
exploit them for everything that they are worth.
    So, you know, Congressman King, I would say, you know, the 
answer to that is absolutely yes, they would tap into it.
    If I could just mention one other thing--listen, I retired 
from DEA in late 2008, and like Chris and Dr. Kahl, I no 
longer--you know, I don't speak for DEA; I no longer speak for 
our Government, but I am a concerned citizen.
    What I can tell is what I was saying as I had one foot in 
the door and one foot out the door in 2008 was there was a 
growing concern on my part that there was no doubt, Hezbollah, 
you know, had become heavily involved in the global cocaine 
trade, moving tons of the stuff out of the Andean region into 
West Africa onward into Europe and they are obviously making 
hundreds of millions of dollars a year behind that activity.
    But what concerned me most was is there was clear evidence, 
there were signs, that caused me to believe that Quds Force 
might actually be directing and managing the Hezbollah's 
illicit cocaine trafficking and their operations.
    Chairman King. Based on your DEA experience, are you 
surprised or not surprised in the unraveling of the plot back 
in October where the Iranians were going to use drug cartels to 
carry out the assignation?
    Mr. Braun. No sir, I am not. I mean it is something that I 
have been preaching for a long time.
    I have talked with you and professional members of your 
staff as well as other Members of this distinguished committee. 
I have talked with many of you over the years and your 
professional staff members and I think, you know, you all know 
that I have been talking about this for a long time; this 
growing confluence of drugs and terror.
    Well over half of the 50 designated terrorist organizations 
that we have identified or so designated formally are now 
involved in one or more aspects of the global drug trade. This 
quite honestly is a by-product of our success in prosecuting 
the global was on terrorism.
    State sponsorship in a large way, generally speaking, has 
declined, and we have significantly impacted and identified the 
funding streams to these groups from very powerful private 
donors. So these groups, if they want to keep their movements 
alive, are having to do other things to generate revenue. They 
are turning to contraband revenue.
    Chairman King. Okay.
    I am going to ask the staff to put back the photos that we 
had of the terrorists or the Hezbollah operatives in Charlotte 
who were actually trained.
    Was this unusual? For your work on the case, was it unusual 
for these operatives to be terror trained or was it your 
impression that that was not uncommon for Hezbollah operatives? 
I mean were these the exception?
    Mr. Swecker. I don't think it was anyone that was working 
the case thought it was unusual. These were things that we 
found during searches and were later used as trial exhibits. 
But to see them on the rooftops with, you know, rockets and AK-
47s was--we felt like vindication that we were going after a 
terrorist organization, not just a criminal group.
    It was a--it could very quickly morph into something else. 
We saw that level of commitment, we saw that inspirational 
material, pictures of suicide bombers marching in review, 
``Death to America,'' ``Death to Israel''--all that propaganda 
was present during the searches and introduced at the trial.
    Chairman King. I had said in my opening statement that in 
conversations, which a number of you had with our staffs and 
also with other conversations you have had with people of the 
intelligence community, they have put the number at at least 
the hundreds of Hezbollah operatives in this country. Does 
anyone dispute that, anyone? Is that too high? Is that too low?
    Mr. Swecker. I couldn't put an exact number on it. I do 
know that the 20 cases that you mentioned are only those cases 
where there is a direct nexus to Hezbollah mentioned in an 
indictment.
    There are many more cases out there being investigated and 
many more that have been prosecuted where there is a nexus, but 
it was much easier just to charge criminal indictment and not 
go through the whole process of using intelligence information 
at a criminal trial----
    Chairman King. Right.
    Mr. Swecker [continuing]. Which is a little bit cumbersome.
    Chairman King. Mr. Silber, does that number sound real to 
you, the hundreds?
    Mr. Silber. Yes.
    Obviously our focus is on New York City and we only see a 
piece of the pie but if you can extrapolate those numbers, it 
certainly seems like a reasonable count.
    Chairman King. Mr. Braun.
    Mr. Braun. I would say yes and, you know, let me just 
mention one thing.
    With respect to the LCB, or the Lebanese Canadian Bank 
investigation, that the DEA lead and worked with the Department 
of Treasury on, there were over 70 used car dealerships that 
were identified as part of the money laundering scheme for 
laundering the hundreds of millions of dollars of cocaine-
generated revenue, much of which was tracked back to Hezbollah.
    What concerns me, Congressman, of all those used car 
dealerships that were involved in that thing--I asked a 
question when the number was much lower at about 35 or 40. I 
said, ``How many of these businesses''--I asked our 
investigators--``How many of those businesses existed pre-9/11 
versus post-9/11?'' The answer was, ``Absolutely none.''
    So if, you know----
    Chairman King. I am going to actually--your time is running 
over, so I will have to----
    Mr. Braun. Okay. I agree with you.
    Chairman King. Okay.
    Dr. Levitt.
    Mr. Levitt. I think the number changes. It fluctuates. It 
is a significant number. But I also warn people that counting 
known Hezbollah operatives, for example, doesn't capture the 
whole picture. There is a spectrum of sympathy support and then 
trained operatives.
    I was getting on my testimony, Hezbollah could call on any 
of these individuals. One of the things I get to in my written 
testimony is Hezbollah's ability to extort people to do things 
they might not otherwise want to do and we have seen that 
activity in this country.
    As Mitch said, almost all these people have relatives back 
home and that puts them in a position where they can be 
extorted to do things, perhaps even violent things, that they 
may not have otherwise wanted to do. So the numbers are more 
than maybe just the number of cases.
    Chairman King. Recognize the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Professor Kahl, we have seen sanctions topple rogue 
governments in the past, as an effective tool. One country that 
comes to mind is South Africa. How do you see sanctions playing 
a role in addressing Iran at this point?
    Mr. Kahl. Well, I think it is too soon to tell. I think the 
issue with sanctions is that they often have a non-linear 
effect; that is, that they don't appear to be working until 
they do. I think actually in the initial phases of sanctions 
against Iran, they weren't sufficient to get Iran to 
fundamentally alter its nuclear behavior.
    But I think they may be approaching a tipping point, a 
threshold point, whereby the regime is sufficiently concerned 
about the economic damage, especially to its oil sector and the 
possibility for domestic unrest that could be associated with 
that, that they may be willing to strike a deal.
    so I have taken some solace from the fact that they are 
willing to come back to the negotiating table. My understanding 
is those negotiations could restart in a matter of weeks.
    I think we all need to manage our expectations about a 
breakthrough, but I think that we could start to step away from 
a confrontation and sanctions have a big part to do with that.
    I would say one other thing. You know, the supreme leader 
and Ahmadinejad and others say a lot of incendiary things, but 
one of things the supreme leader always says is that the 
acquisition or use of nuclear weapons would be a great sin of 
Islam.
    I don't know actually whether he believes that, but it is 
important that he says it because what that allows is the 
possibility that he could climb down from this crisis and claim 
that he never wanted to pursue nuclear weapons to begin with. 
So I think that they are creating a narrative that would allow 
them to step back and that we should explore that with 
diplomacy.
    Mr. Thompson. Well, beyond the sanctions, what are some 
other options you think that could be on the table, either 
presently on-going or potentially in the future?
    Mr. Kahl. Well, I can say that, you know, the Obama 
administration has actually been very successful in framing a 
whole-of-Government approach to this. There is obviously a 
State Department diplomatic isolation effort that is going on 
that is proving very successful. The Treasury Department and 
the State Department have worked very aggressively in sanctions 
along with this body, of course.
    We have done a lot on the military side to prepare so that 
when the President says all options are on the table, those 
options are actually on the table. So we have put a lot of 
assets in the theater in case there is a contingency with Iran.
    Then, of course, there are intelligence activities and 
other activities that are going on. So I think we have really 
taken a full-spectrum approach to Iran and, you know, I think 
we still have time to pursue that full spectrum approach.
    Mr. Thompson. I yield back.
    Chairman King. Recognize the gentleman from California, the 
former attorney general of California.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Silber, I don't know. If I were take the Ranking 
Member's opening statement at face value, I would have thought 
we wasted our time here because the indication was that all of 
you witnesses before us don't have any current information; it 
is all based on what you did the past.
    Mr. Silber, what you said today, is that based on out-of-
date information or are you privy to intelligence information 
even now?
    Mr. Silber. Yes, I mean, the information that I am basing 
my testimony over is live information, current information 
based on on-going investigations that are happening in New York 
City as we speak and, in general, working with Federal law 
enforcement agencies.
    Mr. Lungren. We were chastened not to look at just a 
snapshot in time. The 9/11 Commission criticized the United 
States Government for not connecting the dots. Aren't dots 
snapshots in time and you take them together and you analyze 
them and, therefore, you establish patterns and come to 
conclusions, Mr. Silber?
    Mr. Silber. In New York City, we use the 9/11 Commission 
study as almost a bit of a bible and we look to that to make 
sure that in our responsibility of keeping New York City safe, 
we learned the lessons that happen pre-9/11 and we have to, 
when we see it, sound the alarm without sounding alarmist.
    But based on the dots that we are seeing across the board 
overseas, whether it is Georgia, India, Bangkok, and, frankly, 
Washington, DC, we are concerned that we may be moving toward a 
point where either because of hostilities that break out or the 
perception of pressure on Iran that we may be moving forward to 
a higher likelihood of terrorist activity in the homeland.
    Mr. Lungren. Yes, my observation would be is if we ignored 
snapshots in time, we are being derelict in our duty and doing 
exactly what the 9/11 Commission said that Congress and the 
Executive Branch was guilty of the in the past.
    Mr. Braun, a number of years ago I worked with now Vice 
President Biden to get legislation passed to criminalize of 
operation of semi-submersibles and now we know they have quasi-
submersibles that is, that actually can operate a short depth 
under the ocean.
    It has always occurred to me that while the drug cartels 
use that to deliver drugs--and now they are large enough to 
actually deliver people--that that would be a vehicle of 
opportunity for those who would wish to perhaps introduce not 
drugs, but weapons, into the United States.
    Has that ever occurred to you? Do you think that is a 
legitimate concern and if, in fact, there is this connection 
between cartels and terrorist groups, including Hezbollah, 
ought that not to be a major concern to us?
    Mr. Braun. First of all, let me thank you for the 
legislation. It did a great deal in helping us to get a better 
handle on addressing that threat. I am not speaking from just a 
Federal law enforcement perspective, but it helped our Coast 
Guard and our Navy immensely. So, again, thank you.
    Look, it is one of those threats that I happen to still 
lose sleep over. These things are now fully submersible, able 
to dive to depths, and remain submerged up to 100 feet deep for 
significant periods of time. They carry as much as 8 or more 
tons of cocaine.
    They are typically--and, obviously, that takes up a lot of 
space, Congressman, and that contraband could be replaced with 
operatives. That contraband could be replaced with weapons, any 
number of things.
    It is important also that the FARC, the Revolutionary Armed 
Forces of Colombia, also a designated terrorist organization by 
our country, the European Union and several other countries, 
are the ones that are paying for and utilizing--paying for the 
manufacture of these things and, then, putting them into 
service. So that worries me.
    Finally, look, when these things now are capable of making 
it from the north coast of Colombia all the way into Northern 
Mexico, Southern California is just, you know--not much water 
separating that distance. It is something we should be 
concerned with.
    Mr. Lungren. I thank you for your testimony. I thank you 
for your service and I thank all the witnesses.
    Chairman King. The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member for holding this hearing, and for all of the witnesses 
that are here. Our time is very short. I will try to be cryptic 
in my questions. This is a whole area that really requires such 
a depth of investigation.
    Mr. Silber, I have no intent to make any statement on the 
work that you have done. I think we are all committed to 
working together to ensure that the homeland is protected. I 
just spoke about that earlier this morning.
    What legislative initiative that you believe is most 
important in directing efforts toward protecting the homeland?
    Mr. Silber. I think, in general, one of the issues that has 
been very important has been the terrorism financing issue that 
some of my colleagues here on the panel have spent a lot of 
time looking at, both in and out of Government.
    If we can constrict the ability for terrorist 
organizations, whether you are talking about an al-Qaeda or a 
Hezbollah or entities linked to Iran, and constrict their 
ability to move money and get money, you potentially limit 
their ability to act.
    So I think that is one particular form of legislation. We 
have seen it effective on the al-Qaeda front and we believe it 
is going to have a pinch on the Hezbollah and Iran front.
    Ms. Jackson Lee. Coming from New York, I remember 
distinctly how New York came together, but I also remember the 
commitment to not let the terrorists have us turn on ourselves.
    Do you still believe in the basic infrastructure of civil 
liberties and civil rights in the Constitution, even as we turn 
our attention to fighting terrorism?
    Mr. Silber. Yes, absolutely.
    As I mentioned in my opening statement, really all of our 
efforts in New York City are grounded in law as well as the 
U.S. Constitution. We realize that some of our best allies are 
going to be in the diversity of New York City and the 
communities that we have the ability to, in a sense, be the 
eyes and the ears and detect something before even law 
enforcement may become aware of it.
    So as much as those relationships can be strengthened, and 
that is something that our community affairs unit makes their 
highest priority, that in a sense safeguards all of us.
    Ms. Jackson Lee. Dr. Kahl--thank you, Mr. Silber.
    I want to continue that line of reasoning to the other 
gentlemen. I am well aware of the influence of drugs. I think, 
to Dr. Levitt, you had mentioned that you can see homegrown 
terrorism here as we speak. We obviously had evidence to the 
attack or the attempted attack on the Saudi Arabian ambassador.
    But Dr. Kahl, let me thank you for reinforcing the 
President's international perspective on Iran--is that he does 
not adhere to containment. That Iran having a nuclear weapon is 
unacceptable and he has not precluded any option, if you will.
    But I think what is important again, is the Nation's 
reinforcement that American citizens or those on our soil--the 
American citizens have civil liberties rights and certain 
protections under the Constitution. Is that still your 
understanding?
    Mr. Kahl. Well as a public official, I took an oath to 
uphold the Constitution. I believe that as an individual, too. 
So I think, you know, there can be trade space between our 
security and our liberty, but we have to be clear to preserve 
our liberty because that is what we are fighting for.
    Ms. Jackson Lee. You adhere to words that came out soon 
after 9/11 that we don't want the terrorists to force us to 
terrorize ourselves. You remember some paraphrasing like that?
    Mr. Kahl. In general, I think that we should avoid engaging 
in self-fulfilling prophecies; that is in taking steps that, 
you know, for good intentions that nevertheless have 
inadvertent consequences for a whole host of our values.
    Ms. Jackson Lee. But it is clear that Hezbollah has a far 
reach. I remember their horrific actions in Lebanon in the 
Lebanese war. But if you could focus on the homegrown 
terrorism, and your depth of understanding of Hezbollah's 
impact in influencing individuals that are here in the United 
States that would be the least-perceived operative--is that the 
way they are working; that they would be working with the 
least-perceived operative; someone who may not show themselves 
clear to be intending to do wrong?
    Well, does someone feel----
    Mr. Kahl. Yes, I am not really--Congresswoman, I am not 
really the right person to----
    Ms. Jackson Lee. Dr. Levitt, he is pointing to you.
    Mr. Levitt. I am sorry, I didn't know if you were asking me 
or him.
    I think that Hezbollah primarily will work through its own 
operatives and through its own networks, some criminal. But the 
FBI has made public the fact that Hezbollah has proactively 
also started looking for people who don't fit the main profile 
and, therefore, it is incumbent upon us to be aware of that as 
well.
    Again, since Hezbollah has the ability to extort and 
pressure people also who might not be willing followers, this 
is also a line of investigation that warrants attention.
    All of these efforts that have been put in place since 9/11 
make it more difficult for the known established, hardened 
operatives that we may already know about through other 
intelligence tripwires that we put out there. And so it is to 
be expected that whether it is Hezbollah or al-Qaeda or 
somebody else, they are going to look for people who don't fit 
the profile that we might normally associate with them.
    Ms. Jackson Lee. Mr. Chairman, I thank you for your 
kindness.
    I would like to work with this committee on this matter and 
I would just like to place on the record, Mr. Chairman, that I 
want to uphold in doing so, not racial profiling and not 
involving in labeling one group, but we need to work on this 
issue together.
    I thank the Chairman and the Ranking Member.
    I yield back my time.
    Chairman King. The gentlelady's input is always 
appreciated.
    The gentleman from Texas, Mr. McCaul is recognized for 5 
minutes.
    Mr. McCaul. Thank you, Mr. Chairman. Thanks for holding 
this hearing.
    You know, ever since I was a Federal prosecutor working 
with the Joint Terrorism Task Forces, I have been concerned 
about the presence of Hezbollah and the Quds Force, the 
influence of Iran in the Western Hemisphere; in many ways more 
sophisticated than al-Qaeda and you don't know what you don't 
know.
    We don't know how many of these operatives are in the 
United States. Certainly talking to Mexico, they are--and they 
don't really know how many operatives are in Mexico.
    Then after the plot to assassinate the Saudi ambassador 
went down--to me that was a bit of a game-changer because we 
always viewed, you know, Hezbollah and Quds Forces as more of a 
financing role.
    Then Operation Titan came down. The DEA had a very 
successful bust that showed a nexus between the Quds Forces and 
the drug cartels.
    To me this is a very dangerous cocktail. Operation Titan 
was more, you know, money laundering, but the idea that they 
could become operational at some point in the future working 
together, to me is a real risk.
    Then when you look at the connection between Karakas and 
Tehran; Karakas and Damascus; Mr. Ahmadinejad in his tour in 
the Western Hemisphere; the Castro connection; the idea that 
while Iran cannot deliver a nuclear missile; the idea that they 
could have weapons grade uranium and bring that across the 
Southwest Border in, say, a backpack and detonate a dirty bomb 
in the United States, does become a more real threat.
    So with that,--I guess, Mr. Braun, you are--being from the 
DEA, what do you see in terms of Clapper's testimony about them 
potentially becoming operational and also the potential ties 
between these drug cartels and the terrorist organizations?
    Mr. Braun. Well, you know, as I said, Congressman, the DNI 
used that example as proof of his key concern, the intel 
community's key concern, that Iran, you know, may have made 
kind of a monumental decision and may have decided to posture 
themselves; prepare for an attack on the homeland as things 
continue to heat up.
    He used that example to recruit what the Quds Forces 
operative believed was a member of the ultra-violent Los Zetas 
Mexican drug trafficking cartel as his key example to drive 
home that concern.
    Yet you know, this is the--really, it is proof that this 
witches' brew, quite frankly, is--it is bubbling over in many 
parts of the world.
    You know, when most people think of, you know, ``drugs 
terror nexus,'' they immediately think of, you know, Latin 
America. But let me be perfectly clear, as Europe's demand for 
cocaine continues to grow and as the Mexican and Columbian 
cartels, including the FARC have sent their operatives into 
West Africa and North Africa to establish the transshipment 
infrastructure needed to move tons of those drugs, these bad 
guys are now routinely coming in very close contact with the 
likes of Hezbollah, Hamas, al-Qaeda, who are buying for the 
same money, the same turf and the same dollars.
    It is really a nightmare scenario. My point being is that 
if anyone thinks for a moment that Hezbollah and Quds Force, 
the masters at leveraging and exploiting existing illicit 
infrastructures globally, are not going to focus on our 
Southwest border, and use that as perhaps a spring board in 
attacking our country, then they just don't understand how the 
real underworld works.
    Mr. McCaul. In fact Kourani crossed the border, as Dr. 
Levitt had mentioned. My time is limited, but we sent a letter 
to the President calling for significant covert action in Iran, 
cyber, and also the designation of the Quds Force as a foreign 
terrorist organization.
    I was surprised, given the bombing of our Marines in 
Beirut, Buenos Aires, the Jewish Community Center--that they 
are not on the Foreign Terrorist Organization list.
    I introduced the bill this morning, along with the 
Chairman's support to do just that. Would that be helpful in 
terms of giving us more authorities to go after the Quds Forces 
in the United States?
    Mr. Braun. You know I think it would. But even more 
importantly, it makes them a target. Our Nation's security 
resources and apparatus understands that they are now a 
designated foreign terrorist organization and it just naturally 
causes them to focus more heavily on that threat.
    That designation means a great, great deal.
    Mr. McCaul. Thank you.
    Chairman King. The gentleman's time is expired.
    Mr. Higgins is recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Firstly, let me just say I was proud to join with my 
colleague, Jeff Duncan to introduce H.R. 3783, the Countering 
Iran and the Western Hemisphere Act, which I am pleased to say 
was marked up and passed in the Foreign Affairs Committee 
earlier this month.
    The legislation would call for the State Department to 
investigate Hezbollah's presence in the Western Hemisphere and 
create a long-term comprehensive strategy for keeping our 
communities and our Nation safe.
    The purpose of this legislation, or the inspiration, came 
from hearings in this very committee, where expert witnesses 
had informed our committee that Hezbollah has a presence in the 
20-country region of Latin America, but also in 15 American 
cities, as well as four Canadian cities.
    We were also told in subsequent testimony that we shouldn't 
be all that concerned about that presence because their 
activities were limited to fundraising.
    Well, that is not comforting. I think where there is a 
presence, there is an intent and there is a severe threat.
    We all know Hezbollah is a terror organization that commit 
to violent jihad. They act as a proxy for Venezuela, for Syria 
and for Iran. Their presence in Latin America could also be 
viewed as a pervasive presence toward the goal of having a 
greater presence in North America.
    I also want to recognize the work of the New York City 
Police Department. Following, you know, the recommendations of 
the 9/11 Commission, the New York City Police Department has 
established itself as probably the most effective 
counterterrorism organization of the world.
    It is a difficult balance between keeping the homeland safe 
and protecting individual liberties, but I think they have done 
a very good job in that regard.
    So I would just like to hear from our witnesses about not 
only the presence of Hezbollah in the Western Hemisphere but 
specifically the threat in North America by their presence.
    Mr. Silber. Thank you, Representative.
    You know, I think the dynamic that we heard about in North 
Carolina with this cigarette case, where you had conducting 
criminal activity; that criminal activity was funding Hezbollah 
operations, or Hezbollah activities overseas by its 
transmission to Lebanon--you had a population of people who 
were fundraisers, but at some point in time, could be turned 
into facilitators, and ultimately operatives; and the fact that 
some of these individuals had military training that they had 
received from Hezbollah in Lebanon.
    I mean, all those dynamics that you heard about in that 
case are all dynamics that map very well to the current 
situation in New York City. Without going into details about 
the investigations that we have going on, those map very much 
in parallel to what we are seeing in terms of the type of 
people, the type of backgrounds, and the type of activities 
that are going on.
    Mr. Swecker. Yes, I think what is noteworthy about that 
case, and I think it is an indication of how Hezbollah operates 
throughout the United States, is they are burrowed deep into 
our society already. They have been around a lot longer than 
al-Qaeda, and a lot longer than al-Shabab, and some of the 
other shiny objects that we are concentrating on now.
    I think we need to--they understand how to use our 
financial system. They got an SBA loan, a false loan. They 
bribed a loan officer. Credit cards--they understood the 
financial system, how to exploit the immigration system.
    So they are well entrenched in society, and well positioned 
to do something, or facilitate someone else coming in and doing 
something and blending in. They can manufacture documents. It 
is all there, and it is all in place. They don't have to make 
it happen. It is already well in place.
    The good news is there is 104 Joint Terrorism Task Forces 
across the country. You got 56 field intelligence groups, and 
you have got a new preventative mindset out there, instead of 
reacting to what is going on. I think our intelligence 
community and the FBI, and NYPD, and other agencies are out 
there shaking that tree. I think we are well positioned to know 
what they are doing.
    Mr. Braun. You know, Mike Chertoff, when he was the 
Secretary of Homeland Security--in fact, it may have been 
before this committee--as he had one foot in the door and one 
foot out, about 4 years ago, testified about the threat posed 
by Middle Eastern terrorist organizations on the United States.
    Then-Secretary Chertoff said that, you know, we need to 
maintain the focus on al-Qaeda--a shiny object, a very shiny 
object, and, you know, a real threat. But he said the real 
threat is Hezbollah. Hezbollah has what al-Qaeda could only 
dream of having.
    They have established relationships with the most powerful 
international drug-trafficking and organized-crime syndicates 
ever faced by law enforcement. They obviously maintain close 
relations with other designated terrorist organizations around 
our globe.
    Congressman, whoever told you that Hezbollah is now in 15 
cities--I think they woefully underestimated it. Part of the 
problem that we got is we don't really know. That is what 
worries me a great deal.
    Congressman Lungren, you brought out the importance of 
connecting the dots. That is important. But what we need to get 
to the business of is actually producing more dots to connect. 
I think that NYPD is doing just that within the rule of law. 
That is extremely important. Quite frankly, I think that 
Federal law enforcement could learn a great deal from the NYPD 
model.
    Chairman King. Gentlemen, the time has expired.
    Mr. Cravaack is recognized now.
    Mr. Cravaack. Thank you very much. I would like to thank 
the chair for having these, what I consider very important, 
illuminating discussions here.
    Mr. Braun, sir, you said that one of the things that has 
been apparent is that Hezbollah is entrenched; it is organized 
probably much different than a lot of the other agencies or 
characters that we have seen in the past. Would you agree to 
that statement?
    Mr. Braun. Absolutely; highly sophisticated organizational 
and operational structures.
    Mr. Cravaack. It is interesting in your prepared testimony 
you said, ``In the context of this hearing, it is important 
that we remember that the Quds Force is also responsible for 
Iran's strategic missile program. And many experts believe they 
will be holding the keys to the country's nuclear weapons 
program, if it makes it off the ground.'' Is that correct?
    Mr. Braun. That is correct.
    Mr. Cravaack. Now, if I understand it correctly, the Quds 
Force reports directly to Iran's supreme spiritual leader, the 
al-Khomeini; is that correct?
    Mr. Braun. I am not an expert on Iran, but that is my 
understanding. Yes, sir.
    Dr. Kahl, could you come on in?
    Mr. Kahl. Yes, the Quds Force reports up through the IRGC, 
the Revolutionary Guard Corps, to the supreme leader. The head 
of the Quds Force, Suleimaini, is a close confidant of the 
supreme leader.
    Mr. Cravaack. Also, sir, in your testimony, you mentioned 
in regards to sanctions. Now, the difference in my opinion--it 
is much different from having sanctions towards a politically 
based country versus an ideology-based country. Would you agree 
to that?
    Mr. Kahl. I guess it depends on what you mean. If it speaks 
to whether Iran is a rational-enough actor to make a strategic 
calculation in the face of these, you know, pressures on them.
    I think the conclusion of our intelligence community, as 
well as the chairman of the Joint Chiefs of Staff, as well as 
the former chief of Mossad, Meir Dagan, is that they are 
sufficiently rational, and sufficiently strategic to be able to 
make calculations that threaten the regime.
    I think when the regime is at risk--I think that sanctions 
arising to the level that they could force the regime to back 
down.
    Mr. Cravaack. Would Hezbollah be considered a rational 
actor?
    Mr. Kahl. Actually, I think that you see Hezbollah and its 
activities, vis-a-vis Israel and others, trying to calibrate 
its activities.
    The Iranians do this, too. You know. They use force in the 
form of subversion, militancy, terrorism. But they try to 
calibrate their attacks to a level below that which would 
generate a massive retaliation.
    In fact, in 2006, Hezbollah probably miscalculated when it 
kidnapped those Israeli soldiers leading to the war there. I 
think it learned a lesson from that. I would just say one 
thing.
    I think there has been a lot of talk about the possibility 
that if the Quds Force controlled the nuclear program and its 
ties with Hezbollah or drug cartels, that they would somehow 
pass a nuclear device, or a radiological device that would find 
its way into the homeland.
    You know, you can never say ``never,'' but that would be 
very, very, very unusual, because the regime in Tehran is not 
suicidal, and would know that doing that would generate massive 
retaliation. it is worth noting that Iran already has weapons 
of mass destruction. They have chemical weapons.
    They have never passed those weapons to Hezbollah, for 
precisely the reason that they try to calibrate their 
activities below the level that they think would generate 
massive retaliations. So I think nuclear terrorism is very 
unlikely.
    Mr. Cravaack. Well, that was one of my concerns, actually.
    Mr. Silber, can you give me a definition of what a dirty 
bomb is? Are you capable of providing that?
    Mr. Silber. Yes.
    I would say generally what we are looking at is an 
explosive device that entails the utilization of some type of 
radioactive material. it is not at the sufficient strength to 
be a full-blown nuclear weapon, but the radioactive material 
that is included in this explosive device might render certain 
areas unlivable for a period of time.
    Mr. Cravaack. Possibly up to a year?
    Mr. Silber. Possibly up to a year; actually, possibly 
longer.
    Mr. Cravaack. Mr. Braun, you said that we have identified 
that Hezbollah has pre-established routes into the United 
States. Would that be a correct statement?
    Mr. Braun. That would be a correct statement.
    Mr. Cravaack. In understanding the nuclear capability, the 
low-level radiation that would--nuclear material that actually 
would be needed for a dirty bomb could be pretty easily 
transported through those routes. Would I agree to that?
    Mr. Braun. Well, you know, Congressman, there are hundreds 
of tons of narcotics that take up large spaces that are moved 
across that border every single year. So moving a dirty bomb or 
any other weapon of mass destruction would--I don't believe 
would be all that difficult.
    If I could say one thing----
    Mr. Cravaack. Yes, sir.
    Mr. Braun. I was not trying to imply in any way that I 
thought the Quds Force would do that. With that said, never say 
``never,'' just as the doctor said.
    What concerns me is, the same organization, the Quds Force, 
that now holds the keys to the strategic missile program, may 
well be holding the keys to Iran's nuclear weapons arsenal at 
some point in the future.
    That same organization that was responsible for trying to 
hatch this crazy plot to assassinate the Saudi Arabian 
ambassador right here on U.S. soil. That is what we need to be 
concerned about. These guys obviously are not, at least always, 
acting with a sound mind and sound purpose.
    Mr. Cravaack. Your point was well taken, sir. I understand 
that; that is what was my question--about rationality of the 
threat.
    My time has expired. I yield back.
    Chairman King. Thank you. The gentleman yields back.
    The gentlelady from New York, Ms. Hochul, is recognized for 
5 minutes.
    Ms. Hochul. Thank you, Mr. Chairman. I appreciate the broad 
view of what the threat is in North America. I am going to be a 
little more parochial.
    I represent the border of Canada in Buffalo. We have four 
border crossings. We have had threats. We have had problems in 
our area.
    I want to know whether there is an overall impression of 
the collaboration that is going on between the United States 
and Canada with respect to, for example, the presence Hezbollah 
has in Toronto.
    Do we have a good grasp of what is going on in Toronto? As 
much as I love New York City, Mr. Chairman, it takes me 8 hours 
to drive from Buffalo to New York City from my district. It 
takes me about an hour to get to Toronto. So even though it is 
a foreign country, it is closer. That threat is right there. It 
could affect the people in my region as well.
    So I just want to know, the collaboration we have with the 
Canadian government, is it adequate? Do we have adequate 
resources to protect the Northern border? What is our knowledge 
of what is going on in Toronto?
    Mr. Swecker. CSIS, I think, in Canada, has declared 
Hezbollah their number one threat, if I am not mistaken. I 
think they are very much on top of what Hezbollah is doing. We 
relied heavily on their version of FISA material for our 
prosecution. They had some excellent evidence up there. They 
have been all over this very same group.
    So I think they are--I think they are very much on top of 
Hezbollah and the threat with Hezbollah. There is regular 
contact with them and our domestic intelligence services, and 
of course, the agency.
    So I don't think there is any doubt that Canada is very 
much attuned to the threat posed by Hezbollah and the border 
crossings.
    But as Mike pointed out, the leaky border, the leakiest 
border is the Southwest Border. There is no doubt about that. 
That is where most of the drugs are coming across. That is 
where the well-established routes are. There are well-
established tradecraft, concealments and that sort of thing. We 
could go through a whole hearing about how well they can hide 
material coming across the Southwest Border.
    Ms. Hochul. Again, I am very attuned to the attention we 
give to the Southwest Border and it is deserved, but then I am 
also concerned that we neglect, you know, it is hard to see--
you know we had the Lackawanna Six Case in my community.
    Those people came over through Canada, they walked in and 
got a legitimate driver's license, and they did what they did. 
So that is why I am concerned as well. I mean these were U.S. 
citizens who collaborated with people from Canada as well. So 
there is a lot involved even in our pocket of the world and I--
again, the Southwest Border needs protection.
    I want to make sure that we have the adequate resources on 
the Northern Border because--and we have a great relationship 
with Canada, they do what they can--but I want to make sure 
that that is considered a high priority of our Government as 
well.
    Mr. Levitt. If I can add, the Canadians are great. We have 
done also wonderful things, and their cooperation is wonderful.
    But when I was last before this committee, I mentioned I am 
finishing a book on Hezbollah's global presence right now. I 
have had the opportunity not only to interview U.S. law 
enforcement, but many foreign law enforcement intelligence 
agencies as well, especially in Canada.
    On both sides of the border, people have told me their 
concern about the ability, even today, for Hezbollah operatives 
to be able to be able to cross that border. Again, I point you 
to the example of Fawzi Ayub. It is in my testimony. He was 
involved in a Hezbollah hijacking before he came to Canada. He 
was involved in terrorist activity after Canada. At one point 
he was living in Dearborn, going across the border.
    I spoke to U.S. officials in different communities along 
our Northern Border, several of whom expressed to me their 
concern that perhaps in the event that Hezbollah decides to 
carry out an attack here, the individual might not be someone 
in the United States, but someone just across the border who 
could come across with documents either forged or illegally 
obtained, but otherwise accurate, and do some things.
    But the good news is that people on both sides of the 
border are very attuned to this. The cooperation really is 
very, very good and so I think that that has done a lot to 
minimize the threat.
    Ms. Hochul. The Pentagon has proposed cuts to the Niagara 
Falls Air Reserve Station, which is in my district right on the 
border of Canada. Would you agree with this threat that exists 
in Canada as well as in our homeland that it probably makes 
sense to keep a military presence strong on that border?
    Mr. Levitt. Honestly, I think it is apples and oranges. I 
don't know that the military base there has anything to do with 
border security. I don't know, maybe it does.
    Mr. Higgins. It does.
    Mr. Levitt. What I would want to make sure is that the 
people who are involved in border security--border patrol, FBI, 
DHS--they have the strong presence there. But that base may 
have nothing to do with this issue. I don't know.
    Ms. Hochul. Thank you. Another question?
    I yield back the balance----
    Mr. Braun. Congresswoman, if I could just quickly say 
something, I--before I was transferred back to DEA headquarters 
for the third and last time, I served as the special agent in 
charge of the Detroit field division for DEA. Now I can tell 
you that in those days, the DEA, the FBI, ICE, all agencies 
shared great relations with our Canadian counterparts and I 
believe that that continues to this day.
    What concerns me about the Northern Border is our obsession 
with defending the one-yard line, which has been, you know--
which has been the Southwest Border. We need a defense in 
depth. We need to focus on shoring up the Northern Border and 
then going even further South into Latin America, as far as 
that border's concerned.
    If you look at just the simple geographical enormity of the 
Northern Border--twice the size of the Southern Border. If you 
look at the border patrol resources on the Northern Border 
versus the Southern Border--I mean there are areas where folks 
could cross by the thousands and no one would ever know it. 
That is what concerns me about the Northern Border.
    Ms. Hochul. I agree 100 percent. Thank you very much.
    Chairman King. The gentlelady yields back.
    The gentleman from South Carolina, Mr. Duncan is 
recognized.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for your 
willingness to hold this hearing.
    The panel, I think, has done a fabulous job, along with 
this Congress, going back for the last year, of really clearly 
showing that there is a clear involvement of the Iranians; 
specifically Quds Force and their proxy Hezbollah, in this 
hemisphere.
    You know, others in the world are starting to take notice, 
there is an article--and I reference the Center for Army 
Lessons Learned--the gentleman, Norman A. Bailey, I believe has 
testified before Congress. He says this, ``The curious thing is 
that this interest in the hemisphere represents''--and this 
article is entitled, ``What are the Persians Doing Over Here?'' 
Okay?
    Here is the thing that is--that, ``This interest in this 
hemisphere represents the first time in the 5,000 year history 
of Persia as a sovereign entity that such interest has been 
demonstrated. There is no affinity whatsoever between the 
monarchic or Islamic Iran and the countries on this side of the 
Atlantic--historical, cultural, political, economic or 
otherwise.
    ``Nevertheless, as we shall see, the last few years have 
seen a totally unprecedented level of interest by Iran in the 
region.''
    I think that clearly sums up the question that we are 
talking about today.
    I want to thank Mr. Higgins for referencing a bill, H.R. 
3783, that I sponsored; bipartisan bill that passed out of the 
House Foreign Affairs Committee. It is headed to the floor for 
a vote. Members of this committee hopefully will have an 
opportunity to bring some of the lessons learned from this 
panel and this hearing to the debate on the floor to pass this 
bill out and focus on the Iranian threat and what the United 
States can do to counter that.
    When I said others are beginning to notice this threat, I 
will reference Univision's documentary recently which basically 
pointed out a lot of the things that the Iranians are involved 
in; in fact, the cyber-terrorism threat, using the Venezuela 
consulate in Miami and the resulting removal of one lady from 
that consulate back to Venezuela.
    There was an article today in the Jerusalem Post that talks 
about why Congress suddenly cares about Iran, the Iran threat 
and Latin America. That was just today in the Jerusalem Post. 
So the threat is real.
    So I guess the question I have--we have identified it. We 
are all on the same page of this as a real threat.
    So I ask the witnesses and I will start with Mr. Braun. 
What can we do now? What can the United States Government and 
this Congress do going forward?
    Mr. Braun. Great question. I have got three things.
    What we need is interlocking counter-narcotics and 
counterterrorism strategies that--you know as, the bad guys 
have come together, agencies and institutions in this town that 
are focused on counter-narcotics or counterterrorism are 
drifting further appoint.
    We need interlocking strategies and we need singular 
funding streams because, as you know, Congressman, that is 
what, you know, drives agencies and their strategies in this 
town. That is extremely important.
    The second thing that I would say is we need to develop or 
focus more on a defense-in-depth strategy. We have been 
singularly focused almost on defending the one-yard line, the 
Southwest Border. There is--you know, I am not saying that we 
didn't need to beef some things up there after 9/11. We most 
certainly did.
    But any strategy that is designed to defend the one-yard 
line, as you well know--a former athlete--you know, it is a 
strategy that is doomed to failure.
    Right after 9/11, about 60 percent of all of DOD's D&M or 
detection-and-monitoring assets in Latin America went away. 
They were sent to other parts of the world. Rightfully so, but 
most of those resources occasionally on a daily or a weekly 
basis, they may filter back in but then suddenly they are gone 
again.
    We have lost too much capacity in our neighborhood to keep 
things in check and we need to do a better job at doing those 
things.
    Then I would finally say that, you know, we need to refocus 
on confronting or refocus on the traditional organized-criminal 
types of activity; drugs, money laundering, arms trafficking, 
human trafficking.
    We need our Federal agents--especially our Federal agents--
and Federal law enforcement personnel going head on into these 
threats because, naturally, they will, if they are engaged in 
that kind of activity--naturally, they will become either 
directly or indirectly in contact with very powerful terrorist 
organization operatives and terrorists that are in our 
neighborhood.
    Let me remind you that that is exactly what happened. That 
is how that plot was foiled against the assassination plot 
against the Saudi Arabian ambassador. There was DEA information 
and his DEA handlers that were focused on drugs and money that 
brought him into contact with a Quds Force operative that was 
communicating directly back with Quds Force central.
    We need to refocus on the traditional threats.
    Mr. Duncan. Right. You mentioned the word neighborhood----
    Chairman King. The time of the gentleman has expired.
    Mr. Duncan. Yes, thank you.
    Chairman King. The gentlelady from California, Ms. Hahn.
    Ms. Hahn. Thank you, Chairman King.
    This has been a great hearing. I had to step away to 
actually meet with some port officials who are here this week 
with the--they are having a conference with ports all across 
this country. My questions are--I am just going to throw the 
three questions out and then maybe you can all decide who would 
like to answer.
    No. 1 is--what keeps me up at night is our ports and what I 
believe is a lack of real attention from Homeland Security on 
securing our ports--wondering if any of you could comment on 
that.
    When Mr. Cravaack talked about dirty bombs--you know, we, 
by the way, are scanning less than 3 percent of our containers 
that come into this country through our various ports. How easy 
would it be for this terrorist organization to infiltrate our 
homeland through our ports? I think they are the most 
vulnerable entryway into this country, but I would like to hear 
what you have to say about it.
    Also, just talking about connecting the dots--and as you 
described that was how one of these plots was foiled--was 
really connecting the dots. I know we are making tough choices 
back here in terms of spending cuts and funding opportunities 
going forward. You know, we had a committee hearing, I guess it 
was last month, on the Fusion centers and how important those 
are throughout our various cities in connecting the dots.
    For my perspective, Los Angeles and LAPD--how much are our 
organizations talking to our local law enforcement on the 
ground?
    So kind of speak to the funding cuts that we have already 
proposed in terms of how does that affect these programs going 
forward? If somebody could, speak about whether or not port 
security is kind of a hole in all this operations.
    You know, the other thing I was thinking about when you 
were talking about these guys getting SBA loans, which is 
amazing to me because one of the things I hear from my small 
business in my community is how difficult it is to access SBA 
loans; the amount of paperwork they have to go through and the 
collateral that they have to put up.
    That is one of the biggest concerns for my small businesses 
is their inability to access small business loans. So are we 
sharing these kinds of concerns with our Small Business 
Administration on the ground in the different cities where 
these loans are being processed? Is this information that we 
are sharing with the proper administration in the Federal 
Government?
    Mr. Swecker. Can I take a quick shot at that one; because I 
think it is a follow up to Congressman Duncan's question about 
what else can be done.
    You know, one of the issues with 9/11 was the 
compartmentalization of information and that failure to connect 
up the dots, and everybody holding their information close.
    So what I think Congress can do is break down those walls; 
continue to break down those walls and facilitate the use of 
technology. The banks and the insurance companies and the 
private sector are using information every day to gather 
information for marketing purposes. There is no reason why we 
can't break down those walls of data within the Government and 
make matches and link up information and connect up those dots 
and also making sure that law enforcement and the intelligence 
community has the tools.
    Technology is moving ahead fast and the ability to stay up 
with interception capabilities and that sort of thing needs to 
keep up with the technology that is out there. I think the 
intelligence community struggles with that.
    So making sure that they have the right tools and breaking 
down the walls of information are two very important things to 
keep in mind.
    Mr. Levitt. I will just add, you know, for the research of 
my book, I spent a decent amount of time out in California not 
only with LAPD and LA Sheriff's Department, but FBI Long Beach 
and also in terms of the ports, at Long Beach Port.
    I am actually very impressed with the work they are doing. 
I think there is an issue in terms of the ports and there was 
that one-yard line. There are some excellent efforts being done 
by DHS in support of the bureau--a good friend of mine and Mr. 
Swecker's--on trying to deal with the container issues not only 
when they get into our country; but in terms of that, there is 
going to have to be some risk analysis.
    In terms of connecting the dots, I have to say, I have been 
tremendously impressed, specifically in Southern California and 
elsewhere as well--but you asked about Southern California; 
about the work of the Fusion Center there which is located out 
at LA Sheriff's Department.
    But almost every time I am there I see people from FBI. You 
know, there is not only people who are detailed there, but they 
are working together all the time. I think it is a world of 
difference from when I was working at the FBI pre- and just 
through 9/11.
    Mr. Braun. Just quickly, ports--I think they pose a 
significant risk. As you said, less than 3 percent of all the 
containers are being scanned.
    So how do you counter that? I would go back to a defense-
in-depth strategy. Those things are all emanating from other 
parts of the world. We need a defense-in-depth strategy. We 
need more resources abroad to identify these threats, develop 
the intelligence, and then make sure that it is shared where it 
should be.
    With respect to Fusion centers, they are great. The only 
concern that I have got is that so many of these things are 
regional in scope. So those that are utilizing them have got a 
regional snapshot of what is happening in the region.
    What we have got to get better at is connecting the Fusion 
centers so that those who are using them and need them the most 
see the most accurate photograph, or picture, or snapshot that 
they possibly can.
    Chairman King. The gentlelady's time expired, and I thank 
her for support she gives to the work of committee.
    I recognize the gentleman from Missouri, Mr. Long, for 5 
minutes.
    Mr. Long. Thank you, Mr. Chairman, and thank you to all the 
witnesses for being here today.
    Dr. Kahl, I would like to ask you--given the geographical 
obstacles and logistical concerns, is Israel even capable of 
striking Iran's nuclear facilities by themselves?
    Mr. Kahl. They are capable. It depends on what the target 
set is, but they would likely have to go after the Natanz 
enrichment facility, the Fordo enrichment facility, the Iraq 
heavy-water plant, the Isfahan uranium conversion facility, and 
likely a number of other places.
    They would need dozens and dozens of aircraft to be able to 
fly 1,000 miles to those targets. They have the military 
capability to do it. That said, they don't have the military 
capability, I don't assess, to set the program back very far. 
That is, they can get to their target; they can drop bombs on 
their target. But senior U.S. defense officials have 
consistently said that they think Israel, at most, could set 
the program back 1 to 3 years. The lower end of that estimate 
seems more likely to me.
    Mr. Long. Okay, 1 to 3 years--that brings up my next 
question.
    How many years has it taken Iran to get to this point in 
its development of nukes?
    Mr. Kahl. The nuclear program started under the Shah, so it 
has been multiple decades since the 1970s.
    Mr. Long. So it has taken 40 years to get to this point.
    Mr. Kahl. Yes. Our kind of proliferation efforts, both in 
the previous administration and this administration, has slowed 
them down appreciably. I mean, they continue to make progress, 
progress that is troubling, but they continue to be slowed down 
as well.
    Mr. Long. An attack carried out by Israel would only set 
the program back 1 to 3 years, in your estimation, is that 
accurate?
    Mr. Kahl. Correct. I think the lower end of that estimate 
is more likely.
    Mr. Long. Okay. What does it take to--what do they need to 
do to develop a nuclear weapon?
    Mr. Kahl. Well, there are several major components.
    Mr. Long. Right, what are they?
    Mr. Kahl. Yes. The first is weapons-grade uranium.
    Mr. Long. Right.
    Mr. Kahl. That requires them to enrich to above 90 percent. 
So far they have enriched a stockpile sufficient for about four 
bombs' worth of weapons-grade uranium, but they have only 
enriched it to 3.5 percent. Then they have also a smaller 
stockpile of 20 percent in----
    Mr. Long. At 3.5 percent, and they have to have it at what 
level?
    Mr. Kahl. So they have enriched several tons' worth of low 
enriched uranium at the 3.5 percent level, which is the reactor 
fuel level. They have also enriched a certain amount of--20 
percent uranium ostensibly for the Tehran research reactor.
    To go up to weapons grade, they would have to enrich that 
existing stockpile up above 90 percent which, according to 
independent estimates, would take them somewhere in the 
neighborhood of 4 to 6 months. But it is important to note that 
if they tried to do it, they would have to do it either Natanz 
or Fordo, which are both under inspection, which means they'd 
get caught.
    So the first component is weapons-grade uranium. The second 
component is that they would have to have a weapon's design and 
have done all of the various experimentation and manufacturing 
to actually construct even a crude device. Then they would have 
to figure out a way to deliver that weapon, which is why you 
have an estimate of about a year total from a decision to be 
able to generate a testable device, and several years to be 
able to put one on a missile.
    Mr. Long. So you have to have the delivery system.
    Mr. Kahl. You have the weapons-grade uranium, you have to 
have the weapon's design and you have to actually assemble it 
and you have to have the delivery system.
    Mr. Long. There has to be test of the delivery system, 
right, or not?
    Mr. Kahl. Well, it depends. It depends, you know, if they 
are going to do an implosion device that is sophisticated 
enough to be put on the tip of a missile, they are probably 
going to have to test that. If they do a crude gun-type device 
like the weapons that we deployed in World War II, at the end 
of World War II, they might not have to test that.
    Mr. Long. In your testimony you say, and I quote, I 
believe, ``Meanwhile, in the aftermath of a strike, Iran is 
likely to rush to rebuild its nuclear program in a way that is 
harder to detect and more costly to stop.''
    What do you mean by ``harder to detect?''
    If they are capable of that, why are they not doing that at 
this point?
    Mr. Kahl. Well, the major reason is that Iran remains a 
party to the Nuclear Nonproliferation Treaty. While they are 
not always very cooperative with the IAEA, the IAEA does do 
regular inspections to their declared facilities, which means 
currently it is actually very difficult for Iran to break out 
and develop a nuclear weapon without getting caught.
    The concern some have expressed is that in the aftermath of 
an Israeli strike, for example, which is the scenario you 
mentioned, Iran would likely use that strike the shatter the 
international consensus currently isolating it, and kick out 
the IAEA inspectors, which means that the international 
community would have a lot more difficulty seeing what Iran was 
doing and Iran would have an easier time reconstituting its 
program in secret.
    Mr. Long. Are they getting full access now?
    Mr. Kahl. They have full access to the declared facilities. 
We don't know what we don't know, but they get full access to 
the declared facilities. They are trying to get access, with 
limited success, to some of the facilities that might be 
related to weapon's related research. The Parchin facility is 
one example of that.
    Mr. Long. My time has expired. If I had any time to yield 
back, I would.
    Chairman King. I thank the gentleman for yielding back the 
time he doesn't have, but we appreciate the thoughts.
    The gentleman from Louisiana, Mr. Richmond, is recognized.
    Mr. Richmond. First of all, let me thank you all for coming 
in and sharing your knowledge with this; and your experience 
and your recommendations for how we move forward.
    I guess part of my question--and maybe Mr. Braun or Mr. 
Swecker, who both had recommendations--do you know if the 
recommendations you gave us--if they are currently being 
carried out or if the DEA and CIA and FBI and ATF, for example, 
is refocusing on traditional threats and paying more attention 
to the drug trafficking?
    Mr. Swecker. Well, I think one thing you have to 
recognize--and what we talked about this morning has punctuated 
that--is the convergence of criminal activity and terrorist 
activity. Terrorists need money and they raise money mostly 
through action these days. So we we have talked about anti-
money-laundering statutes and regulations. We have talked about 
technology. We talked about breaking down the silos of 
information. I think all of those are underway.
    They can always get better. Whenever you have agencies you 
have walls, and it is harder to share information. So anything 
that facilitates that sharing of information is good. The 
Fusion centers are good. The Joint Terrorism Task Forces are 
good; staying on top of current--more current techniques.
    I worked in the days when we had the FISA Wall up and you 
could not share information between the criminal and 
intelligence.
    So I think it is infinitely better than it was on 9/11. But 
it is not perfect. But I think what you have done with passing 
these enabling legislations--Patriot Act--I know it is a bad 
word in some circles--has been tremendously valuable in 
updating these techniques.
    Mr. Richmond. I guess that is exactly what I was looking 
for. I think the Ranking Member's point with that was that it 
would be very helpful to have current members of the 
administration here to say if they are heeding those 
recommendations or how far they are on not compartmentalizing 
or focusing on the traditional threats.
    Dr. Levitt, you mentioned that Hezbollah sometimes will 
resort to extortion to get things done. There are some who 
advocate for profiling in our TSA, for example, and in a 
reverse manner of maybe not searching thoroughly elderly women 
or doing pat-downs on children. Do we expose them to a risk of 
being used as a mule; of families being extorted to subject 
them to--since they have less security things to go through, do 
we do the reverse and expose them to extortion or something?
    Mr. Levitt. I don't know of any evidence where something 
like that has happened. I do worry about--``racial profiling'' 
has become a very charged term. There is much more to profiling 
than race, and there has to be. It has to be intel-driven.
    We know in the Charlotte case, for example, at one point, 
as they were speeding across interstates from Carolina to 
Michigan--couldn't figure out how they were constantly getting 
tickets, but time was money and they were being told to speed 
and they were getting speeding tickets.
    They assumed that it was because of racial profiling. It 
wasn't. So they hired white, blonde women to drive the trucks 
and told them time is money, speed up to Michigan. And couldn't 
understand why the U.S. Government was not profiling white, 
blonde women. It wasn't the case. But there the potential that 
they will use people that are not part of the traditional, not 
racial, but intel profile for what a person----
    Mr. Richmond. Correct.
    Mr. Levitt. The distinction really is relevant to people 
who are from their community; mostly, as I said, because they 
have family back home and that puts them in a vulnerable 
position.
    Mr. Richmond. Then anyone who can answer this question--the 
employee at the Small Business Administration who was bribed--
do we have any of the demographics on that person? Was that 
person a Muslim extremist? What was that person--the 
nationality or demographics of that person?
    Mr. Swecker. The person was Lebanese. He didn't bribe the 
SBA official, just created fictitious information in the 
application so it was basically loan fraud. There was bribery 
of another bank official to open a bank account and allow them 
to basically create false identities and create a bust-out 
scheme with the bank with a checking account.
    Mr. Richmond. What were the--who was that person? What was 
he?
    Mr. Swecker. Lebanese.
    Mr. Richmond. The bank officer?
    Mr. Swecker. Oh, I am sorry. I don't know the demographic 
of the bank officer.
    Mr. Richmond. Thank you.
    I yield back.
    Chairman King. The gentleman from Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thank you to this very distinguished panel for your 
presence here today and frankly for each of you for the 
continuing work you do in dealing with the issue of the concern 
that we all share about the expansion of the influence of 
Iranian-inspired revolutionary forces throughout.
    Some of you have already participated in a series of 
hearings that we have held on our subcommittee on 
Counterterrorism and Intelligence. The particular interest to 
that was the expansion into South and Central America and the 
involvement.
    I apologize to the extent that you may be going over some 
areas that have been covered previously. Unfortunately, at 
another committee--I had to participate in.
    But I want to expand a little bit on some of the ground 
that we had covered before with the--do we conclude that there 
is a, you know, a very specific effort by the Quds Forces to 
ingratiate themselves into what looks like diplomatic outreach 
through South and Central America, but in fact can be utilized 
as a staging platform for other kinds of activities; some of 
them, you know, supportive of their efforts to utilize drug 
gangs or other things to raise money to bring back to Hezbollah 
and some of the other proxies; some of them to be a staging 
ground for activities within, you know, the United States.
    We had testimony about Iranian-trained Hezbollah who were 
working with the drug gangs along the Mexican borders and they 
were teaching tunneling technology that has been developed on, 
you know, utilization against Israel to smuggle in weapons and 
other kinds of things.
    What is the extent to which we are comfortable that we have 
identified the scope of Quds Force activities in South and 
Central America? What, in your estimation, is the principal 
thing we can do to combat against that influence? I will ask 
the panel to--anybody that thinks they are most positioned to 
answer it--to jump in. Then anybody has some observations?
    Mr. Levitt. This is something that I spoke to at length in 
a previous appearance before the subcommittee, and I was 
honored to do that.
    One of the things we talked about then, in light of 
testimony from the SOUTHCOM commander and others--about the 
tremendous and recent expansion of the Iranian diplomatic 
presence in ways that can't be explained by normal diplomatic 
activity. Given what we do know about Iran's traditional use of 
diplomatic cover for Quds Force and other terrorist activity is 
to find ways to pressure our allies in the Western Hemisphere 
to constrict that presence.
    There are lots of ways to do that. You can constrict people 
to from traveling around the country, much as we do in New 
York.
    Mr. Meehan. We know there is involvement in places like 
Venezuela. But are we finding the same level of involvement in 
countries that are traditionally more cooperative with the 
United States?
    Mr. Levitt. I don't remember the list off-hand. I have them 
in the previous testimony that I referred this committee to 
from just a few weeks ago, where I list them out.
    Again this commander at SOUTHCOM has put out the numbers 
and the names of the countries as well. So there is reason for 
concern there.
    My point is there are things that can be done 
diplomatically to constrict their ability to leverage this 
diplomatic tool that only states have to their advantage.
    Now it is not exactly fair to say only states. There is at 
least one example, we know, in Venezuela, where Hezbollah had 
two individuals that have since been designated as Hezbollah by 
the Treasury Department, who were active Venezuelan diplomats 
and were doing things in that capacity on behalf of Hezbollah.
    So groups also do have the capability sometimes to 
penetrate into governments that may not be as cooperative as we 
would like on counterterrorism, and maybe even a little 
supportive of terrorism to provide that kind of cover.
    Mr. Meehan. Do you see that as an effort that is separate 
and apart from their interest in trying to obtain--Iran's 
interest in trying to obtain a nuclear capacity? Would our 
taking a more proactive step and encouraging our allies and 
others to crack down on that, have some kind of an ancillary 
impact on Iran's ability to obtain nuclear weapons?
    Mr. Levitt. It is largely parallel, but it is not 
irrelevant.
    I mean, for example, I was at Treasury when we started 
coming up with the sanctions program on Iran. I am very proud 
of the way it has been working. But one of the areas where Iran 
has been seeking to evade sanctions is by leveraging financial 
institutions in South America, several of which we have hit 
publicly.
    So there are areas where these two different issues 
intersect.
    Mr. Meehan. Thank you Dr. Levitt.
    If I had any extra time I would yield to my good friend, 
Mr. Long. But I do not.
    Chairman King. The gentleman yields back.
    My friend from Michigan, Mr. Clarke, is recognized for 5 
minutes.
    Mr. Clarke of Michigan. Thank you Mr. Chair.
    It is apparent from this testimony today that both Iran and 
Hezbollah pose a great threat--a threat to this country and 
also a threat to our ally, Israel. I believe that we need all 
reasonable options available in order to protect Americans and 
protect our ally, Israel, from an attack.
    My concern, though, is that as we strive to protect our 
people and our interests; that we don't further engage in 
profiling and stereotyping against law-abiding American 
Muslims.
    Specifically, there has been a belief that many American 
Muslims are not fully cooperating with law enforcement.
    Perhaps, Mr. Silber, you may have had some experience with 
New York City Muslims and their role with the New York City 
Police. If you would have any thoughts that you could share 
with us on the relationship between the New York City Muslims 
and New York City Police, as well as any of the other members 
here that could testify, regarding the role of American Muslims 
in working with local or Federal law enforcement?
    Mr. Silber. Yes, I mean one of the unique things about New 
York City is the vast scope of its diversity in terms of the 
diaspora populations that we have in New York City from around 
the world.
    We do have a large and vibrant, very multicultural Muslim 
community, or really communities, in New York City and there 
have been a variety of different conduits through which the 
police department works with these different communities. Some 
elements run through community affairs that specialize in 
dealing with community leaders. Other elements focus on the 
police commissioner and other elected officials reaching out, 
traveling and meeting with members of the community.
    Then, frankly, NYPD, which is as diverse as the city that 
it protects, has a number of officers for all different types 
of diverse backgrounds, including Muslim, who, frankly, are 
working on the counterterrorism threat and, frankly, work for 
me.
    So I would say that it has been multifaceted in New York 
City. As I stated earlier, working with the community; having 
good relationships really is our best set of eyes and ears to 
detect something early as it may be metastasizing.
    Mr. Meehan. Thank you Mr. Silber.
    With that, Mr. Chair, I yield back my time.
    Chairman King. The gentleman yields back.
    Now, last but certainly not least, the interloper, the 
gentleman from Texas, former Member of the committee, Mr. 
Green.
    Mr. Green. Thank you Mr. Chairman.
    I greatly appreciate your allowing me to be a part of this 
august body.
    I do want to thank all of the witnesses for your appearing 
today and for the intelligence that you have afforded us. I am 
gratefully benefiting from what you have shared.
    I do want to focus momentarily with Dr. Levitt. Dr. Levitt, 
you talked about the traditional profile, which would lead me 
to conclude that there must be a nontraditional profile. And 
you did mention at least one example.
    Before I go to my question, would you just go back through 
the example of utilizing certain persons to drive cars please? 
I want to make sure I clearly understood the example that you 
were sharing?
    Mr. Levitt. Sure, with pleasure.
    Mr. Swecker can jump in because this is the Charlotte case, 
which he ran; and I served as an expert witness in the actual 
prosecution. So correct me if I get anything wrong here.
    The individuals running the cigarette smuggling scam were 
purchasing bulk cigarettes in the Carolinas and driving them 
across State lines to Michigan and not paying the tax. This 
made it a Federal crime. They were speeding as they were 
driving up to Michigan, and were getting speeding tickets, and 
assumed that the reason they were getting these tickets is not 
that they were speeding, but assumed that it was because they 
were being profiled as Muslim-Americans.
    So they decided to have Caucasian blonde women drive the 
cars and the vans. They, too, were told to speed. They, too, 
got tickets. They couldn't understand how it was that now 
American law enforcement was profiling Caucasian blond women. 
The criminal element of speeding didn't occur to them; that 
they assumed that it must have been some type of profiling.
    I don't think there is a nontraditional profile of 
Hezbollah. It is just that law enforcement is aware. In my 
testimony, I cite FBI--which has stated this publicly--that we 
do know that Hezbollah is interested, and has been for years in 
seeking out people who may not fit what they believe--Hezbollah 
believes--we would see--American law enforcement--as a 
traditional profile; meaning someone from Lebanon, someone from 
certain types of places in Lebanon, Baalbek in the East, or 
some of the towns and villages that Mr. Silber cited, Bint 
Jbeil and others in the South. Of course, not everybody from 
these places is Hezbollah. But there might be certain types of 
things that they assume--this is their assumption--that we 
would be looking at. They are looking for other people.
    So FBI has noted that there are Hezbollah operatives that 
are not Lebanese; that are Iraqi; that are Iranian or 
otherwise. That is something we should be aware of.
    Mr. Green. Is it possible that they would metamorphose into 
selecting persons who are of American ancestry?
    Mr. Levitt. We haven't seen that as much as we have seen 
with Sunni's recruiting--people converted to Sunni Islam. There 
is a small number of that type of thing.
    My bigger concern as I get to my testimony is their ability 
to leverage criminal networks--are the types that Mr. Braun has 
discussed. These are non-Muslim and they are not Hezbollah. 
They are not Quds Force. But by virtue of working together, 
they are able to do things on behalf of the group, knowingly or 
otherwise.
    We know that Hezbollah leverages criminal associations 
here, in Europe, for operational purposes, in part, to get 
around the extra strictures that have been put in place post-9/
11.
    Mr. Green. When we talk about these networks, are they 
likely to be persons who are from the country that we are in?
    Mr. Levitt. Not the criminal networks, not necessarily. You 
know, in the Charlotte case, almost all the individuals were 
from Lebanon, with the exception of some of the people they 
married, et cetera; some real, and many more sham marriages; a 
huge fraud component.
    Mr. Green. Dr. Levitt, are you getting close to saying that 
we shouldn't worry about persons who are born in this country 
becoming a part of any of these criminal activities?
    Mr. Levitt. No, not at all. Anybody from anyplace is liable 
to get involved in criminal activity. That is what makes these 
relationships so powerful for a group like Hezbollah.
    Mr. Green. Is there reason for us to make sure that our 
vision is broad, and that we don't exclude persons simply 
because they happen to be from a given place?
    Mr. Levitt. Exactly.
    Mr. Green. Mr. Swecker, would you say a word on this, 
please?
    Mr. Swecker. No, I think we have to have 360-degree vision 
on this, and not get locked into a certain paradigm. I think it 
is very logical, and this group acted logically in having 
Angela Tsioumas, for one person--a white American female 
driving the cigarette loads up to Detroit, once they realized 
that they were getting stopped all the time. They were 
speeding, but they thought it was because they were being 
profiled.
    They did get noticed when they were buying the cigarettes. 
So they began to send other people who weren't nearly as 
noticeable to go buy the cigarettes.
    So short answer to your question is, yes, we have to have 
full vision. We can't get locked into one paradigm. But I don't 
think we are. I think that there is very much a realization 
that we can't just--a terrorist doesn't wear a dark mustache 
and a dark hat, and look a certain way.
    Mr. Green. Thank you, Mr. Chairman.
    Chairman King. Mr. Green, time is almost expired.
    I want to thank all the witnesses for your testimony, 
Members for their questions.
    I think it is interesting to note that there is not one 
word of testimony, nor--certainly no question from either side 
which disputed the fact that there are hundreds of Hezbollah 
operatives in this country. They are capable of being turned 
operational. That it is really a question of when and where, 
and when that decision is made.
    So I want to make the record clear here that everything we 
heard prior to the hearing from law enforcement, and from 
experts, what we have brought out today at the hearing, and 
even what was brought out in questions from both sides--that I 
believe the thesis has been proved; that Hezbollah is a threat 
to this country, a growing threat, and it has gone from 
terrorist financing to being capable of fully operational 
terrorist activities against the country.
    So I want to thank the witnesses. I also want to just 
mention to the witnesses that Members of the committee made 
some additional questions. We would ask you to respond to them 
in writing if they are brought forward. The record will be held 
open for 10 days. Without objection, the committee stands 
adjourned.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]


THE AMERICAN MUSLIM RESPONSE TO HEARINGS ON RADICALIZATION WITHIN THEIR 
                               COMMUNITY

                              ----------                              


                        Wednesday, June 20, 2012

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:18 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, McCaul, Bilirakis, 
Cravaack, Meehan, Quayle, Duncan, Marino, Thompson, Sanchez, 
Jackson Lee, Cuellar, Clarke of New York, Richardson, Richmond, 
Clarke of Michigan, and Hahn.
    Also present: Representative Green.
    Chairman King. Good morning, the Committee on Homeland 
Security will come to order. The committee is meeting today to 
hear testimony on the Muslim community's response to this 
committee's hearings on radicalization in the United States.
    The Chair wishes to remind our guests today that 
demonstrations from the audience, including the use of signs 
and placards, as well as verbal outbursts, are a violation of 
the rules of the House. The Chair wishes to thank our guests 
for their cooperation in maintaining order and proper decorum.
    At this time, I recognize myself for an opening statement.
    Fifteen months ago, this committee--the Homeland Security 
Committee, which was formed in the wake of the tragic attacks 
of September 11--held the first in a series of hearings into 
radicalization of the Muslim-American community.
    The necessity for these hearings was obvious, and there 
should have been bipartisan support. Attorney General Holder, 
for instance, had stated in a major media interview that a 
crisis of radicalization to violence had arisen within the 
Muslim-American community.
    The Attorney General said what kept him awake at night were 
126 cases of homegrown terrorism since 2009, 90 percent of 
which involved American citizens or residents in contact with 
or inspired by al-Qaeda, who plotted to kill other Americans in 
mass-casualty terror attacks. That kept me awake at night, too.
    Yet, from the moment I announced the hearings, I was 
attacked by politically correct special interests and their 
unthinking allies in the media led by the New York Times. More 
than 1,000 protestors came out in the rain to rally against me 
in Times Square the Sunday before the first hearing. Even Kim 
Kardashian found time in her busy schedule to note her 
objection to the hearing.
    Of course, none of the nightmare scenarios anticipated by 
the media ever occurred. No religious war broke out. Not one 
bigoted word was uttered during the four investigative hearings 
we held, including the first-ever joint hearing with the Senate 
Homeland Security Committee.
    What we did do was force into the open the long-overdue 
National debate on Muslim-American radicalization. Here is what 
our committee's investigations and hearings have put on the 
public record so far. We heard expert testimony by four former 
top law enforcement officials; four activists in the Muslim-
American community; three relatives of terrorists or terror 
victims; and three senior military officials. Many were new 
voices who were given a platform by the hearings.
    The investigation and witnesses reveal that one of the 
threats posed by radicalized Muslim Americans is a clear and 
present danger to homeland security. Videos, internet, and 
face-to-face radicalization and recruiting by al-Qaeda and its 
affiliates inside our homeland emerged over the past 3 years, 
due in large part to our success in attacking al-Qaeda 
overseas. Radicalization in prisons has often been unchecked 
and aided by what the committee learned were over 70 tapes in 
U.S. Federal Bureau of Prisons inmate libraries by American 
citizen and AQAP leader Anwar al-Awlaki who was later killed in 
Yemen.
    The most successful radicalization and recruitment effort 
by an al-Qaeda affiliate was Somalia's al-Shabaab group, which 
signed up upwards of 50 American citizens for violent jihad. 
Homegrown terrorists' target of choice has increasingly been 
U.S. military communities inside the homeland. The number of 
military insiders suspected of being radicalized to violent 
Islamist extremism is a still-classified but truly dangerous 
amount of on-going cases.
    Our investigation compelled elected officials, the 
Government and the media to confront an issue that is 
politically volatile and politically correct. Some elements, of 
course, refused to accept reality or engage in honest debate. 
For instance, it was the media who almost 11 years ago had 
demanded to know why 9/11 was ``allowed'' to happen and 
demanded that Congress take steps to ensure that we never again 
underestimated an enemy in our midst.
    This committee was formed for that purpose. When I became 
Chairman again last year, I saw a clear Constitutional duty to 
ask tough questions about counterterrorism, and our 
investigative hearings showed that the mainstream media doesn't 
always get it right, nor is it consistent.
    For example the New York Times, besides attacking me, is 
now focusing its venom on the New York City Police Department 
for its focus on the Muslim-American community despite the fact 
that New York is the No. 1 Islamist terrorist target in the 
country and the NYPD has prevented numerous attacks--up to 14 
attacks.
    In 1993, following the first World Trade Center attack, the 
Times blamed law enforcement for not doing enough against what 
they label as, ``mysterious Muslims'' operating out of New 
Jersey led by the ``Blind Sheikh'' Omar Abdul Rahman. At that 
time, the Times said, ``Closer monitoring of the sheik may not 
necessarily have prevented the bombing, but it might have. If 
incidents like the Trade Center bombing can't be completely 
prevented, they can and should be made extremely rare.''
    Well, that is exactly what this committee has been doing--
confronting in open hearings the uncomfortable truth about the 
current terror threat. I lost more than 150 neighbors, friends, 
and constituents on September 11 and I never want it on my 
conscience that I didn't do all that I could to prevent another 
attack or that I caved in to political correctness.
    The overwhelming majority of Muslim Americans are 
outstanding Americans. Yet the reality is that the Islamist 
terror threat comes from that community. As a recent Pew poll 
demonstrated, 16 percent of Muslim Americans have a favorable 
or only a somewhat unfavorable view of al-Qaeda. That adds up 
to almost 440,000 people who are living in this country. Also, 
part of the Pew poll show that 5 percent of Muslim Americans 
actually have a favorable view of al-Qaeda and that would come 
to more than 150,000 Americans who are living in this country.
    That is why we have held this series of hearings and why we 
will not back down. That is also why I look forward to the 
testimony of the Muslim-American witnesses who are here today 
to testify on the impact which those hearings have had within 
their community. I applaud them for their courage and I look 
forward to hearing their insights.
    With that, I yield to the Ranking Member, the gentleman 
from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Today's hearing is the fifth hearing in this committee's 
series on radicalization in the American-Muslim community. 
Since the committee's first hearing on radicalization, the 
Obama administration has taken several steps in dismantling al-
Qaeda's operations abroad. Osama bin Laden, Anwar al-Awlaki, 
Samir Khan--all have been killed.
    In essence, the world has changed. But despite a changing 
world, which requires us to look forward, this committee seems 
to want to look back. We are holding today's hearing to discuss 
the effects of previous hearings. I am not sure we have ever 
had a hearing to gauge the effects of prior hearings. Given the 
challenges the Nation faces in homeland security, the on-going 
problems at TSA, the ability of FEMA to meet the needs of 
disaster survivors, the effect of budget cuts on research and 
development within science and technology--just to name a few--
I am not sure that a hearing to gauge the effects of our 
hearings is the most effective use of Congressional time and 
attention.
    But this is not the first time I have questioned the 
premise of this series of hearings. Prior to the first hearing, 
I wrote the Chairman to request that the coverage of the 
hearings be expanded to broaden our inquiry into 
radicalization. I noted that there were domestic groups that 
may constitute a threat because of linkages between extreme 
ideology and a willingness to take violent action. My request 
was turned down.
    As we meet to once again hear testimony about Muslim 
radicalization, I am pretty sure I know what will be said. I am 
sure that the witnesses will testify that these hearings have 
helped Muslims come forward. However, in reality, there was 
never a problem with Muslims coming forward. As noted by 
Attorney General Holder, the cooperation of Muslims and Arab-
American communities has absolutely been essential in 
identifying and preventing terrorist threats. As further 
emphasized by Michael Leiter, Director of the National Counter-
Terrorism Center, many of our tips to uncover active terrorist 
plots in the United States have come from the Muslim community.
    So we have to make clear that the communities are a part of 
the solution and not part of the problem. These statements from 
law enforcement officials and terrorism experts support the 
notion that Muslim-American community is not afraid to come 
forward and has been coming forward to provide tips to police, 
prevent radicalization, and fight terrorism. In short, 
cooperation of the Muslim-American community occurred long 
before these hearings began.
    So as we consider the effects of these hearings have had, I 
need to be clear about what I hope the effects have been. I 
hope that the hearings did not perpetuate the notion that the 
United States is at war with Islam. Such a notion would only 
help the recruitment efforts of al-Qaeda and similar groups.
    John Brennan, the President's Chief Counter-Terrorism 
Advisor, has noted that describing our enemy in religious terms 
lends credence to al-Qaeda's propaganda. Although the hearings 
were narrowly focused on Muslims, I hope they did not have that 
effect.
    I hope these hearings did not encourage a belief among 
Americans that the fellow citizens are inherently dangerous 
because of religious affiliation. I know there have been many 
times in this country's history when those in power have 
decided that some people are inherently dangerous. Once that 
determination has been made, public officials feel justified in 
infringing on Constitutionally-protected rights.
    About a week ago, a group of Muslim Americans filed suit 
against the New York Police Department for infringing on the 
speech, religious, assembly, and due process rights of Muslim 
Americans. I hope these hearings did not help provide a 
Congressional stamp of approval for groups that espouse anti-
Muslim beliefs. As noted in a report by the Center for American 
Progress, witnesses at these hearings often repeated myths that 
originated in anti-Muslim think tanks.
    But most of all, I hope these hearings did not increase the 
number of hate crimes against Muslims. According to the FBI, in 
2012, hate crimes against Muslims rose nearly 50 percent in the 
United States. Although the statistics have not been released 
for 2011, the year these hearings started, I hope we do not see 
an increase.
    Mr. Chairman, the actions of this committee did not create 
an anti-Muslim attitude in this country, but as elected 
officials, we have a duty to help decrease negative sentiments 
and encourage cooperation among all people in this Nation.
    I hope my colleagues on the other side of the aisle share 
the belief and remember the words of President Bush in the days 
after September 11. President Bush said, ``America counts 
millions of Muslims among our citizens. And Muslims make an 
incredibly valuable contribution to our country. In our anger 
and emotion, our fellow Americans must treat each other with 
respect.''
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                             June 20, 2012
    Today's hearing is the fifth hearing in this committee's series on 
radicalization in the American Muslim community. Since this committee's 
first hearing on radicalization, the Obama administration has taken 
several steps in dismantling al-Qaeda's operations abroad. Osama bin 
Laden, Anwar al Awlaki, and Samir Khan have all been killed.
    In essence, the world has changed. But despite a changing world, 
which requires us to look forward, this committee seems to want to look 
back.
    We are holding today's hearing to discuss the effect of previous 
hearings. I am not sure we have ever had a hearing to gauge the effects 
of prior hearings.
    Given the challenges the Nation faces in homeland security--the on-
going problems at TSA; the ability of FEMA to meet the needs of 
disaster survivors; the effect of budget cuts on research and 
development within Science and Technology, just to name a few--I am not 
sure that a hearing to gauge the effects of our hearings is the most 
effective use of Congressional time and attention.
    But this is not the first time I have questioned the premise of 
this series of hearings. Prior to the first hearing, I wrote to the 
Chairman to request that the coverage of the hearings be expanded to 
broaden our inquiry into radicalization. I noted that there are 
domestic groups that may constitute a threat because of a linkage 
between extreme ideology and a willingness to take violent action. My 
request was turned down.
    As we meet to once again hear testimony about Muslim 
radicalization, I am pretty sure I know what will be said. I am sure 
that the witnesses will testify that these hearings have helped Muslims 
come forward. However, in reality, there was never a problem with 
Muslims coming forward.
    As noted by Attorney General Holder, the cooperation of Muslim and 
Arab-American communities has been absolutely ``essential in 
identifying, and preventing, terrorist threats.'' As further emphasized 
by Michael Leiter, Director of the National Counterterrorism Center, 
``many of our tips to uncover active terrorist plots in the United 
States have come from the Muslim community. So we have to make quite 
clear that the communities are part of the solution and not part of the 
problem.''
    These statements from law enforcement officials and terrorism 
experts support the notion that the Muslim-American community is not 
afraid to come forward and has been coming forward to provide tips to 
police, prevent radicalization, and fight terrorism. In short, 
cooperation of the Muslim-American community occurred long before these 
hearing began.
    So, as we consider the effect these hearings have had, I need to be 
clear about what I hope the effects have not been. I hope that these 
hearings did not perpetuate the notion that the United States is at war 
with Islam.
    Such a notion would only help the recruitment efforts of al-Qaeda 
and similar groups. John Brennan, the President's chief 
counterterrorism advisor, has noted that describing our enemy in 
religious terms lends credence to al-Qaeda's propaganda. Although the 
hearings were narrowly focused on Muslims, I hope they did not have 
that effect.
    I hope these hearings did not encourage a belief among Americans 
that their fellow citizens are inherently dangerous because of 
religious affiliation. I know there have been many times in this 
country's history when those in power have decided that some people are 
inherently dangerous. Once that determination is made, public officials 
feel justified in infringing on Constitutionally-protected rights. 
About a week ago, a group of Muslim Americans filed suit against the 
New York Police Department for infringing the speech, religion, 
assembly, and due process rights of Muslim Americans.
    I hope these hearings did not help provide a Congressional stamp of 
approval for groups that espouse anti-Muslim beliefs. As noted in a 
report by the Center for American Progress (CAP), witnesses at these 
hearings often repeated myths that originated in anti-Muslim think 
tanks.
    But most of all, I hope these hearings did not increase the number 
of hate crimes against Muslims. According to the FBI, in 2010, ``hate 
crimes'' against Muslims rose nearly 50 percent (from 107 to 160) in 
the United States. Although the statistics have not been released for 
2011--the year these hearings started--I hope we do not see an 
increase.
    Mr. Chairman, the actions of this committee did not create an anti-
Muslim attitude in this country. But as elected officials, we have a 
duty to help decrease negative sentiments and encourage cooperation 
among all people in this Nation. I hope my colleagues on the other side 
of the aisle share that belief and remember the words of President Bush 
in the days after September 11. He said: ``America counts millions of 
Muslims amongst our citizens, and Muslims make an incredibly valuable 
contribution to our country. In our anger and emotion, our fellow 
Americans must treat each other with respect.''

    Chairman King. I thank the Ranking Member. I will just take 
the liberty, and I will give you time to respond if you wish. 
But you mentioned the lawsuit that was filed against the NYPD. 
You also quoted John Brennan earlier on. I think you should say 
that--also put in the record--that John Brennan, just last 
April 21, said that he has full confidence the NYPD is doing 
things consistent with the law, and he gave them specific 
credit for being able to identify and stop terrorist operatives 
and terrorist attacks here on our shore. The success is in the 
record in terms of keeping the city safe.
    So if we are going to put something in the record about the 
NYPD, I think the counter should be put in from the leading 
Homeland Security advisor in this administration, where he says 
he fully supports the NYPD and the actions they have taken.
    We have a distinguished panel----
    Okay. Sure. Gentleman from Mississippi.
    Mr. Thompson. I actually want consent that the gentleman 
from Texas, Mr. Green, be allowed to sit in on the hearing.
    Chairman King. These hearings would not be complete without 
Mr. Green being present.
    Mr. Thompson. Thank you.
    Chairman King. Reserving the right to reject. But I won't. 
No.
    Without objection, the gentleman from Texas is allowed to 
be seated.
    We have a distinguished panel of witnesses for our 
important hearing today. It is a pleasure to welcome Dr. Zuhdi 
Jasser back to our committee. It was appropriate for Dr. Jasser 
to be here today, because he was the lead-off witness at our 
first radicalization hearing last year.
    He is the president of the American Islamic Forum for 
Democracy, an organization he formed in the wake of the 9/11 
attacks as an effort to provide an American-Muslim voice 
advocating the preservation of the founding principles of the 
United States Constitution. Dr. Jasser served 11 years in the 
United States Navy as a medical officer and as a physician 
currently residing in Phoenix, Arizona.
    Ms. Asra Nomani is a professor in the practice of 
journalism at Georgetown University School of Continuing 
Studies. She is a former reporter for the Wall Street Journal 
and the author of ``Standing Alone: An American Woman's 
Struggle for the Soul of Islam.'' During a time in Pakistan in 
2002, Wall Street Reporter Daniel Pearl was staying in Ms. 
Nomani's home when he was kidnapped. She became active in the 
ensuing investigation to find him.
    She has provided commentary for CNN, NPR, and BBC, and has 
served as instructor at Islamic culture training centers for 
the Federal Government. She was born in Bombay, India, and came 
to the United States with her family at the age of 4.
    Dr. Qanta Ahmed is the author of ``In the Land of Invisible 
Women: A Female Doctor's Journey in the Saudi Kingdom,'' and is 
a prolific writer on political and religious issues relating to 
Islam. Dr. Ahmed serves as an associate professor of medicine 
at the State University of New York at Stony Brook, and has 
practiced pulmonary and critical care medicine in the National 
Health Service in the United Kingdom and in Saudi Arabia. She 
is the first Muslim woman and first physician to be selected to 
be a Templeton-Cambridge Journalism Fellow in Science and 
Religion at the University of Cambridge.
    Dr. Ahmed--this is how I first came to know her--has played 
a strong role in treating 9/11 workers under the recently 
passed James Zadroga law and has treated many law enforcement 
officers from the FBI and NYPD.
    Ms. Faiza Patel serves as a co-director of the Liberty and 
National Security Program at the Brennan Center for Justice. 
Before joining the Brennan Center, Ms. Patel worked as a senior 
policy officer at the Organization for the Prohibition of 
Chemical Weapons in the Hague and clerked at the International 
Criminal Tribunal for the former Yugoslavia. Ms. Patel is a 
graduate of Harvard College and the New York University School 
of Law.
    I would thank all the witnesses being here today. I would 
also remind them that your full testimony will be submitted for 
the record. I ask you to summarize your statements and try to 
keep them within the 5 minutes.
    The Chairman now recognizes Dr. Jasser for his opening 
statement.

   STATEMENT OF M. ZUHDI JASSER, MD, PRESIDENT AND FOUNDER, 
              AMERICAN ISLAMIC FORUM FOR DEMOCRACY

    Dr. Jasser. Thank you, Chairman King, Ranking Member 
Thompson, distinguished Members of the committee for seeking my 
testimony again, and allowing me to give you an update about 
what we have learned from your hearings so far and also where 
we are headed.
    From the first hearing last March--the American-Muslim 
Community's Response to Muslim Radicalization--this process has 
shed the light of day for many Americans upon areas that we 
need to address, diagnose, and begin the process of solving the 
ideological threat we face from Islamist radicalization. Make 
no mistake, as much as we have had some successes at countering 
some of the violence, at the end of the day, the threat, if 
anything, is growing with the growth of Islamic radicalism in 
the Middle East. We see Islamist parties coming to power in 
many countries.
    For many, that very statement in these hallowed halls is 
heresy. But for me, this is a lifelong mission to confront the 
problems within my faith community that are a threat to both 
our country and my co-religionists. While I am sure that much 
of today's discussion will focus on a portrayal of American-
Muslims as supposed victims of some right-wing conspiracy, the 
reality is that I am American-Muslim and I am not a victim.
    Since your hearings began, so many Muslims told us that 
they were tired of having their identity stolen by two groups. 
One is the radicals that commit acts of terrorism. The other 
are the grievance groups whose denials, lawsuits, and cries of 
bigotry have actually caused more negativity towards Islam and 
Muslims than bridge-building.
    So our work is about reclaiming my faith from a political 
construct that is discriminatory and a threat, not because it 
has the chance of bringing down a republic in my lifetime, but 
because its primary target is the freedom and liberty of my 
children. So many Muslims acknowledge to us that we can't 
address it without peeling the onion of Islamism away from 
Islam.
    It is absurd to allow a threat that exploits our religion 
to avoid any critique in these hallowed halls because of its 
theological, political underpinnings may offend the majority of 
a faith. You can't allow a threat to instantly wrap itself in a 
faith and then all of a sudden be insulated because you may say 
that it may offend a majority.
    In fact, the primary way then to engage this threat is 
exactly what these hearings were about--through engaging 
responsible, unapologetic Muslims who seek the truth and want 
to better their faith from the causes of radicalism. Does this 
mean that I or anyone who engages in these hearings believe 
that all Muslims are a threat? Absolutely not and I think it is 
offensive to imply that I believe that.
    But I do believe that by not confronting these issues, we 
are allowing the radicals and extremists to define our faith 
for the world. Again, I do not submit one iota of my own civil 
rights when I discuss these issues.
    What these hearings provide is a dialogue that can bridge 
the gap for those that see no problem within the Muslim 
community with those that see all Muslims as a problem. The 
polarization that we saw leading to these hearings resulted in 
hysteria that decried bigotry, Islamophobia, and McCarthyism--
to name a few.
    I was even told by Islamist leaders through e-mails and 
communication that my testimony would lead to hate crimes 
against Muslims. Sixteen months later, we have had hundreds of 
new members come after my testimony. We have developed a 
coalition--The American Islamic Leadership Coalition--that 
quadrupled in size in the months after our testimony. We have 
begun to hear from your further hearings about more work that 
we need to do.
    Our success, growth, and feedback have demonstrated the 
opposite. I want to read you a couple of statements I received 
from Muslims around the country right after my testimony. Zulfi 
from Virginia stated, ``I commend you for the excellent 
presentation, Dr. Jasser. I felt like for the first time, a 
Muslim is speaking for me. You stole what I was thinking all 
along.''
    Nabil from Ohio said, ``Allahu Akbar. Dr. Jasser, today I 
am happy to see a Muslim who thinks like me. The first word in 
Islam is `Iqra' or `read.' ''
    Zuhair from Kansas said, ``What you have been expressing is 
exactly why my family came from Saudi Arabia. I want to know 
how to become a member. I want to help as much as I can change 
the way Muslim youth feel about this country and about Arab 
dictators.''
    The way these hearings have been--and it is seen an 
exponential growth in our support. But there has been also the 
other side of the response--those that have attacked us for 
fear-mongering and have tried to stifle our conversation and 
tried to stifle the fact that we are a diverse faith 
community--diversity not only ethnically but ideologically, 
which I think we often forget in these very ideologically 
diverse halls.
    Ten years after 9/11, our heroes at the Department of 
Homeland Security remain occupied with basically a ``whack-a-
mole'' program. Even any discussion about the fact that it is 
not just violence, but ideology that radicalizes, is often 
suppressed.
    If we cannot develop a strategy--if you look at the 
National strategy for counter-terrorism, for example, that the 
White House put out only months after our hearings began, 
those--they mentioned the words ideology, but not once did they 
identify what that ideology was. Our coalition developed 
criteria by which we recommend--and your Chairman distributed 
that----
    Chairman King. Doctor, if you could try to close in about 
10 seconds--15 seconds.
    Dr. Jasser. Yes. As a husband, a parent of 3 children, and 
a leader of my own community, I took a keen interest in these 
hearings. Please join me and other Muslims in asking you to 
continue these hearings so that they can know that they can 
keep asking a wide array of leaders questions against 
conventional wisdom without fear of intimidation and being 
silenced.
    Thank you.
    [The statement of Dr. Jasser follows:]
                 Prepared Statement of M. Zuhdi Jasser
                             June 20, 2012
    Thank you Chairman King, Ranking Member Thompson, distinguished 
Members of the committee, for seeking my testimony. My name is Dr. M. 
Zuhdi Jasser and I am the president and founder of the American Islamic 
Forum for Democracy.
    When I opened my testimony before this committee in March 2011 I 
thought it was important to address the polarization that existed 
within these chambers and in the marketplace of ideas that had stifled 
the legitimate and needed dialogue about Muslim issues in this country. 
While we are in many ways more than ever still strangled by this 
polarization, I believe history will show that your series of hearings 
in the past 16 months directly confronting the threat of Muslim 
radicalization in the United States opened the long-overdue dialogue 
both here in the halls of Congress and more importantly in Muslim 
communities across our great country. It has been a difficult first 
step, but one so many American Muslims have told us has been of immense 
value. I commend the committee's leadership for having the willpower to 
see these hearings through despite the cacophony of critics trying to 
silence our work.
               american muslim responses to the hearings
    From that first hearing in March on the American Muslim community's 
response to Muslim radicalization, to your subsequent hearings that 
focused on radicalization in American prisons and the threat to our 
homeland by Al-Shabaab and to our military, this process has shed the 
light of day for many Americans upon areas that we need to responsibly 
address, diagnose, and begin the process of treatment.
    The sign of a healthy democracy is our ability to openly confront 
threats that exploit many of the core sensibilities we take for granted 
in our culture. Ultimately, Mr. Chairman, your hearings have allowed us 
to begin to breach two major obstacles in that treatment:
    (1) The discipline to focus on specific areas inside the United 
        States where the Islamist threat incubates without fear or 
        blindness of denials, apologetics, or political correctness.
    (2) The respectful engagement of emerging long-silenced diverse 
        voices from within our Muslim faith communities in a public and 
        pragmatic discussion on how we can best address Islamist 
        radicalization.
    One of the most profound results we have seen from this National 
discussion is the important recognition that American Muslims are not a 
monolithic community that shares one set of values and one single 
voice. American Muslims are very diverse in our ideological structure 
and many if not most of us do not support the victimization and denial 
mantra that has been defining our communities for decades.
    Immediately after my testimony, we received literally hundreds of 
emails over 90 percent of which were extraordinarily complementary from 
American Muslims. We also gained hundreds of new members in the weeks 
following the hearings. Below are a few exemplary emails from American 
Muslims which depict the thirst among many American Muslims for a new 
narrative and a frank discourse on radicalization.
    For example on March 10, 2011 I received these emails:
    (1) Zulfi A. from Virginia stated, ``I commend you for your 
        excellent presentaton at the Congress today. I totally agree 
        with you. I felt like for the first time a Muslim is speaking 
        for me. You stole what I have been thinking all along. Seems 
        like no one understood what you are talking about in your 
        reference to 79 billion spend by Saudi's spreading of Wahabi 
        Islam through out the world. I am from Peshawar and live here 
        in Virginia and know CAIR very well from the inception . . . 
        ''.
    (2) Nabil S. from Ohio stated, ``ALLAH AKBAR DR. JASSER TODAY I AM 
        HAPPY TO SEE A MOSLEM WHO THINKS LIKE ME YOU DID A GREAT JOB ON 
        THE HILL. THE FIRST WORD IN ISLAM IS `EKRA' READ.'' (emphasis 
        his)
    (3) Astra K. from Rhode Island stated, ``PEACE BE UPON YOU, 
        BROTHER! AS AN AMERICAN BORN, WHITE, FEMALE CONVERT TO ISLAM, 
        THE RELIGION, I THANK YOU FROM THE BOTTOM OF MY HEART FOR YOUR 
        INCREDIBLY HONEST AND WISE TESTIMONY IN WASHINGTON D.C. WHICH 
        JUST NOW ENDED. I WATCHED IT ONLINE.'' (emphasis hers)
    (4) Zuhair A. from Kansas, stated, ``Thank you Dr. Jasser, you 
        represent the same belief I have and try to express, I came 
        from Saudi Arabia in 1993 I established my family and roots in 
        the country. What you have been expressing is exactly how I 
        feel, I want to know how to become a member I want to help as 
        much as I can to change the way the Muslim youth feel, in this 
        country and other Arab country, I believe it starts with our 
        home countries if the youth can take these ailing blood sucking 
        dictators of their respective countries and decided to live in 
        a democracy this might help fight the radicalization, it help 
        them understand that.''
    In the wake of these hearings we have seen an exponential growth in 
the number of Muslims who are willing to courageously step forward in 
support of American values over Islamism and openly embrace a political 
system built in reason while rejecting the theological mandate of the 
Islamic state put forth by Islamist organizations like the Muslim 
Brotherhood and its hundreds of offshoots around the world. We did 
certainly receive our share albeit a far smaller number of hate-filled 
communications mostly from Muslims who we engaged that were critical 
about the hearings and had not actually viewed the testimony. Upon 
viewing, most reported to us that ``American Muslim'' groups and the 
media did not report on the substance of the hearing but only vilified 
Chairman King and Dr. Jasser.
    Our own Muslim Liberty Project at AIFD which we started last March 
2011 and had its second annual leadership retreat in March 2012 has 
students from 12 different States engaged in learning the core values 
of American society and how the Islamic faith can reject political 
Islam and thus fit comfortably within American society. Our American 
Islamic Leadership Coalition (AILC) as a direct result of our testimony 
in March has expanded from 6 to over 25 Muslim thought leaders and 
organizations in North America and we are now also looking to Europe to 
broaden our Western coalition of reformist Muslims who span the 
political realm from left to right but share one thing alone--the 
desire to provide our Nation an alternative to the Islamist groups and 
to help mold a strategy against the threat of political Islam and its 
Islamist organizations like the Muslim Brotherhood legacy groups in the 
United States.
           beyond the vagaries of combating violent extremism
    Peeling the onion of denial that some form of a ``theo-political'' 
problem exists has not been without its challenges and landmarks. The 
public and private fallout from these hearings alone have been a clinic 
in exposing some of the pathologies hampering the progress of homeland 
security and genuine long-lasting counter-radicalization. Ten years 
after 9/11 our heroes at the Department of Homeland Security remain 
occupied predominantly with a highly sophisticated whack-a-mole program 
that is entirely dependent upon finding and capturing radical Islamists 
when they are in the final steps of their long Islamist journey having 
chosen a militant path of Islamism and on the verge of committing an 
act of terror.
    As Mr. John Cohen stated last November before Members of this 
committee, the Department is ``not using `radicalization.' [Its] focus 
is not to police thought but to prevent violence.''\1\ For me as an 
American Muslim this is not about just treating the symptom of 
violence, it is about fighting the disease that leads so many of my co-
religionists down a path that ends in violence. Would we not be smarter 
to develop programs that keep them from stepping out on to that 
Islamist path much earlier on in their radicalization before they get 
to the violent endpoint? It is not about policing thought. It is about 
demonstrating to a vulnerable part of our society that American values 
and freedom is the better pathway for their faith practice and in no 
way conflicted with our beautiful faith of Islam.
---------------------------------------------------------------------------
    \1\ Andrea Stone, ``Counterterrorism Czar Resists Muslim Labels, As 
Critics Say Right-Wing Threat Looms Larger'', (Huffington Post, 
November 17, 2011)
---------------------------------------------------------------------------
    In my first testimony \2\ before you, I laid out examples of that 
continuum of radicalization from the insidious, non-violent separatist 
Islamism to that militant more aggressive Islamism which directly 
threatens us. Our humble experience in the wake of these hearings has 
been that given the right environment, the vast majority of Muslims 
welcome assistance in confronting that subset of Muslims who are 
Islamists so that we can then better prevent the fueling of that subset 
of Islamists that are militant. The communications we received from so 
many Muslims a few of which I shared with you confirm this. If we 
cannot undertake in these halls the development of a strategy against 
the Islamist ideology that exploits America, exploits the faith of 
Islam, and exploits our freedoms to avoid critique, then we have 
shirked our responsibility as Americans and I submit also as observant 
Muslims.
---------------------------------------------------------------------------
    \2\ M. Zuhdi Jasser, M.D., ``Testimony of M. Zuhdi Jasser, M.D.,'' 
Testimony before the U.S. House Committee on Homeland Security, ``The 
Extent of Radicalization in the American Muslim Community and the 
Community's Response,'' March 10, 2011.
---------------------------------------------------------------------------
    Unfortunately, the White House's counterterrorism strategy released 
in July 2011 bears out this same problem. I have attached a response 
from our American Islamic Leadership Coalition (Appendix I)* which this 
committee distributed to Congress as reading material in August 2011. 
Therein over 25 Muslim leaders and their organizations noted that while 
the White House's National Strategy for Counterterrorism (NSCT) 
released on June 28, 2011 used the word ``ideology'' over 20 times it 
never identified what that ideology was. We identified areas of 
concern. We noted that the report:
---------------------------------------------------------------------------
    * Appendices attached to this document have been retained in 
committee files.
---------------------------------------------------------------------------
    1. Appeared to reflect a largely pro forma, rather than 
        substantive, approach to countering extremist ideology and the 
        radicalization of Muslims in the United States and abroad.
    2. Does not define individual rights, or articulate a systematic 
        strategy to promote them.
    3. Fails to define al-Qaeda's ideology, and its relationship to 
        Islamist ideology and movements in general.
    4. Provides no criteria for determining with which Muslim groups 
        the administration will conduct its outreach programs.
    5. Fails to articulate a strategy to counter Islamist ideology in 
        general, or cyberjihad in particular.
    6. Focuses narrowly upon al-Qaeda as the enemy.
    Our coalition then laid out specific recommendations to improve 
upon these shortcomings:
    (1) The U.S. Government should clearly and publicly define the 
        ideology of al-Qaeda that we seek to defeat, and realistically 
        acknowledge its intimate links with Islamist ideology and 
        political movements in general. Ignorance and/or lack of 
        honesty in this arena is no virtue. This necessarily entails 
        discussing, and addressing, the manner in which theocratic 
        regimes in Iran and Saudi Arabia export their Khomeinist and 
        Wahhabi/Salafi ideologies worldwide, thereby fueling the spread 
        of Islamist terrorism, and strengthening other Islamist groups 
        such as the Taliban, Hamas, Hezbollah, and the Muslim 
        Brotherhood's global dawa (proselytism) movement;
    (2) The U.S. Government should distinguish between the religion of 
        Islam and Islamist ideology (a distorted interpretation of 
        Islam), whose adherents seek to conflate their own political 
        agenda with the religion of Islam itself. Reverence and respect 
        for the religion of Islam does not and should not entail 
        submission to the dictates of an ambitious minority of Muslims 
        who seek to instrumentalize religion for the acquisition of 
        worldly power;
    (3) The U.S. Government should acknowledge the diversity of 
        American Muslims, and recognize that genuinely pluralistic, 
        tolerant, and spiritual Muslim leaders possess the theological 
        legitimacy, authority, and credibility required to counter 
        Islamist ideology and movements from within Islam, and should 
        be encouraged and supported in their efforts to do so;
    (4) The U.S. Government should engage non-Islamist Muslim groups to 
        help develop and implement effective counter-radicalization 
        programs, which affirm the principles of liberty and individual 
        rights, within an Islamic narrative;
    (5) This engagement should facilitate the production of compelling 
        content (narratives) and their distribution, through proactive 
        use of the internet, which is one of al-Qaeda's primary means 
        of ideological indoctrination and recruitment;
    (6) The U.S. Government should support the development of robust, 
        on-the-ground efforts to expose the brutal reality of Islamist 
        oppression, violence, and terror, and broadcast the message of 
        Love, Mercy, and Compassion--which fosters respect for human 
        dignity and individual.
    As a faith community, focusing on the militants and violence alone 
is an exercise in futility which gives non-violent Islamists the 
ability to appear mainstream. Focusing only on violence forces non-
Muslims to approach the issue of radicalization in an overly simplistic 
binary approach of--good Muslim non-violent, bad Muslim violent. The 
reality is that Muslims who are violent extremists do not become so 
overnight. They come to that endpoint along with common travelers 
within the global supremacist political movement which is Islamism or 
political Islam. Islamism defined is the desire of some Muslims to 
create Islamic states or societies based in the interpretation of 
Islamic law (shariah) by faith leaders where the Muslim community 
(ummah) is also synonymous with the ``Islamic nation-state''. These 
quasi-oligarchical leaders can be imams, clerics, or Islamist scholars 
who believe that their expertise gives them the right to determine and 
impose their interpretations of religion upon Muslim masses. Thus, 
Islamists ensnared in the theo-political movement of Islamism are 
inherently unable to identify with and bond positively to our own 
American concept of a nation based in an Establishment Clause, the 
separation of mosque and state, a man-made Constitution, and reason.
    If you witness the public response of Muslim Brotherhood legacy 
groups in the United States to these hearings you will see the lengths 
they go to in vilifying anyone who dares address the threat at its 
source--Islamism. An observant Muslim becomes labeled by the Muslim 
Public Affairs Council (MPAC) and Council on American-Islamic Relations 
(CAIR) as ``astro-turf'' or ``Uncle Tom.'' The term Islamophobia is 
used incomprehensibly against devout Muslims as a battering ram to shun 
us within our own local faith communities for having the audacity to 
say that we have a problem and they are contributing to it. These 
groups wrap themselves in the blanket of my faith and imagined civil 
rights abuses in an attempt to deny Muslims like me a voice in this 
argument. Imagine Ranking Member Thompson if Republicans were able to 
remove your voice from the debate. Despite accusations to the contrary, 
our fight against Islamism is not about denying someone a seat at the 
lunch counter it is about fighting a political construct that is at 
complete odds with the Constitution of the United States.
    With persistent name-calling, ad hominem attacks against our work 
and baseless accusations of Islamaphobia, MPAC, CAIR, and their 
colleagues are extremely successful at silencing or striking fear in 
the voices of reform and opposition. But there is immeasurable teaching 
value in our witness of these actions. These hearings will eventually 
compel these Muslim Brotherhood legacy groups to do one or all of the 
following:
    (1) Defend or condemn the ideological constructs of Islamism, the 
        Islamic state, and political Islam and its instrument of 
        shariah law.
    (2) Refute or admit the direct connection, conveyor belt between 
        Islamism and the very real threat of Islamist militancy.\3\
---------------------------------------------------------------------------
    \3\ Steven Merley, ``The Muslim Brotherhood in the United States,'' 
Research Monographs on the Muslim World, Series No 2, Paper No 3, 
Hudson Institute (April, 2009).
---------------------------------------------------------------------------
    (3) Engage all Muslims in a very public debate about the need to 
        reform against theological constructs that fuel Islamism.
    (4) Demonstrate ideological diversity and pluralism offering 
        genuinely equal respect and opportunities to all Muslims in our 
        right to define our own Muslim identity.
    (5) Publicly debate the central role in which the self-
        identification of Islamists as Muslim citizens rather than 
        American citizens has in charting their course towards 
        separatism and radicalization.
    These hearings have also, moreover, begun the process of compelling 
the rest of America to also develop a coherent strategy against the 
ideologies that fuel radicalization by doing one or all of the 
following:
    (1) Creating platforms and opportunities for American Muslims to 
        engage Islamists in No. 1 through No. 5 above.
    (2) Set aside partisan exploitation of Muslim issues in order to 
        actually address non-partisan solutions from within the Muslim 
        consciousness for the greater good of National security.
    (3) Cease the labeling as ``bigoted'' or ``Islamophobic'' those 
        individuals Muslim or non-Muslim with the courage to dissect 
        theo-political constructs of Muslim radicalization.
    (4) Realize that the ideological battle between liberalism or 
        modernity and Islamism is not only manifested in the Arab 
        awakening of the Middle East and North Africa but also a 
        reality for Muslims living in the United States.
    The Arab awakening has given the United States many teaching 
moments. Before these hearings and the upheaval in Middle East, the 
terms Islamist or political Islam were labeled by many as being 
derogatory conspiracy theories. After the raging debate in Tunisia, 
Egypt, and Libya there can no longer be any doubt that Islamists exist 
and they are prevalent. Groups like the Muslim Brotherhood believe that 
political advocacy and their political parties are synonymous with 
their Muslim identity. While these groups can be dominant in the 
political arena in these countries, they clearly do not have a monopoly 
on Muslim political thought. Again there is significant ideological 
diversity in Muslim populations and the current backlash against the 
Brotherhood in Egypt demonstrates that there are plenty of advocates 
for secular liberal democracies. They just are not as well-organized or 
rooted yet as the Brotherhood and other Islamists in region.
    This is important to the United States because our own Muslim 
populations are born from immigrants from this region and while far 
more familiar with democracy may in fact have not reformed against 
Islamism and have generally the same diversity between Islamists, non-
Islamists, and anti-Islamists. Immigrating to the United States and 
being raised here does not neutralize the lure of Islamism or 
contrarily immediately make us advocates of Jeffersonian democracy. In 
fact with only nascent advocates for liberty, Islamism has flourished 
on the heels of a petro-dollar-fueled Muslim Brotherhood evangelical 
movement into the West.
    The United States needs a Liberty Doctrine for our approach to the 
changes in the Middle-East and American Muslims need a Liberty Doctrine 
for the continual education of our children or we risk breeding an 
ideology that will tear at the very fabric of what it means to be an 
American. Extensive research and documentation on the connection 
between the ideology of the Islamic state (and its closely associated 
corollary of Caliphism) and eventual radicalization has been provided 
by the work of experts like Dr. Magnus Ranstorp, Director of Research 
at the Center for Asymmetric Threat Studies at Sweden's National 
Defense College \4\ and Dr. Douglas M. McLeod, project lead at the 
National Consortium for the Study of Terrorism and Responses to 
Terrorism. In his work ``Support for the Caliphate and Radical 
Mobilization,''\5\ (Appendix II) he basically chronicled what my own 
research and experiences as a Muslim have demonstrated. He stated,
---------------------------------------------------------------------------
    \4\ Dr. Magnus Ranstorp, ``Preventing Violent Radicalization and 
Terrorism: The Case of Indonesia'', Swedish National Defence College 
(2009).
    \5\ Dr. Douglas McLeod and Frank Hairgrove, ``Support for the 
Caliphate and Radical Mobilization'', Start Research Brief (January 
2008).

``Our research demonstrates that the Caliph imagery is a strong 
motivator within Muslim discourse. Pious zealots are often swept into 
the political expression of Jihad while attending small study groups 
(Hairgrove and McLeod, 2008). For some Muslims, the imagery of an Islam 
reflective of the golden era of Muhammad is a religious value worthy of 
pursuit in terms of life goals, finances, and personal sacrifice `in 
the cause of Allah.' This ideological war for the `hearts and minds' 
for Muslims is considered a war for a `collective identity' and has no 
shortage of patriots willing to join the struggle.''\6\
---------------------------------------------------------------------------
    \6\ McLeod and Hairgrove, 3.

    The work of A.H.E. Kyai Haji Abdurrahman Wahid, former President of 
Indonesia who edited the book, The Illusion of the Islamic State 
recently released in English lays out ``How an Alliance of Moderates 
Launched a Successful Jihad Against Radicalization and Terrorism in the 
World's Largest Muslim-Majority Country'' (Appendix III).
    These leading scholars, Muslim leaders, and intellectuals have laid 
out the centrality of Islamism to the radicalization process and the 
separatism that drives the ``violent extremism'' of Islamism. These 
hearings have launched America into the long overdue educational 
process of understanding the existence of a battle in our souls as 
Muslims between a personal spiritual path of Islam and the theo-
political movement of Islamism.
  countering islamism in our military: the need to develop a strategy
    There are many fronts in this battle and these hearings have begun 
to address some of those. As a former U.S. Navy Lieutenant Commander 
and medical officer your hearings on the radicalization of Muslims 
inside the U.S. Military is of particular importance to me. Muslims 
serve the U.S. Military with pride and distinction every day. When we 
allow political correctness and, as former Army Chief of Staff General 
Casey has discussed numerous times, a desire for diversity to override 
our commitment to truth, we insult that service. There is a threat both 
inside and outside of our military and if we cannot address it we leave 
our service members vulnerable.
    Our armed forces are becoming ground zero for American Muslims in 
the ideological struggle between Americanism and Islamism. Thus, inside 
our military is a distinct opportunity with regards to how we as a 
Nation can confront that internal conflict of identification between 
whether a Muslim becomes an Islamist or becomes a patriot who serves 
heroically in our armed services. I would like to build upon my 
discussion in the first hearing about Maj. Nidal Hasan the perpetrator 
of the Nov. 5, 2009 Fort Hood massacre. At the time I remarked about 
how the simple profound difference between his consciousness and mine 
as American soldiers holds the key to creating more effective 
counterterrorism programs. (Appendix IV)
    Unfortunately Nidal Hasan is not the only example. More recently, 
U.S. Army Pvt. Naser Abdo points to that serious conflict. Pvt. Abdo 
was ultimately convicted recently of planning a copycat attack on the 
members of the Fort Hood military community. There is an irreconcilable 
conflict between allegiance to the United States, with its secular 
Constitution, and fealty to the consciousness of an Islamist state that 
centers on the Qur'an as its constitution and the ummah (Muslim nation) 
as its global citizenry. The crucial and difficult question a Muslim 
soldier needs to be asked is this: ``Do you have any sense of loyalty 
to the ummah and its Islamic state?'' Those who answer in the 
affirmative pose a problem. The Pentagon's 2010 after-action report, 
``Protecting the Force: Lessons from Fort Hood,'' revealed a blind spot 
by failing to address the warning signs of Islamist radicalism that 
were abundantly clear prior to the massacre. Pvt. Abdo's history has 
shown again that our military leadership is simply not equipped to deal 
with the challenges political Islam presents to National security and 
the protection of our armed forces.
    Private Abdo made public pleas that his faith and military service 
were incompatible because of alleged obstacles to his religious 
practices, unsubstantiated claims of harassment, and a refusal to go to 
Afghanistan. He claimed that an abundance of religious sources told him 
to abandon a non-Muslim army. He told ABC News that he wanted out so he 
could ``spend his life combating Islamophobia.''\7\ In my own 11 years 
of service, not once did I feel a conflict between my orthodox practice 
of Islam and my service as a Naval officer. Conversely, the assistant 
deputy secretary of the Army shockingly granted Pvt. Abdo his 
conscientious objector (CO) status in 2011 and recommended dismissal 
from the service. But in the mean time he was charged by the military 
for possession of child pornography on his Government computer and went 
AWOL from Fort Campbell, Ky. He was apprehended when a gun store owner 
in Killeen, Texas, reported his suspicious purchases and behavior to 
the police.
---------------------------------------------------------------------------
    \7\ World News with Diane Swayer, ABC News, ````Devout Muslim 
Soldier Hopes to Avoid Deployment to Afghanistan'', August 31, 2010.
---------------------------------------------------------------------------
    The Army's approval of his status as a conscientious objector 
deeply damaged the perception of Muslims in the military, because it 
implicitly validated Islamism as a protected belief system synonymous 
with being Muslim. Yet the vast majority of American Muslims are in the 
United States because we reject Islamism. Clearly, not only do we not 
have a mechanism to filter for Islamism in our military enlistments and 
security clearances, but we are giving their political separatist 
beliefs the protections of religious freedom. Muslims have also fought 
many wars against other Muslims since Islam's inception. Certainly, for 
the vast majority, our allegiance is first and only to the United 
States and never to any Islamist constructs of the Islamic state, the 
ummah, or jihad. Faisal Shahzad, the confessed Times Square bomber, 
stated to the judge at his arraignment, ``We Muslims are one community. 
We are not divided.'' He proclaimed that he was a ``mujahid'' or a 
``Muslim soldier.'' Nidal Hasan similarly called himself a ``Soldier of 
Allah.'' Nasser Abdo had a year-long campaign denouncing the military 
he volunteered to serve. This self-identification is central to the 
Islamist threat. Yet the theological underpinnings of Islamist 
radicalization remain for the most part ignored by military officials, 
who fear appearing to discriminate against Muslim soldiers. It would be 
like being afraid of identifying the impact of communist ideologies 
upon our troops at the height of the Cold War against the Soviets. That 
fear of political correctness has been bolstered by leading Muslim 
Brotherhood legacy groups in America who trumpet grievances at the 
expense of counter-radicalization strategies. Their platform in fact 
has a major obstacle to counter-radicalism: The empowerment of 
political Islam via Islamic revivalism and an aversion to reform via 
the separation of mosque and state. As an observant Muslim, I am 
testifying to you that we desperately need to develop a strategy 
against Islamism and as I listened to your joint hearing on 
radicalization within our military, I was hoping that one of the 
primary takeaways be that we urgently develop a strategy against 
Islamism.
    The U.S. military can serve as an ideal laboratory to address these 
central ideological conflicts between Americanism and Islamism. The 
threat of Islamism is manifold and we have no National consensus or 
strategy. We have our work cut out for us. For example, Salah Al-Sawy 
of the Assembly of Muslim Jurists of America (AMJA) concluded in a 2008 
on-line fatwa, ``As for optionally obtaining citizenship of a non-
Muslim country it is definitely prohibited without a doubt, moreover it 
could be a form of apostasy.'' (Appendix V) An AMJA paper in 2009 
stated that, ``the basic conflict between the declaration of faith and 
testimony that there is no God except Allah and that Muhammad is the 
Messenger of Allah and the declaration and pledge of Allegiance of the 
USA is irreconcilable.'' (Appendix VI) Many imams at AMJA are cross-
pollinated with the Islamic Society of North America (ISNA) and other 
Islamist groups. These ideas need to be confronted and yet they have 
not.
    These hearings have provided the stimulus to do so and now we need 
to follow through. There are many Muslim leaders who can lead that 
defense of liberty and understand the need to separate mosque and 
state. We must acknowledge that there are two sides to this debate 
within Islam and we need to take the side of liberals over that of the 
Islamists. Our armed services should declare a moratorium on all Muslim 
requests for conscientious objector status claimed on the basis of 
their Islamic faith. Our resources should be directed at how we can 
promote anti-Islamist liberal ideas into American Muslim consciousness 
so that they can develop reform-minded strategies to inoculate Muslims 
against Islamism. Congress should be proactive in pushing for change 
within the military to recognize that turning a blind eye to the threat 
is perilous for all Americans including American Muslims and is in and 
of itself politically incorrect.
                   teaching and training our military
    These hearings have also opened the National discussion and given 
us opportunities finally to breach the poisoned atmosphere of political 
correctness. Within the military there has been recent discussion in 
the media about rare instances of some virulently anti-Muslim 
materials.
    It was revealed, for example, that at the Joint Forces Staff 
College in Norfolk, Virginia, one lecturer discussed reducing ``Islam 
to cult status'' and that we should ``declare all-out war against 
Islam'' among other harmful inappropriate comments to officers in 
training. But while there is no proof that this is a pattern, American 
Islamist grievance groups spread this story around the world in foreign 
media using it to amplify their own mantra that America is in a war 
against Muslims and Islam. I would like to see our Nation confront 
Islamism but that should always be done at the same time that we 
recognize that Muslims must lead that solution from within and that our 
best allies are observant Muslims who acknowledge and take seriously 
the Islamist threat. If we let revelations about fringe teachers be 
dominated by grievance groups who dismiss any discussion of reform and 
claim a monopoly on Islamic discourse we will prevent the very 
discussion your hearings have encouraged us to have. I urge you to push 
our Nation even further down the path of engagement of these difficult 
issues and threats we have. Again, the military should be a laboratory 
in which we can begin to aggressively confront those issues and dissect 
the ideologies that threaten our security while also keeping our eye on 
the solutions from within the House of Islam. (Appendix VII)
    The corrective course of action we take at this point is just as 
crucial to protect our military members from the equally suffocating 
harness of political correctness. This ping-pong match between the 
extremes of ``all Muslims are our enemy'' and ``all Muslims are 
victims'' is stifling the teaching and the conversations that need to 
be had to fix the very real threat that Muslims who adhere to a 
militant form of Islamism present. At AIFD we do in fact recognize that 
the ``Islam'' of jihad, violence, al-Qaeda, Wahhabism, and political 
Islam is A version of Islam but it is NOT our Islam. That distinction, 
that central hope should always be part of Government training.
    In the wake of recent revelations, we are already hearing cries for 
the retraining of all of the service members \8\ who have gone through 
the course at Norfolk and unscrupulous connections \9\ being made 
between this course and the Quran burning incident and the troops who 
desecrated the remains of Taliban fighters in Afghanistan. CAIR has 
recklessly pedaled this incendiary information on Al Jazeera \10\ which 
is often quite unfriendly media to our military and American interests. 
The Muslim grievance mill of CAIR combined with some of their 
colleagues on the left have wasted no time in using this incident as an 
opportunity to smear the military and to fear-monger within the Muslim 
community that there is a vast right-wing conspiracy plotting against 
American Muslims. Lawrence Korb from the Center for American Progress 
went as far as to recklessly claim on the BBC \11\ that this event 
occurred because the U.S. military has elements that are overly 
influenced by Christian Evangelicals who believe that the United States 
is at war with Islam. Korb asserted that the military is more 
conservative than the broader public and that is what created the 
atmosphere for this type of course to be able to exist.
---------------------------------------------------------------------------
    \8\ Kari Huus, MSNBC.com, ``Outrage, calls for action over anti-
Muslim materials in military training'', May 11, 2012.
    \9\ Greg Milam, Sky News, ``Military Course Called For `Muslim 
Hiroshima' '', May 11, 2012.
    \10\ Inside Story Americas, Al Jazeera English, ``The U.S. 
military's `anti-Islam classes' '', May 12, 2012.
    \11\ Today, BBC Radio 4, ``US condemns `War with Islam' training'', 
May 11, 2012.
---------------------------------------------------------------------------
    The reaction of some of these groups to the information released 
completely ignores the fact that there is a very real theo-political 
threat to our country. While some of the materials have proven to be 
inappropriate and reckless, these critics completely miss that those 
concepts simply are an equal and opposite reaction to the dangerous 
Islamist apologetics of denial that have filled the media and 
Government policy advisories. How quickly Islamist groups and many in 
the media forget the case of Louay Safi who was relieved from training 
service members at Fort Bliss in Texas? Based on reporting from the 
Dallas Morning News, the Army suspended his contract because of his 
connections to the American Islamist movement. Safi had been in charge 
of certifying Muslim chaplains for the U.S. Military on behalf of the 
Islamic Society of North America (ISNA), while teaching at Fort Bliss. 
In an internet posting after the Fort Hood massacre he whitewashed 
Islamism and blamed Hasan's extremism on ``the systematic demonization 
of marginalized groups.''\12\
---------------------------------------------------------------------------
    \12\ Brooke Egerton, ``U.S. torn over whether some Islamists offer 
insight or pose threat'', Dallas Morning News, February 12, 2010.
---------------------------------------------------------------------------
    Whether Islamists like Safi who dismiss Islamism and paint Muslims 
as victims or lecturers like Lt. Col. Dooley who target an entire faith 
and its adherents, both approaches are doomed to certain failure. The 
politically correct atmosphere in the military and in our country, 
however, has prevented an adequate balanced public vetting of the core 
threats our service members and citizens face domestically and abroad.
    We need to have a happy medium. The military should not use 
material or lecturers that see all Muslims as the enemy and should not 
use the lowest hanging fruit of Muslim organizations which are 
Islamists or apologists for Islamist movements. They should instead 
begin to work with Muslim organizations that truly have our National 
security interests at heart, such as the growing American Islamic 
Leadership Coalition. Great Britain did the same when they found that 
they were working with the wrong organizations. They realized that 
their PREVENT program failed because they worked predominantly with 
Islamist groups and didn't side with organizations that were liberal 
and secular-minded. Prime Minister Cameron has since called for a 
``muscular liberalism'' when working with Muslims. (Appendix VIII)
    As our Government addresses these training issues both within the 
military and similarly with questions that have been raised regarding 
the FBI and NYPD training programs, it is imperative that these 
evaluations are not done in a vacuum and that they are not directed by 
organizations that look at this problem through the lens of Islamism 
and Muslim victimhood.
                          pathway to solutions
    Similar to how this Committee on Homeland Security has addressed 
Muslim radicalization, we desperately need to develop a National 
strategy that understands the theo-political movement (Islamism) that 
threatens us while also balancing the fact that the solution to this 
threat comes from within the Muslim community and by supporting Muslim 
organizations who embrace secular, liberty-minded governance. These 
hearings will have value as long as they continue to directly confront 
the need for frank dialogue and create avenues for Muslims and all 
Americans to address the problem and penetration of Islamism within our 
faith communities. The histrionic reaction of leading American Islamist 
organizations before these hearings and then their silence afterwards 
should point Americans to the fact that the groups are unwilling to 
address root causes and ideologies. Americans should also note that 
when they ask the question: ``Where are Muslims with the courage to 
confront radical ideologies?'', the answer is that we are vilified, 
smeared, and targeted by grievance groups that stand to lose a great 
deal when we Muslims finally crack the code on how to defeat 
``political Islam''.
    Toward that end, these hearings have been a teaching moment that 
has set the stage for just that journey. From here, I believe we 
should:
    (1) Determine a consensus on how the U.S. Government defines and 
        engages Islamists at all of its levels within the Legislative, 
        Executive, and Judicial branches. Recent revelations that the 
        White House, for example, has been meeting with organizations 
        like CAIR which the FBI has blacklisted demonstrates an 
        inconsistency that reveals a deep-seated ideological disconnect 
        in understanding the threat we face to homeland security.\13\
---------------------------------------------------------------------------
    \13\ Neil Munro, ``Administration admits to `hundreds' of meetings 
with jihad-linked group'', The Daily Caller, June 8, 2012.
---------------------------------------------------------------------------
    (2) Lay out a clear policy on how the U.S. Government engages the 
        Muslim Brotherhood abroad and its legacy groups and apologists 
        domestically. Sec. State Hillary Clinton surprisingly stated 
        last November that ``What parties call themselves is less 
        important to us than what they actually do.''\14\ And on June 
        13, 2012, five members of Congress including Cong. Michelle 
        Bachman (R-MN), Trent Franks (R-AZ), Louie Gohmert (R-TX), Tom 
        Rooney (R-Fl), and Lynn Westmoreland (R-GA) sent letters to the 
        Inspectors General of the Office of the Director of National 
        Intelligence, the Department of Defense, the Department of 
        Homeland Security, the Department of Justice, and the 
        Department of State asking about the involvement of the Muslim 
        Brotherhood in agency policies.\15\ It is time that we stopped 
        dancing around our approach to the Muslim Brotherhood and its 
        constantly morphing positions. We need a consistent strategy 
        that realizes the basic disconnect between Islamism and western 
        democracy and realizes that our Government facilitates these 
        organizations to our own detriment.
---------------------------------------------------------------------------
    \14\ Tiffany Gabbay, ``Clinton: U.S. will work with Arab Springs 
Islamist parties'', The Blaze, November 7, 2011.
    \15\ Erica Ritz, ````House Members Demand Answers on Depth of U.S. 
Involvement With the Muslim Brotherhood'', The Blaze, June 15, 2012.
---------------------------------------------------------------------------
    (3) We need to develop a Liberty Doctrine both domestically and 
        internationally that embraces what is exceptional about 
        America. Prime Minister Cameron of the United Kingdom has made 
        similar calls for a ``muscular liberalism''. (Appendix VIII)
    Our founding fathers were very comfortable discussing ideologies 
that covered the intersection of religion and politics in the public 
space. Your hearings have appropriately pushed our communities to 
return to that tradition and become better Americans, and better 
Muslims. As a Muslim who fears for the future of our youth and the 
influence upon them of the domestic and global Islamist movements, it 
is actually my love of my faith that gives the fuel to counter 
Islamists and advocate for more hearings that continue to expose the 
many fronts in the battle of ideas against Islamism and its advocates.

    Chairman King. Thank you, Dr. Jasser. The Chairman now 
recognizes Ms. Nomani for her opening statement.

          STATEMENT OF ASRA Q. NOMANI, PRIVATE CITIZEN

    Ms. Nomani. Thank you so much, Chairman King.
    Chairman King. Turn on your microphone.
    Ms. Nomani. I am an amateur at this. Thank you, Chairman 
King and Ranking Member Thompson for the invitation to come 
here. Thank you to all the representatives that are here and to 
all of our guests here in the hearing room.
    Last year, I awakened my son in the pre-dawn darkness of a 
March morning. It was the first hearing that you were holding 
and he was 8 years old at the time. A 4 a.m. wake-up call was 
not in his idea of a great day. But I wanted him to come to 
this hearing because he is a boy who was born in 2002, the 
first of our generation post-9/11. We are a Muslim family that 
I come from and he inherits, in my mind, the interpretation of 
Islam--this challenge that we have of extremism in our 
community. It is our children's generation that will continue 
to carry this responsibility of how to tackle this very serious 
problem.
    We waited in line and I bring him here today. He gets a 
seat without having to wake up in the dawn. I bring my parents, 
because to me, they are my moral compass in my conversation I 
am going to have with you today.
    I am going to try to speak to you from the heart, both as a 
mother and as a Muslim, as a journalist who has reported on the 
issue of extremism, and then also as a friend. When my 
colleague and friend from the Wall Street Journal, Danny Pearl, 
left my house for the interview from which he did not come 
back, the men who met him at the compound where he was then 
killed, slayed him in the name of Islam, the way that we 
slaughter animals inside of our faith. They cleaned the floor 
that was bloodied and then they did their prayer. To me, that 
was the greatest betrayal of the faith that my parents had 
taught me.
    The frustration that so many people have felt from Muslims 
who don't acknowledge this problem is the same one that I have 
felt, because it is a real issue. The idea of extremism and 
terrorism is grounded in religious theology for so many people 
inside of our faith. As a communicator, what I want to try to 
break down for you is why I think this is happening, so that 
perhaps we can try to heal some of the wounds and the 
grievances and much of the pain that I think is part of this 
conversation.
    I believe that in our Western society, we have what you 
call this low-context culture--this idea that we go from point 
A to point B. So when you ask a Muslim, ``Is there a 
radicalization problem in the community?'', you are going to 
expect a straight answer. But inside of our Muslim community, 
we are defined very much by this loopy kind of conversational 
style that is associated with high-context cultures that 
African-American society also has, that Hispanic society--that 
a lot of societies from Asia also have. What happens is a 
potential culture clash, where you can't talk to each other.
    In our Muslim community then, a former FBI analyst--an 
agent--has identified that we are very much wound collectors. 
We talk about the crusades. We talk about the Ottoman Empire, 
Colonialism, and all of the grievances. When you have that 
cycle of wounds, you create a circle of denial, I believe, 
where you in fact respond to issues of seriousness with 
defensiveness, dismissiveness, deflection, denial, 
demonization, also. So that you end up saying, you are picking 
on us--you are at a war with Islam.
    What has happened then, in my eyes, is that, we as a 
community have denied much of the problem. For me, these 
hearings are really a critical conversation to be had. I know 
that they are not easy and they are very difficult. Especially, 
in a culture like mine, where shame is such a critical 
component, it represents a type of shaming.
    But what I would like to gently suggest to both my 
community and to those who are trying to communicate with it, 
is that we can move from collecting wounds to owning up--that 
in our Muslim faith, we have a theology. We have a verse in the 
Koran that says very clearly--stand up for justice, even if it 
is against your own kin. That is a really difficult idea for 
any community, but I fundamentally believe that inside of an 
Islam of grace, we can actually have a conversation that brings 
healing to all the communities involved.
    I thank you for this opportunity to be part of that 
conversation. I thank my son for being here and my parents for 
being that accountability in my own life, so I could come to 
you and speak to you from the heart.
    Thank you.
    [The statement of Ms. Nomani follows:]
                  Prepared Statement of Asra Q. Nomani
 Toward an Islam of Grace: Owning Up Instead of Being Wound Collectors
                             June 20, 2012
``O ye who believe!/Stand out firmly/For justice, as witnesses/To God, 
even if it may be against/Yourselves, or your parents/Or your kin.''--
``Al-Nisa'' (The Women), Qur'an 4:135
                              wake-up call
    In early March 2011, in the pre-dawn darkness of a cold, rainy 
morning, I stirred awake my son, Shibli, now 9, to make sure we got 
seats for the first hearing of the U.S. House of Representatives 
Committee on Homeland Security on a critically important topic: ``The 
Extent of Radicalization in the American Muslim Community and That 
Community's Response.''
    As the sun rose, we stood sheltered from the rain in the marble and 
limestone threshold to Cannon House Office Building at the corner of 
Independence Avenue SE and New Jersey Avenue SE, the first in line, 
waiting for the building's doors to open. I felt, as a boy born into a 
Muslim family, my son should be witness to history. Born in 2002, he is 
part of the first generation born after the Sept. 11, 2001, attacks on 
the United States by 19 hijackers acting in the name of Islam, and the 
issue of radicalization inside the Muslim community is an issue that 
his generation will inherit. I wanted him to be witness to the 
important, albeit difficult, conversation that was to be had in the 
hearing room.
    To me, the hearings represent an important wake-up call that we, as 
a Nation, are not going to continue to simply tap dance around the 
reality of an extremist ideology of Islam that is wreaking havoc in the 
world. My son was thrilled to miss a day of school, staying for the 
entire hearing, earning him a sticker from a U.S. Capitol Hill Police 
officer. (Having a Pokemon game with him helped during some of the slow 
moments.)
    For today's hearing, ``The American Muslim Response to Hearings on 
Radicalization Within their Community,'' I bring my son again, this 
time to sit in the front row behind me with my parents. Thank you to 
the honorable Chairman Peter King and Members of the committee for the 
invitation to speak.
    In Islam, we have a symbolic manifestation of accountability at the 
end of every prayer, turning to say, ``As-salam-ailaikum,'' or ``Peace 
be upon you,'' to metaphorical angels that sit on our shoulders, 
recording our deeds, bad and good, for our judgment day. In my life, my 
parents and my son symbolize to me the people to whom I feel most 
accountable, and I testify today, emboldened by the values of truth 
telling, honesty, and service my parents taught me, invoking our Muslim 
faith, and with a clear sense of farz, or duty, to do whatever I can do 
to ensure a better future for my son and his generation.
    What I hope to do this morning is speak to you from the heart as an 
American and as a Muslim, but most importantly as a mother. I know that 
the issue of radicalization within the Muslim community and the 
community's response to it is very polarizing, but I hope that we can 
speak to each other from a place of sincerity so that we can protect 
and express the values and principles in which we believe, guided most 
of all by higher principles of truth-telling and justice.
    In my testimony, I will focus on the topic of the hearing--
identifying the patterns in the American Muslim response to the 
hearings on radicalization--and I will draw broader conclusions about 
Muslim responses to the issue of extremism in our community and offer 
recommendations on how the response can be transformed within an Islam 
of grace, more healthy and healing for all sides in the conversation. 
Except for describing how I have seen radicalization express itself in 
my life, I won't spell out the many ways that an extremist ideology of 
Islam has taken root in Muslim communities since that isn't the scope 
of this particular hearing.
    Unfortunately, I believe that, inside much of our Muslim 
communities, we have departed from our very clear sense of holding 
ourselves accountable. The Muslim community's response to the hearings 
on radicalization within our community--much like the response of many 
communities to internal problems--hasn't been one of taking ownership 
of our problems but rather engaging in a strategy of deflection.
    This same strategy of deflection has expressed itself in our wider 
response to radicalization, terrorism, and the presence of an 
intolerant interpretation of Islam in our world today.
    We are very much a culture of denial, fixated on perceived wounds.
    Indeed, all of us carry wounds from generation to generation and 
throughout our personal lives. Slavery in the United States, the 
Holocaust, apartheid in South Africa, the Rwandan genocide, the 
religious wars in Ireland, the Israeli-Palestinian conflict, the 
smoldering tensions in Kashmir. These are just a few historical 
examples of deep wounds passed from generation to generation, both on 
the personal and societal level. On a personal level, our wounds can be 
emotional or physical abuse, abandonment, death, poverty, and so much 
more. On a societal level, they can manifest in war, genocide, 
authoritarianism, civil injustice, and also so much more.
    How we respond to wounds comes to define us, as individuals and 
communities. It very much guides the ways in which we respond to 
challenges and conflicts in the world.
    I would argue that many in our Muslim society have adopted a 
culture as ``wound collectors,'' holding onto grievances and responding 
to scrutiny with a strategy characterized by four very distinct 
elements: Denial, deflection, demonization, and defensiveness.
    I believe we have the capacity to practice an Islam of grace that 
includes compassion, forgiveness, truth telling, and owning up.
    I speak from several vantage points. As a mother and as a Muslim, I 
have witnessed the radicalization of my community over my lifetime, and 
I care very deeply about directly challenging the interpretation of 
Islam that fuels militancy and terrorism. Pakistani militants and al-
Qaeda operatives, including 9/11 mastermind Khalid Sheikh Mohammad, 
kidnapped and killed my friend and colleague from the Wall Street 
Journal, Daniel Pearl, in the name of Islam.
    As a former reporter for the Wall Street Journal for 15 years, I 
have witnessed communication strategies that work and those that don't. 
As a journalist reporting, writing, and commenting on extremism for the 
last decade for publications from the Daily Beast to the Washington 
Post, the New York Times, Time magazine and the Washingtonian magazine, 
I have observed and reported on the communication strategies of Muslims 
from ordinary citizens to government officials and the leaders of 
militant and terrorist organizations. As an activist in the Muslim 
community for women's rights and tolerance, I have faced the response 
of Muslim leaders, organizations, and individuals to issues of 
controversy. As I write my testimony, a Muslim blogger has already 
tried to discredit my fellow witnesses and me as ``astroturf Muslims,'' 
in the politics of marginalization and takfir, the act of proclaiming 
other Muslims ``non-Muslims,'' if they dare to challenge conventional 
wisdom.
    Finally, as a cultural trainer for the last 3 years to the U.S. 
military and other Federal agencies, including the FBI, I have tapped 
my graduate studies in international communications, emphasizing cross-
cultural communications, to translate communication patterns expressed 
in traditional Muslim cultures to military and Federal personnel 
deploying to Afghanistan and Pakistan. I work with one purpose: To save 
lives.
                             radicalization
    To come to the conclusion that we have responded to radicalism from 
a place of denial, I had to first become convinced myself that 
radicalism exists inside of our communities.
    Born in 1965 in Mumbai, India, into a conservative Muslim family, I 
have come to accept this truth after a lifelong journey that has 
brought me face-to-face with the darkest expression of Islam in the 
world today.
    In the summer of 1969, I arrived in the United States with my older 
brother, Mustafa, to join my parents as immigrants to this country. In 
India, my mother had worn the full-face veil and black gown that is 
called the burka. Her mother, my nani, wasn't at her husband's deathbed 
when he passed from this earth because men were visiting at the moment 
and she was required by her family's interpretation of Islam to leave 
the room.
    My family settled in Morgantown, WV, where my father, Zafar, was a 
professor of nutrition at West Virginia University and my mother, 
Sajida, ran a boutique. Growing up, my best friend was Nancy Drew.
    In this country, my family practiced a conservative but open-minded 
interpretation of Islam. I didn't go to junior high school dances but 
my parents allowed me to run track in shorts and a tank top. My father 
started a mosque but I wasn't allowed to enter because the men had 
imported a tradition that women and girls aren't allowed to enter 
mosques. My mother taught me to read the Quran at home.
    As a child, I saw the encroachment of intolerant interpretations of 
Islam into our American Muslim community. At potluck dinner parties of 
the local Muslim community, we had met freely as families, with no 
separation between women and men, but in the mid-1970s, I found myself, 
as a girl, relegated to separate areas with the women. As females, we 
always got less food and fewer bottles of Sprite. One thing the 
American civil rights movement had taught us that I found to be 
completely true: Separate is not equal.
    By the 1970s, the government of Saudi Arabia had gotten oil money 
and on the campus of West Virginia University we were starting to see 
students from Saudi Arabia, importing their country's strict Wahhabi 
interpretation of Islam to my community, bringing with it sectarianism, 
sexism, and intolerance.
    For most of my life, I sat on the fence, calculating, like many in 
our community, that it was just easier to look the other way than 
confront difficult truths. I lived in denial. I was one of the many 
moderate Muslims who simply cowered or walked away from confrontation, 
intimidated into thinking we are less pious or faithful--or concluding 
it isn't worth the bother. Social ostracism is one weapon in silencing 
dissent.
    Sept. 11, 2001, was my call to action. I flew to Pakistan to make 
sense of the ideology of Islam that had inspired the 19 hijackers to 
kill themselves and some 3,000 others.
    On January 23, 2002, I directly faced the darkness that has been 
expressed in the name of Islam. Daniel Pearl, a close friend from the 
Wall Street Journal, was visiting my rented home in Karachi, Pakistan, 
with his wife, Mariane, when I stood by the gates to my house with 
Mariane, waving goodbye to him as he set off in a yellow taxi for an 
interview from which he never returned.
    Danny was kidnapped off the streets of Karachi, held in captivity 
for about a week by Pakistani militants who ascribed to a radicalized 
interpretation of Islam called Deobandism, a sort of Wahhabi ideology 
of South Asia. He was then brutally slaughtered in the name of Islam by 
men who laid their prayer rugs upon the bloodied floor to raise their 
hands to the heavens, saying salam to the metaphorical angels on their 
shoulders before slipping into hiding.
    Later, the mastermind of 9/11, Khalid Sheikh Mohammad, confessed to 
killing Danny with his ``blessed right hand.'' When the FBI and 
Pakistani investigators came to my house to tell Danny's wife that they 
had received a video, ``The Murder of the Spy-Journalist, the Jew 
Daniel Pearl,'' documenting Danny's murder, Mariane ran into the 
bedroom she had shared with Danny, slammed the door shut, and sent 
shock waves of blood-curdling screams into the night air.
    Outside the door, I sat on the stairs, collapsing my head into the 
open palms of my hands, speaking to myself the Muslim prayer for 
protection that my mother had taught me in my earliest days, trying to 
make sense of the men who justified killing my friend because he was 
Jewish.
    I faced another challenge: I had just discovered I was pregnant. My 
boyfriend, a Muslim, had told me we would wed before Danny's 
kidnapping, but he had left on the first day of Danny's kidnapping in 
fear of getting trapped in an international dragnet. By the Islamist 
laws of Pakistan put in place in 1979, under the influence of the 
Wahhabi interpretation of Islam promoted globally by Saudi Arabia, I 
was a criminal because I wasn't married, my baby as evidence against 
me.
    Needless to say, I returned home to West Virginia, where my son was 
born on October 16, 2002. When I was in the delivery room, doctors told 
me that my son's heart rate was falling precariously low. I started 
saying ``Allah hu'' with every breath, inhaling the power of the Divine 
and exhaling it out into the universe.
    In these two moments of peril, I tried to invoke a higher spirit 
for all of the reasons that religion was created: To usher forward calm 
and solace.
    Over the next years, as I tried to make peace with my faith, I 
realized that our Muslim world is in a spiritual crisis. Since 
September 11, 2001, we have been challenged as a community. For some of 
us, that has meant promoting an interpretation of Islam that is 
tolerant and good. I embrace an interpretation of Islam that we call 
``Islamic feminism,'' rejecting the second-class status afforded women 
in much of the community, going into the main halls of mosques in the 
United States reserved only for men, an act for which I've been 
harassed in mosques around the country from my hometown mosque in 
Morgantown, WV, to Los Angeles, Seattle, New York City, and Washington, 
DC, including the ``9/11 mosque'' in northern Virginia, ironically a 
place of refuge for some of the 9/11 hijackers, former al-Qaeda 
propagandist Anwar al-Awlaki, and the Fort Hood shooter, Major Nidal 
Hassan. In 2000, women at 66% of the U.S. mosques prayed behind a 
curtain or partition or in another room, compared with 52% in 1994, 
according to a survey of leaders of 416 mosques Nation-wide.
    In my mosque in West Virginia, I got a copy of a Quran published by 
the government of Saudi Arabia. The original first chapter of the Quran 
innocuously reads: ``Show us the straight way. The way of those on whom 
Thou has bestowed Thy Grace. Those whose (portion) is not wrath, and 
who go not astray.'' (1:6-7)
    Changing the translation, the Quran published by the King Fahd 
Complex for the Printing of the Holy Quran in the Kingdom of Saudi 
Arabia spells out exactly who has gone astray: the ``Christians'' and 
the ``Jews.''

``Guide us on the straight way. The Way of those on whom You have 
bestowed Your Grace, not (the way) of those who earned Your Anger (such 
as the Jews), nor of those who went astray (such as the Christians.'' 
(1:6-7)

    I found the same spirit of frightening theology in a book 
distributed by our local Muslim Students Association, Women in the 
Shade of Islam, by a Saudi cleric, arguing for an interpretation of 
Islam of a controversial verse, 4:34, to allow a husband to ``beat'' 
his wife. And pulling sermons from a Saudi website, alminbar.com, one 
of our imams warned us from going on the ``dark path'' of the West. 
Under trial to be banned for protesting these disturbing teachings, I 
borrowed from religious reformer Martin Luther and posted ``99 Precepts 
for Opening Hearts, Minds, and Doors in the Muslim World'' on the front 
door of my mosque (Attachment 1).
    For others, the challenge has meant clinging even more tightly to 
tradition and ideology so that our identity cannot be shaken as an 
ummah, or community. The net effect has been devastating. We are 
failing our youth. We are failing the world. And we are failing our 
faith.
    It is for the future of our children that I firmly believe we have 
to change the course of relations between Muslims and the West. My 
experience in Karachi was life-changing and propelled my onto a path as 
a writer, challenging conventional doctrine, interpretation, and ideas 
in my Muslim community. I call my new incarnation jihad bil kulum, or 
``struggle of the pen,'' to assert a new way of thinking about taboo 
topics from militancy in the community to issues of sexuality, women's 
rights, and truth-telling.
    Last month in May 2012, reporting for Washingtonian magazine, I 
attended the Guantanamo Bay arraignment of the five defendants charged 
for the 9/11 attacks, including Khalid Sheikh Mohammad. Cues about how 
important Islam is to the thinking of these five men speak volumes. 
Defendant Ramzi bin al Shibh did the call to prayer in the military 
courtroom, to be followed by Khalid Sheikh Mohammad laying his prayer 
rug toward Mecca and leading the four other defendants behind him in 
prayer to the heavens. They ended their prayer as we all do, in our 
Muslim communities: Saying salam to the figurative angels on their 
shoulders.
                              saving face
    Like every faith, honesty, truth, and justice are values of 
importance in Islam. But the notion of truth-telling in the Muslim 
community is a complicated one.
    From a cross-cultural communications perspective, pioneered by 
scholars such as Edward T. Hall, societies and individuals fit into two 
typical models: High-context and low-context. This analysis is by no 
means black-and-white, but it's a frame of reference.
    High-context cultures are typically characterized by communication 
styles that require a lot of context, family lineage, for example, 
having great value. These cultures include countries such as 
Afghanistan, Japan, China, Pakistan, India, and nations inside Africa, 
Latin American, and South America. Muslim communities fit into this 
category.
    Low-context cultures, in contrast, require little context, an 
individual's personal identity, for example, being more important than 
ancestry. They typically include the United States, the United Kingdom, 
Germany, France, and most other Western nations.
    There are some characteristics of high-context, shame-based 
cultures that express themselves in confronting difficult issues, such 
as the issue of radicalization in the Muslim community. One of the most 
important elements is how Muslim communities are largely characterized 
by a high value for honor and an aversion to shame. Muslim communities, 
like so many, are largely shame-based societies, and they don't take 
easily to admitting their problems.
    In the name of honor--and saving face--many in the Muslim community 
circle the wagons and deny ugly truths, like many communities respond 
when they feel like they are under siege. In these cultures, saving 
face trumps truth-telling. Since these cultures are also collectivist 
in nature, a criticism against an individual or a discussion of a 
specific issue is often taken as an affront against the entire culture.
    Thus, in these cultures, people often take a very defensive posture 
to issues that risk embarrassing the community. In a discussion on the 
specific, narrow issue of radicalization in the Muslim community, we 
get defensive statements filled with hyperbole, such as, ``The United 
States is at war with Islam,'' ``Not all Muslims are bad,'' and ``Islam 
is on trial,'' rather than precise, nuanced discussions. This has very 
much been the response of Muslim organizations to the committee 
hearings and the broader issue of radicalization in the Muslim 
community. A discussion of a precise issue is perceived as an affront 
to all.
    In low-context cultures, when we can ask a simple question, ``Is 
there a radicalization problem inside of Muslim communities?'' we 
expect a straight-forward answer: Yes or no, moving directly from the 
questioner at point A to the respondent at point B. In fact, in low-
context cultures, largely defined by guilt instead of shame, 
confessions have great value. It works to tell someone in a guilt-based 
culture: ``Go ahead. Get that off your chest. You'll feel better.'' 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In high-context cultures, we get a long-winded, loopy contextual 
answer between point A and point B. In shame-based cultures, 
individuals don't feel better by confessing; they feel worse for 
bringing shame upon themselves and perhaps their family and community. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    What can occur when these two styles meet is classic cross-cultural 
communications clash.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the case of the committee hearings, we heard about the issue of 
extremism in white supremacist communities, the perceived civil rights 
abuses against Muslims, the historical legacy of colonialism, and the 
illegitimacy of commentators on the issue. For the most part, from 
Muslim critics of the hearing, we didn't get a straight answer to the 
question of radicalization in the community.
    In much the same spirit, when former 60 Minutes correspondent Ed 
Bradley asked Imam Feisal Abdul Rauf, a prominent American Muslim 
leader, about the 
9/11 attack, Mr. Rauf responded with a contextual answer: ``It is a 
reaction against the policies of the U.S. Government, politically, 
where we espouse principles of democracy and human rights and where we 
ally ourselves with oppressive regimes in many of these countries.'' 
The response caused Mr. Bradley to even stammer: ``Are--are--are you in 
any way suggesting that we in the United States deserved what 
happened?'' Mr. Rauf responded, ``I wouldn't say that the United States 
deserved what happened, but the United States policies were an 
accessory to the crime that happened.''
    The net result: A classic case of cross-cultural communications 
clash. Mr. Rauf drew the ire of American listeners who didn't want to 
hear the historical context of the attacks, and he got head-nodding 
from Muslims who appreciated the context he brought to the discussion.
               ``wound collectors'' and ``couch jihadis''
    In 2005, Joe Navarro, a former FBI special agent, coined the 
concept of terrorists as ``wound collectors'' in a book, Hunting 
Terrorism: A Look at the Psychopathology of Terror, which incorporated 
years of experience analyzing terrorists worldwide from Spain to 
today's Islamic movements. He wrote that ``terrorists are perennial 
wound collectors,'' bringing up ``events from decades and even 
centuries past.'' He noted: ``Their recollection of these events is as 
meaningful and painful today as when they originally took place. For 
them there is no statute of limitations on suffering. Wound collection 
to a great extent is driven by their fears and their paranoia which 
coalesces nicely with their uncompromising ideology. Wound collecting 
serves a purpose, to support and vindicate, keeping all past events 
fresh, thus magnifying their significance into the present, a rabid 
rationalization for fears and anxieties within.''
    To me, this phenomenon extends to the larger Muslim community, 
where there are wounds expressed in living room debates that earn many 
Muslims status as ``couch jihadis,'' as one U.S. law enforcement 
official referred to them in conversation with me. I grew up 
eavesdropping on these ``couch jihadis'' in the men's sections of our 
dinner parties. Indeed, Mr. Navarro, told me, ``Collecting wounds 
become cultural,'' for communities worldwide. Clearly, knowing a 
community's wounds is important to understanding its history, Mr. 
Navarro said, but he noted, ``The beauty of extremism is that it 
doesn't allow forgiveness.''
    In the Muslim community, you could spin a wheel and pluck from a 
number of grievances that would have as much relevance today as when it 
was first experienced. I call this a ``circle of wounds'' that very 
much express themselves in our Muslim communities.
    Steven Stosny, a psychologist and the author of Love Without Hurt, 
counsels individuals struggling with wounds defining their 
interpersonal relationships, but he says wounds can also define a 
culture or community. ``There is a cultural quality to wounds,'' he 
told me. ``Collecting wounds holds the group together.'' He said that 
wounds can also lead to ``denial and complete insensitivity'' of 
others' hurts. Approached a different way, however, healing can emerge: 
``When you can focus on another's wounds,'' he said, ``you heal your 
own.''
    In America, I would gently suggest, we haven't yet healed the wound 
from 9/11. And in the Muslim community, we have a circle of wounds from 
the Crusades to the modern day wars in Iraq and Afghanistan. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           culture of denial
    In the years since 9/11, the Muslim community has launched obtuse 
public relations campaigns that don't address issues of radicalism 
head-on, but rather focus on these perceived wounds. Speaking as a 
journalist, this is a disastrous PR strategy, whether it's expressed by 
Union Carbide following the Bhopal, India, disaster or by Muslim 
organizations following the 9/11 attacks.
    This strategy expresses itself in Muslim communities worldwide, 
leading outsiders to ask frustrated questions such as, ``Why doesn't 
the moderate majority Muslims speak up against extremism?'' Often, many 
Muslims think they are speaking up, but they don't realize their 
statements are filled with denials and deflection.
    In 2008 in Pakistan, local pop stars attempted to challenge the 
issue of militancy in the country with a song akin to the U.S. pop 
song, ``We are the World.'' To me, they did the kind of tap dance that 
frustrates so many. I call it the ``tap dance of denial.'' The 
Pakistani song was ``Ye Hum Naheeh,'' or ``This is not us,'' in Urdu, 
the official language of Pakistan. In the lyrics, the pop stars refer 
to the militancy exported from Pakistan to targets from London to 
Mumbai, India, and Time Square, New York, and sing, ``This story that 
is being spread in our names is a lie.'' There is an obfuscation of the 
truth in their denial.
    In a moment of clarity, the singers acknowledge a truth about the 
self-destructive nature of militancy and terrorism to the Muslim 
community--and the consequence of paralysis. ``We are scared of the 
dark so much that we are burning our own home,'' they sing. The singers 
ultimately acknowledge the grief at hand for all: ``Your hurts are a 
deep sea--our wounds are deep.''
    Studying the response of Muslims to difficult issues from the House 
hearings on radicalization to the presence of Osama bin Laden in 
Abbottabad, Pakistan, near the nation's capital, I've identified four 
elements typically found in the Muslim community's leaders and citizens 
as they attempt to save face:
  <bullet> Denial: Outright denial of the problem.
  <bullet> Demonization: Employing this approach, it's common to 
        attempt to discredit others.
  <bullet> Deflection: Diverting the discussion, most often to 
        grievances and wounds.
  <bullet> Defensiveness: Framing the discussion as an attack on the 
        entire culture and religion.
    This dynamic expresses itself in a self-perpetuating circle of 
denial that feeds anger, frustration, and hurt. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The net effect of the communications culture clash is disastrous 
for all sides, leading very often to anger, hurt, pain, confusion, and 
anger for everyone. Even in jest, in an episode called, ``To Kill a 
Mockingturd,'' after the killing of Osama bin Laden in Pakistan, 
comedian commentator Jon Stewart crumpled a piece of paper in 
frustration, responding to former Pakistani leader Pervez Musharraf's 
denials about knowledge of bin Laden's presence in his country, Mr. 
Stewart asking, rhetorically: ``You know what hurts the most?''
    Mr. Stewart responded, ``You lied to me! You lied to me!'' He 
ended: ``I can't talk about this!''
    This same cycle of frustration and anger occurred, from my 
perspective, in the wake of the announcement that a mosque was to be 
built near Ground Zero for the 9/11 attacks in lower Manhattan, Imam 
Faisal Abdul Rauf an early proponent. Many New Yorkers perceived the 
plans to build the mosque as insensitive. I agreed. The cycle of 
confusion, anger, pain, frustration, hurt, and sadness spilled over 
onto the streets of New York on the anniversary of 9/11 as protestors 
against the mosque confronted supporters. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In our Muslim community, the constant airing of grievances can 
paralyze us from taking personal responsibility for problems within our 
community. We live in a state of shame and victimization. That leads to 
insensitivity, defensiveness, and denial. For example, after 9/11, 
leaders at a Long Island mosque with which Chairman King had had good 
relations were quoted in the newspaper, repeating conspiracy theories. 
The mosque's interfaith director at the time said: ``Who really 
benefits from such a horrible tragedy that is blamed on Muslims and 
Arabs? Definitely Muslims and Arabs do not benefit. It must be the 
enemy of Muslims and Arabs. An independent investigation must take 
place.'' Chairman King later told the Washington Post about his 
distress over the reaction: ``At this key moment for our country, the 
worst attack on us in history, these people who I thought were my 
friends were talking about Zionists and conspiracies,'' he said. ``They 
were trying to look the other way while friends of mine were being 
murdered.''
                          breaking the silence
    To me, the committee hearings have not been a witch-hunt and 
Chairman King is no Joe McCarthy, the Senator who led hearings on 
communism in America. Far from being harassment, the committee's 
hearings have represented a chance for U.S. Muslims to break out of the 
culture of denial and acknowledge the extremism in our community.
    Our worst enemies in America, I would argue, are Muslim interest 
groups and leaders, who do more to deny the problem of Muslim extremism 
than to defeat it, thus furthering the alienation of the Muslim 
community in the West and elsewhere. We need to acknowledge that there 
is a problem.
    Our community heroes should be individuals such as the first 
witnesses at the committee's hearings: Zuhdi Jasser, a former 
lieutenant commander in the U.S. Navy who battles ideologues at mosques 
in Phoenix and Nation-wide, and Abdirizak Bihi, a Somali-American who 
has challenged extremism in the Minneapolis community that has led to 
so many Somali-American youths going to their native country to fight 
for the Muslim extremist group al-Shabaab. Both have challenged 
extremism in their communities, but they have done so at great personal 
cost. They realize, I believe, that we have a greater imperative to 
right wrongs than be silenced by fear of shame.
    It's never easy to speak honestly about the ``dirty laundry'' in 
any community. In 2003, when I wrote about sexism and intolerance at my 
local mosque in Morgantown, West Virginia, a moderate young Egyptian-
American attorney met me at the local Panera Bread. He had told me that 
he supported me but when we met he said, ``Stop writing.'' His 
rationalization: ``You are shaming the community.''
    Liberals complain that the hearings on American Muslims are a 
racist blame game. They often attempt to discredit and marginalize any 
Muslims trying to express their truth about the radicalization of 
Islam. This is what I witnessed happen to the Muslim witnesses at the 
first hearing. From my vantage point in the fourth row of the packed 
hearing room, sitting next to my son, Shibli, I was left with a very 
lasting memory. The hearing didn't amount to the much-anticipated slam 
against Muslims but rather it devolved, ironically, into an attack on 
the Muslim witnesses. It was horrifying to watch and more difficult to 
explain to my son.
    The attempt to discredit war stories from the trenches in the 
battle against extremist interpretations of Islam is extremely 
troubling to me because so much of the inspiration for reform comes 
from the success of liberals in the U.S. civil rights, women's rights, 
and other social justice struggles. I'm as liberal as you can get: Pro-
gun control, pro-choice, pro-union, and pro-same sex marriage. But, on 
this issue of challenging extremism inside Islam, the hearing revealed 
to me that many liberals, sadly, are overlooking a serious issue of 
extremism, in the name of political correctness. While well-
intentioned, this approach is, to my estimation, short-sighted. If we 
continue at this rate of denial, as a Nation, we don't stand a chance 
against al-Qaeda and Islamic militancy.
    To me, the stories of the witnesses resonated. They expressed the 
same dynamics of intimidation that others and I have experienced trying 
to challenge dogma at our mosques. What's so disheartening is that 
women's rights and civil-rights leaders and activists have fought the 
same forces of intimidation and theological distortion that we face in 
the Muslim community when we challenge the dogmatic. We should be 
natural allies. Challenging the authority and legitimacy of other 
Muslims is usually the tactic puritanical Muslims (and all ideologues) 
use to silence reformers. It's a game in which Muslims try to out-
Muslim each other.
    Interestingly, conservatives have recognized the importance of 
challenging Islamic extremism. The liberals attack leaders such as 
Chairman King as the wrong person to lead the discussion. But the 
reason I support these hearings is that, at least, this committee has 
the courage to hold this conversation and to explore this critical and 
contentious situation.
    As the final gavel fell, one of the activists hurled one final 
insult at Jasser, the Phoenix physician. ``You hate-mongerer!'' she 
yelled at him. But Jasser had accomplished something very different: As 
a Muslim, he had broken the silence that only empowers the extremists.
                             ``owning up''
    There is a Quranic verse that reminds us of our divine imperative 
to testify to the truths of problems inside our community: ``Oh ye who 
believe! Stand out firmly for justice, as witnesses to God, even if it 
may be against yourselves, or your parents, or your kin''--``Al-Nisa'' 
(The Women), Quran, 4: 135.
    To transform our culture of denial, we need to do something very 
simple: Own up. We have Islamic values of forgiveness, truth-telling, 
and honesty to take personal and societal responsibility for 
acknowledging, challenging, and ultimately defeating radicalization 
within the community from an Islam of grace. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    On the part of the West, there are elements of communication that 
we can contribute to bridge the gap:
  <bullet> Realistic empathy can at least acknowledge the wounds. It 
        doesn't have to be expressed as sympathy but rather just 
        empathy for the grievances, wounds, and frustrations that are a 
        part of highly contextual perspectives that many Muslims bring 
        to the conversation.
  <bullet> Simply being respectful affords some level of humanity in 
        the conversation.
  <bullet> Expressing even condolences for the perceived injustices can 
        help mitigate the pain.
  <bullet> With that, perhaps, can come some healing.
    On the Muslim side, there are elements of communication that we 
need to incorporate:
  <bullet> Owning up to the problem of radicalization and extremism in 
        our communities by being honest about our problems.
  <bullet> Taking responsibility for our problems so we can be part of 
        the solutions. This amounts to being self-aware so we recognize 
        our problems and our inclination to deflect and deny.
  <bullet> Progressing and developing our institutions so we give 
        Muslims viable opportunities for expression in politics, the 
        media, and public policymaking.
  <bullet> I say this in most loving way possible, but we need to grow 
        up, forgiving and approaching the world from a rational 
        perspective, allowing healing not only to others but ourselves.
    Dr. Nancy Snow, a professor of cross-cultural communication at the 
University of California in Fullerton and a friend who has taught this 
topic with me to the U.S. military, told me, ``We face a problem on how 
we all can move from a place of wound and grievance to one of 
redemption and hope. We seem to be at our farthest point from each 
other now. We can choose to keep our distance from each other, but if 
we do, we'll never heal. We need to come out from the dark places that 
distance us from each other. We often say in communication circles that 
sunshine is the best of disinfectants. It refers to shining a light on 
the darkness, those hidden parts of us that fester--anger, hate, 
grievance, revenge.''
    As a Muslim, this is our jihad bil nafs, or our struggle of the 
soul, for us as individuals and as a community. As an American, this is 
our personal and societal battle, as well.
    The Muslim community has many valuable contributions to make to the 
U.S. and Western society, including our focus on values such as truth 
and justice, but these important values and truths are lost when our 
most visible representatives resort to terrorism--and the voices from 
within our community engage in the cycle of denial.
    We allow shame, or sharam as it's said in my native language of 
Urdu, and honor, or ghairat, to silence us. To me, this is the voice of 
our ego, and thus we need to be engaged in this jihad bil nafs. We need 
to choose reason and rationality, not shame and denial. We would be 
best served by exercising ijtihad, or critical thinking, owning up to 
issues the community's internal problems and issues so it can move past 
them, evolving and maturing.
    We have to shake off the fear of shame and own the problems inside 
our community. In a sense, we need to be shameless. We have to realize 
that neither our community nor Islam has to be defined by criminals 
such as Major Nidal Hassan and Faisal Shahzad, but they will be if we 
don't accept these men and their ideologies came from our communities 
but we reject their thinking. Muslim communities may have legitimate 
grievances about U.S. foreign policy, but those grievances, too often, 
become excuses for avoiding the ugly truths about radicalization in our 
communities.
    On the eve of this hearing, Rodney King, the victim of police 
violence years ago, died, his simple message enduring: ``Can't we all 
just get along?''
    As Muslims, it is up to us to stop walking on eggshells and 
avoiding a critical conversation about the dangerous interpretations of 
faith that exist in our community. It is up to us to lead an 
intelligent, nuanced, honest conversation, rather than just jumping to 
the blanket defense of Islam. If we own the problem, then we can all 
own the solution together.
    Last year, when my son was in second grade, before the first 
committee hearing, he came home with an assignment he had completed in 
school, titled, ``Rights and Responsibilities.'' In it, he answered the 
question, ``What does it mean to own up?'' He responded by confessing 
that he didn't always brush his teeth when he told me he had. (I had no 
idea.) Seeing the early lesson my son was receiving in ``owning up,'' I 
realized that this was the simple mandate we had to realize in our 
Muslim communities.
    My personal heroes are my father and my mother, because they chose 
truth-telling over status in the community. My father lost his position 
on our local mosque board when he stood with me for women's rights and 
tolerance. He also lost his friends. My mother prayed with me in the 
men's section of the mosque, and she stopped getting invitations to 
potluck dinners. What they remind me is that, beyond board positions, 
potluck dinners, and shame, it is our duty, as Muslims, to testify to 
the truth even if it is against our ``kin.''
    Sitting behind me during my testimony, symbolically over my 
shoulders, they are the manifestation, to me, of the greater mandate we 
have as Muslims: To express an Islam of grace that is honest about our 
extremism, radicalization, and terrorism and constructive in our 
solutions.
    As I would with the angels, I will express one thought to all, upon 
the end of my testimony, ``As-salam-alaikum,'' or ``peace be upon 
you.''
Attachment 1.--99 Precepts for Opening Hearts, Minds, and Doors in the 
                              Muslim World
    These precepts invoke the 99 names for Allah, or God.
    1. The Loving One: Live with an open heart to others.
    2. The Only One: We are all part of one global community.
    3. The One: All people--women and men, people of all faiths, 
cultures, and identities--are created and exist as equals.
    4. The Self-Sufficient: All people--women and men, people of all 
faiths, cultures, and identities--have a right to self-determination.
    5. The Creator of Good: All people have a human right to happiness.
    6. The First: A fundamental goal of religion is to inspire in us 
the best of human behaviour.
    7. The Preserver: Religion isn't meant to destroy people.
    8. The One Who Gives Clemency: We aren't meant to destroy people.
    9. The Absolute Ruler: We are not rulers over each other.
    10. The Owner of All: No individual or group of individuals may 
treat any of us as property.
    11. The Mighty: Spirituality goes far deeper than mere adherence to 
rituals.
    12. The Appraiser: We are the sum of our small deeds of kindness 
for others.
    13. The Inspirer of Faith: It is not for human beings to judge who 
is faithful and who is not.
    14. The One with Special Mercy: Humanity and God are best served by 
separating the ``sin'' from the ``sinner''.
    15. The Finder: Virtue doesn't come with wealth.
    16. The Supreme One: All people are created with an inner nature 
that seeks divine nature and is disposed toward virtue.
    17. The Doer of Good: Thus, live virtuously.
    18. The Greatest: Have the courage to take risks.
    19. The Possessor of All Strength: Have the courage to stand up for 
your beliefs, for truth, and for justice even when they collide with 
the status quo.
    20. The One Who Honours: Respect one another.
    21. The Magnificent: Glorify one another with kind words, not harsh 
words.
    22. The Forgiver: Forgive one another, and ourselves, with 
compassion.
    23. The All-Compassionate: Be compassionate with one another.
    24. The Compeller: Love the soul even when we don't love the 
``sin''.
    25. The All-Merciful: Be motivated by love of God, not fear of God.
    26. The Supreme in Greatness: Be kind, respectful, and considerate 
with one another.
    27. The One Who Rewards Thankfulness: Appreciate the freedoms you 
enjoy.
    28. The Accounter: Know that we are all accountable for how we 
treat one another.
    29. The Gatherer: Know that anyone you wrong will testify against 
you on your judgement day.
    30. The Expander: Be friends to one another.
    31. The Exalter: Win the greatest struggle--the struggle of the 
soul, jihad bil nafs--to good.
    32. The Highest: Rise to the highest principles of Islam's 
benevolent teachings.
    33. The Giver of All: Rise to the highest values of human 
existence, not the lowest common denominator.
    34. The One Who Opens: Live with an open mind.
    35. The One Who Enriches: The Qur'an enjoins us to enrich ourselves 
and our communities with knowledge.
    36. The Subtle One: Islam is not practiced in a monolithic way.
    37. The All-Forgiving: We allow ourselves to be more positively 
transformed if we accept rather than despise our dark side.
    38. The Maker of Beauty: Islam can be a religion of joy.
    39. The Maker of Order: In any society governed by oppression and 
senseless rules, there will be rebellion, whether expressed publicly or 
in private.
    40. The Guide to Repentance: Evil is social injustice, 
discrimination, prideful rigidity, bigotry, and intolerance.
    41. The Nourisher: We were all created with the right to make our 
own decisions about our lives, our minds, our bodies, and our futures.
    42. The One Who Withholds: Certain traditions and ideologies betray 
Islam as a religion of peace, tolerance, and justice.
    43. The Creator of the Harmful: Repression creates fears that are 
manifested in dysfunctional ways.
    44. The Generous: Women possess the same human rights as men.
    45. The All-Comprehending: Chastity and modesty are not the sole 
measure of a woman's worth.
    46. The Last: Puritanical repression of sexuality and issues of 
sexuality is self-defeating and creates a hypersexual society.
    47. The Seer of All: The false dichotomy between the private world 
and the public world leads us to avoid being completely honest about 
issues of sexuality.
    48. The Majestic One: The Qur'an tells us: There is no compulsion 
in religion.
    49. The All-Aware: The Qur'an enjoins us: Exhort one another to 
truth.
    50. The Knower of All: Thus, seek knowledge.
    51. The All-Powerful: Do not put any barriers in front of any 
person's pursuit of knowledge.
    52. The Ever-Living One: Reject ignorance, isolation, and hatred.
    53. The Truth: Live truthfully.
    54. The Praised One: Praise worthy aspiration, not destruction.
    55. The Manifest One: Be the leader you want to see in the world 
even though you lack position, rank, or title.
    56. The Perfectly Wise: Lead with wisdom.
    57. The Originator: Open the doors of ijtihad (critical thinking) 
based on istihsan (equity) and istihsal (the needs of the community).
    58. The One Who Is Holy: Honour and respect the voices and rights 
of all people.
    59. The Sustainer: Empower each other, particularly women, to be 
self-sustaining.
    60. The Governor: Do not allow anyone to unleash a vigilante force 
on any man, woman, or child.
    61. The Hearer of All: Be honest about issues of sexuality in our 
communities.
    62. The Expeditor: Lift repression.
    63. The Guardian: Reject a sexual double standard for men and 
women.
    64. The Restorer: Reform our communities to reject bigoted, sexist, 
and intolerant practices.
    65. The Righteous Teacher: Question defective doctrine from a 
perspective based on the Qur'an, the traditions of the Prophet and 
ijtihad.
    66. The One Who Resurrects: Know that we all will face a reckoning 
for our deeds.
    67. The Guide: We must open the doors of Islam to all.
    68. The Creator of All Power: We are in a struggle of historic 
proportions for the way Islam expresses itself in the world.
    69. The Mighty: The Qur'an is clear: Stand out firmly for justice, 
as witnesses to God, even if it may be against yourselves, or your 
parents, or your kin.
    70. The Satisfier of All Needs: Political expediency does not 
override our morally compelled duty to tell the truth.
    71. The Responder to Prayer: Spiritual activism is a noble pursuit.
    72. The One Who Humiliates: Sexism, stereotypes, and intolerance 
are the common denominators of all extremism.
    73. The Giver of Life: We cannot accept murder in the name of 
Islam.
    74. The Inheritor of All: Racism, sexism, and hatred are 
unacceptable in God's world.
    75. The Taker of Life: Dogmatism and intolerance lead to violence.
    76. The One Who Abases: Making women invisible is a defining 
feature of violent societies.
    77. The Just: Women and men are spiritual and physical equals.
    78. The Equitable One: Women's rights are equal to men's rights.
    79. The Witness: Nothing we do is without a witness.
    80. The One Who Prevents Harm: Rejecting injustice is more 
important than protecting honour.
    81. The Delayer: Honour can be the worst expression of ego.
    82. The Judge: Justice is not what the majority believes is right.
    83. The Forbearing One: We are not judges of each other.
    84. The Ruler of Majesty and Bounty: If change will come tomorrow, 
we should not wait but should create it today.
    85. The Trustee: Thus, know women have an intrinsic right to be 
leaders in all capacities in our Muslim world, including as prayer 
leaders or imams.
    86. The Creator: Reach inside to create the change you want to see 
in the world.
    87. The Forceful One: Stand strong for justice.
    88. The One Who Subdues: Stand up to extremists and all forms of 
extremism.
    89. The Self-Existing One: Break the silence sheltering injustice 
and intolerance.
    90. The Originator: Create a new reality.
    91. The Glorious: Stand up to the forces of darkness.
    92. The Watchful One: Question the source of hate in order to 
dismantle it.
    93. The Protector: Respect women's equal rights and human dignity, 
from the mosque and the public square to the workplace and the bedroom.
    94. The Avenger: Use principles of social justice to define our 
communities.
    95. The Everlasting: Stand up to create an everlasting Muslim world 
that will enrich our global society.
    96. The Patient One: Exercise patience as a virtue, not as an 
excuse.
    97. The Source of Peace: Live peacefully with others.
    98. The Light: Create cities of light to overpower the darkness in 
our Muslim world.
    99. The Hidden One: Ultimately our choice is only one: We must 
create communities with open hearts, open minds, and open doors to all.

    Chairman King. Thank you, Ms. Nomani.
    The Chairman now recognizes Dr. Ahmed for her opening 
statement. Dr. Ahmed----

 STATEMENT OF QANTA A.A. AHMED, MD, FACP, FCCP, FAASM, PRIVATE 
                            CITIZEN

    Dr. Ahmed. Good morning. Thank you, Chairman King, and to 
all of the distinguished Members of the panel for this 
opportunity to testify.
    I practice both Islam and medicine. I have lived and 
worshiped in the United States for 14 years. My interest in 
this issue is spiritual, academic, and clinical in several 
matters. I have practiced medicine in Saudi Arabia, in London 
where I treated British-Muslim--patients. Currently, in New 
York, I care for a number of World Trade Center first 
responders without financial burden through the providence of 
the Zadroga bill, which has given me a special insight into the 
burdens of radical Islamist acts on Americans 10 years after 
the acts are committed.
    In my capacity as a Templeton-Cambridge Journalism Fellow, 
I chose to study Jihadist ideologies at the University of 
Cambridge. As a result, earlier this year, in March, traveled 
to the SWAT to actually see a school called ``Sabaoon'' that 
many in the State Department will be familiar with, which de-
radicalizes child militants who were working with the Pakistani 
Taliban.
    So on one hand, I have seen the impacts of violent Islamist 
extremism. On the other hand, I have seen how individuals who 
are vulnerable between the ages of 10 and 20 are inducted into 
these acts.
    Looking at the findings of these investigative hearings to 
which I have been recently privy, it is clear that similar 
patterns are at work here in the United States, where 
vulnerable individuals can be isolated and seduced into a 
nihilistic and quite separatist ideology, which is not a 
religion. What is so important about these hearings and why we 
actually need a synopsis of the hearings is the distinction 
between Islam and Islamism has been lost in the public 
discourse. I think these hearings actually provide us that.
    Islam is a monotheistic spiritual faith. Islamism is a 
political ideology with totalitarian missions and is well 
described within the fields of political science.
    The reaction to the hearings in the Muslim community I can 
speak to you about come from a number of readers. I have over 
100,000 copies of my book sold, many in Muslim majority 
countries, and of course, here in the United States. The 
reactions are predictable. People are afraid of the scrutiny 
and hence the accusations that this process is somehow 
Islamophobic, when I regard it as deeply Islamophilic to be 
able to distinguish an ideology from a spiritual belief, as 
well as excitement that this discussion is actually entering an 
auspicious arena where policymakers can understand and learn 
more about these issues.
    The incidents in New York to which I am privy because a 
number of my patients are NYPD active-duty or disabled officers 
are a typical expression of the fears that I think are 
misplaced based on a myth of understanding the problem, rather 
than the problem itself.
    If you look at the findings of the hearings, radicalization 
is occurring in the United States in civilian, military, and 
prison populations. It is not one root exactly. There are 
multiple, different kinds of roots, but they are well familiar 
to experts who examine this. This is a real threat. It is by no 
means a simplistic argument that all Muslims are bad or all 
Muslims are good. It is much too complex for that to be an 
assumption.
    I think there is a great difficulty about discussing this 
issue because of our shortcomings of language. By that I mean, 
the syntax and also some of the metaphorical and spiritual 
loading of the words. We are in a post-9/11 era, in a period of 
extreme speech in both aspects, whether you are a proponent of 
violent Islamist ideology, which no one here is, or whether you 
are an opponent of that, which all of us are.
    We also have been burdened by a sanitization of the 
lexicon, which we can use in official conversations, most 
recently imposed on our law enforcement agencies. If we cannot 
name these ideologies or talk about these impacts, we certainly 
can't begin to solve then.
    Why would a Muslim who has completed the Hajj, as I have, 
who has been raised by devoted parents, who herself is 
observant, take this stance? I think really because I am 
inspired by one saying attributed to the prophet Mohammed, 
whose identified that if a Muslim can identify a wrong--whoever 
sees a wrong--and is able to put it right with his or her 
hand--must do so. If he cannot, then with his or her tongue. If 
he cannot, then with his or her heart. So, with that in mind, I 
thank you for the opportunity for me to be able to meet the 
bare minimum of my faith, as the Prophet Mohammed defines it, 
by identifying a wrong and exposing it as such.
    Many thanks.
    [The statement of Dr. Ahmed follows:]
                 Prepared Statement of Qanta A.A. Ahmed
                             June 20, 2012
    Good morning. Thank you Chairman King and Ranking Committee Member 
Congressman Thompson and distinguished Members of the committee for the 
opportunity to testify today on such an important issue.
                           my muslim identity
    I am a British citizen, and a Permanent Resident in these United 
States where I have made my home for 14 years. I am a practicing 
physician and a practicing Muslim. Religion stems from the etymological 
Latin root relegere, meaning to be gathered or bound together. An 
individual's narrative of his or her religious experience is often a 
catalogue of relationships and my Islam is no different, beginning with 
the gift of Islam from my parents.
    There is no divide between any of my multiple roles as I have 
learned following the example of my parents, both of whom remain true 
to their faith without encroaching upon the public space yet always 
espousing pluralism and tolerance. They raised me to observe Islam in 
the same manner.
    I pray, I fast during Ramadan, I find worship in my work and I have 
also completed the Hajj--the Muslim pilgrimage to Mecca. Each year I am 
fortunate to be able to exceed the Islamic duties of charity required 
of me annually. My parents support my views which I express here in 
this chamber today and all of my actions which have lead me to this 
moment. As a family, for generations, we have explicitly repudiated all 
forms of violence--including those conducted in the name of Islam--long 
before the specter of radical Islamism ever blighted these United 
States.
     my vantage as an internationally experienced muslim physician
    In my 21 years since qualification, I have practiced on three 
continents; here in the Americas in the United States--in both South 
Carolina and New York, in Europe, chiefly in London, and in Asia, 
namely when I practiced medicine for 2 years, from November 1999 to 
November 2001 in Riyadh, Saudi Arabia.
    This peripatetic path has allowed me to engage intimately with 
Saudi Muslims as I attended them in their critical illnesses, and later 
work for many years to improving their public health and that for all 
Muslim pilgrims to Mecca; and with British Diaspora Muslims as I 
attended them in Britain's capital. I functioned in these roles as a 
treating physician, a physician-educator, a physician colleague, a 
mentor to training doctors. My work has lead to numerous publications 
both in the medical academe and the mainstream media.
    For over a decade, I have also been invited to teach and speak at 
numerous conferences in the Muslim-majority world including for the 
Saudi Arabian National Guard Health Affairs, for the Saudi Arabian 
Ministry of Health, for the U.S. Consulate in Jeddah, for the Saudi 
Arabian Soccer Federation, the American University of Sharjah, and 
other settings. I have also been asked to visit hospitals and meet 
physician colleagues in Pakistan. Most recently in November 2011, as a 
visiting professor I was invited by FIFA to the first meetings 
evaluating impacts of Ramadan on the elite Muslim footballer convening 
in both Doha, Qatar and in Riyadh, Saudi Arabia.
    I have therefore lived among, met, treated, taught, worked with, 
published with, researched with, befriended and, on occasion, been 
repudiated and abandoned, by many Muslims in many dimensions.
my experience of the burden of radical islamism on my american patients
    Currently, my work as an attending sleep disorders specialist 
involves personally attending to the World Trade Center First Responder 
patient population of Nassau County at Winthrop University Hospital. 
Our hospital provides state-of-the-art care to 2,500 of these Americans 
without financial burden each year through the provenance of the 
Zadroga bill, spearheaded by Chairman King and his colleagues.
    Hence patients in my personal practice today include multiple 
members of U.S. law enforcement including active-duty, disabled, and 
former NYPD, active-duty FBI agents, active, disabled and retired FDNY, 
former members of the New York Federal Crime Bureau and others who are 
officially designated as World Trade Center First Responders--6,000 of 
the Nation's 40,000 first responders live on Long Island. Many of these 
patients have roles in counter-terrorism task forces today.
    I treat these men and women for sleep-related complications 
developed as a result of their service to our Nation including 
obstructive sleep apnea syndrome, post-traumatic stress disorder, 
anxiety, depression and other conditions. Attending them gives me 
special insights into the indiscriminate burden of radical Islamist 
acts born by our community a decade after they assaulted humanity in my 
adoptive home, New York City, an assault I witnessed from Riyadh, Saudi 
Arabia.
    Understanding the work and the suffering of my patients and the 
toll it takes on them makes clear to me the enormous sacrifice they and 
their families make to safeguard us at times of crisis and in between, 
a sacrifice much of the Nation has forgotten, or remains unaware of. As 
a Muslim meeting these Americans reveals the devastating impact of 
radical Islamism to which few others--Muslims or non-Muslim- will ever 
be privy.
       my experience with contemporary radical islamist ideology
    In Spring 2010, in recognition of my academic work on Hajj Medicine 
and health diplomacy, I was selected as the first Muslim woman to 
complete a Templeton Cambridge Journalism Fellowship in Science and 
Religion at the University of Cambridge in England. Following a meeting 
with an internationally recognized expert in counterterrorism, I 
reviewed data exposing me to the brutality of contemporary radical 
Islamists and decided focus my fellowship on the psychological 
manipulation of Islam into the service of terror. I thus specifically 
evaluated the mechanisms of martyrdom and jihadist ideology as 
expressed by contemporary radical Islamists. This work both informed my 
specific knowledge and the many publications I have authored since. My 
experience of being a Templeton Cambridge Fellow adds special academic 
context useful to me in interpreting the salient findings of this 
series of investigative hearings.
    As a result of my work at Cambridge, I have met with some of the 
leading minds approaching counterterrorism studies. One such meeting 
with one Pakistani neuropsychologist piqued my interest sufficiently to 
travel to the North West frontier Province of Pakistan (now renamed 
KPK) in March 2012 to visit Malakand, now secured by the Pakistani 
military. There, I spent 3 days at ``Sabaoon,'' the Pakistani school 
founded by civilians to deprogram child militant operatives engaged in 
militancy with the Pakistani Taliban. There I treated local villagers 
and traveled to nearby Mingora to see rehabilitated child militants 
readjusting to community life after successful deprogramming.
    At Sabaoon, I met with doctors, teachers, psychotherapists, 
military leaders, and the child militant rehabilitees themselves all 
boys aged between 10 and 20. I was also invited to attend the relatives 
of these boys for a 1-day traveling clinic to provide basic medical 
care during which I met, interviewed, examined, and treated the 
mothers, sisters, grandmothers, siblings, children, and spouses of 
convicted militant operatives, suicide operation ``martyrs'' and 
suspects currently in detention in Saudi Arabia. I recorded many 
photographs of my visit which I can share in a classified forum if the 
committee determines there is a need.
    During the visit, though I was not granted clearance to question 
the students directly, under supervision of my fellow physician 
colleagues and with the Pakistani Rangers nearby, I was allowed to meet 
with one 15-year-old Pakistani boy in particular. I listened to him for 
about an hour as he described his transition from a school boy of 13 
walking to school, his seduction by an older boy with tales of a 
``purer'', ``more legitimate'' Islam--that of the Taliban's--his 
voluntary decision to run away and join a network of Taliban militants, 
his deliberate and very labyrinthine confinements in hiding centers 
called ``markaz'' (centers), his handlers' persistent and successful 
maneuvering defeating the dedicated efforts of his parents to retrieve 
him, his training and preparation which he chillingly termed 
``Tarbiyyat'' which means ``religious education'' (consisting of 
advanced training in the use of a handgun, the deployment of a grenade 
and the successful detonation of a suicide jacket) and, finally, his 
ultimate surrender to a police officer in the designated target of 
attack--a nearby mosque. I have in my possession his de-identified 
narrative which can be reviewed in a classified forum but as is not 
available for disclosure in this public record.
    This young boy's naivete, his isolated and distorted world view, 
his lack of knowledge of bin Laden or 9/11 and his indoctrination all 
revealed to me that Islamist ideologies are active, alive, and moving 
ahead far beyond the reach of 20th Century al-Qaeda ideology. Further, 
his halting and unconfident Urdu reminded me much of the nascent 
transition from boyhood to manhood of my own brothers when they were 
younger, who fortunately have been sheltered from such manipulations by 
opportunities our family could give them because we are so attached to 
our native Britain and Islam, not Islamism.
    Further, the young boy also revealed his Islamist-indoctrinated 
hatred of certain sects of Muslims, including Shias who are a minority 
in Pakistan, his belief that anyone collaborating with a western-
dressed individual was an enemy of Islam--including Pakistani troops 
who are usually dressed in western trousers--and that any who engaged 
with U.S. troops was also an enemy to Islam.
    Exactly these ideologies are being promoted in the United States 
today, often through portals--whether via internet portals, recurrent 
migration to Somalia, Sudan, Pakistan, Yemen, or other locations, 
circulated videos, or pockets of extremism in numerous centers of 
gatherings including mosques and this series of investigative hearings 
have revealed that. The essential construct is the same--separation, 
supremacy, and unquestioning acceptance of nihilistic ambitions--
including the deployment of brutally violent measures--all of which 
collude to eradicate any other diversity.
    Since 2009, I have authored dozens of Opinion columns and 
Editorials published in the mainstream American, British, Dutch, 
Israeli, and Pakistani press examining the politics and theology of 
radical contemporary Islamist ideologies.
    Unsurprisingly, I have learned the consequences of opining in the 
free press. I have been subject to personal attack and abuse on-line. 
In my journalistic activities I also have learned how difficult it is 
for American newspaper editors, American network television producers, 
and American media bookers to approach either solicited or unsolicited 
opinion pieces or television interviews concerning issues pertaining to 
Islam. There has been a distinct chill in the public discourse 
including here in the United States which is driven by the rising cries 
of Islamophobia, the advancing grip of Islamist claims of defamation of 
Islam which they advance through Islamist Lawfare, the 
internationalization without protest of Blasphemy laws and the general 
fear of political ``incorrectness'' which leads to an enormous loss of 
counter-arguments in the debate about Islamism and its distinctions 
from Islam.
          the reaction to the hearings in the muslim community
    My community begins with my family who not only supports these 
hearings but have welcomed them. We have a large family thriving in the 
United States from coast to coast, settled in this country since the 
1960s. One of my family members, my cousin, has served in the United 
States Navy. Earlier than that, some of my maternal uncles trained and 
studied in 1950s America as invited scholars. Many of us are American 
citizens. We are also very well acquainted with the abuses and 
discrimination that pass for ``official Islam'' as expressed in 
Islamist Pakistan and are extremely aware of the hazards of empowering 
those who espouse a supremacist ideology born of Islamism but 
masquerading as Islam. To my surprise not a single member of my family 
discouraged me from participating in these investigative hearings even 
though they remain aware of the risks this can pose to me in my every-
day life.
    I also have a vibrant Muslim readership among my almost 100,000 
readers of my book, who communicate with me through social network 
platforms, letters, and emails or respond on-line to articles I have 
authored in almost every major mainstream publication in the United 
States. Many of my self-identifying Muslim readers express fear that 
the investigative hearings will misrepresent Islam and fuel 
Islamophobia while also expressing excitement that this discussion is 
entering the public space in such an auspicious arena. Their sentiment 
about the investigative hearings revolve more around the scrutiny of 
activities of some Muslim Americans rather than the actual findings of 
the investigative hearings which few of them could cite.
    For my support of these investigative hearings and for my writings 
sympathetic to the concerns of these investigative hearings I have also 
been subject to intimidation on Twitter often from self-identifying 
Muslims who clearly denounce these hearings. Their abusive hostility is 
largely centered on the claim that my views supportive of these 
investigative hearings as unrepresentative of Muslim Americans.
    On a professional level many of my former academic Muslim 
colleagues now eschew contact with me as my political voice has become 
more widely heard, some because of the personal affront it causes them 
and others because they are beholden to theocractic Muslim states and 
now see their relationship with me as a risk. It is significant that 
only one member of my circle of academic Muslim colleagues in the 
Middle East wrote to me with encouragement. They see my support of 
America in general as ``collusion.''
    A recent publication on Huffington Post is more encouraging of the 
Muslim-American reaction. In it I wrote about my Evolution as an Anti-
Islamist Muslim and I found it generated an overwhelming response many 
of them very positive from self-identified Muslims who commented my 
views to be ahead of the public awareness and supported my endeavors 
and views including my call for the exposure of the imposter of 
Islamism to be distinguished from Islam.
    It is however important to add that as an Anti-Islamist Muslim my 
community IS America, as Islam demands it, not an enclave within 
America, but the entire Nation. These investigative hearings while 
entitled to examine the reaction of American Muslims within their 
communities might be better expressed as our reaction within America 
because this is what Islam teaches us--that we must collaborate, 
cooperative, enhance, and contribute to the community surrounding us, 
and not remain in insular, disengaged groups which engender and then 
empower silos of disconnection and disaffection.
    Unfortunately the reaction in wider America to these investigative 
hearings has been initial vilification and later disdain as manifested 
by the extraordinary disinterest of the mainstream media in the hard 
findings of these hearings. This uninformed response has not been 
redirected by informed or motivated media coverage despite the 
opportunity to redress the balance, revealing the wider media may 
itself have some discomfort denouncing Islamism.
              how i interpret the findings of the hearings
    These investigative hearings reveal radicalization is on-going in 
multiple sectors right here in the United States, in our civilian 
community, in our military community and in our prison community. 
Muslims in America can be radicalized despite the best efforts of their 
parents or mentors. We also have learned radicalization in America is 
usually facilitated by handlers and Islamist seducers who operate on 
multiple planes using multiple forms of media and are facile at 
identifying or exploiting the vulnerable. This is exactly how Pakistani 
Taliban Islamists operate in Pakistan and elsewhere based on what I 
have seen in person and my extensive reading of, and meetings with, 
counter-terrorism experts. We cannot ignore the domestic risks here and 
threat both to our National security, and by extrapolation, to 
international security. I cite a few examples revealed by these 
investigative hearings:
    On December 7, 2011, Daris Long, father of a son murdered by 
radical Islamists testified ``the political correctness exhibited by 
the Government over offending anyone in admitting the truth about 
Islamist extremism masked alarm bells that were going off. Warnings 
were ignored, Major Nidal Hassan was able to openly praise the Little 
Rock shootings in front of fellow army officers and then commit his own 
jihad''. This is consistent with the shortcomings of language and the 
paralysis of political correctness that I identify as one of the 
barriers to examining radical Islamism in the United States.
    On March 12, 2011, Melvin Bledsoe testified that his son Abdul 
Hakim Muhammad was ``brainwashed'' by Nashville Muslims leading to his 
terrorist training in Yemen to return to murder one solider and injure 
another at a U.S. military recruitment center. This confirms the same 
forces seducing a Pakistani schoolboy in the SWAT are at work in the 
American heartland.
    On July 27, 2011, Ahmed Hussen, President of the Canadian Somali 
Congress recognized our vulnerability in this ideological battle of 
Islamism with Islam and Islamism's exploitation of victimhood: ``There 
has not been a parallel attempt to counter the toxic anti-Western 
narrative that creates a culture of victimhood in the minds of members 
of our community.'' This confirms the utility to Islamists of 
cultivating a manufactured sense of victimhood among vulnerable 
Muslims.
    my motivation to enter the public discourse: to combat islamism
    In the years since 9/11, every Muslim has been compelled to 
confront his or her identity. This has been a direct function of the 
martyrdom terrorism acts of 9/11. Since then, the lay audience and much 
of expert opinion has been unable to separate Islamism from Islam. 
Today this is our greatest challenge. Distinguishing Islam and Islamism 
requires nuance and care, which few in the media are prepared to 
provide or even qualified to identify.
    Some, while well-intentioned but deeply uninformed, retaliate 
against the sound intelligence and countermeasures that must be taken, 
including mechanisms such as these investigative hearings, and instead 
unwittingly collude with the non-violent manifestations of the 
Islamists which have long since evolved to new elements masquerading as 
the ``peaceful'' translators and ``owners'' of Islam. I am here to tell 
you non-violent Islamists are not the owners of Islam nor is their 
intent peaceful.
    I was in Riyadh, Saudi Arabia when the Towers fell. Within hours, I 
discovered my sentiments of loss and sorrow were not widely shared, 
either by Saudi physician colleagues or by fellow non-Saudi Muslim 
expatriate workers, many of whom had been trained by Americans in New 
York City like myself or other cities in the United States--some of us 
even shared the same professors of medicine.
    This discovery came as a terrible shock to my naiveties at the time 
and I was patronizingly ridiculed for being so ``pro-American.'' I 
realized the version of Islam my parents had given, and our reverence 
for the nations who had sheltered and reared me--Britain and the United 
States--wasn't widely accepted. That fellow physicians, as highly-
trained and as privileged as I, could be elated at the loss of life and 
the transient bowing of America's spirit utterly displaced me to a new, 
harsher reality.
    In the wake of 9/11, I saw Osama bin Laden feted as a hero in 
Pakistan, nation of my matrilineal and patrilineal heritage. On one 
trip I recall a Pakistani driver in Karachi explaining to me why 7 
years after 9/11, Pakistani families were still naming their newborns 
Osama in his honor. He was still deified, recognized by many as a 
``defender'' of Islam, a ``warrior savior''. Nothing could be more 
offensive to my beliefs as a Muslim or my principles as a human being. 
This was extraordinarily difficult to reconcile with the knowledge that 
Islam condemns all murder, and particularly the execution of non-
combatant civilians in any setting. In my mind bin Laden and his 
sympathizers had renounced Islam by their acts and represented nothing 
more than violent terrorists and those who named their first-borns 
after Osama were lionizing nothing more than a mass murderer.
    Soon after my return from Saudi Arabia, I began to record my 
experiences in a manuscript that would become my first book, In the 
Land of Invisible Women now in its 10th edition and published in 13 
countries including Muslim-majority Senegal Indonesia, Turkey, 
Pakistan, and Mauritius. Realizing I would be representing two versions 
of Islam--mine, and that espoused by the theocracy of Saudi Arabia--I 
needed to broaden my reading around key areas.
    It was in my reading that I discovered the political ideology 
termed Islamism, and the many strains of contemporary radical Islamism, 
both violent and non-violent. I learned unlike my own experience, many 
Muslims struggled with a pervasive sense of inferiority, influencing 
their beliefs, sense of justice and identities leading to deep and 
rather novel resentments. The fascist supremacy of Islamist ideologues 
was therefore a predictably appealing, if very frightening development, 
which was completely alien to the Islam I knew.
    Over this decade the Islamist voice has become increasingly 
prominent both in the United States and globally--whether in advancing 
the intrusion of the ritual symbolism of Islam into the public space--
for instance the battle for the niqab in the public arena in France, 
the demands for the veil to be permitted in FIFA soccer tournaments, or 
the most recent debacle involving the vilification of the NYPD for 
their counterterrorism efforts drawing false accusations of Muslim 
profiling.
    Throughout the world, including in the United States, the 
Islamists' goal is one and the same: To stoke the fires of unwitting 
Muslims into believing in their own manufactured sense of victimhood as 
a means to exploit both the uninformed Muslim and often times the 
liberal democracies where we make our homes. It is this last fallacy, 
of collective victimhood, that most fuels my drive to expose Islamism 
for what it is--a weak yet vicious imposter for a great religion, an 
imposter which seeks to exploit and devour both Muslims and non-Muslims 
alike in its pursuit for power and dominance. These forces are at work 
as we testify now in this room at this hearing--an effort by three 
Muslims which will predictably be derisively labeled as a collaboration 
in our own persecution. I am here to testify that nothing could be 
further from reality.
             civil liberties of muslims are at not at stake
    Many critics of these investigative hearings (both Muslim and not) 
charge them with a threat to Muslims' civil liberties in America. My 
most vociferous opponents, referring to Muslims' American civil 
liberties, state: ``give away your freedoms not mine'' (An American 
Muslim); ``This is not 1910 America and what happened to the Jews--Jews 
have only just stopped walking on eggshells in America. Watching what's 
happening to Muslims makes me sick'' (An American Jew); ``We need a 
Rosa Parks to stand up for Muslim rights'' (a non-Muslim American); 
``Park 51 shows Muslims do not have civil rights''; ``some want Lower 
Manhattan to be `An American Jerusalem' (a non-Muslim American). They 
identify my support of these investigative hearings as my collusion in 
the fictional erosion of Muslim civil liberties.
    While I respect the fears which birth these concerns, I can firmly 
strip them aside. Muslims in America do not have the painful history of 
African Americans or of Jewish Americans. Our privileges as Muslim 
Americans today have been guaranteed in part by the struggles of the 
Civil Rights era and by the travails of the Jewish Americans before us. 
We do not, in any extrapolation, face similar disadvantages as earlier 
American history reveals. To claim such is a gross distortion of 
history and demographic data in the United States proves this.
    I would also add I denounce the above assertions of an equivalency 
between the sufferings of other minority populations in America and 
that of Muslim Americans with some authority. I understand all about 
being a Muslim woman without civil rights as predicated by my 2 years 
living under Wahabi theocracy without any civil or human rights 
including those Islam bequeathed me 1,500 years ago. I also understand 
the total extinction of civil rights on minorities--both Muslim and 
non-Muslim--as experienced in Islamist Pakistan as described to me by 
Christians, Ahmadi Muslims. and Zoroastrians during my last visit to 
Pakistan and in my extensive contact with minorities.
    I have lived the impact of the Islamist narrative both in Saudi 
Arabia, during my extensive travels in Pakistan and in my years 
treating Americans in New York as well as when examining the lives of 
my orthodox Bengali British migrants in East London or training some of 
the very neo-orthodox Muslim doctors of that area.
    muslims are not victimized by the homeland security committee's 
                             investigations
    As you learn of my biography, know that I am part of an 
economically powerful American demographic. According to Pew Forum data 
Muslims are mainstream and mostly middle class. I am rather 
representative.
    Like me, 65% of Muslims in America are first generation and 18% of 
us have South Asian heritage. The majority of foreign-born Muslim 
Americans arrived, like me, in the 1990s--50% of us have moved here for 
economic or educational opportunity--I did so for both reasons. Forty-
six percent of us are, like me, women, and around 31% are my age--
between 40 and 54. We are a multiracial multiethnic group with over 68 
different nationalities before becoming American. Our income and 
education reflects the U.S. public and 16% of us earn more than 
$100,000 annually compared to 17% of the general U.S. public who do the 
same--a 1% disparity.
    In my native Britain, the income disparity for those Muslims who 
earn over 40,000 sterling annually is more than 10%. Equivalent incomes 
earned in France comparing between Muslim and average public show even 
greater disparity of 12%, in Germany 14% in Spain 19%.
    Muslims in America have achieved more, faster, and more often, in 
America than in any other Muslim Diaspora setting. My experience is 
very much the mainstream Muslim-American experience. I ask the 
committee to recognize that most Muslims are not mistreated by efforts 
to protect our integrity as Americans though they are certainly 
entitled to be offended at these efforts and America guarantees their 
right to be offended.
    The offence claimed by many Muslim Americans whether at the first 
hearing in this series or for instance pertaining to the NYPD's 
activities more recently, is misplaced. Instead of denouncing methods 
of intelligence gathering, Muslims in America should be denouncing the 
findings of those intelligence missions: The active Islamists among us. 
The furor has been misdirected, much to the benefit of committed 
Islamists at work within this Nation's borders.
 why is it so hard to discuss the islamist threat to the united states 
                              of america?
    There are serious shortcomings of language in engaging in this 
particular discourse. In the post-9/11 era there has been a gravitation 
towards extreme speech and a pervasive lack of integrative complexity 
in public speech as shown by critically important research performed at 
the University of Cambridge among others. Such lack of nuance is very 
well exploited by the cultivating Islamist.
    The arrival of a sense of ``otherization'' of Muslims into the 
public lens has facilitated the grip of Islamist Lawfare on the public 
dialogue--fueling both the victimhood of Muslims and the outcries of 
the offended liberal. The false claims and crocodile tears of 
Islamophobia and the encroaching advancement of the idea of defamation 
of religion which is pushed by the Organization of the Islamic 
Cooperation (OIC) elsewhere, here in America intimidates journalists, 
news media, and others from engaging in dialogue who may face spurious 
lawsuits if they dare engage in this dialogue.
    These profound problems with language have extended to the U.S. 
Government decree banning enforcement agencies from discussing the very 
threats we have heard at this series of hearings, banning the word 
``Islamist'' for instance. This sanitization of our lexicon reveals a 
shocking and perhaps specious reluctance to engage with the problem or 
worse, a foolhardy embrace, unintentional or otherwise, with the  
Islamist stance.
                             in conclusion
    Islam is nothing if not justice. Any injustice committed or pursued 
in the name of Islam is anathema to the believing Muslim and counter to 
the ideal which is Islam, yet Islamists demand unjust abominations--
foundational to their beliefs--of their subscribers.
    Muslims must remember their duties, not only to themselves, or 
their Maker, but also to their society wherever they find themselves. 
Unlike Islamism which mandates it, Islam reviles claims to supremacy, 
instead appealing for humility. The Prophet Mohammed (SAW) himself 
admonished his followers not to make claims of supremacy over Moses, or 
indeed any other messenger of God. The Qur'an repeatedly reminds the 
Muslim that ``to each is sent a Law and a Way'' and to each they must 
``judge themselves by their Law and their Way.'' Islamist Muslims 
overlook this and many other principles of Islam.
    Our role as believers is to cooperate and collaborate and enhance 
the world, not to oppress, discriminate, exclude, or murder others. 
Major Muslim majority nations under the guise of democracy--foremost 
Pakistan--are operating as Islamist Supremacists who legally persecute 
Muslim and non-Muslim minorities to extinction with impunity. These are 
not the ways of Muslims. These are the ways of fascists.
    We must redirect media interpretation and expose their bias and 
painful lack of contextual perspective while commending the efforts of 
these investigative hearings in anticipation of future hearings which 
will surely assess progress, intervention, and outcome data of measures 
enacted since.
    We also cannot examine the radical Islamist thereat in the United 
States in a domestic vacuum. This is a transnational, cross-continental 
issue mandating an international response. While we have been pursuing 
conventional international warfare and in fact have assassinated the 
leader of al-Qaeda for instance, we have remained dangerously 
vulnerable because of our delayed realization of the political science 
aspects of Islamist ideology and the very serious threat this poses to 
our democracy. These are vulnerabilities which cannot be safeguarded by 
drones, or gunships but instead must be secured by counter ideological 
warfare which begins here, by widening the debate, discussion, and 
scholarship in this arena.
    There is an overwhelming need for focused examination of the 
interface of Islam and Islamism. These investigative hearings provide 
the first public foray examining this divide in real-time as expressed 
in contemporary America. Until these questions are asked, and later 
answered, until more American Muslims confront the discomfort of 
disarticulation from their unquestioning brotherhood with the ``Ummah'' 
and its worst elements, the shifts between Islam, Islamism, and the 
West, between puritanical Islamists masquerading as Muslims and true 
moderate non-Islamist Muslims, will continue to be tectonic and 
devastating.
    In my position of privilege and opportunity, one shared with many 
Muslims in America, if I do not oppose Islamism, I am failing in my 
Muslim duty to American society and in failing American society, I 
profoundly fail as a Muslim. I am reminded of a saying attributed to 
the Prophet Mohammed by one of his companions who recounted it to an 
early believer:
    ``Whoever sees a wrong and is able to put it right with his hand, 
let him do so; if he can't, then with his tongue, if he can't, then 
with his heart. That is the bare minimum of faith''.
    This, having both hand, tongue, and heart, I am committed to live 
by and therefore I thank you Chairman King, Ranking Committee Member 
Congressman Thompson, and the distinguished Members of the Committee on 
Homeland Security for enabling me to fulfill the bare minimum of my 
belief today.

    Chairman King. Thank you very much, Dr. Ahmed.
    Now I recognize Ms. Patel. Am I pronouncing your name 
right?
    Ms. Patel. That is right.
    Chairman King. Ms. Patel, for an opening--at least we agree 
on that--for an opening statement. Recognized for 5 minutes. 
Thank you.

  STATEMENT OF FAIZA PATEL, CO-DIRECTOR, LIBERTY AND NATIONAL 
          SECURITY PROGRAM, BRENNAN CENTER FOR JUSTICE

    Ms. Patel. Good morning. Let me begin by thanking Chairman 
King, Ranking Member Thompson, and the distinguished Members of 
this committee, for the opportunity to appear before you today.
    My name is Faiza Patel and I co-direct the Liberty and 
National Security Program at the Brennan Center for Justice at 
NYU Law School.
    I think we all agree that terrorism is a serious threat to 
our country. Our response must be equally serious and must be 
driven by evidence, not assumptions and stereotypes. It is with 
this in mind that I approach today's topic--the response of the 
American-Muslim community to this committee's earlier hearings 
on radicalization.
    With due respect to the opinions of those who have 
testified before me, I have to point out that American Muslims 
across the country, joined by voices from multiple other 
faiths, have objected to these hearings as singling out one 
religious community for undue scrutiny. Why this wide-spread 
opposition? The answer, I believe, does not lie in political 
correctness or defensiveness. We all recognize the importance 
of Congressional oversight. Such oversight should focus on 
empirical evidence.
    The premise that radicalization, whether defined as the 
adoption of a particular belief system or the embrace of actual 
violence, is prevalent among American Muslims--American 
Muslims--is contrary to all empirical studies. Polling by the 
Pew Research Center shows that vast majorities of American 
Muslims have consistently held the view that suicide bombing 
and other forms of violence against civilians are never 
justified. In fact, American Muslims are the most likely among 
all religious groups to hold this view.
    Nor has America faced a wave of terrorism from its Muslim 
residents. A recent study shows that the number of prosecutions 
for terrorist plots averages approximately 20 per year. As 
Michael Leiter, the head of the NCTC testified before this 
committee last month, this threat is absolutely tiny--a minute 
percentage.
    Equally unfounded is the notion of a conveyor belt--a 
religious conveyor belt--whereby certain Muslims become more 
religious, then embrace radical views, and finally, commit a 
terrorist attack. But 14 years of research by the Rand 
Corporation shows that there is no single pathway to 
terrorism--a conclusion that is shared by security agencies and 
supported by the weight of social science research.
    A person's ideology or religiosity is simply not an 
effective means of predicting terrorism. In contrast, up to 80 
percent of terrorist plots in America have been foiled using 
good old-fashioned police work, directed at signs of actual 
criminal activity.
    These types of theories jeopardize our security by driving 
a wedge between Muslims and law enforcement agencies. American 
Muslims have provided information on roughly 35 percent of 
terrorist plots that have been derailed in the last decade. Top 
law enforcement officials describe this cooperation as 
absolutely essential.
    Singling out one religious community for scrutiny as 
potential terrorists paints them as a threat. What happens when 
Americans start to view Muslims as security threats, rather 
than as friends, neighbors, and colleagues? The data from 2011 
are not available, but the data from 2010 show increasing anti-
Muslim sentiment. Forty-five percent of Americans believe that 
the values of Islam are at odds with the way--of the American 
way of life.
    According to the FBI, anti-Muslim hate crimes in the United 
States rose by almost 50 percent in 2010. EEOC data show 
dramatic increases in complaints of anti-Muslim bias in the 
workplace. Muslims constitute less than 1 percent of this 
country's population. They now constitute 25 percent of the 
complaints received by the EEOC.
    According to the Justice Department, while Muslims make up 
less than 1 percent of the population, some 7 percent of the 
cases investigated under the law that bars discrimination 
against houses of worship have involved mosques. These 
statistics suggest that rather than focusing narrowly on 
American Muslims' reactions to these hearings, we would do well 
to consider the real experience of Muslims in this country, 
which includes hate crimes and employment discrimination, and 
opposition when they try to fulfill their fundamental duty to 
pray.
    In closing, I would like to ask this committee to reject 
these divisive assumptions about American Muslims. Like all 
religious communities, American Muslims are committed to the 
security of our country. America will be safest when we all 
work together towards this goal.
    Thank you very much.
    [The statement of Ms. Patel follows:]
                   Prepared Statement of Faiza Patel
                             June 20, 2012
    Mr. Chairman and Members of the Committee on Homeland Security: On 
behalf of the Brennan Center for Justice at NYU School of Law,\1\ I 
thank you for providing me the opportunity to present testimony this 
morning.
---------------------------------------------------------------------------
    \1\ This testimony is submitted on behalf of a Center affiliated 
with New York University School of Law but does not purport to 
represent the school's institutional views on this topic. More 
information about the Brennan Center's work can be found at http://
www.brennancenter.org.
---------------------------------------------------------------------------
    I am Faiza Patel, Co-Director of the Liberty and National Security 
Program at the Brennan Center. The Brennan Center is a non-partisan 
public policy and law institute that focuses on fundamental issues of 
democracy and justice. My program, in particular, works to ensure that 
our counterterrorism efforts are appropriately targeted to the threat 
we face and are consistent with our Constitutional values.
    Terrorism is a serious threat to our country. Our response must be 
equally serious and must be driven by evidence, not assumptions and 
stereotypes. But this committee's recent hearings on radicalization do 
not, in my view, rest on a firm factual basis. They proceed from a 
premise--which is contrary to empirical evidence--that 
``radicalization'' is prevalent among American Muslims and poses an 
existential threat to our country. Moreover, they adopt a view of 
``radicalization'' that treats religious belief as a precursor to 
terrorism.
    These empirically flawed assumptions, when given the imprimatur of 
a Congressional hearing, have concrete negative impacts. They undermine 
our safety by alienating the very communities who have helped law 
enforcement uncover and foil attempts at terrorism. By casting 
Government suspicion on an entire religious community, they may have 
contributed to anti-Muslim sentiment among Americans which manifests 
itself in polls, an increase in hate crimes and employment 
discrimination against Muslims, and opposition to efforts by Muslims to 
build mosques and community centers where they can pray and impart 
their faith to their children.
         american muslims' response to radicalization hearings
    The family of American Muslims encompasses many diverse 
communities. Thirty-five percent of American Muslims are African 
Americans whose ancestors were Muslims who came over on slave ships or 
who have embraced Islam. Others are immigrants from countries as varied 
as Kosovo and the Philippines, who have come to the United States to 
build better lives for themselves and their children. Some American 
Muslims are secular; others hold tight to their religious identity. 
They speak a babel of languages, from Urdu to Arabic to Swahili to 
French. You can find Muslims in every walk of life and every 
profession. Given their diversity, it is no surprise that we hear many 
voices responding to this committee's radicalization hearings.
    But one message is heard again and again: These hearings unfairly 
single out American Muslims for scrutiny. No less than 74 Muslim, Arab, 
and South Asian groups have registered this objection.\2\ Their views 
represent the opinions of tens of thousands of American Muslims. Other 
faith communities, as well as civil rights groups of every stripe, also 
wrote to this committee voicing the same concern. A total of 77 such 
groups included these concerns as part of the record of the first 
hearing. They were joined by 57 Members of Congress \3\ and the 
editorial boards of newspapers across the United States.
---------------------------------------------------------------------------
    \2\ See Letter from 51 advocacy organizations to John Boehner, 
Speaker of the U.S. House of Representatives, and Nancy Pelosi, 
Minority Leader of the U.S. House of Representatives (Feb. 1, 2011) (on 
file with author); Letter from 54 public interest organizations to the 
H. Comm. on Homeland Sec. (Mar. 10, 2011) (on file with author).
    \3\ See Letter from Members of Congress to Peter King, Chairman, H. 
Comm. on Homeland Sec. (Mar. 9, 2011), available at http://
www.stark.house.gov/images/stories/112/letters/starkdingellletter.pdf.
---------------------------------------------------------------------------
    It should come as no surprise that American Muslims feel unfairly 
singled out by these hearings. The hearings proceed from the 
assumption--which is contrary to systematically collected evidence--
that ``radicalization'' is prevalent among American Muslims and poses 
an enormous threat to our country. The second--equally faulty--
assumption of these hearings is that someone who is particularly devout 
in his or her Islamic faith is well on the way to becoming a terrorist.
    Unfortunately, these errors are not harmless. They have dire 
consequences for our society. When Members of Congress select the 
community of American Muslims for scrutiny as potential terrorists, it 
encourages all of us to view them through this lens. And there is 
reason for concern about the impact: Polls show deep-seated suspicion 
of Islam and Muslims; hate crimes and discrimination against Muslims 
are on the rise; and, around the country, Muslims seeking to build 
mosques and community centers have met with opposition based on fear of 
their faith.
              the threat of american muslim radicalization
    The first of this series of hearings was titled ``The Extent of 
Radicalization in the American Muslim Community.'' Unfortunately, the 
hearing did little to systematically evaluate this very question.
    To begin any discussion of this topic, one must identify what is 
meant by the term ``radicalization.'' While the term is susceptible to 
many interpretations, in the years since the September 11, 2001, 
attacks it is generally used to denote a process by which Muslims in 
the West become terrorists. It has both an ideological component and a 
criminal one.
    The ideological component is, in essence, the adoption of 
``radical'' ideas, which encompass a range of beliefs from a 
conservative understanding of Islam to objections to the wars in Iraq 
and Afghanistan to the view that violence is justified in furtherance 
of religious, political, or social goals. Obviously, some American 
Muslims do espouse ``radical'' ideas, just like some people from every 
religious faith as well as some who do not espouse any religion. But 
leaving aside, for a moment, the question of whether ``radical'' views 
can be used to predict terrorist violence, do we have any evidence 
indicating that ``radical'' ideas are at all common among American 
Muslim communities? On the basis of empirical evidence, the answer is a 
resounding no.
    Polling by the Pew Research Center shows that vast majorities of 
American Muslims have consistently held the view that suicide bombing 
and other forms of violence against civilians are never justified.\4\ 
Another recent poll, this one by Gallup, shows that American Muslims 
are most likely among all religious groups in the United States to hold 
the view that attacks on civilians by individuals or small groups are 
never justified.\5\ At least 7 in 10 American adults from all major 
religious groups agree that such attacks are never justified, but 
Muslim Americans are most opposed, with nearly 9 in 10 rejecting such 
attacks.\6\ Both polls show that American Muslims generally hold a 
``very unfavorable'' view of al-Qaeda,\7\ and fully 92 percent think 
that Muslims living in the United States do not sympathize with the al-
Qaeda terrorist organization.\8\ This empirical research supports the 
conclusion of a 2010 RAND Corporation report that individuals turning 
toward violence would find little support in American Muslim 
communities: ``They are not Mao's guerillas swimming a friendly 
sea.''\9\
---------------------------------------------------------------------------
    \4\ Pew Research Ctr., Muslim Americans: No Signs of Growth in 
Alienation or Support for Extremism 30 (August 2011) [hereinafter ``Pew 
Poll''], available at http://www.people-press.org/files/2011/08/muslim-
american-report.pdf.
    \5\ Gallup Ctr. for Muslim Studies, Religious Perceptions in 
America: With an In-Depth Analysis of U.S. Attitudes Toward Muslims and 
Islam 4 [hereinafter ``Gallup Poll'' ], available at http://
www.gallup.com/se/148805/Muslim-Americans-Faith-Freedom-Future.aspx.
    \6\ Gallup Poll, supra note 5, at 31.
    \7\ Pew Poll, supra note 4, at 4; Gallup Poll, supra note 5, at 32.
    \8\ Gallup Poll, supra note 5, at 32.
    \9\ Brian Michael Jenkins, Rand Corp., Would Be Warriors: Incidents 
of Jihadist Terrorist Radicalization In The United States Since 
September 11, 2001 5 ( 2010), available at http://www.rand.org/pubs/
occasional_papers/2010/RAND_OP292.pdf.
---------------------------------------------------------------------------
    The criminal component of radicalization consists of actions in 
furtherance of a terrorist attack and can include activities such as 
recruitment, operational planning, and, ultimately, execution. Of 
course, any terrorist attack that is planned or executed on U.S. soil 
is a matter of great concern. But when we examine the extent to which 
American Muslims have actually been involved in terrorist attacks, we 
find that the numbers are by no means indicative of a wave of terrorist 
violence. A February 2012 report by the Triangle Center on Terrorism 
and Homeland Security shows a total of 193 prosecutions of American 
Muslims for violent terrorist plots since 9/11, an average of just 
under 20 per year.\10\ There were no deaths in the United States 
resulting from terrorism by American Muslims last year.\11\ According 
to the report, after a spike in 2009, terrorist plots decreased in both 
2010 and 2011.\12\ As the Triangle Center report explains:
---------------------------------------------------------------------------
    \10\ Charles Kurzman, Triangle Ctr. on Terrorism and Homeland Sec., 
Muslim-American Terrorism in the Decade Since 9/11 1 (2012), available 
at http://sanford.duke.edu/centers/tcths/documents/Kurzman_Muslim-
American_Terrorism_in_the_Decade_Since_9_11.pdf.
    \11\ Adam Serwer, House GOP to Hold Hearings on Its Hearings on 
Muslim Radicals in the US, Mother Jones, http://www.motherjones.com/
politics/2012/06/peter-king-muslim-hearings-about-hearings (last 
visited June 18, 2012).
    \12\ Kurzman, supra note 10, at 2.

``Threats remain: violent plots have not dwindled to zero, and 
revolutionary Islamist organizations overseas continue to call for 
Muslim Americans to engage in violence. However, the number of Muslim 
Americans who have responded to these calls continues to be tiny, when 
compared with the population of more than 2 million Muslims in the 
United States and when compared with the total level of violence in the 
United States, which was on track to register 14,000 murders in 
2011.''\13\
---------------------------------------------------------------------------
    \13\ Id.
---------------------------------------------------------------------------
    Empirical research is borne out by the evaluations of law 
enforcement professionals who deal with these issues on a day-to-day 
basis. In testimony before this very committee last month, National 
Counterterrorism Center Director Michael Leiter said that the 
prevalence of violent extremists in American Muslim communities was 
``absolutely tiny . . . a minute percentage'' of American Muslims.\14\ 
And, as Ranking Member Thompson noted in an op-ed last year, local law 
enforcement agencies that were asked to identify terrorist groups in 
their jurisdictions placed Muslim extremists fairly low on the list, 
behind Neo-Nazis, environmental extremists, and anti-tax groups.\15\
---------------------------------------------------------------------------
    \14\ Understanding the Homeland Threat Landscape--Considerations 
for the 112th Congress: Hearing Before the H. Comm. on Homeland Sec., 
112th Cong. 52-53 (2011) (testimony of Michael Leiter, Director, 
National Counterterrorism Center), available at http://www.gpo.gov/
fdsys/pkg/CHRG-112hhrg72212/pdf/CHRG-112hhrg72212.pdf.
    \15\ Bennie Thompson, Homegrown Terrorists Are Not Just Muslims, 
Politico, http://www.politico.com/news/stories/0111/48239.html (last 
visited June 18, 2012).
---------------------------------------------------------------------------
    In contrast to the empirical research and law enforcement experts, 
the voices expressing concern about radicalization have relied on 
anecdotes and subjective impressions. These anecdotes and expressions 
are powerful and understandably give us pause, but they are not 
substitutes for sound, fact-based analysis.
                using religion as a proxy for terrorism
    Violence and crime--whether inspired by an ideology or not--are 
properly a subject for Government concern. But these hearings are not 
focused on violence or crime. Rather, they focus on how American Muslim 
beliefs (the ``ideological'' aspect of radicalization) threaten our 
National security. They perpetuate the notion that it is what American 
Muslims believe that leads to terrorism. This view is encapsulated in 
the ``religious conveyor belt'' theory, which posits that there is a 
consistent path that leads American Muslims who harbor grievances 
against our society or who suffer from a personal crisis to become more 
religious, then to adopt ``radical'' beliefs, and finally to commit 
acts of terrorism.\16\
---------------------------------------------------------------------------
    \16\ See Faiza Patel, Brennan Ctr. For Justice, Rethinking 
Radicalization 14-18 (2011), available at http://brennan.3cdn.net/
f737600b433d98d25e_6pm6beukt.pdf.
---------------------------------------------------------------------------
    But, as the Brennan Center's report, Rethinking Radicalization, 
demonstrates, the process by which people turn to violence is 
exceedingly complex--a fact that is recognized by social scientists, 
psychologists, counterterrorism experts, security agencies, and the 
Department of Defense.\17\ An in-depth empirical study by the United 
Kingdom's security service (MI5), for example, found there was no 
typical profile of the British terrorist and that the process by which 
people came to embrace violence was complex. It emphasized that there 
is no single pathway to extremism and that all those studied ``had 
taken strikingly different journeys to violent extremist 
activity.''\18\ Fourteen years of research conducted at the Rand 
Corporation similarly suggests that ``no single pathway towards 
terrorism exists, making it somewhat difficult to identify overarching 
patterns in how and why individuals are susceptible to terrorist 
recruitment.''\19\ The 2010 report by the U.S. Department of Defense on 
Fort Hood likewise emphasized that it is notoriously difficult to 
predict violent behavior of any sort. ``Identifying potentially 
dangerous people before they act is difficult. Examinations after the 
fact show that people who commit violence usually have one or more risk 
factors for violence. Few people in the population who have risk 
factors, however, actually [commit violent acts].''\20\
---------------------------------------------------------------------------
    \17\ Id. at 8-10.
    \18\ While the analysis itself is not available, a major British 
newspaper, the Guardian, reported extensively on its contents. See Alan 
Travis, The Making of an Extremist, Guardian, Aug. 20, 2008, http://
www.guardian.co.uk/uk/2008/aug/20/uksecurity.terrorism.
    \19\ Violent Extremism: How Are People Moved from Constitutionally-
Protected Thought to Acts of Terrorism?: Hearing Before the Subcomm. on 
Intelligence, Info. Sharing, and Terrorism Risk Assessment of H. Comm. 
on Homeland Sec., 111th Cong. 3 (2009) (testimony of Kim Cragin, RAND 
Corp.), available at http://hsc-democrats.house.gov/SiteDocuments/
20091215100448-24149.pdf.
    \20\ Report of the Dept. of Defense Independent Review, Protecting 
The Force: Lessons From Fort Hood, App. D (Jan. 2010), available at 
http://www.defense.gov/pubs/pdfs/DOD-ProtectingTheForce-
Web_Security_HR_13jan10.pdf.
---------------------------------------------------------------------------
    The Department of Homeland Security (DHS) and the National 
Counterterrorism Center (NCTC) are the Federal Government's lead 
agencies to combat radicalization. These expert agencies have made 
public statements that recognize the complexity of the radicalization 
process. DHS Secretary Jane Napolitano has acknowledged that ``there is 
much we do not know about how individuals come to adopt violent 
extremist beliefs.''\21\ In 2010, a group of law enforcement and 
community leaders advising Secretary Napolitano noted that the 
``current level of understanding regarding the sociology of 
`radicalization' and `extremism' is still immature,'' and rejected the 
notion that there are overt signs of radicalization.\22\ The NCTC, for 
its part, has specifically repudiated the view that there is a ``model 
that can predict'' whether a person will radicalize, mobilize, and 
commit violence.\23\
---------------------------------------------------------------------------
    \21\ Nine Years After 9/11: Confronting the Terrorist Threat to the 
Homeland: Hearing Before the S. Comm. on Homeland Sec. & Gov'tal 
Affairs, 111th Cong. 8 (2010) (statement for the record by Janet A. 
Napolitano, Secretary, U.S. Dep't of Homeland Sec.), available at 
http://www.hsgac.senate.gov/download/2010-09-22-napolitano-testimony-
revised.
    \22\ Homeland Sec. Advisory Council, Countering Violent Extremism 
(CVE) Working Group 5-6 (2010), available at http://www.dhs.gov/
xlibrary/assets/hsac_cve_working_group- _recommendations.pdf.
    \23\ Nat'l Counterterrorism Ctr., Radicalization and Mobilization 
Dynamics Framework, http://www.nctc.gov/site/technical/
radicalization.html (last visited June 18, 2012).
---------------------------------------------------------------------------
    In fact, the religiosity-terrorism connection is refuted by 
empirical research. The British MI5 Study, for example, found that 
``[f]ar from being religious zealots, a large number of those involved 
in terrorism do not practise their faith regularly. Many lack religious 
literacy and could actually be regarded as religious novices.''\24\ 
Another researcher's review of five hundred cases found that ``a lack 
of religious literacy and education appears to be a common feature 
among those that are drawn to [terrorist] groups.''\25\ Indeed, there 
is evidence that ``a well-established religious identity actually 
protects against violent radicalization.''\26\
---------------------------------------------------------------------------
    \24\ See Alan Travis, MI5 Report Challenges Views on Terrorism in 
Britain, Guardian, Aug. 20, 2008, http://www.guardian.co.uk/uk/2008/
aug/20/uksecurity.terrorism1.
    \25\ Tufyal Choudhury, Dept. For Communities and Local Gov't, The 
Role of Muslim Identity Politics in Radicalization (A Study In 
Progress) 21 (2007) (emphasis added), available at http://
www.communities.gov.uk/documents/communities/pdf/452628.pdf.
    \26\ Id.
---------------------------------------------------------------------------
    Despite this wealth of empirical and social science research 
finding no connection between religiosity and a propensity for 
terrorist violence, and despite the evidence that support for terrorism 
and actual involvement in terrorist activity are extremely rare among 
American Muslims, these hearings continue to unfairly focus on one 
faith and one community. This focus belies the promise of our 
Constitution that all Americans, regardless of race, religion, or 
ethnicity, will be treated equally by our Government. Looking at facts, 
rather than relying on assumptions and stereotypes, will allow us to 
put the threat of terrorism in the proper perspective and put an end to 
unfounded insinuations about American Muslim communities.
                 impact of hearings on american muslims
    The committee's hearings are also counterproductive. They drive a 
wedge between American Muslims who have traditionally been staunch 
allies in fighting terrorism and law enforcement agencies. Starting in 
the days immediately after the September 11 attacks, American Muslims 
have unreservedly condemned terrorism.\27\ They have provided 
information on about 35 percent of the terrorist plots that have been 
foiled in the last decade.\28\ Top law enforcement officials have 
stressed over and over again that the cooperation of American Muslims 
is critical to our ability to fight terrorism.\29\ The Attorney General 
of the United States has characterized their cooperation as 
``absolutely essential in identifying, and preventing, terrorist 
threats.''\30\ As the head of the country's second-largest police 
department, Sheriff Leroy Baca, testified before this committee:
---------------------------------------------------------------------------
    \27\ One prominent organization, the Islamic Society of North 
America, published a statement against terrorism that was signed by 45 
Islamic organizations and mosques, 44 academics, 8 think tanks, and a 
number of other groups. Islamic Society of North America, Against 
Terrorism and Religious Extremism: Muslim Position and 
Responsibilities, (2005), available at http://www.isna.net/assets/FCNA/
AT-Fatwa.pdf. Another group maintains a website that includes a number 
of American Muslim statements condemning terrorism. Statement by Muslim 
Individuals and Groups Condemning Terrorist Attacks, 
religioustolerance.org, http://www.religioustolerance.org/islfatwa.htm 
(last visited June 18, 2012).
    \28\ See, e.g., Kurzman, supra note 10, at 7; Kevin Strom Et Al., 
Inst. for Homeland Sec. Solutions, Building on Clues: Examining 
Successes and Failures in Detecting U.S. Terrorist Plots, 1999-2009 19 
(2010), available at http://sites.duke.edu/ihss/files/2011/12/
Building_on_Clues_Strom.pdf.
    \29\ Eight Years After 9/11: Confronting the Terrorist Threat to 
the Homeland: Hearing Before the S. Comm. on Homeland Sec. and Gov'tal 
Affairs, 111th Cong. 6 (2009) (statement for the record by Robert S. 
Mueller, III, Dir., Fed. Bureau of Investigation) (``[T]he FBI 
understands that protecting America requires the cooperation and 
understanding of the public. The FBI has an extensive outreach program 
to Muslim, South Asian, and Sikh communities to address concerns and 
develop trust about the FBI and Federal efforts to protect the 
Homeland.''), available at http://www.hsgac.senate.gov/download/2009-
09-30-mueller-testimony.
    \30\ Eric Holder, U.S. Att'y Gen., Speech at Muslim Advocates' 
Annual Dinner (Dec. 10, 2010), available at http://www.justice.gov/iso/
opa/ag/speeches/2010/ag-speech-1012191.html.

``It is counterproductive to building trust when individuals or groups 
claim that Islam supports terrorism . . . Police leaders must have the 
trust and understanding of all communities who are represented in their 
jurisdictions. The Muslim Community is no less or more important than 
others . . . Simply put, police need public participation, and to 
accomplish that, strategies such as public-trust policing need to be a 
priority in our Nation.''\31\
---------------------------------------------------------------------------
    \31\ Compilation of Hearings on Islamist Radicalization--Volume I: 
Hearing Before the H. Comm. on Homeland Sec., 112th Cong. 73-74 (2011) 
(testimony of Leroy Baca, Sheriff, Los Angeles County), available at 
http://www.gpo.gov/fdsys/pkg/CHRG-112hhrg72541/pdf/CHRG-
112hhrg72541.pdf.

    It is not only the notion that Muslims are all potential terrorists 
that alienates the American Muslim community. It is also the notion of 
``cooperation'' that several witnesses at these hearings seem to 
embrace. Even those Muslim Americans who are admittedly law-abiding 
citizens are essentially being told that they are responsible for any 
Muslim terrorists in their midst, simply because they share a religion. 
Moreover, because the ``religious conveyer belt'' theory interprets 
signs of religiosity as potential indicators of a terrorist trajectory, 
Muslims in this country increasingly are being asked to report on the 
religious beliefs and behaviors of their friends and colleagues.\32\ 
Understandably, American Muslims who are more than willing to provide 
information about potential criminal activity, and who have in fact 
done so routinely since 9/11, are offended by the idea that they must 
share information about their prayers and religious observances with 
the Government.
---------------------------------------------------------------------------
    \32\ See Patel, supra note 16, at 18, 22.
---------------------------------------------------------------------------
    The hearings also drive a wedge between Muslims and their fellow 
Americans. When Members of Congress hold hearings about the 
``radicalization'' of American Muslims and expressly place an entire 
community under the spotlight, it sends the message to all Americans 
that the Government views this community as a security threat. And the 
public appears to be receiving this message loud and clear.
    Since 2010, we have seen a rapid acceleration in divisive anti-
Muslim sentiment, rhetoric, and activities. Recent polling shows that 
anti-Muslim sentiment is increasing among the American public. A 2011 
survey found that 45 percent of Americans believe that the values of 
Islam are at odds with the American way of life.\33\ Another study 
reports that a majority of Americans (53 percent) say their opinion of 
Islam is unfavorable, and a startling 43 percent admit to feeling at 
least ``a little'' prejudice toward Muslims (more than twice the number 
who say the same about Christians, Jews, or Buddhists).\34\
---------------------------------------------------------------------------
    \33\ Robert P. Jones & Daniel Cox, Public Religion Research Inst. 
Old Alignments, Emerging Fault Lines: Religion in the 2010 Election And 
Beyond 17 (2010), available at http://publicreligion.org/site/wp-
content/uploads/2011/06/2010-Post-election-American-Values-Survey-
Report.pdf.
    \34\ Abu Dhabi Gallup Center, Religious Perceptions in America: 
With an In-Depth Analysis of U.S. Attitudes Toward Muslims and Islam 7 
(2009), available at http://www.gallup.com/file/se/ms/153434/
WorldReligion_Report_en-US_final.pdf.
---------------------------------------------------------------------------
    These negative opinions play out in how American Muslims are 
treated. Recently released FBI statistics show that in 2010, anti-
Islamic hate crimes in the United States rose by almost 50 percent over 
the previous year.\35\ Data from the Equal Employment Opportunity 
Commission (EEOC) show dramatic increases in complaints of anti-Muslim 
bias in the workplace.\36\ Muslims are approximately 2 percent of the 
American population, yet, according to the most recent data, complaints 
about anti-Muslim bias accounted for 25 percent of the total number of 
complaints received by the EEOC.\37\
---------------------------------------------------------------------------
    \35\ Compare Hate Crime Statistics 2010, Fed. Bureau of 
Investigation, available at http://www.fbi.gov/about-us/cjis/ucr/hate-
crime/2010/tables/table-1-incidents-offenses-victims-and-known-
offenders-by-bias-motivation-2010.xls (last visited June 19, 2012) with 
Hate Crime Statistics 2009, Fed. Bureau of Investigation, available at 
http://www2.fbi.gov/ucr/hc2009/data/table_01.html (last visited June 
19, 2012).
    \36\ U.S. Dep't of Justice, Confronting Discrimination in the Post-
9/11 Era: Challenges and Opportunities Ten Years Later 9 (2011), 
available at http://www.justice.gov/crt/publications/post911/
post911summit_report_2012-04.pdf.
    \37\ Muslim Advocates, Losing Liberty: The State of Freedom 10 
Years After the Patriot Act 30 (2011), available at http://
www.muslimadvocates.org/Losing_Liberty_The_State- 
m_of_Freedom_10_Years_After_the_PATRIOT_Act.pdf.
---------------------------------------------------------------------------
    Perhaps nowhere are anti-Muslim biases more evident than in the 
increased hostility towards mosques and Islamic centers. The protests 
against plans to build a Muslim community center near the site of the 
World Trade Center in New York are well-known. But they are only the 
tip of the iceberg. From Murfreesboro, Tennessee, to Bridgewater, New 
Jersey, the efforts of Muslims to find a place to come together to pray 
have faced significant obstacles. The Murfreesboro mosque faced a 
lawsuit alleging that it was not entitled to the protection of the 
Federal law that ensures localities do not discriminate against houses 
of worship. The reason: Islam is not a religion entitled to 
protection.\38\ In Bridgewater, New Jersey, the Muslim community 
searched for years for a site to establish a mosque. They found and 
purchased a site and worked with township officials to develop a plan 
for the Al Falah mosque. But after vocal protests from the community, 
the municipality rushed through changes to its zoning laws effectively 
preventing the building of the mosque.\39\
---------------------------------------------------------------------------
    \38\ Amended Complaint at 8-9 Estes v. Rutherford County Regional 
Planning Commission, No. 10-cv-1443 (Chancery Ct. for Rutherford County 
at Murfreesboro), 2010, available at http://www.tennessean.com/assets/
pdf/DN164188917.PDF.
    \39\ First Amended Complaint at 2-5, Al-Falah Ctr. v. Bridgewater, 
No. 3:11-cv-02397-JAP-LHG (D.N.J. May 18, 2011) available at http://
brennan.3cdn.net/5c247a3d1e2be02ce8- _f1m6bowv6.pdf.
---------------------------------------------------------------------------
    The Justice Department's analysis of cases under the Religious Land 
Use and Institutionalized Persons Act (RLUIPA), the Federal law that 
ensures that localities do not discriminate against houses of worship, 
shows that while Muslims make up only three-fifths of a percent of the 
American population, some 7 percent of the RLUIPA cases investigated by 
the Justice Department involved mosques.\40\ The report found that 
``nearly a decade after the attacks of September 11, 2001, Muslim 
Americans continue to struggle for acceptance in many communities, and 
still face discrimination.'' Indeed, the report indicated that this 
type of discrimination was on the rise, noting that almost half of the 
matters involving possible discrimination against Muslims that it had 
monitored since September 11 were opened during or after May 2010.\41\
---------------------------------------------------------------------------
    \40\ U.S. Dep't of Justice, Report on the Tenth Anniversary of the 
Religious Land Use and Institutionalized Persons Act 6 (2010), 
available at http://www.justice.gov/crt/rluipa_report_092210.pdf.
    \41\ Id. at 12.
---------------------------------------------------------------------------
    Some Members of Congress appear to recognize the faulty premises 
underlying these hearings, as well as their negative effects on our 
security and on our relations with American Muslims, and have spoken 
out against them. I want to take a moment to commend them, particularly 
Ranking Member Thompson, for their tireless efforts to ensure that 
Muslims are treated as part of the fabric of American life. I am here 
today to ask others on this committee and in this Congress to follow 
these members' lead and to reject the flawed and divisive approach 
represented by this committee's recent hearings.
                               conclusion
    When anti-Muslim sentiment was displayed in the immediate aftermath 
of September 11, it might have been understood (although not excused) 
as a reaction to the devastation of those attacks. More than a decade 
later, such biases must be examined in the context of Government 
actions that perpetuate fear of American Muslims. These hearings send 
the message that Muslims pose an inherent threat to our country. That 
message has been heard, and its consequences are borne by American 
Muslims as they go about their everyday lives. But that message is not 
based on a rational evaluation of the threat facing us or how it should 
be addressed.
    Our National security is a serious matter and requires us to look 
at facts rather than rely on assumptions. The facts tell us that 
terrorism by American Muslims in the name of Islam is real threat but 
not a widely prevalent one. The facts tell us that American Muslims are 
happy to be in this country and condemn terrorism and al-Qaeda by 
enormous margins. The facts tell us that it is not possible to draw a 
straight line from espousing ``radical'' ideas to committing a 
terrorist attack and that being a religious Muslim does not make one 
more or less likely to become a terrorist.
    We also know what works to combat terrorism. Research shows that 
more than 80 percent of plots were solved through rigorous, old-
fashioned police work, and that is what we should be stressing.\42\ We 
should investigate individual behavior that suggests potential 
criminality, not entire religious communities. Empirical research, as 
well as the expert opinion of law enforcement officials from around the 
country, shows that American Muslims are vital partners in preventing 
terrorism. We should build on these relationships of trust to foster 
true partnerships, not tear them down by casting suspicion on an entire 
community.
---------------------------------------------------------------------------
    \42\ Strom, supra note 28, at 12.
---------------------------------------------------------------------------
    And let us not forget that all Americans--Muslims, Jews, 
Christians, Buddhists, Hindus, and atheists alike--are committed to the 
security of our country and our country will be safest when we all work 
together toward this goal.

    Chairman King. Thank you. Thank you very much.
    Dr. Jasser, in your prepared statement--page 9--you state, 
``Fear of political correctness has been bolstered by leading 
Muslim brotherhood legacy groups in America who trumpet 
grievances at the expense of counter-radicalization 
strategies.'' Can you elaborate on that?
    Dr. Jasser. Yes, sir. Thank you, Chairman.
    I think the really important issue is that, if you are 
going to address a problem, there is only a certain amount of 
bandwidth the United States has to addressing each issue we 
have that we are concerned about. When you look at the Muslim 
issue, if you will, or radicalization, what happens is, if you 
label anybody that addresses this as an Islamophobe or a bigot, 
it stifles free speech. It prevents us from dealing with the 
very issue that we need to.
    Yet, it is interesting--Ms. Patel was actually quoting 
statistics on hate crimes, connecting it to our discussion here 
with no evidence to show there is any connection at all to any 
of that. If anything, I would tell you that the environment in 
the United States in which we are unable to discuss this, in 
which all Americans see our Muslims that are claiming 
victimization, that don't want to address the issue, as 
actually being in denial--I think that type of movement is 
actually more responsible for creating a climate of fear, 
rather than if Americans actually saw us taking ownership as 
Ms. Nomani mentioned.
    Actually, would--Americans would realize that we are the 
most important tool--the most important asset in treating the 
problem. But what happens is, she was--Ms. Patel was refusing 
to accept the conveyor belt concept. Well, if there isn't a 
conveyor belt, then I guess terrorists self-combust immediately 
and become terrorists on the spot overnight.
    As I mention in my first testimony, Nidal Hasan did not get 
radicalized overnight; and that, ultimately, we as Muslims need 
to lead the effort to try to address that. But many of us that 
do, get labeled in many ways as being anti-Muslim. My family 
was horrified to see me labeled by groups, such as the Muslim 
Public Affairs Council, or CAIR, as being anti-Muslim. There 
has been slander thrown around about me, when in fact, I have 
helped build a number of mosques around the country. I have 
been very involved in my faith community. But when you take on 
Islamism, they want to make you pay a price for that because 
they have a lot of self-interest in preventing America from 
looking at Islamism.
    Chairman King. Thank you, Doctor.
    Ms. Nomani, did you see any increase in hate crimes or any 
anti-Muslim activity after these hearings began?
    Ms. Nomani. Well, from my--from my vantage point, what I 
believe has happened, is that Americans are very frustrated 
with Muslims. I don't believe that it is about anger. I come 
from West Virginia, where--talk about stereotypes, so we would 
expect some of the most intolerant ideas, right, about Muslims 
or others from other countries. We grew up there and I felt 
only like a mountaineer in that State.
    I believe that throughout this country, what has happened 
is that people are really frustrated with this culture of 
denial. That as long as you say to CNN--Major Nidal Hasan was 
not a Muslim--or the hijackers were not practicing Islam--you 
are denying a truth inside of our community of an ideology that 
has very much corrupted peoples' minds. I think that leads to 
frustration.
    I was on the streets of New York City during the protest to 
the Ground Zero mosque, as it is being called. I don't believe 
it is as much hate as it is frustration. It is a frustration 
with a community that is not owning its own problems.
    Chairman King. Thank you.
    If I could ask Ms. Patel--you mentioned--sort of implied 
that somehow this committee is focusing on the Muslim community 
and we are off on our own or this is the wrong approach to 
take.
    In the testimony that was being submitted by the Department 
of Homeland Security today by John Cohen, as I read it, he 
says--``Today, the Department of Homeland Security operates 
with the understanding that, as it relates to domestic violent 
extremism, we face the greatest terrorist risks from those 
extremists who have been--either been recruited by al-Qaeda or 
its affiliates or inspired by their ideology. This threat is 
real, as evidenced by the multiple recent thwarted attacks of 
domestic violent extremists inspired by al-Qaeda's ideology.'' 
Now, ipso facto, they are Muslims.
    So what the Director of--what the person--the spokesman of 
Homeland Security is saying is, the leading threat to this 
country today comes from supporters of al-Qaeda. Supporters of 
al-Qaeda are Muslims. So somehow to suggest that there is not a 
correlation between terrorist threats and people of the Muslim 
faith, as small a minority as that may be, I think it is 
totally erroneous.
    Also, for instance, you mention that Muslims are only 1 
percent of the population. Yet when Eric Holder gave his 
numbers, 90 percent of the terrorist crimes are carried out by 
1 percent of the population. Does it say that that is not a 
real threat that we should focus on?
    Then you talk about hate crimes. Well, there are five times 
as many anti-Semitic incidents every year as anti-Muslim. The 
populations are roughly proportionate. So I would just think 
that you would be--not that I am giving you advice--but to 
acknowledge, yes, there is a problem.
    We can dispute the extent of the problem. We can dispute 
exactly how it should be addressed. But somehow to deny that 
there is any correlation between certain people of the Muslim 
faith and the greatest terrorist threat facing this country 
today just defies--it defies credulity. It just does not add up 
at all and I think it just weakens your case.
    Certainly, you can answer.
    Ms. Patel. Thank you, Mr. Chairman.
    America faces a number of threats today. Terrorism in the 
name of Islam is certainly one of them. I certainly would not 
say that there is anything wrong with Congress looking at such 
an important issue.
    What I say, though, is that Congress should look at this 
issue on the basis of empirical evidence. On the basis of the 
research that has been done, all of that research shows that 
the idea of a religious conveyor belt that leads a person 
directly from embracing a religion to becoming a radical to 
becoming a terrorist simply does not serve as a way to predict 
violence.
    We can use a model like that to understand past cases of 
violence, but we cannot statistically use a model like that to 
focus on how other people are going to conduct violence. That 
is something that has been included in all social science 
studies, including from the Department of Defense----
    Chairman King. I don't think--excuse me--I don't think 
anyone is saying that because you are a Muslim, you are going 
to be a terrorist. What we are saying is, that the leading 
terrorist threat today comes from certain people who are 
Muslims. That to me is the reality we have to face.
    That is not saying ``all'' any more than anyone said 
``all'' Italians are in the Mafia, or ``all'' Irish are in the 
Westies. You don't say that, but that is where they look. The 
FBI went to the Italian salsa clubs. They went to the Irish 
bars in the west side of Manhattan. But now when they are 
looking for the Russian mob, they go to Brighton Beach and 
Coney Island. That is just good police work.
    Ms. Patel. Oh, I am sorry. I just----
    Chairman King. Actually--actually, my time has expired, so 
I--I am sorry. I will--the Ranking Member is recognized.
    Mr. Thompson. Thank you very much. Ms. Patel, obviously, 
you have hit some chords with the committee. I have never seen 
a witness take on another Member's testimony and not answer the 
question that he was asked, but if that is how he chose to use 
his time, so be it.
    Let me take on the next paragraph of Mr. Cohen's statement, 
so we can put it into the record. Mr. Cohen said, ``However, we 
also know that violent extremism can be inspired by various 
religious, political, or other ideological beliefs. Many 
communities in rural counties Nation-wide face such threats. 
For example, violent sovereign citizen extremists have engaged 
in violence against State and local law enforcement.'' So there 
are all kinds of things operating here in this country, not 
just people of a particular faith.
    Ms. Patel, I will give you an opportunity to respond to Dr. 
Jasser's take off on what you said.
    Mr. Thompson. Microphone.
    Chairman King. Ms. Patel, microphone, please.
    Ms. Patel. Sorry. I, too, am a novice.
    I think Dr. Jasser was suggesting that there must be a 
religious conveyor belt that leads a person to become more 
religious and then subsequently more violent and then to commit 
an act of terrorism, because terrorism doesn't happen 
overnight.
    In fact, if you look at the studies of terrorism, and I 
refer you to the one--the 2007 study by the NYPD--it actually 
points out that the decision-making process for becoming a 
terrorist can actually be quite quick, or it can be quite long. 
That is precisely the point that it is not a process in the 
sense that you can go from Point A to Point B to Point C. Of 
course, terrorists who are acting in the name of Islam have 
radical ideology. That is the very understanding of the crime 
of terrorism. It is based on an ideological premise, so you are 
always going to find that when you look at populations of 
convicted or indicted terrorists.
    But the point is that you cannot look at ideology as a 
predictor of violence. That is something that, you know, 
doesn't necessarily relate to the post-9/11 context. That is a 
principle that has been established by social science 
researchers going back to the beginning of this century. So I 
would stand by my critique of the religious conveyor belt 
theory.
    Thank you.
    Mr. Thompson. Thank you very much.
    Dr. Ahmed, you referenced that you see a number of 
individuals from the New York Police Department in your 
practice. Are you under any contract with the City of New York 
or the Police Department?
    Dr. Ahmed. Absolutely none. I am an employee of Winthrop-
University Hospital and I have declared that I have no 
affiliations.
    Mr. Thompson. So there is no connection?
    Dr. Ahmed. No, but I am required to be a health care 
provider for the World Trade Center first responders----
    Mr. Thompson. Sure----
    Dr. Ahmed [continuing]. Who number 6,000 on Long Island--
2,500 of whom come to my hospital.
    Mr. Thompson. Well--I have been in the neighborhood and I 
appreciate the--the work that you have done.
    You are not an American citizen. Is that correct?
    Dr. Ahmed. That is correct. I am a permanent resident in 
the United States.
    Mr. Thompson. Yes. I am trying to get--so you don't have 
any kind of security clearance or anything? Your information is 
based on your research?
    Dr. Ahmed. My research is based on a 12-year career of 
teaching and training and mentoring individuals across the 
Muslim world. It is also based on a 43-year history of being a 
Muslim by birth; by being a person who has completed the Hajj, 
and observes all five pillars of Islam; by being a part of a 
very elite program. If you are free to look at it--the 
Templeton-Cambridge Journalism Fellowship Program. By 
personally investing my own time and my own resources in 
traveling to remote areas in Pakistan to meet militant child 
operatives.
    You are quite correct to identify that I have no fiscal, no 
political, and no other affiliations in this, other than I have 
a responsibility to expose what is masquerading as Islam.
    Mr. Thompson. Well, and again, we thank you for your 
service----
    Dr. Ahmed. I--and thank you for the question, too----
    Mr. Thompson. Well, Ms.--excuse me--excuse me--well, you 
have clarified it, but I want to close it by saying, you don't 
have a security clearance. You have not been briefed by 
intelligence officials in any capacity as an intelligence 
person. So what you are giving is your own review of what you 
have done over the years. That has value, but it also requires, 
for some of us, the fact that you are here as a private 
citizen, and not anything else. You don't have to comment. 
Thank you.
    Chairman King. Thank you. I would just say we invited Dr. 
Ahmed as a private citizen, so----
    The gentleman from California, Mr. Lungren, is recognized 
for 5 minutes.
    Mr. Lungren. Thank you, Mr. Chairman.
    I am--I am just kind of bewildered, frankly, by some of the 
questions and comments of my colleagues here, that somehow your 
testimony isn't valid because you don't have a security 
clearance. I don't know--the longer I am here, the--I guess the 
less I am surprised by what I hear at times.
    Ms. Patel, in your report--``Rethinking Radicalization''--
you report to the Council on American Islamic Relations, 
condemn the FBI's use of surveillance measures, particularly of 
mosques predicated on the idea that Muslims present security 
concerns minus any suspicion of criminal activity.
    I am informed that the lead plaintiff of the case of 
California Muslims represented by CAIR and the ACLU in the 
civil case is Imam Yassir Fazaga of the Orange County Islamic 
Foundation. Allegedly, the FBI sent an informant to his mosque 
to determine if anything improper was taking place there and 
CAIR found that to be objectionable.
    Although I am no longer from that area, I am familiar, 
since I lived for 40-some years in that area. The newspaper of 
record in that area is the Long Beach Press Telegram. On 
October 30, 2002, it reported that the imam stated the 
following at a public meeting--``He hailed as freedom fighters 
those Palestinians whom the West media--Western media label as 
suicide bombers. He asserted that few casualties of the suicide 
bombers are innocent victims, quote--No one is an innocent 
civilian. These victims are collateral damage. And as a result 
of the freedom fighters, waves of Jews are leaving Israel. That 
is a great success for the Palestinians. He said, `Palestinians 
danced in the streets after the September 11 attacks, because 
they know that U.S.-made helicopters, U.S. ammunitions are 
killing their relatives and neighbors.' ''
    Giving those remarks in a public setting, do you think it 
was improper for the FBI to utilize an informant to at least 
report on what the imam was saying in his mosque? Is that 
inappropriate behavior by law enforcement as suggested by CAIR 
and as referenced in your report?
    Ms. Patel. I think when law enforcement has information 
that leads it to believe that people are advocating violence, 
then they have every right to go into a mosque.
    Mr. Lungren. Well, if--so if you would take, as correct, 
those comments--I don't know if they are correct--but as 
reported in the Press Telegram--do you believe that that would 
be a sufficient basis for the FBI to permit an informant to go 
to the mosque to observe what the imam is saying?
    Ms. Patel. I actually don't know whether that would be 
allowed under the current FBI rules.
    Mr. Lungren. I didn't ask under the FBI rules. I am saying 
you have criticized in your report law enforcement--at least, 
you have identified CAIR's criticism of law enforcement. So 
that is a specific instance involving a specific plaintiff in a 
case, and those are the facts that are presented. So I am 
asking for your opinion since you have offered your opinion 
here as to what you consider as appropriate conduct.
    Ms. Patel. As I said, sir, I think that if law enforcement 
has information that it believes that there is either criminal 
activity or the likelihood of criminal activity or that 
somebody is violating--sorry--advocating violence, that they 
have--certainly have every right to go inside a religious 
institution. The fact that it is a mosque doesn't insulate it 
from law enforcement scrutiny.
    Mr. Lungren. All right.
    Ms. Nomani, you indicated in your--your written testimony 
of evidence of radicalization of the Quran by some. You give an 
indication of a copy of the Quran published by the government 
of Saudi Arabia, speaking of the first chapter of the Quran--
stating, ``Show us the straight way, the way of those on whom 
thou has bestowed thy grace, those whose portions not wrath, 
and those who go not astray.'' That is the original chapter. 
But yet the copy published by the government of Saudi Arabia 
says, or published by the King Fahd Complex for the printing of 
the Holy Quran in the Kingdom of Saudi Arabia, says, ``Guide us 
on the straight way, the way of those on whom you have bestowed 
your grace, not the way of those who earned your anger, such as 
Jews, nor those who went astray such as Christians.''
    Is that the kind of thing you are talking about, where a 
radical view or reinterpretation of the Quran tends to focus, 
in that case, hatred toward certain other groups--Jews and 
Christians? Is that the point of your written testimony?
    Ms. Nomani. Yes, sir. That exactly is. I brought that Quran 
with me, because I wanted it to serve as a symbolic reminder to 
me of the ideology of Islam--this interpretation of Islam that 
is wreaking havoc on our world. To not identify the extremism 
associated with it--with the religion, to me, is naive. It 
creates a deeper problem inside of our community because then 
we don't tackle the problem as it is.
    This Quran was imported from Saudi Arabia to my hometown 
mosque in West Virginia. I plucked it from the bookcase and I 
plucked it not far from the book called, ``Woman in the Shade 
of Islam,'' that says that we can reinterpret another verse to 
sanction domestic violence against women.
    So what I believe does happen is people take the theology, 
just like they have in every faith, and they go down that 
slippery slope toward violence. We have to include a 
conversation about Islam then when we talk about the extremism 
that comes from it, because it is the ideology that fuels that 
violence.
    Chairman King. The time of the gentleman has expired. The 
gentleman from Louisiana, Mr. Richmond, is recognized for 5 
minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    First, I guess I will--in an attempt to help my bewildered, 
puzzled colleague, sometimes people hear what they want to 
hear, as opposed to what was said.
    I think that Dr. Ahmed and the question with Mr. Thompson--
what I heard was that he was showing that her testimony was 
based on her vast experience and the remarkable work that she 
has done around the world over the years. Sometimes it helps so 
that people understand whether testimony is coming from the 
intelligence community or whether it is coming from life 
experiences. I don't think that the fact that it comes from 
life experiences diminishes her testimony, nor do I think that 
the Ranking Member was trying to diminish her testimony, as 
opposed to just clarifying where it came from. So I--I hope 
that helps with the bewilderment.
    But the other thing I would point out--and Mr. Chairman, 
when you talk about peoples' reaction and objection to the 
hearings, or the hearing on the hearings, you said in your 
opening that 90 percent of the attacks came from Muslims or 
radicalized people, but the problem we see is that we are only 
talking about the 90 percent. It is the 10 percent that we are 
not focusing on that keeps me up at night also.
    So the question becomes, as we talk about Muslims and we 
talked about Somalia for a minute, the question becomes: Do we 
talk about radicalization in global, in terms of all 
radicalization in the United States--everyone who poses a 
threat?
    The other thing I would just add and, Dr. Jasser, I would 
seek your opinion on it, and maybe Ms. Patel--is that the 
initial concept of the hearing I thought was disingenuous or 
overlooked the fact that the Muslim community are very active 
participants in our fight against terror. If the numbers are 
right that I have--if 52 out of the 140 tips come from the 
Muslim community, then that is over 37 percent in a time where, 
especially in minority communities, you have this code of 
silence.
    So I don't think that we have properly identified and 
recognized that the Muslim is absolutely a partner in our fight 
against terror. Do you want to comment on that?
    Dr. Jasser. Yes. Absolutely. Thank you. As I mentioned, I 
could not agree with you more and that is why I cited so many 
Muslims that reached out to us after your hearings, as saying, 
thank you for providing alternative voices. As I said, you 
can't solve theological problems within a religion unless you 
are from that faith.
    So this issue, though, however, is that the--the dialogue 
that making any linkage between religious radical--religious 
interpretations and that radicalism targets the whole 
population stifles any reform. What I would tell you is, 
absolutely, the reporting of violence--I would--and as I said 
in my first testimony, every Muslim I know would report a 
terrorist act of violence if they saw it about to happen. But 
that is the final step. That is a whack-a-mole program.
    If you want to treat the problem, you have to show that we 
have actually motivated and stimulated Muslims to begin reform 
programs that counter the ideas that radicalize--the 
supremacism that other witnesses have also talked about. That 
has yet to really happen. Anybody that says it is happening, I 
think is either in denial or--or naive to say that we have 
begun to address, to reinterpret, to provide books on the 
shelves in mosques and elsewhere that counter these ideas. The 
bookshelves are far too empty and there is not enough stimulus 
in this country to counter these ideas. That is what I think 
your hearings bring to the discussion.
    Mr. Richmond. Ms. Patel.
    Ms. Patel. Thank you. I think in terms of the extent of 
violence by American Muslims versus other groups, as Ranking 
Member Thompson pointed out, there is a lot of evidence that 
there are other groups that are out there who are also 
interested in committing violence against our country.
    The statistics that I have seen put the extent of terrorism 
by American Muslims domestically focused at between 40 and 57 
percent. There is always a difference in studies as to how they 
count terrorism cases, so you always come up with different 
numbers. I think that the Department of Justice's statistics, 
for example, are very inclusive, and include things like 
extreme--like immigration violations. So I just want to put 
that out there.
    Turning to this idea of cooperation, I think there is no 
question, but that American Muslims will report any suspicion 
of terrorist activity. When you ask them to support something 
more nebulous, like extremism within their community, that is 
when you run into problems, because how do you actually define 
that? Does the fact that a woman is asked to cover her mosque--
sorry--her head when she covers a mosque, extremism? To some 
people, it may appear the case. To others, it may not.
    But that is the kind of information that you cannot expect 
a community to be reporting on. It is just too nebulous.
    Thank you.
    Chairman King. The time of the gentleman has expired. The 
gentleman from Texas----
    Mr. Richmond. Thank you, Mr. Chairman. I was just going to 
close with the fact that I think that I would ask that we just 
not have blinders on and focus on just the Muslim community 
when you in your testimony said that you thought it was 
responsible for 90 percent. There is 10 percent still out 
there. I think we owe it to the American people to focus on 
them also.
    Chairman King. I would say, in response to that, if you 
yield, is that this committee was set up primarily in response 
to 9/11. We do have other committees. Obviously, we have 
subcommittees who do look at these other issues.
    Having said that, when the Department of Homeland Security 
says the main threat is from groups linked with al-Qaeda and 
when there does not appear to be a consensus that, as we see 
from your witness today, that we should be looking at the 
Muslim community, then I think these hearings are essential.
    If we had unanimity--yes, there is a real problem in the 
community, and we should address it--then we would not have the 
need for these hearings. The reason we have to have the 
hearings is, to me, the denial of a reality. That is why I 
thought it was important to have these hearings.
    Not to minimize in any way the others, where--terrorists in 
this country or American Nazis or Ku Klux Klan or whatever. But 
the fact is, this committee--I look upon it, since it was set 
up in the aftermath of 9/11, as was the Department of Homeland 
Security, to combat Islamic extremists, first; then also, to--
obviously, other issues are pertinent, but I think the 
Judiciary Committee is well suited for the other. But not to 
say, we aren't going to look the way on it at all.
    Gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    You know, al-Qaeda's stated goal is to bring down the 
infidel in Western civilization. I was the chief of 
counterterrorism in the Justice Department. It is clear the 
hijackers came from a certain background. We can't deny the 
fact that they were Muslim. Major Hasan, just north of my 
district in Fort Hood, was radicalized by Awlaki out of Yemen, 
right next to my district--killed 13 soldiers. I went to the 
funeral. I saw the boots--the combat boots and the rifles. This 
is real. It is real stuff.
    Ms. Patel, for you to say that these hearings do not rest 
on firm factual basis, I would say, you talk to those families. 
When you say they adopt--we adopt a view of radicalization that 
treats religious belief as a precursor to terrorism, I would 
argue that we have to look at the obvious--that there is a 
religious component to this. It doesn't reflect the vast 
majority of Muslims. I agree. The vast majority are good, law-
abiding citizens. But there are those within the United 
States--the enemy within--that do want to do us harm and bring 
down this Nation and kill our soldiers and kill innocent 
civilians, like Daniel Pearl, who was slayed, as you very 
dramatically, Ms. Nomani, testified to.
    Ninety percent, as the Chairman said, of these acts are 
committed by 1 percent of the population. So I understand your 
statistics. But when you look at the overall picture, I 
strongly disagree with your testimony. I find it somewhat 
offensive to the victims.
    I don't know if you have any comment to that.
    Ms. Patel. I think the one comment I would make is that, 
you know, I live in this country. I live and work in New York 
City, right by Ground Zero. I have two kids. They go to school 
every day. They take the subway. I am a mother. I think about 
their safety. I, too, worry about terrorism. I, too, am not 
unsympathetic to people whose families died because of violence 
and terrorism, of course not.
    But I think that the best way to keep our country safe is 
to use evidence to drive counterterrorism policy. When I look 
at the studies and what they show me, they show me that using 
religiosity or using ideology as a predictor for who is going 
to become a terrorist and who is not simply doesn't work----
    Mr. McCaul. Can I--can I just stop you on that? Because I 
think ideology is important. I think the moderate Muslim is the 
most effective weapon we have against radical Islam. I think we 
can defeat them on the battlefield. We have. But we can't kill 
it. I mean, it is an ideology--it is a struggle for ideology. 
That, at the end of the day, are we going to win or lose this?
    Someone said the war on terror is over. That presumes that 
radical Islam is over. I would argue that radical Islam is, 
unfortunately, alive and well. It is an ideological struggle 
that if we don't win this, it will bring down Western 
civilization.
    I want--I would like to get the other panelists' viewpoint 
on how do we win this war on ideology? Are we in fact--are we 
in fact winning it?
    Ms. Nomani. Well, sir. I believe that since--the United 
Kingdom, the government of the United Kingdom, has directly now 
confronted this real phenomenon that you are talking about--
that we also have nonviolent extremism. It is the rhetoric that 
Dr. Jasser is talking about that is in our mosques. It is the 
theology that is being exported from the government of Saudi 
Arabia into our country.
    This is a very difficult conversation to be had, I know, 
because the government of Saudi Arabia is an ally. But I will 
tell you that as a woman inside of my faith, one of the hardest 
parts about practicing my faith is the interpretation of Islam 
that comes out of Saudi Arabia and tells me in my mosques here 
in America that I have to sit behind a wall. That I have to sit 
in the basement--maybe sometimes I don't even get a room.
    So from mosques from Seattle to Los Angeles to Washington, 
DC, and the upper eastside, I have been thrown out of those 
mosques because I have dared to believe something that the 
civil rights movement taught me, which is separate is not 
equal. Yet, it is the theology that comes out of Saudi Arabia 
that practices--that makes that a practice in the United 
States, and I would argue, becomes a dangerous precursor for 
violent extremism. It is not definitely a certain indicator, 
but once you go down that slippery slope of interpretation, it 
becomes dangerous.
    Mr. McCaul. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman King. The gentleman's time has expired. The 
gentlelady from California, Ms. Richardson, is recognized for 5 
minutes.
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    First of all, I would like to ask that the following 
reports from the Triangle Center and the Center for American 
Progress* be entered into the record.
---------------------------------------------------------------------------
    * Document has been retained in committee files and is available at 
www.americanprogress.org/issues/religion/report/2011/08/26/10165/fear-
inc/.
---------------------------------------------------------------------------
    Chairman King. Without objection.
    [The information follows:]
       Document Submitted For the Record by Hon. Laura Richardson
 Statement of Charles Kurzman, Department of Sociology, University of 
                      North Carolina, Chapel Hill
                            February 8, 2012
           muslim-american terrorism in the decade since 9/11
This is the third annual report on Muslim-American terrorism suspects 
and perpetrators published by the Triangle Center on Terrorism and 
Homeland Security. The first report, co-authored by David Schanzer, 
Charles Kurzman, and Ebrahim Moosa in early 2010, also examined efforts 
by Muslim Americans to prevent radicalization. The second report, 
authored by Charles Kurzman and issued in early 2011, also examined the 
source of the initial tips that brought these cases to the attention of 
law-enforcement authorities. This third report, authored by Charles 
Kurzman and issued in early 2012, focuses on cases of support for 
terrorism, in addition to violent plots. These reports, and the data on 
which they are based, are available at http://kurzman.unc.edu/muslim-
american-terrorism.
                 muslim-american terrorism down in 2011
    Twenty Muslim Americans were indicted for violent terrorist plots 
in 2011, down from 26 the year before, bringing the total since 9/11 to 
193, or just under 20 per year (see Figure 1). This number is not 
negligible--small numbers of Muslim Americans continue to radicalize 
each year and plot violence. However, the rate of radicalization is far 
less than many feared in the aftermath of 9/11. In early 2003, for 
example, Robert Mueller, director of the Federal Bureau of 
Investigation, told Congress that ``FBI investigations have revealed 
militant Islamics [sic] in the US. We strongly suspect that several 
hundred of these extremists are linked to al-Qaeda.''\1\ Fortunately, 
we have not seen violence on this scale.
---------------------------------------------------------------------------
    \1\ Charles Kurzman, The Missing Martyrs (New York: Oxford 
University Press, 2011), p. 13.
---------------------------------------------------------------------------
    The scale of homegrown Muslim-American terrorism in 2011 does not 
appear to have corroborated the warnings issued by Government officials 
early in the year. In March 2011, Mueller testified to Congress that 
this threat had become even more complex and difficult to combat, as 
``we are seeing an increase in the sources of terrorism, a wider array 
of terrorist targets, and an evolution in terrorist tactics and means 
of communication.''\2\ Janet Napolitano, Secretary of the Department of 
Homeland Security, echoed Mueller's concern in her 2011 ``State of 
America's Homeland Security Address'': ``the terrorist threat facing 
our country has evolved significantly in the last 10 years--and 
continues to evolve--so that, in some ways, the threat facing us is at 
its most heightened state since those attacks.''\3\ Congressman Peter 
King, Chairman of the Committee on Homeland Security in the U.S. House 
of Representatives, held four hearings in 2011 to alert Americans to 
the ``the extent of Muslim-American radicalization by al-Qaeda in their 
communities today and how terrible it is, the impact it has on 
families, how extensive it is, and also that the main victims of this 
are Muslim Americans themselves.''\4\
---------------------------------------------------------------------------
    \2\ Robert Mueller, testimony Before the Judiciary Committee, U.S. 
House of Representatives, March 16, 2011.
    \3\ Janet Napolitano, ``Understanding the Homeland Threat 
Landscape--Considerations for the 112th Congress,'' testimony before 
the Committee on Homeland Security, U.S. House of Representatives, 
February 9, 2011. Two weeks earlier, by contrast, Napolitano commented 
that ``our homeland is more secure that it was 10 years ago, and, 
indeed, more secure than it was 2 years ago.'' ``State of America's 
Homeland Security Address,'' George Washington University, January 27, 
2011. For a discussion of these diverging assessments, see Charles 
Kurzman, David Schanzer, and Ebrahim Moosa, ``Muslim American Terrorism 
Since 9/11: Why So Rare?'' The Muslim World, July 2011, pages 464-483.
    \4\ CNN, March 10, 2011. 
    


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

               FIGURE 2.--MUSLIM-AMERICAN TERRORISM SUSPECTS AND PERPETRATORS, VIOLENT PLOTS, 2011
----------------------------------------------------------------------------------------------------------------
             Name                  Location           Plot or Alleged Plot         Disrupted      Status of Case
----------------------------------------------------------------------------------------------------------------
Emerson Begolly..............  Mayport, PA.....  Arrested for biting 2 FBI      Early..........  Trial pending.
                                                  agents.
Roger Stockham...............  San Diego, CA...  Plot to attack Shia mosque in  Late...........  Trial pending.
                                                  Michigan.
Alwar Pouryan................  Phoenix, AZ.....  Selling weapons to Taliban in  Early..........  Trial pending.
                                                  Romania.
Khalid Ali-M Aldawsari.......  Lubbock, TX.....  Buying chemicals for weapon..  Early..........  Trial pending.
Ahmed Ferhani................  New York, NY....  Plot to bomb synagogues,       Early..........  Trial pending.
                                                  churches, and Empire State
                                                  Building.
Mohamed Mamdouh..............  New York, NY....  Plot to bomb synagogues,       Early..........  Trial pending.
                                                  churches, and Empire State
                                                  Building.
Joseph Jeffrey Brice.........  Clarkston, WA...  Testing explosives...........  Late...........  Trial pending.
Jesse Curtis Morton..........  New York, NY....  Threatening ``South Park''     Early..........  Trial pending.
                                                  creators.
Waad Ramadan Alwan...........  Bowling Green,    Plot to send weapons and       Early..........  Trial pending.
                                [sic].            money to Iraqi insurgents.
Shareef Hammadi..............  Bowling Green,    Plot to send weapons and       Early..........  Trial pending.
                                [sic].            money to Iraqi insurgents.
Yonathan Melaku..............  Washington, DC..  Shooting at military           No.............  Trial pending.
                                                  buildings in Virginia.
Abu Khalid Abdul-Latif.......  Seattle, WA.....  Plot to attack military        Early..........  Trial pending.
                                                  office in Seattle.
Walli Mujahidh...............  Los Angeles, CA.  Plot to attack military        Early..........  Trial pending.
                                                  office in Seattle.
Mohammad Hassan Khalid.......  Baltimore, MD...  ``Jihad Jane'' plot on         Early..........  Trial pending.
                                                  Swedish cartoonist.
Nasser Jason Abdo............  Killeen, TX.....  Buying gunpowder for attack    Late...........  Trial pending.
                                                  on Fort Hood.
Agron Hasbajrami.............  New York, NY....  Travel to Pakistan to join     Early..........  Trial pending.
                                                  terrorist group.
Rezwan Ferdaus...............  Ashland, MA.....  Plot to attack D.C. with       Early..........  Trial pending.
                                                  remote-control aircraft.
Mansour Arbabsiar............  Austin, TX......  Plot to assassinate Saudi      Early..........  Trial pending.
                                                  ambassador in D.C..
Jose Pimentel................  New York, NY....  Building pipe bomb to attack   Early..........  Trial pending.
                                                  mailboxes, banks, [sic].
Craig Baxam..................  Laurel, MD......  Travel to Kenya to join al-    Early..........  Trial pending.
                                                  Shabaab in Somalia.
----------------------------------------------------------------------------------------------------------------

    These and similar warnings have braced Americans for a possible 
upsurge in Muslim-American terrorism, which has not occurred. Instead, 
terrorist plots have decreased in each of the past 2 years, since the 
spike of cases in 2009. Threats remain: Violent plots have not dwindled 
to zero, and revolutionary Islamist organizations overseas continue to 
call for Muslim Americans to engage in violence. However, the number of 
Muslim Americans who have responded to these calls continues to be 
tiny, when compared with the population of more than 2 million Muslims 
in the United States \5\ and when compared with the total level of 
violence in the United States, which was on track to register 14,000 
murders in 2011.\6\
---------------------------------------------------------------------------
    \5\ Pew Forum on Religion and Public Life, ``Mapping the Global 
Muslim Population,'' October 2009.
    \6\ Federal Bureau of Investigation, ``Preliminary Semiannual 
Uniform Crime Report, January-June, 2011.''
---------------------------------------------------------------------------
    Of the 20 Muslim Americans accused of violent terrorist plots in 
2011 (Figure 2), only one, Yonathan Melaku, was charged with carrying 
out an attack, firing shots at military buildings in northern Virginia 
(Figure 3). Nobody was injured. This figure represents a significant 
decrease from 2010, when six Muslim Americans carried out terrorist 
attacks, five of them joining militants in Somalia and Yemen and one 
carrying out a domestic attack: Faizal Shahzad's attempted car-bomb 
near Times Square in New York City, which would have killed hundreds of 
people, perhaps more than a thousand, if the bomb had been constructed 
properly.\7\
---------------------------------------------------------------------------
    \7\ Charles Kurzman, ``Muslim-American Terrorism Since 9/11: An 
Accounting,'' Triangle Center on Terrorism and Homeland Security, 
February 2, 2011.
---------------------------------------------------------------------------
    Another three individuals were arrested in 2011 after gathering 
explosives: Roger Stockham, who was arrested with fireworks in his car 
trunk after bragging to a bartender that he intended to blow up a Shia 
Muslim mosque in Michigan; Joseph Jeffrey Brice, who injured himself 
testing explosives near a highway in eastern Washington; and Naser 
Jason Abdo, who bought explosives for an alleged plot to attack Fort 
Hood in Texas. The other 16 suspects--none have been convicted yet--
were arrested at an early stage in their plots.
    Two suspects in 2011 received terrorist training abroad, down from 
eight in 2010 and 28 in 2009: Waad Ramadan Alwan and Shareef Hammadi, 
who were arrested in Kentucky for plotting to send weapons and money to 
Iraqi insurgents they allegedly served with before coming to the United 
States in 2009.
    In terms of the potential for casualties, the bulk of the suspects 
in 2011 appeared to have been limited in competence. The first 
terrorism-related arrest of a Muslim American in 2011, for example, 
involved Emerson Begolly, a 21-year-old former white supremacist who 
converted to Islam and posted violent-sounding material on the 
internet. When his mother tricked him into meeting with FBI agents 
outside a fast-food restaurant, he got into a tussle and bit them. The 
second case of the year involved Roger Stockham, who stopped at a bar 
on the way to his attack and bragged to the bartender about his 
hostility toward Shia Muslims and his plan to attack a local Shia 
mosque. The bartender, an Arab-American, called the police. The third 
case involved Alwar Pouryan, an Iranian-American who allegedly 
conspired with a Jewish Israeli-American, Oded Orbach, to sell weapons 
in Romania to an agent of the Taliban, who was actually an undercover 
agent of the U.S. Drug Enforcement Agency. The fourth case involved a 
Saudi student in Texas, Khalid Aldawsari, who tried to buy a large 
amount of chemicals over the internet from a company in North Carolina. 
The company called the FBI. These and other cases do not appear to be 
the actions of sophisticated, well-trained Islamist revolutionaries.

                         FIGURE 3. MUSLIM-AMERICAN DOMESTIC TERRORIST ATTACKS SINCE 9/11
----------------------------------------------------------------------------------------------------------------
              Name                        Year                         Plot                       Fatalities
----------------------------------------------------------------------------------------------------------------
Hesham Hadayet..................  2002...............  Shot Israeli airline personnel, Los   2 (plus himself).
                                                        Angeles, California.
Charles Bishop..................  2002...............  Flew plane into office tower, Tampa,  0 (plus himself).
                                                        Florida.
John Allen Muhammad.............  2002...............  ``Beltway Snipers,'' metropolitan     11.
                                                        Washington, DC area.
Lee Boyd Malvo..................  2002...............  ``Beltway Snipers,'' metropolitan     11.
                                                        Washington, DC area.
Mohammed Taheri-Azar............  2006...............  Ran over students with rented SUV,    0.
                                                        Chapel Hill, North Carolina.
Naveed Haq......................  2006...............  Shot workers at Jewish center,        1.
                                                        Seattle, Washington.
Sulejmen Talovic................  2007...............  Shot people at shopping center, Salt  5 (plus himself).
                                                        Lake City, Utah.
Tahmeed Ahmad...................  2007...............  Attacked military police at           0.
                                                        Homestead Air Reserve Base, Florida.
Abdulhakim Muhammad.............  2009...............  Shooting at military recruitment      1.
                                                        center, Little Rock, Arkansas.
Nidal Hasan.....................  2009...............  Fort Hood shooting, Texas...........  13.
Faisal Shahzad..................  2010...............  Times Square car-bomb, New York City  0.
Yonathan Melaku.................  2011...............  Allegedly shot at military buildings  0.
                                                        in northern Virginia.
----------------------------------------------------------------------------------------------------------------

                                                                                             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                             
    As in previous years, 2011's Muslim-American terrorism suspects did 
not fit any particular demographic profile (Figure 4). Thirty percent 
were age 30 and older, as compared with 35 percent of all cases since 
9/11. Seventy percent were U.S. citizens, as compared with 68 percent 
of all cases since 9/11. The suspects came from a variety of ethnic 
backgrounds--30 percent Arab, 25 percent white, and 15 percent African-
American. Forty percent were converts, as compared with 35 percent of 
all cases since 9/11.
    One demographic difference in 2011's cases was the absence of 
Somali-Americans, as compared with three in 2010, 18 in 2009, and three 
in the years 2003-2008. Public concern over Somali-American 
radicalization continued to echo throughout the year, including a 
Congressional hearing on the subject,\8\ but there were no new cases of 
Somali-American terrorism in 2011.
---------------------------------------------------------------------------
    \8\ Committee on Homeland Security, U.S. House of Representatives, 
``Hearing on Al Shabaab: Recruitment and Radicalization within the 
Muslim-American Community and the Threat to the Homeland,'' July 27, 
2011.
---------------------------------------------------------------------------
    Muslim Americans continued to be a source of initial tips alerting 
law-enforcement authorities to violent terrorist plots. Muslim 
Americans turned in 2 of 14 individuals in 2011 whose initial tip could 
be identified, bringing the total to 52 of 140 since 9/11.
    One of 2011's 20 suspects had prison experience: Abu Khalid Abdul-
Latif, who was arrested for plotting to attack a military induction 
center. Abdul-Latif was incarcerated in 2002-2004 for robbery and 
assault. Since 9/11, fewer than one-tenth of suspects and perpetrators 
(17 of 193) had been incarcerated, 14 in American prisons and three 
overseas. Prison does not seem to be a major source of Islamic 
radicalization.\9\ An unusually large ratio of suspects in 2011 (4 of 
20) had military experience. Since 9/11, fewer than one-tenth of 
suspects and perpetrators (15 of 193) had served in the United States 
military.
---------------------------------------------------------------------------
    \9\ Bert Useem, testimony before the Committee on Homeland 
Security, U.S. House of Representatives, ``Hearing on the Threat of 
Muslim-American Radicalization in U.S. Prisons,'' June 15, 2011.
---------------------------------------------------------------------------
                         support for terrorism
    In addition to the decline in violent plots, the number of Muslim 
Americans indicted for support of terrorism--financing, false 
statements, and other connections with terrorist plots and 
organizations, aside from violent plots--fell from 27 individuals in 
2010 to 8 in 2011, bringing the total to 462 since 9/11 (Figure 5). 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These statistics, analyzed here for the first time, include 256 
Muslim Americans whose cases were classified as ``terrorism-related'' 
in a 2010 report by the U.S. Department of Justice, but who were not 
charged with terrorism-related offenses, and whose connection to 
terrorism was not made public.\10\ Some of these cases seem somewhat 
removed from actual terrorist threats--for example, Zameer Nooralla 
Mohamed, who was convicted for making a hoax call to the FBI claiming 
that four acquaintances, including an ex-girlfriend and a colleague who 
owed him money, were planning an attack. In other cases, the Government 
may have chosen to prosecute a lesser crime rather than make terrorism-
related intelligence public.
---------------------------------------------------------------------------
    \10\ Department of Justice, Introduction to National Security 
Division Statistics on Unsealed International Terrorism and Terrorism-
Related Convictions (2010). This list is based on convictions, rather 
than indictments, and there may be more cases, especially in recent 
years, that have not yet been resolved.
---------------------------------------------------------------------------
    In cases where the connection to terrorism is publicly known, 151 
individuals were prosecuted for financing terrorist plots or 
organizations; 12 individuals were accused of making false statements 
during terrorism investigations; and 43 individuals had other 
connections with terrorism, such as producing a video for a foreign 
terrorist organization, sending cassette tapes or raincoats to members 
of a terrorist organization, or personal associations with members of 
terrorist organizations.
    These statistics were supplemented with information from the 
Terrorist Trial Report Card produced by New York University School of 
Law's Center on Law and Security, which generously made its dataset 
available for this project;\11\ the Investigative Project on Terrorism, 
which lists terrorism-related court cases;\12\ and Mother Jones 
magazine's on-line dataset of terrorism investigations.\13\
---------------------------------------------------------------------------
    \11\ Center on Law and Security, New York University School of Law, 
Terrorist Trial Report Card: September 11, 2001-September 11, 2011, 
http://www.lawandsecurity.org/Portals/0/Documents/
TTRC%20Ten%20Year%20Issue.pdf.
    \12\ The Investigative Project on Terrorism, http://
investigativeproject.org.
    \13\ Trevor Aaronson, ``The Informants,'' Mother Jones, August/
September 2011; dataset available at http://motherjones.com/fbi-
terrorist.
---------------------------------------------------------------------------
    The decline in prosecutions of Muslim Americans for support of 
terrorism over the past decade is particularly notable in view of the 
heightened scrutiny that terrorism financing now receives from law 
enforcement agencies, which ``have established an increasingly 
difficult environment within which terrorist financiers can operate 
undetected,'' and ``have made the concealment and transfer of terrorism 
related funds more difficult,'' according to Congressional testimony by 
the acting assistant director of the FBI's Counterterrorism 
Division.\14\
---------------------------------------------------------------------------
    \14\ Ralph S. Boelter, Acting Assistant Director, Counterterrorism 
Division, Federal Bureau of Investigation, testimony before the 
Subcommittee on Crime and Terrorism, Judiciary Committee, U.S. Senate, 
September 21, 2011.
---------------------------------------------------------------------------
    In recent years, terrorist financing cases have involved smaller 
amounts of money (Figure 6). Of the 16 cases involving more than $1 
million, only five occurred in the last 4 years, and none in 2011. By 
contrast, most cases in the past 4 years--13 of 23 cases in which the 
estimated value of the financing was made public, and all four cases in 
2011--involved less than $100,000. The scale of the financing is not 
known for six cases. (Note that Figure 6 counts cases, while previous 
charts counted individuals.)
    The number of Muslim Americans indicted for support for terrorism 
is more than double the number indicted for violent plots--perhaps not 
surprising, since it would appear to be far less of a commitment to 
engage in financing than to engage in violence. Nonetheless, this 
finding underscores the relatively low level of radicalization among 
Muslim Americans.\15\
---------------------------------------------------------------------------
    \15\ These findings contradict the conclusion of a recent study of 
Muslim-American terrorism by the New America Foundation and Syracuse 
University's Maxwell School of Public Policy, Post-9/11 Jihadist 
Terrorism Cases Involving U.S. Citizens and Residents, 2011. That study 
included 11 cases of terrorism financing in 2010, in addition to 
violent plots, but counted only violent plots in previous years, 
skewing the trend data and giving the false impression that terrorism 
was on the rise.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               conclusion
    Almost 200 Muslim Americans have been involved in violent plots of 
terrorism over this decade, and more than 400 Muslim Americans have 
been indicted or convicted for supporting terrorism. In 2011, the 
numbers dropped in both categories, and the severity of the cases also 
appeared to lessen: Muslim-American terrorist plots led to no 
fatalities in the United States, and the year's four indictments for 
terrorist financing indictments involved relatively small amounts of 
money.
    As in previous years, non-Muslims were also involved in domestic 
terrorism, proving once again that Muslims do not have a monopoly on 
violence. This study has not attempted to analyze those cases.
    The limited scale of Muslim-American terrorism in 2011 runs counter 
to the fears that many Americans shared in the days and months after 9/
11, that domestic Muslim-American terrorism would escalate. The spike 
in terrorism cases in 2009 renewed these concerns, as have repeated 
warnings from U.S. Government officials about a possible surge in 
homegrown Islamic terrorism. The predicted surge has not materialized.
    Repeated alerts by Government officials may be issued as a 
precaution, even when the underlying threat is uncertain. Officials may 
be concerned about how they would look if an attack did take place and 
subsequent investigations showed that officials had failed to warn the 
public. But a by-product of these alerts is a sense of heightened 
tension that is out of proportion to the actual number of terrorist 
attacks in the United States since 9/11.
    This study's findings challenge Americans to be vigilant against 
the threat of home-grown terrorism while maintaining a responsible 
sense of proportion.

    Ms. Richardson. Thank you, sir.
    Then I would like to defer about 20-30 seconds to Mr. 
Richmond for a follow-up. Then I will reclaim my time.
    Mr. Richmond. Mr. Chairman, just referring back to the John 
Cohen letter that many of us cited earlier, I will just read 
this simply paragraph. ``We also know that violent extremism 
can be inspired by various religious, political, or other 
ideological beliefs. Many communities in rural counties Nation-
wide face such threats. For example, violent sovereign citizen 
extremists have engaged in violence against State and local law 
enforcement. Recognizing this, DHS has designed a countering 
violent extremism approach that applies to all forms of violent 
extremism, regardless of ideology.''
    I would just suggest that we should also follow that same 
approach.
    Chairman King. The gentlelady from California.
    Ms. Richardson. Thank you, sir. Reclaiming my time.
    I would like to know--just clarify some comments that were 
made earlier. You know, as a Member on this Homeland Security 
Committee, I think it is appropriate to ask a person's 
qualifications because, after all, we as Members of Congress 
and our staff must have security clearances to participate in 
discussions and to hear information. So the fact that we would 
want to know, is there any validity or, you know, real facts or 
reasons behind some of the things that are being provided to 
us, I don't think is an unreasonable question and a request.
    I would like to further say that, you know, this 
committee--we are not a talk show. This isn't Oprah. This isn't 
entertainment. This isn't radio. This is the United States 
Congress. So I would just ask, and Mr. King, I am trying to 
speak in all due respect to you, I would just ask that in the 
future, if we are going to have a U.S. Congressional hearing, 
which in my mind is a big thing, I believe that, at least some 
of the panelists should be people who have the authority, who 
receive the regular information to give us the most accurate 
helpful information as possible that we can blend in with other 
community thoughts. But I think, otherwise, to me, this is 
similar to like a community town hall or something like that, 
that I don't think rises to the level of the United States 
Congress.
    Chairman King. Well, I cannot disagree with you. It is a 
question, I guess, of who or what rises to the level of the 
U.S. Congress. But the fact is, that----
    Ms. Richardson. Mr. Chairman, I didn't----
    Chairman King. Oh, you asked me a question, I thought you 
were going to give me the courtesy to answer. You weren't 
asking a question?
    Ms. Richardson. No, I wasn't----
    Chairman King. Okay. Fine. Good.
    Ms. Richardson. But go ahead. Go ahead. I just want to make 
sure I don't lose my time.
    Chairman King. No, it is your time then. I will tell you 
later.
    Ms. Richardson. Okay. Thank you, Mr. Chairman. I--with all 
due respect, again, I am not looking to pick a fight here, but 
what I am saying is--for me as a Member on this committee, I 
don't mind people's personal thoughts and their opinions, but 
what I think it should also be couple with, is professionals 
who do this work, who have this information and----
    Chairman King. Well, if the gentlelady would yield on that 
then. I will give you the time at the end. Whatever I take, I 
will yield back to you at the end.
    Ms. Richardson. Sure. Go ahead then.
    Chairman King. First of all, the purpose of this hearing 
was to hear from the community. If the gentlelady is interested 
in getting classified information or security-based 
information, we have briefings all the time. We have--we have 
briefings in the SCIF that are made available to all Members.
    The fact of this hearing--the purpose of this hearing is to 
connect with real people, people who are citizens. I don't 
think we have such an elitist attitude that we are only going 
to hear from people who have security clearances.
    The fact is that we are talking about people who are in the 
trenches--people who live real lives, who are out there, who 
are not coming here as bureaucrats, not coming here as 
Government elite, but they are coming here as real people. To 
me, that is what the Congress of the United States is about--to 
hearing--to hear from people--to represent the people.
    You only represent the people by hearing from them, not by 
listening to bureaucrats. They give us information. We get 
great information. The CIA, the FBI, NCTC, Homeland Security--
they give us very excellent briefings. Many of the Members--I 
haven't seen you with many of them. But I know we do have them 
and we get them. They give the most detailed classified, top-
secret information. I would suggest you go to a few of those 
and then blend it into what you hear from real people. The 
clock was stopped, so you have 1 minute and 49 seconds.
    Ms. Richardson. Mr. Chairman, I am offended by your 
reference to me at classified briefings. I will provide to you 
my record. I think it is very inappropriate for you to say in a 
public forum----
    Chairman King. I would say that it is more inappropriate 
for you to somehow compare this to Oprah Winfrey, when we have 
real people who have given of their time to come in to testify 
before us. Perhaps they are at risk themselves coming in here, 
giving of their time, and be willing to share their experiences 
with us.
    Ms. Richardson. Mr. Chairman, I did not yield. Are you 
going to put my time back----
    Chairman King. You get 11 seconds. Actually, the clock 
stopped.
    Ms. Richardson. It stopped after you talked----
    Chairman King. Then you get--okay, you will get 1 minute 
and 38 seconds.
    Ms. Richardson. Mr. Chairman, if you go back to my 
comments, my objection is not--and I am thankful for the 
testimony that we have before us. My suggestion or my request 
as a member of your committee was that you would consider in 
the future if we have hearings such as this, that you would 
also have a witness that could provide accurate testimony to 
also what is being heard in the community to make sure that we 
decisionmakers can make the best possible decisions. That was 
my simple request.
    Let me go onto Mr. Jasser and actually the other members 
who are here. Of the folks who are here who are testifying, 
other than being a Muslim, is there any specialized knowledge 
or expertise on terrorism and law enforcement that you have 
before this committee?
    Dr. Jasser. Ten years of a non-profit foundation that is 
been working in this area and published in multiple journals 
and magazines and academic journals in the country for 10 
years, madam. Not to mention--by the way, I do have a security 
clearance, top-secret, which has been of no value in this work, 
but I do have one. But you--to identify that somehow actually, 
I think you are feeding into tribalism concepts, that somehow 
the tribal leaders----
    Ms. Richardson. Mr. Jasser----
    Dr. Jasser [continuing]. Of our community----
    Ms. Richardson. Mr. Jasser----
    Dr. Jasser [continuing]. Needs to be the ones to speak. 
Yes, madam?
    Ms. Richardson. Excuse me. Excuse me. I asked a simple 
question. Do you have specialized knowledge or expertise in 
terrorism and law enforcement? Yes or no.
    Dr. Jasser. Terrorism and law enforcement? No, madam.
    Ms. Richardson. Thank you. The next witness.
    Ms. Nomani. Yes, for the last 10 years, ever since my 
friend Danny's murder, I have been, as a journalist----
    Ms. Richardson. No, madam.
    Ms. Nomani [continuing]. Investigating----
    Ms. Richardson [continuing]. My question is----
    Ms. Nomani [continuing]. I have been investigating----
    Ms. Richardson [continuing]. Do you have----
    Ms. Nomani [continuing]. Yes, I am answering your 
question----
    Ms. Richardson [continuing]. Specialized knowledge or 
expertise----
    Ms. Nomani [continuing]. Yes----
    Ms. Richardson [continuing]. In terrorism and law 
enforcement? Yes or no?
    Ms. Nomani. Yes, so I have had specialized knowledge 
related to domestic terrorism and international terrorism. For 
the last 4 years, I have been a trainer to the U.S. Military on 
issues of terrorism and violence inside of our Muslim 
community.
    Ms. Richardson. Madam.
    Dr. Ahmed. I thank you for your question. I have lived the 
Islamist narrative in Saudi Arabia, also in Pakistan. I did 
detailed research for my book, which is now 6 years post-
publication. I would consider that credentials. I am not 
credentialed by the U.S. Government.
    Ms. Richardson. And, madam. The last----
    Ms. Patel. Thank you. My credentials are simply that I have 
researched in this field for the last 4 years.
    Ms. Richardson. Thank you.
    Chairman King. I would just add that I think Ms. Patel is 
an ideal witness. I am not questioning your qualification--you 
are extremely qualified to be here today. I mean that 
sincerely, based on your experience. Whether we agree or 
disagree, you certainly are extremely qualified.
    Gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Ms. Patel, you are the Minority witness. Are you not?
    Ms. Patel. That sounds sort of spooky, but yes.
    Mr. Cravaack. Okay. I just wanted to make sure that all--we 
do have a Minority witness, so it is not a stacked deck, in 
that, you can speak from the other.
    Okay, Ms. Patel, I appreciate your opportunity of being 
here today. In your prepared statement on page 1, you discuss 
the hearings and assert that they, meaning the committee's 
hearings, ``adopt a view of radicalization that treats 
religious beliefs as a precursor to terrorism.''
    I must reemphasize in some of the conversation we have had 
here today, it is particularly troubling to me actually, that 
these hearings have persistently asserted that it is a violent 
Islamic extremist ideology promoted by al-Qaeda and not--but 
let me reemphasize that--not the religion of Islam that is 
driving the radicalization to homegrown terrorist activity. To 
confuse this fact and blur the lines between the Islamic 
extremist ideology and the religion of Islam is playing into 
the terrorist propaganda promulgated by al-Qaeda to justify the 
narrative.
    I therefore ask you, Ms. Patel, are you familiar with the 
ideology of Islamic extremism? If so, are you capable of 
differentiating between the Islamic extremism ideology being 
promoted by al-Qaeda and the religion of Islam?
    Ms. Patel. Thank you for that question, sir. I think what I 
am trying to say, and maybe it is not exactly eloquent, is that 
when you look at theories of radicalization, which have been 
discussed in these committee's hearings several times, and you 
look at how they paint the trajectory of how somebody goes from 
being religious to becoming radical to embracing violence to 
committing violence, the signs of radicalization that are 
identified by these theories are by and large Muslim religious 
behavior.
    So they would point to things such as growing a beard, 
which some men think is required in Islam; to giving up smoking 
and drinking, again something that is contrary to Islamic 
precepts; to giving up hip-hop clothing--that is another one 
that is been identified; to going to the mosque more 
frequently. So these are the kinds of things that suggest to me 
that when you start looking at radicalization, and even if what 
you are really looking at is political radicalization, you are 
going to land up looking at religiosity. That is what we have 
seen has been happening.
    Thank you.
    Mr. Cravaack. I appreciate those comments, madam. But 
besides from the mosque, you could also say the Amish will do 
the same thing.
    So you know, I was talking to Dr. Ahmed and discussing her 
very diverse and unique background; and my background as well, 
being in the military and being an airline pilot, being able to 
travel all over the world. Ninety-five percent of this world 
just wants a safe place to put their head down at night and to 
raise their children and hopefully, make them better than 
themselves. That is the 95 percent.
    It is the radical portion, no matter what--we are not even 
talking whether it be radical Islam, radical anything. That is 
the portion that we are talking about. So let us be 
distinctively clear on what we are talking about here--
radicalization of Islam, not Islam itself.
    Do you understand that by alleging that our investigation 
into the threat from radicalization to terrorist activity is an 
attack on Islam itself and that you are fostering al-Qaeda's 
terrorist narrative? Do you understand that?
    Ms. Patel. Sir, as I explained, when looking at 
radicalization, all of the theories that have been put forward 
look at signs of religiosity. When you start looking at 
religiosity as a precursor for terrorism, I think you are going 
down the wrong path.
    Mr. Cravaack. Well, again, madam, you know, when we talk 
about religiosity, as you say, the same things that you have 
just said about growing a beard--and in other words, going to a 
mosque, and creating a certain lifestyle, could be said the 
same as the Amish, where they are the most peaceful people 
around. Nobody is really looking at them, as being possible 
terrorists.
    So again, in your prepared statement on page 2, you state, 
``The second, equally faulty assumption of these hearings is 
that someone who is particularly devout in his or her Islamic 
faith, as you have said, is well on the way to becoming a 
terrorist.''
    These hearings have never asserted that a devout Muslim is 
on their way of becoming a terrorist. Never has anyone ever 
said that in this--in this--in this body. Quite the contrary, 
in fact, they have emphasized that many of the individuals 
radicalized were recent converts who were susceptible to 
terrorist narrative. We have heard from many, like Melvin 
Bledsoe, about his son, a convert to Islam who was radicalized; 
or Mr. Bihi, whose young and impressionable nephew was----
    Chairman King. The time of the gentleman has expired.
    Mr. Cravaack. I--I yield back, sir. Thank you.
    Chairman King. Thank you. The gentlelady from California, 
Ms. Hahn, is recognized for 5 minutes.
    Ms. Hahn. Thank you, Mr. Chairman, Ranking Member. It is 
very interesting to sit in these hearings and listen to--to all 
the testimony. You know, I think, you know, for most of us, we 
all want to figure out how we get to the core of the threats 
that are against our homeland. Whoever it is, wherever they 
come from, what their background is, what their religion is--
certainly radical ideology in all forms of religion is 
troubling to me--is very troubling to me.
    There are radical Christians that I find troubling in how 
they have used the Bible to promote a particular behavior, 
which I disagree with. I was raised in a church that actually 
didn't allow women to speak. They took one verse in the Bible--
``Women shall remain silent''--and they used that as a way to 
keep women from rising to any sort of position in the church. 
That didn't go over, well, big with me.
    So there are people that will take any form of their 
religion and take it to an extremism of behavior of violence 
that all of us I think want to root out and come against and 
find ways to prevent. You know, I think what I have gotten from 
all of the testimonies is really--it comes down to 
relationships. It comes down to our friends, our neighbors, 
those we work with. It is trying to understand when it begins 
to turn, when this religion or this theology begins to go in 
the wrong direction. How do we stop it? How do we find it? How 
do we prevent it? How do we provide alternate teachings for all 
of the faiths that I think we come with?
    I was interested in reading Sheriff Baca's testimony, who 
was here before and talked about the success that we are 
finding. I am from Los Angeles, so he is my county sheriff. I 
am interested in his efforts to create these relationships, 
these dialogues in Los Angeles County with the Muslim community 
and how important it is, as he testified, in fighting future 
threats. Talking about the Muslim community, who has been 
shoulder-to-shoulder with him in preventing threats and finding 
them out, in offering solutions to law enforcement in how we 
might prevent them.
    So Ms. Patel and others, you are welcome to answer this: 
What do you think is the best way to foster these 
relationships? In your assessment, what is the greatest threat 
in this country and abroad in the divisiveness and the 
isolation of the relationships with the Muslim community?
    Ms. Patel. Thank you. I am really glad you brought up 
Sheriff Baca, because I do think that he is a model of the way 
that a law enforcement official can deal with the Muslim 
community. He has built really strong, non-securitized 
relationships with the Muslim community. I think that is a 
really important point.
    The L.A. County Sheriff's Office Muslim Outreach Unit isn't 
about collecting intelligence. You know, it isn't about 
counterterrorism. It is simply about reaching out to that 
community in the same way that they reach out to other 
communities. It is part of a community-policing program that 
allows the police to understand communities, to understand 
their concerns, and to work with them to build strategies. I 
think that that model has been very helpful.
    You know, we have seen, for example, that in, not just in 
Los Angeles County, but also from the LAPD, that they have been 
very responsive to concerns that communities have brought 
before them--for example, with respect to the suspicious 
activity reporting system, which the LAPD just agreed to reform 
about 3 weeks ago. So you see that there are sincere efforts to 
build relationships and the community response.
    I think that one thing that would serve as a disincentive 
to community cooperation is if they perceive that cooperation 
to be about their faith rather than criminal activity. That is 
why when we talk about radicalization and having people report 
on radicalization, it makes me nervous.
    Dr. Jasser. If I may--if I may add. I think it is 
interesting. On the one hand, we are either supposed to be law 
enforcement or terror experts. Or if we represent the 
community, we have to fit into a pigeonhole that somehow we are 
apologists for the entire representation of the faith.
    Yet, what I think many of us are here for is that we do 
have our roots in the community, that we do love our faith, but 
we realize that the greatest threat, as you asked, is actually 
a theo-political ideology that we need to counter, because that 
Islamist threat is hijacking my faith.
    I worry about the impact of that threat upon my children in 
all of the different avenues. Law enforcement and terror 
experts cannot fix that. You could bring them here for the next 
100 years and they will not counter that. While we Muslims can 
counter that--that conveyor belt towards radicalization and we 
have the opportunity, once we have a consensus again----
    Chairman King. The time of the gentlelady has expired.
    Ms. Hahn. Thank you.
    Chairman King. Thank you. The gentleman from Florida, Mr. 
Bilirakis, is recognized for 5 minutes.
    Mr. Bilirakis. Thank you very much. I appreciate it. Thank 
you for caring about your faith and your community and your 
fellow American citizens. I really appreciate your testimony 
today.
    Dr. Jasser and Ms. Nomani and Ms. Ahmed, each of you spoke 
of your concerns regarding the growth and extremism of Islam 
within the United States. I share your concerns about this 
trend. I wanted to ask you how you think we should balance this 
with an individual's right to worship as they choose. What, in 
your opinion, is the critical distinction between more 
conservative Islamic religious practices and those activities 
that subsequently lead to radicalization and violent extremism 
activities?
    Now, I know that Ms. Patel may have covered this. I had to 
step out for a second, but if you could respond to that.
    How can we find the balance that protects an individual's 
right to worship as they choose, but ensure that our 
communities are safe and secure? How can we support the 
moderate Muslim community so they can--as an alternative path 
to the radicalization? These hearings have been terrific, very 
productive, but what can we do? These have been--it is been 
very informative, but what can we do in addition to these 
hearings?
    Ms. Nomani. Well, I believe that Ms. Patel has a valid 
point that religiosity doesn't necessarily equal extremism. 
That, in fact, the Amish indicators, you know, are very much 
parallel to the ones of religiosity in a Muslim man. But what I 
think we--why we have to have this conversation and why we need 
to continue to educate ourselves about what terrorism and 
extremist ideology looks like is so that we can make those 
distinctions.
    I believe that, you know, we need to include religion in 
our threat assessment, because we need to identify very clearly 
how those indicators related to interpretation express 
themselves. So that doesn't mean, because a guy wears his pants 
up high, that he is a terrorist. He may be practicing a 
tradition of the Prophet Mohammed that he thinks makes him much 
more religious. Or because he grows his beard a certain length, 
it doesn't make him an extremist.
    But what we can do is figure out what it is in terms of his 
ideas about the Jews, the Christians, the West, and other 
elements, you know, become indicators for terrorism. That is 
why I believe that our administration's policy of excluding 
Islam from that conversation is, quite frankly, naive, and very 
shortsighted.
    Mr. Bilirakis. Dr. Jasser.
    Dr. Jasser. Yes, thank you for the question, Mr. Bilirakis. 
You know, I think ultimately what is important and what you can 
do is to begin to foster platforms--engagement on this issue.
    Just as in the Cold War, we finally came as a Nation to a 
consensus that communism was a threat. We didn't have to fire 
any bullets against the Soviets directly to finally move 
towards building think tanks and filtering our military and 
others for those ideological infiltrators.
    Similarly, Islamism--I watched the hearings on military 
assessment that--that you all did. I think if you look at Nasir 
Abdul, for example, the fact that the Secretary--the Assistant 
Secretary of the Army gave him conscientious objection status, 
I find to be offensive as a Muslim.
    So many Muslims serve proudly, but yet we allowed this 
individual that turned out to be a terrorist to use his 
religion to hide behind an excuse to serve this country. I 
think ultimately what happened, was because of political 
correctness, our own army could not identify the threat. The 
Fort Hood report itself does not identify any of the ideologies 
it should have. Until we can, we can't come to a consensus that 
Islamism is a threat. That is why you need Muslims that are 
doing this reform work to lead the movement to separate Islam 
from Islamism.
    Mr. Bilirakis. I couldn't agree more. Anyone else on the 
panel want to address this? Yes, please.
    Dr. Ahmed. Yes. Thank you for the question. I think perhaps 
one of the most important roles that you can help us, is to 
have a conversation where we take away the shield of Islam from 
those who subscribe to Islamist ideologies, whether non-violent 
or violent. In fact, the two are deeply connected.
    The non-violent mechanisms do involve subscription to 
beliefs that are counter to democracy that involve supremacism 
and often deeply rooted in anti-Semiticism. These have no place 
in Islam. There is no way to describe them without talking 
about the values of Islam or searching for enclaves within 
collections of Muslim people, whether they are in Pakistan or 
whether they are in the United States or anywhere else in the 
world.
    As to your point about how to protect a Muslim's right to 
worship, let me tell you, as a Muslim, I am more free to 
worship here than any other Muslim-majority nation that I have 
ever been to. Our rights are not at risk. This is not a civil 
rights issue, which many people are beginning to make. We must 
remind individuals who are American or not as to how those 
freedoms are protected. That is being lost in the debate. Just 
because we are scrutinizing an area for a problem, doesn't mean 
anybody's civil liberties have been intruded upon.
    Mr. Bilirakis. Thank you very much.
    Ms. Patel, I don't know if you want--I know you----
    Chairman King. The time of the gentleman----
    Mr. Bilirakis. Thank you very much, Mr. Chairman.
    Chairman King. Ms. Patel has the opportunity to answer. 
Sure.
    Ms. Patel. Just real quick.
    Chairman King. Microphone.
    Ms. Patel. Still learning. Just real quick. I think that 
the comments from my co-witnesses, I guess, sort of illustrate 
the problem, which is that what we are talking about here--what 
they are talking about is, you know, how do you distinguish 
different Islamic ideologies. How do you strip Islam from 
political Islam?
    You know, those are important conversations. I certainly 
wouldn't want to quell them. But I am not sure the Government 
has a role in--in those conversations--the Government has a 
role in talking about which version of Islam is good and which 
version of Islam is bad. Government's role comes when you come 
to violence, when a particular ideology, regardless of what it 
is, is going to impinge on society--is going to affect public 
safety. That is where Government has its most legitimate role. 
That is where I would encourage you all to focus.
    Thank you.
    Chairman King. Actually, the time has expired. Does Ranking 
Member have a unanimous consent request, so we don't forget to 
insert the testimony of Mr. Cohen?
    Mr. Thompson. Yes. For Mr. Cohen's testimony that has been 
referred to by a number of Members, we would like to include it 
in the record of this hearing.
    Chairman King. Without objection. So ordered.
    [The information follows:]
Statement of John Cohen, Principal Deputy Counterterrorism Coordinator 
   and Senior Advisor to the Secretary, United States Department of 
                           Homeland Security
                             June 20, 2012
    Chairman King, Ranking Member Thompson, and Distinguished Members 
of the Committee: My name is John Cohen, I currently serve as the 
Principal Deputy Counterterrorism Coordinator and Senior Advisor to the 
Secretary at the U.S. Department of Homeland Security. The Secretary 
has designated me as the DHS lead for countering violent extremism 
(CVE) and my responsibilities include coordinating all of the 
Department's efforts associated with CVE.
    I am pleased to submit this testimony for the record, and I thank 
the committee for your strong support of the Department of Homeland 
Security (DHS) and our efforts to counter violent extremism. We look 
forward to continuing to work with the committee on this effort.
    The Department has responsibility for implementing a range of CVE 
initiatives outlined in the administration's National CVE Strategic 
Implementation Plan (SIP) for Empowering Local Partners to Prevent 
Violent Extremism in the United States. This role includes leveraging 
the Department's analytic, research, and information capabilities, 
engaging State and local authorities and communities to bolster pre-
existing local partnerships, and supporting State, local, Tribal, and 
territorial law enforcement and communities through training, community 
policing practices, and grants. DHS works closely to coordinate and 
collaborate on these efforts with the National Counter Terrorism Center 
(NCTC), the Department of Justice (DOJ), the Federal Bureau of 
Investigation (FBI), and other interagency and community partners.
    Within the context of U.S.-based violent extremism, we know that 
foreign terrorist groups affiliated with al-Qaeda, and individual 
extremists, are actively seeking to recruit or inspire Westerners to 
carry out attacks against western and U.S. targets. They are seeking to 
recruit and inspire individuals living in communities within the United 
States via social media, through personal interaction, and through the 
publication of magazines.
    Today, the Department operates with the understanding that as it 
relates to domestic violent extremism we face the greatest terrorist 
risk from those extremists who have either been recruited by al-Qaeda 
or its affiliates or inspired by their ideology. This threat is real, 
as evidenced by the multiple recent thwarted attacks of domestic 
violent extremists inspired by al-Qaeda's ideology, to include the 
arrest of Naser Jason Abdo at Fort Hood in July, 2011 and the arrest of 
Amine el-Khalifi in February 2012 in Washington, DC.
    However, we also know that violent extremism can be inspired by 
various religious, political, or other ideological beliefs. Many 
communities and rural counties Nation-wide face such threats. For 
example, violent Sovereign Citizen Extremists have engaged in violence 
against State and local law enforcement. Recognizing this, DHS has 
designed a CVE approach that applies to all forms of violent extremism, 
regardless of ideology. We have conducted significant analysis and 
research on multiple types of threats, in order to equip law 
enforcement with the capacity to detect and mitigate all forms of 
violent extremism.
    In order to address these various threats, the Department is 
working with its Federal, State, local, Tribal, and territorial 
partners to fully integrate CVE awareness into the daily activities of 
law enforcement and local communities Nation-wide by building upon pre-
existing partnerships and their existing practices, such as community 
policing, that have proven to be successful for decades. Specifically, 
DHS has made substantial progress in CVE in three key areas:
    1. Better understanding the phenomenon of violent extremism through 
        extensive analysis and research on the behaviors and indicators 
        of violent extremism;
    2. Enhancing operational partnerships with local communities, State 
        and local law enforcement, and international partners; and
    3. Supporting community policing efforts through curriculum 
        development, training, and grant prioritization.
    A major part of our effort to counter violent extremism also 
involves working directly with community members and advocacy groups. 
It is important to note that the vast majority of Muslim-Americans 
living in the United States do not subscribe to violent extremist 
ideologies and are actively working with local authorities, the FBI, 
DOJ, and DHS to protect their local communities from violence. These 
partnerships with community members are vital to our security, as 
evidenced by the fact that of the 86 foiled terrorist plots against the 
United States between 1999-2009, almost half of the plots were thwarted 
with help and participation from communities.\1\
---------------------------------------------------------------------------
    \1\ ``Building on Clues: Examining Successes and Failures in 
Detecting U.S. Terrorist Plots, 1999-2009,'' Institute for Homeland 
Security Solutions, October 2010.
---------------------------------------------------------------------------
        better understanding the phenomenon of violent extremism
    DHS has conducted extensive analysis and research to better 
understand the threat of violent extremism. This analysis and research 
is being shared with Federal, State, and local authorities, fusion 
centers, local communities, and international law enforcement partners 
like Europol to empower, support, and equip them with the knowledge to 
better detect and identify potential behaviors associated with violent 
extremism to prevent violent crime in their communities. All of this 
information is also being integrated into all of the Department's CVE 
training for Federal, State, local, and correctional facility law 
enforcement.
    The Department has developed a number of case studies on known or 
suspected violent extremists that identify behaviors associated with 
violent extremism. The DHS Office for Intelligence and Analysis (I&A) 
has produced over 20 reports since 2009 on violent extremism. For 
example, in 2011 I&A developed an in-depth study that looks at the 
common behaviors associated with 62 cases of al-Qaeda-inspired violent 
extremists. DHS has also produced numerous unclassified homeland 
security reference aids analyzing domestic violent extremist groups, 
including violent Anarchist Extremists,\2\ violent Racist Skinhead 
Extremists,\3\ and violent Sovereign Citizen Extremists.\4\
---------------------------------------------------------------------------
    \2\ DHS defines Anarchists Extremists as ``Groups or individuals 
who facilitate or engage in acts of violence as a means of changing the 
government and society in support of the belief that all forms of 
capitalism and corporate globalization should be opposed and that 
governing institutions are unnecessary and harmful to society.''
    \3\ DHS defines Racist Skinhead Extremists as ``Groups or 
individuals who facilitate, support, or engage in acts of violence 
directed towards the Federal Government, ethnic minorities, or Jewish 
persons in support of their belief that Caucasians are intellectually 
and morally superior to other races and their perception that the 
government is controlled by Jewish persons.''
    \4\ DHS defines Sovereign Citizen Extremists as ``Groups or 
individuals who facilitate or engage in acts of violence directed at 
public officials, financial institutions, and government facilities in 
support of their belief that the legitimacy of U.S. citizenship should 
be rejected; almost all forms of established government, authority, and 
institutions are illegitimate; and that they are immune to Federal, 
State, and local laws.''
---------------------------------------------------------------------------
    DHS I&A is also working with analysts at Europol to finalize a 
joint case study on the 2011 Norway terrorist attacks. It examines the 
behaviors that led to the attacks and analyzes Anders Breivik's 
manifesto. This case study will be shared with U.S. and European Union 
(EU) partners in order to provide an understanding of the behaviors 
that led to these attacks and provide information that may help prevent 
future incidents.
    In addition, the DHS Science & Technology Directorate (S&T) is 
currently working closely with academic partners and DHS research 
centers of excellence, such as the National Consortium for the Study of 
Terrorism and Responses to Terrorism (START) at the University of 
Maryland, to finalize a study that focuses on how social experiences 
may have impacted the involvement of some Minneapolis-St. Paul Somali-
American youth in violent extremism, how risk and protective factors 
impact young males' vulnerability to violent extremism recruitment, and 
how community members can intervene to prevent violent crime. In the 
next several months, S&T will also be conducting a series of focus 
groups with State and Local law enforcement and fusion center personnel 
at 20 different locations to better identify their CVE information and 
training needs.
   enhancing operational partnerships and best practices with local 
    communities, state and local law enforcement, and international 
                                partners
    It is our belief that communities are part of the solution to 
countering violent extremism, and as such, DHS has worked and is 
continuing to work with local communities, including the Muslim-
American community. The Secretary's Homeland Security Advisory Council 
(HSAC) Countering Violent Extremism Working Group included National and 
local community leaders from the Muslim-American community. The HSAC 
CVE Working Group recommendations to enhance information-driven, 
community-oriented policing efforts were directly incorporated into the 
current DHS approach to CVE. In addition, the Department most recently 
worked with a broad spectrum of faith-based, including Muslim-American, 
organizations under the HSAC Faith-based Security and Communications 
Advisory Committee to learn how DHS can best support information 
sharing, resilience, and threat awareness efforts within the faith-
based community.
    DHS has also made significant advancements in operational CVE 
exchanges with international partners. We have international CVE 
partnerships with the United Kingdom, the Netherlands, Germany, Canada, 
Belgium, Spain, Denmark, and Australia, as well as partnerships with 
international law enforcement organizations such as Europol. For the 
past year, DHS, Europol, and E.U. partners have exchanged information 
on U.S.- and E.U.-based fusion center best practices, CVE training 
standards, and research and case studies, including a joint case study 
on the 2011 Norway attacks. These exchanges help us support State and 
Local law enforcement by equipping them with up-to-date analysis on the 
behaviors and indicators of violent extremism, so they can prevent 
potential future violent extremist incidents from occurring in their 
communities. DHS is also currently working with our Canadian law 
enforcement partners to collaborate and partner on CVE curriculum 
development for front-line officers and police academies. This 
collaboration is at its nascent stages but we are aiming to form an 
operationally-focused partnership between U.S. and Canadian law 
enforcement that will result in Nation-wide U.S. and Canadian delivery 
of CVE training and sharing of best practices. The Department is also 
aiming to expand CVE engagement with Australia. For example, DHS just 
signed a U.S.-Australia Joint Statement on Countering Transnational 
Crime, Terrorism, and Violent Extremism in Canberra in May 2012. 
Furthermore, DHS has coordinated with the Department of State to train 
field-based U.S. Government officials, both domestically and 
internationally, on how to engage and partner with local communities to 
build community resilience against terrorist recruitment and 
radicalization to violence. This training has encouraged interagency 
relationship-building and ensures that U.S. Government officials 
operating in the CVE sphere, both domestically and at our embassies 
abroad, promote a consistent CVE message while offering the opportunity 
for an exchange of good practices.
    The Department has also significantly expanded outreach to 
communities that may be targeted for recruitment by violent extremists 
and promote a greater awareness of Federal resources, programs, and 
security measures available to communities. For example, the DHS Office 
of Civil Rights and Civil Liberties (CRCL) has held over 72 roundtable 
events Nation-wide since 2011, which have helped to address grievances, 
increase awareness of CVE resources, and build partnerships between 
State and local law enforcement, local government, and community 
stakeholders.
    To further strengthen the partnership with law enforcement, DHS, 
the White House, NCTC, DOJ, and the FBI hosted 50 State, local, and 
Tribal law enforcement officials at the White House on January 18, 
2012, to inform the Federal Government on how we can better support 
their local CVE efforts. Secretary Napolitano, Attorney General Holder, 
FBI Executive Assistant Director Giuliano, and Assistant to the 
President for Homeland Security and Counterterrorism Brennan 
participated. The feedback received in this workshop supported the 
Department's continued commitment to including CVE language in fiscal 
year 2012 grant guidance and the current development of on-line CVE 
training for officers Nation-wide. We are also working with law 
enforcement organizations, including the International Association of 
Chiefs of Police (IACP), the Major Cities Chiefs Association (MCCA), 
the Major County Sheriffs Association (MCSA), and the National Sheriffs 
Association (NSA), to implement CVE efforts and protect communities 
from violence. For example, following up on this White House event, DHS 
participated in a DOJ-hosted meeting at the IACP on May 3-4, 2012 with 
State and local law enforcement officials and subject matter experts to 
discuss CVE training, how State and local law enforcement are 
implementing CVE efforts locally, and how violent extremists use the 
internet and social media to convene, recruit, and conspire. This 
meeting supports the development of a DOJ/Office of Community-Oriented 
Policing Services guidebook on how community policing methods can be 
utilized to counter violent extremism.
 supporting community policing efforts through curriculum development, 
                   training, and grant prioritization
    DHS is in the final stages of developing and implementing CVE 
training for Federal, State, local, and correctional facility law 
enforcement, as well as a training block for State police academies. 
The key goal of the training is to help law enforcement recognize the 
behaviors associated with violent extremist activity and distinguish 
between those behaviors that are potentially related to crime and those 
that are Constitutionally-protected or part of a religious or cultural 
practice.
    As part of our effort to develop operationally accurate and 
appropriate training, DHS is working with the Los Angeles Police 
Department (LAPD), MCCA, and the National Consortium for Advance 
Policing (NCAP) to complete a continuing education CVE curriculum for 
frontline and executive State and local law enforcement. The first 
pilot was held on January 26, 2012 in San Diego and future pilots are 
being planned; the curriculum will be finalized by the end of 2012. In 
2013, in collaboration with police associations and State and local 
partners, our goal is to implement this curriculum Nation-wide; the 
MCCA has already passed a motion to adopt and implement this 
curriculum. DHS is also working with the International Association of 
Chiefs of Police (IACP) to develop an internet-based CVE curriculum for 
State police academies, which will be introduced into academies before 
the end of 2012.
    DHS is also working with the Federal Law Enforcement Training 
Center (FLETC) to deliver a CVE curriculum for Federal law enforcement 
that will be integrated into existing training for new recruits. FLETC 
introduced this Federal curriculum to their trainers on February 16, 
2012, and future training pilots are being planned in the next several 
months. In collaboration with the Interagency Threat Assessment 
Coordination Group (ITACG), Bureau of Prisons (BOP), and National Joint 
Terrorism Task Force (NJTTF), the Department is also working to 
implement CVE awareness training for front-line correctional facility, 
probation, and parole officers at the State and local level. Training 
was piloted on March 28, 2012 in the Maryland State Police Academy and 
is now undergoing revision as a result of feedback received from the 
pilot; the curriculum will be finalized this summer. The Federal 
Emergency Management Agency (FEMA) is also developing a curriculum for 
rural correctional facility management.
    Additionally, CRCL has provided training on religious and cultural 
practices and an understanding of Constitutionally-protected activity 
for over 3,000 State and local law enforcement and fusion center 
personnel. CRCL is educating them on cultural and behavioral norms of 
how best to understand and engage communities that may be targeted for 
violent extremist recruitment. This CRCL training has been integrated 
into all of the CVE training efforts.
    Developing this training is a priority because inappropriate and 
inaccurate training undermines community partnerships that are critical 
to preventing crime and negatively impacts efforts of law enforcement 
to identify legitimate behaviors and indicators of violent extremism.
    In response to reports of operationally inaccurate training, DHS 
released CVE Training Guidance and Best Practices to all State and 
local partners and grantees as part of DHS' grant guidance policy on 
October 7, 2011. We are also working closely with interagency partners, 
and law enforcement associations, such as the MCCA and senior law 
enforcement officials Nation-wide to improve CVE training standards. In 
January, 2012, the MCCA adopted a motion to ensure that all CVE 
training is operationally appropriate and accurate. The Department is 
also working to develop an accreditation process for CVE trainers and 
develop a train-the-trainer program by fiscal year 2013.
    DHS has also expanded fiscal year 2012 grant guidance to include 
funding for CVE training, partnerships with local communities, and 
local CVE engagement in support of the SIP. The Department also co-
chairs a working group on CVE Training with NCTC that helps ensure that 
training best practices are created and shared throughout the 
interagency.
    To conclude, the Department has made substantial CVE progress over 
the past 2 years to help protect our communities from violent 
extremism. DHS has significantly improved our understanding of violent 
extremism through extensive analysis and research on the behaviors 
associated with violent extremism; enhanced operational partnerships 
with local communities, law enforcement, and international partners; 
and increased support for State, local, Tribal, and territorial law 
enforcement through CVE training and grant prioritization.
    At DHS, we believe that local authorities and community members are 
best able to identify those individuals or groups residing within their 
communities exhibiting dangerous behaviors--and intervene--before they 
commit an act of violence. Everyone has a role to play in the safety 
and security of our Nation, and time and again we have seen the 
advantage of public vigilance and cooperation, through information-
sharing, community-oriented policing, and citizen awareness. DHS will 
continue to support pre-existing partnerships between local authorities 
and communities, and their efforts to develop and implement information 
driven community-based solutions to counter violent extremism and 
violent crime regardless of ideology. I respectfully request that my 
statement be made part of the official hearing record. Again, I thank 
the committee for its support of the Department and its interest in 
this subject. The Department would be honored to respond to any 
questions for the record.

    Chairman King. Also, I would like to submit to the record a 
report compiled by the Majority staff on the committee's 
findings. If unanimous consent, that will be included in the 
record.
    Without objection. So ordered.
    [The information follows:]
   The Radicalization of Muslim-Americans: The Committee on Homeland 
           Security's Investigation of the Continuing Threat
                             June 20, 2012
                   executive summary and key findings
    America before September 11, 2001 failed to recognize the enormity 
of the threat posed by the foreign terror group al-Qaeda or adequately 
confront it head-on, despite warnings including the bombing of the 
World Trade Center in 1993 by those who ideologically and tactically 
aligned themselves with Osama bin Laden. Even 8 years after bin Laden's 
attacks on innocents in New York, Pennsylvania, and Washington, our 
Government failed again to realize that al-Qaeda affiliates in Yemen 
and Pakistan were capable of--and almost succeeded in carrying out--
strikes on U.S. soil. We cannot ever assume our Government is all-
knowing or always right; scrutiny of counterterrorism priorities is a 
core duty of the Committee on Homeland Security's Constitutional 
oversight duties. To that end, the committee held four investigative 
hearings since 2011 to examine the threat of violent radicalization 
emanating from within the Muslim-American community, where a small but 
potentially lethal percentage of that population has plotted severe 
mass casualty attacks against our homeland.
    This is no phantom threat. It shares no equivalency with threats 
posed by other domestic terrorists who have no foreign ties or any 
demonstrated capability of organizing themselves for spectacular 
attacks inside the homeland. In late 2010, Attorney General Eric Holder 
said there had been 126 homegrown plots, threats, and attacks since 
2009--the year homegrown radicalized jihadis attacked military heroes 
at Fort Hood and in Little Rock. Since we began our investigation into 
the radicalization threat from within the Muslim-American community, 
many more violent Islamist extremists have been intercepted attempting 
to kill their fellow Americans.
    Homegrown radicalization is now the vanguard of al-Qaeda's strategy 
to continue attacking the United States and its allies. The evidence 
comes from core al-Qaeda's tapes released from Pakistan, its Yemen 
affiliate's on-line Inspire home-grown terror how-to publication 
created by two American jihadis, and from Somalia's al-Qaeda affiliate 
al-Shabaab Mujahideen, who released a tape last fall by a suicide 
bomber from Minneapolis who urged: ``My brothers and sisters, do jihad 
in America . . . anywhere you find [infidels], fight them and be firm 
against them.''
    Each investigative hearing by the committee's Majority uncovered 
significant findings that illuminated an uncomfortable reality: 
Radicalization inside the Muslim-American community has often been 
ignored by many of that community's leaders, who have not always 
reported suspicious activity and have even obstructed law enforcement. 
In cities such as San Diego and Minneapolis, some imams participated in 
or facilitated recruiting and fundraising inside mosques. Facts 
collected by the committee from open and classified Government 
briefings, terror experts and confidential sources, and from witnesses 
called to testify by the Majority--including four former senior law 
enforcement officials, four Muslim community activists, three relatives 
of terrorists or terror victims, two senior administration officials 
and one former Special Operations commander who is a terrorism expert--
offer Congress, the Executive Branch, and the public irrefutable proof 
of the extent of the radicalization threat.
    The committee's investigative efforts have forced a long-overdue 
open debate about the growing issue of radicalization leading to 
violent Islamist extremism--which is the No. 1 terrorist threat to this 
Nation. Additionally, the committee's hearings have liberated and 
empowered Muslim Americans who had been intimidated by leaders in their 
own communities and who are now able to come forward and address this 
issue.
                           committee findings
Hearing No. 1: ``The Extent of Radicalization in the American Muslim 
        Community and That Community's Response.''
  <bullet> Finding No. 1: The Radicalization of Muslim Americans 
        Constitutes a Real and Serious Homeland Security Threat
  <bullet> Finding No. 2: There Is Not Enough Muslim-American Community 
        Cooperation with Law Enforcement
  <bullet> Finding No. 3: There is a Need to Confront the Islamist 
        Ideology Driving Radicalization
Hearing No. 2: ``The Threat of Muslim-American Radicalization in U.S. 
        Prisons.''
  <bullet> Finding No. 4: The Radicalization of Prison Inmates to an 
        Extremist Form of Islam Is a Significant Problem, Which Can 
        Often Manifest Once Radicalized Prisoners Are Released
  <bullet> Finding No. 5: The Radicalization of Prison Inmates Is Often 
        Precipitated by the Presence of Radical Clergy or Extremist 
        Materials Within the Prison
Hearing No. 3: ``Al-Shabaab: Recruitment and Radicalization Within the 
        Muslim-American Community and the Threat to the Homeland.''
  <bullet> Finding No. 6: There are Direct Ties Between Al-Shabaab and 
        al-Qaeda and its Affiliates, and Al-Shabaab Recruits Are Often 
        Indoctrinated Into al-Qaeda's Ideology and Network
  <bullet> Finding No. 7: More Than 40 Muslim-Americans Radicalized and 
        Recruited by Al-Shabaab May Pose a Direct Threat to the 
        National Security of the United States and Its Allies
  <bullet> Finding No. 8: The Committee's Hearings on the 
        Radicalization of Muslim Americans Have Empowered Muslims to 
        Effectively Address this Issue
Hearing No. 4: ``Home-grown Terrorism: The Threat To Military 
        Communities Inside the United States.''
  <bullet> Finding No. 9: The Terrorist Threat to Military Communities 
        Is Severe and On the Rise
  <bullet> Finding No. 10: The ``Insider'' Threat to Military 
        Communities Is a Significant and Potentially Devastating 
        Development
  <bullet> Finding No. 11: Political Correctness Continues to Stifle 
        the Military's Ability to Effectively Understand and Counter 
        the Threat
  <bullet> Finding No. 12: The Administration Chose Political 
        Correctness Over Accurately Labeling and Identifying Certain 
        Terrorist Attacks Appropriately, Thereby Denying Purple Hearts 
        Medals to Killed and Wounded Troops in Domestic Terror Attacks
        an examination of the threat of domestic radicalization
    Although almost 11 years have passed since the horrific terrorist 
attacks on September 11, we must not forget that the threat posed by 
al-Qaeda and its affiliates remains as deadly and paramount as ever. 
While successful counterterrorism operations removed the menace of 
Osama bin Laden and Anwar al-Awlaki from being a direct operational 
terror threat to the U.S. homeland, their ideological legacies and 
unwavering resolve to attack the United States and its Western allies 
live on.
    As a result of the Allied invasion of Afghanistan and subsequent 
global counterterrorism operations, core al-Qaeda's primary safe haven 
in Pakistan is under siege and its leadership decimated, severely 
hindering its ability to carry out large-scale attacks on the U.S. 
homeland and other Western nations. Al-Qaeda and affiliates such as al-
Qaeda in the Arabian Peninsula (AQAP) have been forced to transform 
their strategy and operational tactics. A key focus of this new 
doctrine is based on recruiting and radicalizing Westerners and United 
States persons capable of perpetrating attacks within their home 
countries. The threat no longer emanates solely from remote al-Qaeda 
operatives coordinating attacks from halfway across the world, but 
rather from radicalized individuals residing within the U.S. homeland 
who are now ready to engage in terrorist activities in their own 
communities. This strategy shift presents a daunting challenge to the 
counterterrorism, intelligence, and law enforcement communities within 
the United States and for our allies. The emergence of influential, 
English-speaking al-Qaeda representatives such as (now-dead) Anwar al-
Awlaki has enhanced al-Qaeda's ability to successfully implement its 
strategy of targeting Americans and Westerners for recruitment.
    Al-Qaeda and its affiliates are using various tools to target and 
radicalize recruits in the West, including propaganda statements, 
audios, videos and on-line ``magazines.'' In July 2010, the Yemen-based 
AQAP launched the first in its series of slick, on-line, English 
propaganda magazines, Inspire. To date, AQAP has produced nine issues 
of Inspire.
    Inspire targets American and Western European audiences in an 
effort to reach aspiring terrorists. It is essentially a ``how-to'' for 
would-be terrorists cloaked in pop-culture packaging, and resembles 
most mainstream publications in structure: Including letters from the 
editor, articles from well-known al-Qaeda leaders, high-resolution 
graphics, and a ``how-to'' section. The magazine was a dangerous step 
in AQAP's strategy to recruit and radicalize Americans and Western 
Europeans, and has been found in the possession of some terror 
suspects.
    The increasing frequency of Muslim Americans becoming radicalized 
is an alarming trend and a great concern for U.S. National security. 
Attorney General Eric Holder said in a late 2010 media interview that 
126 people had been indicted for terrorist-related activity, including 
50 U.S. citizens.\1\ As Times Square bomber Faisal Shahzad stated in 
his October 2010 appearance before the Southern District Court of New 
York: ``Brace yourselves, because the war with Muslims has just begun. 
Consider me only the first droplet of the flood that will follow 
me.''\2\
---------------------------------------------------------------------------
    \1\ Cloherty, Jack and Thomas, Pierre. ``Attorney General's Blunt 
Warning on Terror Attacks,'' December 21, 2010, http://abcnews.go.com/
Politics/attorney-general-eric-holders-blunt-warning-terror-attacks/
story?id=12444727.
    \2\ ``Times Sq. bomber's vile rant as he gets life in jail,'' New 
York Post, October 6, 2010, http://www.nypost.com/p/news/local/
manhattan/proud_to_be_terrorist_- DBtc5U2eAYhWzacVpxK24K#ixzz1FEKywFDD.
---------------------------------------------------------------------------
                           committee activity
    On February 9, 2011, then-National Counterterrorism Center Director 
Michael Leiter testified before the committee that `` . . . AQAP 
remains intent on conducting additional attacks targeting the Homeland 
and U.S. interests overseas and will continue propaganda efforts 
designed to inspire like-minded individuals to conduct attacks in their 
home countries.''\3\
---------------------------------------------------------------------------
    \3\ Leiter, Michael, Testimony before the House Committee on 
Homeland Security, ``Understanding the Homeland Threat Landscape--
Considerations for the 112th Congress,'' February 9, 2011, 
www.nctc.gov/.../Transcript-HHSC_Understanding-the-Homeland-Threat.pdf.
---------------------------------------------------------------------------
    At the same hearing, Homeland Security Secretary Janet Napolitano 
testified that the threat level today is as high as it has been since 
9/11 because of increased radicalization in the United States.
    The Committee on Homeland Security has a responsibility to ensure 
that it examines the most prescient and critical threats facing the 
United States. Under this mandate, Chairman King convened a series of 
investigative hearings examining the radicalization of Muslim 
Americans. While the initial announcement of these hearings generated 
controversy and opposition, committee leadership remained steadfast 
that this series of radicalization investigations is a critical facet 
of the main responsibility of this committee: Protect America from a 
terrorist attack. The Department of Homeland Security and the Committee 
on Homeland Security were formed in response to the al-Qaeda attacks of 
9/11. Undoubtedly, Congressional investigation of Muslim-American 
radicalization was the logical response to the unquestionable fact that 
home-grown radicalization is part of al-Qaeda's strategy to continue 
attacking the United States and its allies.
    Over the course of the series of investigative hearings, it became 
apparent that the majority of Americans support the committee probing 
this issue. In September 2011, a National poll released results showing 
that 63% of Americans supported the on-going radicalization hearings 
convened in March of last year and believe ``they need to continue 
because they are providing information which is valuable and important 
to stop terrorism in the United States.'' Former 9/11 Commission Vice-
Chair Lee Hamilton testified that, ``The greatest current terrorist 
threat to the United States is from Islamist extremists,'' and that we 
also face ``the addition of homegrown threats.''
                           committee findings
    As of June 2012, the Committee on Homeland Security had held four 
hearings that examined various aspects of the radicalization of Muslim 
Americans within the United States. Each hearing yielded significant 
findings, which shed considerable light on this critical issue. While 
the committee's overall radicalization investigation remains on-going, 
the evidence collected thus far provides substantial insight into the 
extent and threat of radicalization within the United States.
Hearing No. 1: ``The Extent of Radicalization in the American Muslim 
        Community and That Community's Response.''
    In March 2011, the committee convened its first investigative 
hearing looking into the rising threat of Muslim-American 
radicalization and that community's level of cooperation with law 
enforcement to counter the problem.
            Finding No. 1: The Radicalization of Muslim Americans 
                    Constitutes a Real and Serious Homeland Security 
                    Threat
    Despite the fact that homegrown violent Islamist extremism is a 
threat that has rapidly arisen since 2009--the year of the Fort Hood 
and Little Rock attacks on soldiers by radicalized Muslim Americans--
many leaders refuse to fully acknowledge this problem or just how 
extensive this threat remains.
    Witnesses at the first hearing addressed this issue and discussed 
the extensive nature of the threat of radicalization within the United 
States and reticence to fully acknowledge the problem. One of the 
witnesses, Mr. Melvin Bledsoe (the father of radicalized Little Rock 
recruiting center shooter Carlos Bledsoe), stated:

``It seems to me that the American people are sitting around and doing 
nothing about Islamic extremism, as if Carlos's story and the other 
stories told at these hearings aren't true. There is a big elephant in 
the room, but our society continues not to see it. This wrong is caused 
by political correctness. You can even call it political fear--yes, 
fear. Fear of stepping on a special minority population's toes, even as 
a segment of that population wants to stamp out America and everything 
we stand for.''

    Another witness, Dr. M. Zuhdi Jasser (President and Founder of the 
American Islamic Forum for Democracy) asserted:

``The course of Muslim radicalization in the United States over the 
past 2 years makes it exceedingly difficult for anyone to assert with a 
straight face that in America we Muslims do not have a radicalization 
problem.''

            Finding No. 2: There Is Not Enough Muslim-American 
                    Community Cooperation With Law Enforcement
    While the threat of domestic radicalization and home-grown 
terrorism has increased over the past few years, many within the Muslim 
community have expressed criticism of law enforcement's 
counterterrorism operations. Several Muslim organizations, such as the 
Council on American-Islamic Relations (CAIR) and the Muslim Public 
Affairs Council (MPAC), have repeatedly criticized law enforcement 
actions taken to stop potential terrorist activity. They accused the 
FBI of falsely entrapping Muslim Americans and recommended guidelines 
for Muslims who choose to cooperate with law enforcement and the FBI.
    Witnesses at the hearing also discussed the Muslim-American 
community's lack of cooperation, and specifically the role that groups 
like CAIR play in discouraging Muslim Americans from cooperating with 
law enforcement. Dr. Jasser said:

``When we speak about `cooperation of Muslims with law enforcement,' 
what is more important is the growing culture of driving Muslims away 
from cooperation, partnership, and identity with our Nation and its 
security forces. Our civil rights should be protected and defended, but 
the predominant message to our communities should be attachment, 
defense, and identification with America not alienation and separation.
``Too many so-called Muslim leadership groups in America, like the 
Council on American-Islamic Relations (CAIR) or Muslim Advocates, have 
specifically told Muslims across the Nation, for example, not to speak 
to the FBI or law enforcement unless they are accompanied by an 
attorney. Rather than thanking the FBI for ferreting out radicals 
within our community, they have criticized sting operations as being 
`entrapment'--a claim that has not stood the test of anti-terrorism 
court cases since 9/11. Informants end up being showcased as bad apples 
and subjects of lawsuits rather than patriots.''

    Another witness, Mr. Abdirizak Bihi (the Director of Somali 
Education and Social Advocacy Center whose nephew Burhan Hassan was 
radicalized and recruited in Minneapolis to join al-Shabaab in Somalia, 
where he was ultimately killed) discussed this issue and how mosque 
leaders in Minneapolis encouraged its congregants--and the families of 
the missing young men who had fled to Somalia--not to cooperate with 
law enforcement. Bihi testified that when the families of the missing 
young men went to law enforcement for help, their mosque leaders 
disparaged them and claimed that they were lying about the 
disappearance of their children. Bihi stated:

``The mosque leadership continued to disseminate a strong message that 
there were no children missing, rather than we the families were tools 
and being used by infidels to try and destroy the mosque. As a result 
of this, the families united and started Saturday meetings that 
included outreaching to other community members that also had missing 
children. We learned from the mosque leadership's tactics used to 
defame us that the community was the targeted audience, and we framed 
our outreach strategy to educate the community about the realities of 
what was happening to us. An intense outreach from both the mosque 
leadership and the family members started to unfold in the Somali-
American community, where we were trying to convince the community that 
our children were taken, that we weren't trying to destroy our own 
mosques (that we built), and that nobody can destroy a mosque. At the 
same time, the mosque leadership was sending the message to the 
families that had not yet spoken out, that:
  <bullet> ``if they speak up about their missing loved ones will end 
        up in Guantanamo because nobody cares about Muslims;
  <bullet> ``they have a better chance of getting their children back 
        into the country if they remain silent;
  <bullet> ``if they speak up, they will be morally responsible for 
        having killed all the Muslims and destroyed all the mosques.''

    Mr. Bihi also testified about the dangerous influence of powerful 
groups such as CAIR, who continue to discourage Muslim Americans from 
cooperating with law enforcement. He noted:

    ``Just as we continued to make progress in laying out the realities 
to our community, powerful organizations such as CAIR stepped into our 
community and stifled whatever progress we had made by trying to tell 
our Somali-American community not to cooperate with law enforcement. 
CAIR held meetings for some members of the community and told them not 
to talk to the FBI, which was a slap in the face for the Somali-
American Muslim mothers who were knocking on doors day and night with 
pictures of their missing children and asking for the community to talk 
to law enforcement about what they know of the missing kids. It was a 
slap in the face for community activists who had invested time and 
personal resources to educate the community about forging a good 
relationship with law enforcement in order to stop the radicalization 
and recruitment of our children. We held three different demonstrations 
against CAIR, in order to get them to leave us alone so we can solve 
our community's problems, since we don't know CAIR and they don't speak 
for us. We wanted to stop them from dividing our community by stepping 
into issues that don't belong to them.''

            Finding No. 3: There Is A Need To Confront The Islamist 
                    Ideology Driving Radicalization
    Despite the growing problem of Islamist radicalization within the 
United States, many appear reticent to publicly acknowledge the 
ideological driver behind al-Qaeda's radicalization and recruitment of 
American citizens. However, witnesses at the hearing emphasized the 
need to address the ideological driver of radicalization of Muslim 
Americans, namely violent Islamist extremism. Dr. Jasser said:

``If the root cause of Muslim radicalization is Islamism (political 
Islam), what good is any effort at counterterrorism that decouples any 
suggestion of theology no matter how separatist from terror? How can 
law enforcement effectively do counter terrorism in our country without 
recognition that Political Islam and its narrative is the core ideology 
when, at its extreme, drives the general mindset of the violent 
extremists carrying out the attacks?
`` . . . Homeland Security, Government, media, and our general 
population are only focused on that final step when the jihadists seek 
violence against our homeland. But we will all be chasing our tails for 
centuries if that remains your focus. I implore you to walk it back and 
treat the problem at its root, at its jugular--the supremacism of 
political Islam.
`` . . . Our Nation's attempts at counter-radicalization have proven so 
far ineffective because it has lacked a strategy and a forward ideology 
into Muslim communities. We have been so fixated on preventing the next 
attack that we have neglected to develop the tools necessary to defeat 
the ideology that drives the attack. It is malpractice for us to 
believe that by eschewing violence we solve the problem.''

Hearing No. 2: ``The Threat of Muslim-American Radicalization in U.S. 
        Prisons.''
    In June 2011, the committee convened its second hearing, which 
examined the threat of Muslim-American radicalization within the United 
States prison system. The current problem of Muslim-American 
radicalization in U.S. prisons is significant and has been acknowledged 
by Executive Branch policymakers and legislators of both parties. 
Former Director of the Federal Bureau of Prisons, Harley Lappin, 
testified to Congress that ``inmates are particularly vulnerable to 
recruitment by terrorists,'' and ``we must guard against the spread of 
terrorism and extremist ideologies.''\4\
---------------------------------------------------------------------------
    \4\ Terrorist Recruitment and Infiltration in the United States: 
Hearing Before the Subcomm. on Terrorism and Homeland Security of the 
S. Comm. on the Judiciary, 108th Cong. (2003) (statement of Director 
Lappin).
---------------------------------------------------------------------------
    A number of cases since 9/11 have involved terrorists who converted 
to Islam or were radicalized to Islamism in American prisons, then 
subsequently attempted to launch terror strikes in the United States 
upon their release from custody. These radicalized terrorists have also 
carried out activities overseas. In January 2010, Senator John Kerry, 
Chairman of the Senate Foreign Relations Committee, released a report 
that stated: ``Three dozen U.S. citizens who converted to Islam while 
in prison have traveled to Yemen, possibly for al-Qaeda training.''
    Prison radicalization, unfortunately, is not unique to the United 
States. Recently, the British Home Secretary emphasized the growing 
threat of Islamist radicalization and unveiled its new counter-
radicalization strategy to thwart terrorist recruitment behind bars. 
Just as home-grown al-Qaeda terrorist attacks in Britain--including the 
2005 subway attacks in London, the 2006 liquid explosives plot to blow 
up American planes flying from Britain and the 2007 car bomb attack on 
the Glasgow Airport--were emulated several years later in the United 
States with the attempted New York subway bombings in September 2009, 
the Fort Hood murders in November 2009, and the attempted Times Square 
bombing in May 2010, we must assume the same with prison 
radicalization.
            Finding No. 4: The Radicalization of Prison Inmates to an 
                    Extremist Form of Islam Is a Significant Problem, 
                    Which Can Often Manifest Once Radicalized Prisoners 
                    Are Released
    Recent cases over the last few years including Richard Reid, Kevin 
James, Michael Finton, James Cromitie, and Jose Padilla have 
illustrated the danger of prison radicalization, which continues to 
constitute a serious threat.
    One of the witnesses, Los Angeles Police Department Deputy Chief 
Michael P. Downing, who commands the department's Counterterrorism and 
Special Operations Bureau, discussed this threat, noting:

``It is generally understood that the majority of prison converts 
assimilate back into what they were doing prior to going to prison, 
however, it is the exception cases that have and will continue to 
strike fear in the hearts of Americans. It was estimated that 17 to 20 
percent of the prison population, or approximately 350,000 inmates 
comprise of Muslim inmates in 2003, and that 80% of the prisoners who 
convert while in prison, convert to Islam. It is further estimated that 
35,000 inmates convert to Islam annually.
`` . . . There are several on-going cases whose story is yet to be 
told, however, the common denominator is conversion to a radical form 
of Islam while in prison.
`` . . . Just as isolated, and balkanized communities can become 
incubators of violent extremism, so too can prisons. If left unchecked 
prisons can and do become incubators of radicalization leading to 
violent extremism.''

    Another of the witnesses, Mr. Patrick Dunleavy, retired Deputy 
Inspector of the Criminal Intelligence Division at New York State 
Department of Corrections and the author of ``The Fertile Soil of 
Jihad: Prison's Terrorism Connection,'' noted:

``The prison population is vulnerable to radicalization by the same 
agents responsible for radicalizing Americans outside of the prison 
walls. Despite appearances, prison walls are porous. It is easy for 
outside influences to access those on the inside, and for inmates to 
reach from the inside out. As the former Deputy Inspector General of 
the Criminal Intelligence Division in the New York State Department of 
Corrections, I am aware that individuals and groups that subscribe to 
radical, and sometimes violent, ideology have made sustained efforts 
over several decades to target inmates for indoctrination. Some of 
these groups act as the certifying bodies responsible for hiring imams 
into the prison system, thus affording them continuous access to the 
prison population. In addition, the cycle of radicalization continues 
through post-release programs.''

    While some have claimed that prisoners who are converted to a 
radical form of Islam do not pose a threat once they are released, 
Dunleavy discredited this notion by addressing the dangerous post-
release activity a number of prisoners have engaged in, noting that:

``The task force investigation also found that although the initial 
exposure/conversion/indoctrination to extremist jihadi Islam may begin 
in prison, it often matures and deepens after release through the 
contacts on the outside that the inmate made while they were serving 
their sentences in prison. Among those contacts are transition 
programs, which offer former inmates assistance in finding housing or 
finding work. Most of the programs for Muslims transitioning out of the 
prison system are sponsored by mosques that are local to the prisons. 
Many of these mosques have extremist leanings and are known to adhere 
to Wahabbi ideology. In addition to the transition programs, many of 
the sponsoring mosques also have volunteers or formal programs to 
provide religious instruction inside the prisons. Thus, contact between 
the outreach program and the inmate has already been established by the 
time the prisoner is released. The prisoner is already familiar with 
the program's personnel and ideology, and therefore their transition to 
the outside is facilitated by familiar hands.
`` . . . One of the influences in some of the homegrown terrorism cases 
has been the involvement, either directly or indirectly, of radical 
Islamist clergy. Since 9/11, the involvement of radical Islamist imams 
has been mentioned as a precipitating factor in the cases of Richard 
Reid, Jose Padilla, and others.
``In 2009 the `Newburgh Four'; James Cromitie, Laguerre Payen, David 
Williams, and Onta Williams, were arrested for plotting to bomb 
synagogues in New York City and shoot down military aircraft with 
stinger missiles. All had converted to a radical form of Islam while 
serving time for a variety of offenses. They did not know each other 
while they were incarcerated, but met each other after their release, 
while attending a local mosque connected to a prison ministry.

            Finding No. 5: The Radicalization of Prison Inmates Is 
                    Often Precipitated by the Presence of Radical 
                    Clergy or Extremist Materials Within the Prison
    Witnesses at the hearing discussed the pervasive nature of radical 
clergy and literature throughout the prison system, and its correlation 
with the radicalization of prison inmates.
    Dunleavy addressed this issue, stating:

`` . . . It has been confirmed that radical Islam is present in the New 
York State prison system and also in the New York City jails. The 
apparatus by which this radical form of Islam was introduced into the 
system was identified as consisting of multiple components, including, 
clergy, religious volunteers, visitors, fellow inmates, and Islamic 
organizations from around the world that sent parcels and literature 
into the prisons.
`` . . . There is certainly no vetting of volunteers who provide 
religious instruction, and who, although not paid, wield considerable 
influence in the prison Muslim communities. Many such volunteers are 
former convicts.''

    Deputy Chief Downing also discussed the threat of extremist 
literature being disseminated throughout the prison system, noting:

``Anwar al-Awlaki, a prominent United States born Islamic scholar of 
Yemeni descent and internet radicalizer is wanted by the United States 
for Terrorism prosecution. His radical literature has found its way 
into the prison system and has been used by known extremists to 
facilitate recruitment and radicalization activities within prisons.
`` . . . The spiritual philosopher of al-Qaeda, Sayyid Qutb, wrote the 
radical Islamist manifesto `Ma'alim fi al-Tari'q' (`Milestones Along 
the Road') while in an Egyptian prison. Copies of this document exist 
in the prison system and contribute to radicalization.''

Hearing No. 3: ``Al-Shabaab: Recruitment and Radicalization Within the 
        Muslim American Community and the Threat to the Homeland.''
    This investigative hearing examining Somalia-based terrorist 
organization al-Shabaab Mujahideen's on-going recruitment, 
radicalization, and training of Muslim Americans was the culmination of 
months of committee research into a looming threat.
    Since 2006, a group of American citizens, including many--though 
not all--who were part of the Somali-American community, have been 
radicalized within the United States to terrorist activity often by 
Shabaab recruiters or sympathizers. A committee investigation found 
that more than 40 Americans have joined Shabaab in Somalia--al-Qaeda's 
top operational ally in East Africa--and more than 15 have been killed 
there, including five who were believed killed perpetrating suicide 
bombings. According to a committee review of Department of Justice 
(DOJ) prosecutions, there are dozens of cases of defendants charged in 
the United States in connection with Shabaab or other extremist 
organizations in Somalia, filed in States including Minnesota, 
California, New Jersey, Missouri, Alabama, Virginia, Illinois, New 
York, and Texas.
    Reflecting a disturbing trend across global terrorist organizations 
such as al-Qaeda in the Arabian Peninsula (AQAP), Shabaab leaders 
appear to be actively recruiting Americans, including a targeted 
recruitment of Americans who are not of Somali descent. In addition to 
Al-Shabaab's growing radicalization and recruitment of Americans, the 
group has also actively recruited a number of Canadian citizens. The 
Somali communities in Minneapolis and Toronto often maintain close 
ties, including familial relationships as well as cross-border 
commercial traffic.
    The hearing also examined Shabaab's affiliation with al-Qaeda in 
the Arabian Peninsula (AQAP) and the homeland security implications. In 
addition to its connections with al-Qaeda senior leadership and its 
recent alignment publicized in a video by Osama bin Laden's successor 
Ayman al-Zawahiri, Shabaab has also developed alliances with several 
al-Qaeda affiliates, including Algeria's al-Qaeda in the Islamic 
Maghreb (AQIM) and Yemen's AQAP. Shabaab's broadening cooperation with 
AQAP is particularly troubling considering the critical threat AQAP 
poses to the U.S. homeland and that organization's unwavering attempts 
to pursue an attack against us.
            Finding No. 6: There Are Direct Ties Between Al-Shabaab and 
                    al-Qaeda and Its Affiliates, and Al-Shabaab 
                    Recruits Are Often Indoctrinated Into al-Qaeda's 
                    Ideology and Network
    Witnesses at the hearing discussed Shabaab's ties to al-Qaeda and 
its affiliates, and the direct threat that such cooperation poses to 
the United States and its allies. One of the witnesses, Mr. Thomas 
Joscelyn, a Senior Fellow at the Foundation for Defense of Democracies, 
stated:

``There is extensive evidence that Shabaab's recruiting in the West is 
not limited to `nationalistic' aims. While some recruits probably do 
travel to Somalia to take part in a `local' (civil) war, there is 
always the potential for these same recruits to become indoctrinated in 
Shabaab's al-Qaeda-inspired ideology once they arrive there. Indeed, 
this has been al-Qaeda's strategy, to fold `local' conflicts into an 
international jihad. Moreover, some Shabaab recruits are clearly 
radicalized before they even depart American soil.
`` . . . Shabaab's recruits in the West have received training from 
senior al-Qaeda operatives who are also members of Shabaab. Earlier 
this month, the Department of Justice agreed to a plea deal with a 
Minneapolis man named Omar Abdi Mohamed. According to a DOJ press 
release, Mohamed admitted that he helped Shabaab recruit Somali-
Americans. The DOJ explains: `Upon arriving in Somalia, the men resided 
in al-Shabaab safe-houses in Southern Somalia until constructing an al-
Shabaab training camp, where they were trained. Senior members of al-
Shabaab and a senior member of al-Qaeda in East Africa conducted the 
training.' That is, Shabaab's Minneapolis recruits were delivered to a 
senior al-Qaeda member for training.''

    Another witness who prosecuted many of the cases in Minneapolis 
regarding Shabaab recruitment and radicalization, Mr. William Anders 
Folk, a former Assistant United States Attorney for the District of 
Minnesota, discussed the role of al-Qaeda's underlying ideology in the 
radicalization of Shabaab's recruits, stating:

``In addition to recruiting by al-Shabaab as an organization and by 
individuals on behalf of al-Shabaab, religious figures such as Anwar 
al-Awlaki have provided potential recruits with ideological 
underpinnings for individuals to fight in Somalia on behalf of al-
Shabaab. As has been publicly reported, al-Awlaki's `Constants on the 
Path to Jihad' has provided recruits and potential recruits with an 
ideological framework, however distorted and incorrect it may be, to 
fight on behalf of al-Shabaab in Somalia.''
            Finding No. 7: More Than 40 Muslim Americans Who Have Been 
                    Radicalized and Recruited by Al-Shabaab May Pose A 
                    Direct Threat to the National Security of the 
                    United States and Its Allies
    More than 40 Americans and a number of Canadian citizens have 
joined Shabaab in Somalia. While many believe those individuals have 
been motivated solely to fight within Somalia, the dangerous 
possibility remains that they may in fact return to the United States 
or Canada, with the intention of perpetrating terrorist activity. One 
purported American suicide bomber in a ``martyrdom'' tape even urged 
fellow radicalized violent jihadis in the West to perpetrate stay-at-
home terror attacks. One of the witnesses, Mr. Ahmed Hussen, the 
Canadian Somali Congress's National President, stated:

``It is very disturbing to us as Canadian citizens to see the children 
of those who fled the civil war in Somalia return to a country they 
barely know and contribute to its misery. There is an additional 
concern that these individuals would come back to threaten and harm 
Canada, the very country that has given us peace, security, and 
opportunity.''

    Folk also discussed the danger in Shabaab recruits returning to the 
United States, noting:

``It is impossible to predict with certainty what, if anything, and 
who, if anyone, will come to the United States after training and 
indoctrination by al-Shabaab. It is obvious, however, that individuals 
who are trained, indoctrinated and deployed in combat by al-Shabaab 
have learned how to carry out acts of lethal violence. Additionally, it 
is clear that the ideology espoused by al-Shabaab echoes that of al-
Qaeda. This combination of ability and ideology illustrates the threat 
that is posed by even one al-Shabaab veteran residing in the United 
States. The ability to prevent or detect such a person from entering 
the United States or carrying-out any terrorist acts in the United 
States requires continued vigilance of the group's activities in 
Somalia, but also to ensure that supporters or sympathizers within the 
United States are targeted for investigation.''
            Finding No. 8: The Committee's Hearings on the 
                    Radicalization of Muslim Americans Have Empowered 
                    Muslims To Effectively Address This Issue
    Despite criticism directed against the committee's careful and 
thorough investigative hearings, they have liberated and empowered 
Muslim Americans who had been intimidated by leaders in their own 
communities but are now able to come forward. This point was reinforced 
by the Canadian Somali Congress's Ahmed Hussen, who said:

``I would like to close by saying that these hearings are extremely 
important to us. They empower us, and they remove the stigma in our 
community that prevents us from talking about these issues that are 
really important to our community. These hearings are very 
empowering.''

Hearing No. 4: ``Homegrown Terrorism: The Threat To Military 
        Communities Inside The United States.''
    The terrorist threat to U.S. military troops and their families 
within the United States is on the rise, which the historic Dec. 7, 
2011 joint-investigative hearing on radicalization by the House 
Committee on Homeland Security and the Senate Homeland Security and 
Governmental Affairs Committee probed comprehensively.
    The only successful terror attacks on the homeland resulting in 
deaths since 
9/11 have been against the military: At Fort Hood, where 13 soldiers 
and civilians were murdered in an active-shooter attack allegedly by 
Army Maj. Nidal Hasan, and at a Little Rock recruiting center, where 
Army Pvt. William Andrew Long was fatally shot point-blank by 
radicalized home-grown Islamist Carlos Bledsoe. The Fort Hood attack 
was not an anomaly; rather it was part of al-Qaeda's two-decade success 
at infiltrating the U.S. military for terrorism--an effort that is 
increasing in scope and threat.
            Finding No. 9: The Terrorist Threat to Military Communities 
                    Is Severe and On the Rise
    Military communities in the United States have become the most 
sought-after targets of violent Islamist extremists seeking to kill 
Americans in their homeland. Paul Stockton, Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs, said in 
his prepared statement:

``The terrorist threat to our military communities is serious, and will 
remain so for years to come.
`` . . .  Over the last decade, a plurality of these domestic violent 
extremists chose to target the Department of Defense (DoD), making 
military communities the target of choice for home-grown terrorists. 
Fourteen of seventeen Americans killed in the homeland by domestic 
violent extremists have been DoD personnel.
`` . . .  The Department of Defense faces a special challenge in this 
regard. Al-Qaeda and its affiliates seek to inspire and instruct U.S. 
military personnel and other radicalized U.S. citizens to conduct `lone 
actor' attacks on U.S. military targets. These adherents are, as Deputy 
National Security Advisor John Brennan has said, `individuals, 
sometimes with little or no direct physical contact with al-Qaeda, who 
have succumbed to [al-Qaeda's] hateful ideology and who have engaged 
in, or facilitated, terrorist activities here in the United States . . 
. and we have seen the tragic results, with the murder of a military 
recruiter in Arkansas 2 years ago and the attack on our servicemen and 
women at Fort Hood.''

    Army Lt. Col. Reid L. Sawyer, the Director of the Combating 
Terrorism Center at West Point, also emphasized this point:

``As the decade of conflict has evolved, the predominant target of 
choice for homegrown terrorists in the United States has become the 
U.S. military. Nearly 50 percent of all plots in the homeland since 9/
11 (41 of 87 plots) considered targeting U.S. military personnel. In 
one sense, the military focus is perhaps an obvious choice by those 
aspiring to participate in the global jihad. To an al-Qaeda adherent, 
the U.S. military represents the manifestation of American foreign 
policy more so than any other target choice as the military--in al-
Qaeda's narrative--is responsible for the oppression and humiliation of 
Muslims in Afghanistan, Iraq, and Yemen, among other locations.
`` . . .  For many home-grown terrorists, attacking the military may 
well represent a choice that is `easier' to overcome in terms of the 
moral barriers of targeting symbols of U.S. foreign policy rather than 
the shopping mall, restaurants, or public spaces in which he or she may 
have frequented with his or her friends. The social distance between a 
terrorist's individual experiences and the military is in most cases 
far greater than that of other potential targets, making it easier to 
objectify military targets. Abdul-Latif, the perpetrator of the planned 
attack against the Seattle Military Entrance Processing Station 
captured this sentiment best: `The key thing to remember here is, is we 
are not targeting anybody innocent--that means old people, women out of 
uniform, any children. Anything. Just people who wear the green for the 
kaffir Army, that's who we're going after.'
`` . . .  Finally, while any al-Qaeda-inspired attack within the United 
States is a high-profile event for both the violent extremists and the 
citizens of this Nation, successful attacks against the military in the 
homeland represent a particularly unique event.''

            Finding No. 10: The ``Insider'' Threat to Military 
                    Communities Is a Significant and Potentially 
                    Devastating Development
    The attack in 2009 by Maj. Nidal Hasan, the Army psychiatrist who 
killed 13 and injured dozens during an attack on the Soldier Readiness 
Center at Fort Hood in Texas, illustrated the dangerous ``insider'' 
threat posed to military communities by individuals within the U.S. 
military who may have been radicalized by al-Qaeda ideology or 
propaganda. This threat, unfortunately, existed long before the attack 
for which Hasan stands accused.
    Assistant Secretary Stockton said:

``Given the adversary's emphasis on recruiting U.S. military personnel 
to attack our communities from within, the Department has taken 
numerous actions to broaden its approach to force protection beyond its 
traditional focus on external threats.

    Lt. Col. Sawyer also discussed this issue and how severe this 
particular threat is:

``Any examination of al-Qaeda's targeting of homeland military forces 
must include a discussion of what has colloquially become known as the 
insider threat. The effect of these actors on the military is perhaps 
more divisive and damaging than attacks against military targets staged 
by external actors. At the tactical level, insiders also have the 
potential to do more harm than external threats given their knowledge 
of installations, schedules, and ability to gain access to areas that 
would be restricted to civilians. At the organizational level, insider 
threats tear at the social fabric of an organization and make people 
question the patriotism of those serving next to them. At the strategic 
level, these attacks provide al-Qaeda with immense propaganda value 
and, in one sense, these actors are the ultimate prize for al-Qaeda. 
The rejection of the values that their uniforms stood for and an 
abandonment of the oaths they swore validate al-Qaeda's narrative in a 
way that no other domestic, home-grown radicalized individual could 
hope to achieve.''

            Finding No. 11: Political Correctness Continues To Stifle 
                    the Military's Ability To Effectively Understand 
                    and Counter the Threat
    Despite the growing problem of violent Islamist radicalization 
within the United States, many Government officials appear reticent to 
publicly acknowledge the ideological driver behind al-Qaeda's 
radicalization and recruitment of American citizens. The military's 
failure to identify and acknowledge the threat from Islamist extremism 
was tragically illustrated by the Fort Hood attacks and its failure to 
address Maj. Hasan's overt radicalization.
    Assistant Secretary Stockton defended the military's persistent 
refusal to identify the Islamist ideology motivating the terrorist 
attacks, per the Obama administration's guidance:

``When it comes to defining the enemy, this administration wishes to 
avoid imprecise terminology that may cause confusion and may 
unjustifiably give credence to the falsehood--despite our best 
intentions--that we are waging a war on Islam.''

    Mr. Daris Long, the father of the late Army Pvt. William Andrew 
Long, who was shot and killed in a 2009 terrorist attack on a military 
recruiting center in Little Rock, Arkansas, said:

``My faith in Government is diminished. It invents euphemisms instead 
of using accurate language while the perpetrators speak freely using 
the very words deemed offensive to justify their actions. Clarity is 
absent. Little Rock is a drive-by and Fort Hood is just workplace 
violence: The truth is denied.
`` . . . The political correctness exhibited by the Government over 
offending anyone in admitting the truth about Islamic extremism, masked 
alarm bells that were going off. Warnings were ignored, Maj. Nidal 
Hassan was able to openly praise the Little Rock shootings in front of 
fellow Army officers and then commit his own jihad.
`` . . . The blatant masking and disregard of the facts not only 
endanger American citizens of non-Muslim faith but also those of Muslim 
heritage who do not adhere to the extremist beliefs demonstrated by a 
militant and political form of jihad.''

            Finding No. 12: The Administration Chose Political 
                    Correctness Over Accurately Labeling and 
                    Identifying Certain Terrorist Attacks 
                    Appropriately, Thereby Denying Purple Heart Medals 
                    to Troops Killed and Wounded in Domestic Terror 
                    Attacks
    The June 2009 shooting by Carlos Bledsoe (aka Abdulhakim Muhammad, 
a U.S. citizen and Muslim convert who perpetrated the attack on the 
Army recruiting office in Little Rock) illustrated to other home-grown 
terrorists the potential of ``soft target'' military recruiting centers 
as valid targets. Bledsoe specifically targeted the U.S. military to 
avenge what he believed was its mistreatment of Muslims. He also had 
traveled to Yemen and was radicalized to al-Qaeda's violent Islamist 
extremist ideology.
    However, despite his clear ties to terrorism and ideological 
motivations, Bledsoe was tried in a civilian State court rather than in 
U.S. District Court under Federal terrorism charges. In another glaring 
instance of al-Qaeda-inspired home-grown terrorism, the Government also 
neglected to indict Maj. Nidal Hasan on any terrorism-related charges, 
considering the case to be an example of ``workplace violence'' despite 
his reported email communications with AQAP operational leader, the 
since-slain American terrorist Anwar al-Awlaki.
    The Army and Department of Defense subsequently denied to the 
killed and wounded of Little Rock and Fort Hood an honor bestowed on 
the military victims who perished or were wounded inside the Pentagon 
on 9/11: the Purple Heart medal.
    Daris Long discussed this inconsistency and the need to identify 
and prosecute terror cases as such:

``In an attack that resulted in the first death and wounding of 
American soldiers on U.S. soil since 9/11 action by the Department of 
Justice is absent. Little Rock has morphed into nothing more than a 
`drive-by' shooting. Abdulhakim Muhammad's jihad in America has been 
downplayed by the Federal Government and the mainstream media causing 
irreparable change to the families involved as well as flat-out lying 
to the American people.
`` . . .  I am convinced the Government's position is to deny Little 
Rock was a terrorist attack. By not being open and transparent, despite 
promises to do so, to this administrations shame two soldiers have been 
abandoned on a battlefield in the advancement of a political agenda.
`` . . .  November 5, 2009, an attack took place at Fort Hood. In each 
instance, a clear tie to Yemen, but still no Federal indictments. My 
take is that if you plan 
and/or fail in a terrorist attack, you will be charged, but if you kill 
in this country under the banner of jihad, we're told it isn't 
terrorism and Federal judicial response is neither confirmed nor 
denied.''
                            the way forward
    While the committee's investigative hearings examining Muslim-
American radicalization clearly have had a significant and beneficial 
impact in forcing an open debate about the growing issue of 
radicalization within the United States, this problem is far from 
resolved.
    According to the results of a 2011 Pew poll, 16% of American 
Muslims had a favorable or only somewhat unfavorable view of al-Qaeda. 
Further, 13% of American Muslims believed that suicide bombings or 
other violence against civilians, to defend Islam from its enemies, was 
often, sometimes or rarely justified. Pew stated that there were 2.7 
million American Muslims. That means that there are approximately 
440,000 American Muslims who view al-Qaeda as only a somewhat 
unfavorable organization, and 357,000 who believe that killing 
civilians in the name of Islam can in some cases be justified. These 
numbers are startling and exposed a dangerous disconnect between a 
number of American Muslims and the democratic values cherished by 
Western nations.
    The radicalization of Muslim Americans by the violent Islamist 
extremist ideology promulgated by al-Qaeda and its affiliates is a 
problem that the United States cannot continue to simply ignore or 
deflect. Unfortunately, it appears that that within the United States, 
political correctness has prevented many from sufficiently 
acknowledging and tackling this dangerous problem. We continue to face 
an unwavering threat, and must be fully aware that home-grown 
radicalization is part of al-Qaeda's strategy to continue attacking the 
United States.

    Chairman King. The gentleman from Michigan, Mr. Clarke, is 
recognized for 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    I have some questions here, primarily for Ms. Patel, to 
look at the impact that these hearings may have had on the 
cooperation of Muslim Americans with law enforcement, and on 
how these hearings may have set a tone that could further 
divide Muslim Americans from mainstream America.
    I am going to ask those, but I just wish--I hope this is 
the last set of hearings on this issue. You know, Dr. Ahmed, 
you said something that--about the religious freedoms that are 
available in this country to practice your faith as you choose 
it. I completely agree with you--completely. I thank God I was 
born in this country; that my father, a devout Muslim, who 
immigrated to this country, that helped build one of the first 
mosques in Michigan, located in a country that provided me with 
the freedom to follow my faith.
    Being a little boy in the mosque, and as certain as I was 
sitting there in the mosque, knowing in my heart that Christ is 
the Son of God, I could choose to be a Roman Catholic that I am 
today, a lay minister in my church. But I firmly believe that 
the tone of these hearings, singling out the Muslim American 
community in our attempt to combat terrorism--I believe it 
undermines those religious freedoms that we all cherish in this 
country.
    I do believe it is a civil rights issue and here is why. 
This is my statement and then I will allow you to, Ms. Patel, 
to respond.
    But in metropolitan Detroit, there was a religious center 
that was being constructed, and on it spray painted was a gun 
with a Christian cross, was the word ``Mohmed,'' which is a 
grossly misspelled reference to Mohammed. Then there were the 
words, ``F.U.'' The building that was under construction was 
not a mosque. It is a Sikh temple. Sikh--the same people that 
were murdered after 
9/11.
    These hearings are not an assault against Islam. It is an 
assault against all Americans, especially Asian Americans. I 
understand that. Being South Asian and black, I am constantly 
profiled here. There is not a week I walk through this Capital 
complex without being stopped for my ID. Why? Why? Come on, 
people.
    You know, you want to cite the Quran as being the basis for 
some of these violent extremists. They can cite any holy book 
and take words out of context. It is not the words in the book 
that is the problem; it is the twisted human minds and the evil 
motives behind people that create this violence. Come on, let 
us stop attacking religion here.
    Look, I know some of our intentions may be good; but 
overall, if we could stay focused on protecting Americans right 
now from physical harm, that is why I wanted to be on this 
committee. I need some resources to protect our drinking water 
system in Detroit from bioterrorist attack. That is what I want 
to talk about right now. Or how we can have a real 
cybersecurity bill that will protect my Ambassador Bridge from 
being dismantled--the busiest international border crossing in 
all of North America.
    I, unfortunately, realize I have used up most of my time.
    Ms. Patel, if you could just respond to the fact on your 
view on these hearings and the impact it may have had in 
possibly undermining that trust and cooperation between Muslim 
Americans and law enforcement that we totally need to help stop 
any of these potential terrorist attacks. I welcome your 
comments.
    Ms. Patel. I am not a law enforcement official, so I would 
go back to actually the testimony of Sheriff Baca at the first 
of these hearings, where he points out that, you know, an 
approach that is based on divisiveness and on singling out a 
particular religion is not helpful to law enforcement. We know 
Muslim Americans have been incredibly helpful to law 
enforcement. So I think we should make sure that we preserve 
that relationship in every way we can.
    Thank you.
    Dr. Ahmed. May I add one comment?
    Mr. Clarke of Michigan. Yes. Thank you, Mr. Chairman. Thank 
you.
    Dr. Ahmed. Thank you. Thank you for your comment. I think 
it is a very important example that you have cited. As a 
Nation, whether we are citizens, whether we are experts, 
whether we are of faith or not, we lack faith literacy. These 
hearings are not an opportunity to promote Islamophobia in any 
way, shape, or form, or I would not be abandoning 18 American 
citizens, many of whom have served this country to be here with 
you today.
    I do think that there is a tremendous lack of awareness 
amongst the Muslim community of what Islam actually is. It is 
undeniable that whatever roots of radicalization anyone 
pursues, Islam is used in the narrative. The narrative begins--
there was once a golden age of Islam. There was a fall from the 
golden age. In order to restore Muslims to glory, there must be 
a process towards violent radicalization. That is what 
Islamists use in their ideology.
    That is, understanding that and dismantling that comes with 
help from all levels of society, including Muslims. It is not 
something that can be solved without examining Muslims in 
America or elsewhere in the wider country. In fact, Muslims ask 
for communities are particularly of concern; as I know from my 
native Britain; as we are seeing in France, I think even 
currently; or as I have lived in Saudi Arabia.
    There is a whole spectrum of extremism. I have--on 
September 11, I was in Riyadh, treating patients----
    Chairman King. The time of the gentleman----
    Dr. Ahmed. My--my fellow Muslims----
    Chairman King. Dr. Ahmed, the time of the gentleman has 
expired. We have to----
    Mr. Clarke of Michigan. The road to enlightenment, though, 
is not by holding more of these hearings. I yield back my time.
    Chairman King. Mr. Duncan. Mr. Duncan is recognized for 5 
minutes.
    Mr. Duncan. Thank you--thanks for those words.
    Communism, socialism, fascism, and Islamism----
    Ms. Clarke of New York. [Unintelligible.]
    Chairman King [continuing]. We will have order in the 
hearing room----
    Mr. Duncan. Political ideologies.
    Ms. Clarke of New York. [Unintelligible.]
    Chairman King. Yes, I would ask the gentlelady from New 
York, the gentleman is speaking. He is entitled to courtesy. 
Thank you----
    The gentleman from South Carolina is recognized.
    Mr. Duncan. Political ideologies. I think it is very clear 
from Mr. Cravaack's line of questioning and others today that 
this hearing isn't about Islam, but rather it is about 
Islamists using institutions of Islam to propagate Islamism.
    Ms. Patel talked about the radicalization of Muslims, but 
she talked about it in light of their fervent belief in Islam, 
much in the same way as an evangelical Christian and my belief 
in Jesus Christ as my Lord and Savior could be considered 
radical. But we are not talking about religion here today. We 
are talking about Islamism being propagated.
    With all due respect to the Muslims here in the crowd 
today, the mosque, the cultural centers, and the small groups 
are being used to radicalize folks that believe in Islam in the 
belief of Islamism, a political ideology that is beyond, I 
believe, the religious teachings of Islam.
    There is no doubt, there are 51 publicly-known thwarted 
Islamist-inspired terrorist plots since 9/11 in this country--
51 Islamist-inspired terrorist acts that have been thwarted. 
That is what this hearing is about today. To sit here and 
listen to folks on the other side of the aisle try to berate us 
for addressing these issues and trying to make it sound like we 
are attacking Islam--it bothers me.
    Ms. Nomani, in your testimony, you have some verses from 
the Quran at the beginning--``Oh you who believe stand our 
firmly for justice as witnesses to God, even if it may be 
against yourselves or your parents or your kin.''
    So I read those words and I think about the question I had 
for you today. Taking those words, how can the U.S. Government 
better empower our local Muslim communities to fight the 
radical imams and ideology that threaten your way of life and 
target your young people for Jihad? What can we do to better 
assist your efforts?
    Before you answer, thank you for having the courage, all of 
you, to be here today. Because I know there could be 
persecution within your Muslim community for speaking out, so 
thank you for your answer.
    Ms. Nomani. Thank you so much and thank you for citing the 
verse that, to me, is the reason why I sit here before you. 
Because in fact, we do face the same challenges that anybody 
does in a community when you dare to challenge the status quo.
    I think that one of the ways that we could actually try to 
help the community is by being compassionate, right, and being 
empathetic to the grievances that are legitimate in many ways. 
Many of the wounds that exist within the community--uncles in 
the community are the children of colonialism. They have felt 
these great foreign policy decisions that mean nothing to us in 
the current day. But I don't believe that that compassion and 
that empathy should make us pull our punches when it comes to 
accountability. That is where I feel we are doing this dance. 
You know, we are doing a dance around his very serious issue, 
trying to tap dance, basically, on what the problem is.
    I am so glad you were able to go to the mosque as a little 
boy, because I wasn't, because the ideology that was imported 
said that I, as a girl, could not enter the mosque. So if we 
are actually honest about it, as policymakers, as individuals 
in the community, and yet, kind to the Muslim community, I 
would hope that we can encourage our Muslim community to get 
out of this culture of shame, where they think that any 
specific discussion about interpretation is then a condemnation 
of the entire faith.
    We are a collectivist community, so we think that if you 
slam or criticize one part of the teachings or one person, like 
Major Nadir Hasan, it is a condemnation of everyone. That is 
where we as a community need to grow up, quite frankly. We as a 
community need to evolve and we need to basically be able to 
think with a rational mind and realize this criticism is about 
one interpretation and one group of people who I agree with you 
have very twisted minds and want to use religion for their 
purposes.
    Chairman King. The time of the gentleman has expired. The 
gentlelady from New York, Ms. Clarke, is recognized for 5 
minutes.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
I want to apologize to Mr. Duncan for speaking out during his--
during his questioning of the witnesses.
    Let me say this, that I am also going to register my 
objections to this series of hearings that we have had. I fail 
to see the ultimate goal of the hearing. I find that they 
further create a stigmatizing and ostracizing of the community 
from whom we wish to get cooperation--whom we wish to get 
desired cooperation from.
    I was sitting here just thinking about this Nation's 
history. I remember when a--in just a reading history, there 
was a huge--huge terrorist attack. It happened in Hawaii in 
Pearl Harbor. As a result of that, our Nation reacted. The way 
we reacted was to intern all Japanese Americans. There is a 
member of this body that actually grew up in an internment 
camp.
    So I am just concerned about unintended consequences. Be 
careful what you ask for. Be careful what you ask for. Our 
Nation has a history that we don't like to--that we don't like 
to connect oftentimes, but be careful what you ask for in 
America.
    I firmly believe that this hearing will foster 
misconceptions about hate and prejudice towards American Muslim 
community. All Americans deserve civil right protections and 
the freedoms provided by the Constitution. The American Muslim 
and Arab America, South Asian American communities are a vital 
part of the solution to the problem of radicalization. I think 
many of you have stated that. Terrorists do not radicalize 
entire communities. They recruit individuals.
    We need to improve communication and trust with Muslims in 
order to combat these recruiting tactics and mechanisms. If 
ultimately the goal of this hearing is to understand the Muslim 
American response, I think we need to identify the empirical 
research we have conducted in terms of canvassing America's 
very diverse Muslim community to determine what that so-called 
response should be.
    So I would like to ask of our witnesses what specific tools 
would you suggest are the best ways for us to get at a 
cooperative response that would move this Nation forward, as 
opposed to the type of stigma-ostracizing and provocative way 
that we have been going about it thus far.
    Dr. Jasser. If I may address that.
    Chairman King. Gentlelady--you?
    Ms. Clarke of New York. Yes----
    Chairman King. Any of them? Okay.
    Dr. Jasser. Thank you, Congresswoman for that question. It 
is very important. I would tell you that a lot of things are 
how they are presented. I think if these hearings are presented 
as against Islam, that is how they will be interpreted. While 
if they are presented by--this is why it is so important to 
have Muslim witnesses--is that this is not against Islam. Many 
of us have had the greatest struggles in being expressed within 
the Muslim community, where we don't have this diverse 
discourse about the--the process of radicalization.
    Some of the tools, for example--we have a Muslim liberty 
project that advocates for youth that we have now in 12 
different States that come together to learn about the founding 
fathers that were able to separate church and state. As much as 
I think we are teaching them to separate mosque and state, and 
that that is the best way to counter-radicalize and inoculate 
them against radicalization, so that their identity can be tied 
to being American and never be separated as it was when Nadil 
Hasan and others.
    I think that one of the comments to say that somehow the 
Government should never get into this separation between Islam 
and political Islam--I think is throwing up a white flag of 
surrender to a political ideology that attacks us. It is very 
important to engage that community and we have programs to do 
that.
    Ms. Clarke of New York. Ms. Nomani.
    Ms. Nomani. Thank you for your thoughts on this on that 
question. I do believe that one of the ways from a 
communication perspective that we need to move forward, is that 
we recognize that there are these wounds inside of our Muslim 
community, just like there are in many minority communities. 
Yet then encourage the notion that this isn't a shaming 
process. You know, that this isn't intended to shame the 
community or condemn Islam, but that in fact, if we have 
honest, forthright conversations about extremist 
interpretation, it is to the benefit of the community, also. 
That is a tough conversation to have for any group----
    Ms. Clarke of New York. Dr. Ahmed.
    Dr. Ahmed. Thank you for your question. I think your 
question captured it perfectly. Having these hearings is not 
going to lead to the internment of Muslim Americans. It is 
exactly the lack of that kind of nuance which I draw to your 
attention, respectfully madam, that can damage the outcome of 
what could be something so positive. It is the lack of nuance 
in our academic conversations, in our political conversations, 
in our media that is missing and that has to be disabled. We 
need more complexity in the discussion.
    Ms. Clarke of New York. Ms. Patel.
    Ms. Patel. Thank you, Madam. I think that the most 
important way for us to build the relationships between law 
enforcement and between Muslim Americans is to treat them as 
partners in the fight against terrorists--terrorism and 
terrorist, rather than cast suspicion on them. Muslim Americans 
have come forward again and again. Sheriff Baca has testified 
before this very committee that they have come forward often, 
you know, in difficult circumstances and at great personal cost 
to themselves, to give the police information that would allow 
them to foil terrorist plots.
    Ms. Clarke of New York. I thank you. My time is up.
    Thank you, Mr. Chairman.
    Chairman King. The gentlelady's time has expired. The 
gentlelady from Texas, Ms. Jackson Lee is recognized for 5 
minutes.
    Ms. Jackson Lee. Did Mr. Lungren go? I was off-key, Mr. 
Lungren. I wanted to defer to--I know that you are Ranker. 
Thank you very much for your courtesies. I saw you sitting 
there and I came in. Thank you, again. I thank the Ranking 
Member for his courtesies and to all the Members that are here, 
and as well, to the panel that is coming forward. My apologies 
for overlapping committee and I am delighted to have been able 
to come today.
    I think that the title of the hearing, ``The American 
Muslim Response to Hearings on Radicalization in Their 
Community,'' puts the witnesses in a very difficult posture. If 
I can recollect there are millions of Muslims in the United 
States coming from any number of Muslim backgrounds, countries; 
and therefore, it would be very difficult for me to perceive 
this hearing with all its good intentions of capturing the 
accuracy of Muslim positions here in the United States.
    I don't see a member of the Muslim student community as a 
witness and I am familiar with some episodes of infiltration of 
Muslim student organizations as I recollect in Ivy League 
settings, which I know parents send their children to school 
with the best hopes and dreams. Whether or not they would 
expect that they would have undercover operatives amongst those 
groups might be shocking.
    I also come to this issue with a sense of history of my own 
community, and recognizing the frustrations of certain 
attitudes and certain laws here in the United States of 
America. We can tout the civil rights era and the emotions of 
that era, even our own colleague, John Lewis, speaks eloquently 
of that time. But we did not, as African Americans, have the 
full appreciation of our frustration and protests. Many of our 
leaders were under surveillance. One that we call the Dreamer 
was under surveillance. I know it first-hand, as a member of 
the select committee on assassinations, looking into the 
assassination of Dr. King and John F. Kennedy. There was 
something called, ``Co-Intel.'' That is now in the history 
books. It was a dastardly intrusion onto men and women, who all 
they wanted was to be treated equally in this country.
    We now live in a different era and that era, of course, 
deals with terrorism against our soil. It heightens the, if you 
will, credibility of targeting groups because we don't want the 
heinous tragedy of 9/11 to occur. Let me put on the record that 
the world died on 
9/11--the World Trade Center. The numbers of people who were 
non-citizens, the numbers of people who were from different 
faith is enormous--I think that is the statement that should be 
made.
    I want to make sure that we do not have another tragedy. So 
I believe this committee has one of the highest callings of the 
United States Congress to secure the homeland. But at the same 
time, I could sit uprightly in the Judiciary Committee and 
raise concerns about a provision or a law or amendments that 
cause fissure. Because I think intrusions that take away our 
civil liberties is exactly what the terrorists want.
    I hold dear and I held it up in several hearings the 
Constitution. I hold it again. Frankly, until I can survey 
thousands of Muslims in mosques across America and hospitals 
across America on the front lines formerly of Iraq and 
Afghanistan, wearing our uniform, I can't feel comfortable with 
the testimony today, although I thank the witnesses for their 
best efforts.
    I don't know what our hearings have done to the psychic of 
young Muslims in high schools, in middle schools. I don't know 
whether it has increased the tensions or not. I certainly think 
we have a responsibility of oversight.
    So I would simply say this, Ms. Patel, as I hold this 
Constitution up, can you answer from the Brennan Justice 
Center's perspective, very briefly, what core have we 
penetrated? What core Constitutional rights have we pierced and 
how we can do better?
    Ms. Patel. Sorry, do you mean through these hearings? Or 
just generally in the----
    Ms. Jackson Lee. Generally, please.
    Ms. Patel. Okay. Well, I mean, I think with Muslim 
Americans, the issues relate primarily to the First Amendment 
freedom of speech, freedom of association, and freedom to 
worship. You know, there is a long line of Supreme Court cases 
that says that when Government surveils places, they do impinge 
upon our right of free speech and right to worship. So when you 
are talking about surveillance in mosques, there is obviously a 
potential for that violation.
    There is also, you know, when you talk about targeting a 
particular race, a particular ethnicity, or a particular 
religion, you obviously have equal protection issues that come 
up in that situation. I think those are the two main areas. 
Those are certainly the areas that have been raised in the NYPD 
lawsuit that was mentioned by Chairman King earlier.
    Ms. Jackson Lee. I thank the Chairman for his indulgence 
and my time is out. I just simply want to say that, as a 
Homeland Security Committee, Mr. Chairman, I want us to focus 
on intelligence and behavior and I want us to hold dear the 
Constitution. As you recall, we all said after 9/11, we will 
fight the terrorist, but we will not destroy this valuable and 
wonderful and precious source of equality and justice and 
freedom for anyone in our Nation.
    I yield back, Mr. Chairman.
    Chairman King. Thank you. That is what I have tried to do 
as Chairman. With that, we now recognize the former Member of 
the Committtee, Mr. Green from Texas, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I thank you and the 
Ranking Member for the preeminent privilege of being here today 
as an interloper.
    As-salaam-alaikum.
    Ms. Patel. Walaikum-salaam.
    Mr. Green. Isn't it wonderful that the grandson of a 
Christian minister can sit on the Homeland Security Committee 
and say as-salaam-alaikum.
    [Laughter.]
    Mr. Green. Dear brothers and sisters--and I say it, because 
I believe there is just one race, and that is the human race--I 
think we are all related. If we are not brothers and sisters, 
we are probably cousins, so--cousins.
    Thank you all for appearing today. We have had some 
discussion about radicalization of religions--radicalization of 
religions. If you agree that radicalization exists within all 
religions to some extent, would you kindly extend a hand into 
the air. I would like to make a record. Let me just--keep your 
hand up for just a second--I am sorry. This--okay, let the 
record reflect that all of the hands were raised.
    I want to get to the gravamen of the issue, the thing that 
causes a consternation among many persons on this committee. 
That is--by the way, we all love the country. We all love the 
First Amendment. We all love the first of the first, which is 
freedom of religion. We all do. No one on either side loves it 
any more, in my opinion. So let us get to the heart of what is 
going on.
    I don't think that most people oppose hearings on 
radicalization. I do not--N-O-T--I do not oppose hearings on 
radicalization. I do oppose hearings that don't focus on the 
entirety of radicalization. If you agree that we have 
Christians, as has been mentioned by more than one Member, 
Christians who become radicalized, that become a part of Islam, 
and they become radicalized, as it is being said, why not have 
a hearing on the radicalization of Christians?
    How--don't you marvel at how a person born in this 
country--born into Christianity can become radicalized? Isn't 
there any curiosity as to what happens to cause a person who is 
born into Christianity to become a radical? There is just more 
to it than simply saying the radicalization of Islam or 
Islamism.
    What happened to cause a woman who--you have all heard of 
G.I. Jane, correct? What happened--what happened to this 
woman--blue eyes, blonde hair, born in the United States of 
America--how did she get radicalized? Why is it that we won't 
have hearings on the totality of radicalization? Why don't we 
ask ourselves how is it that this is--this is happening to 
American citizens?
    I am not opposed to the hearings. I just want to be fair. I 
want to be fair to Muslims. I want to be fair to people who 
practice Islam. To be fair, you have to go beyond just the 
radicalization of Islam. That is what we are not doing. I--I do 
think that it is a problem of perception--people who see the 
hearings and never hear about the hearing on the radicalization 
of Christianity have to ask themselves why is this missing? Why 
don't we go the next--to the next step and ask--how is it that 
a blue-eyed, blonde-haired, white female in the United States 
of America can become radicalized into a point of wanting to do 
harm to this country?
    We don't have that type of hearing. That is the problem. 
That is why people express this trepidation. I would--I would 
just close with this. I am not Muslim, but apparently I look 
like I am.
    [Laughter.]
    Mr. Green. Because I have had people shout some very ugly 
things to me and associate me with Islam. I don't know what it 
feels like to be Muslim, but I do know what it feels like to 
look like a Muslim in the minds of some people and to be 
demeaned in a public venue.
    So I thank you for your appearances today and I look 
forward to the day that we will have that hearing that deals 
with the radicalization of Christians in America.
    Chairman King. The time of the gentleman has expired. Does 
the gentleman from Mississippi seek recognition?
    Mr. Thompson. Yes, Mr. Chairman.
    Chairman King. The gentleman is recognized.
    Mr. Thompson. Dr. Jasser, when Mr. Congressman Richmond 
referenced credentials, you made reference to a top-secret 
clearance. I want to make sure we have it in the record. We 
checked it. We don't have an indication of that top-secret 
clearance. Can you provide it for the record of this committee?
    Dr. Jasser. Yes. I was appointed to a commission earlier 
this year and I had been vetted through a clearance process for 
that, so I could provide that. But it wasn't asked of me for 
this hearing.
    Mr. Thompson. So your testimony is that vetting gives you 
top-secret clearance.
    Dr. Jasser. That is what I was told, sir.
    Mr. Thompson. Okay. Well, if you will just provide it for 
the record of this hearing, we would appreciate it.
    Dr. Jasser. Yes, sir.
    Mr. Thompson. Ms. Nomani, you referenced serving as a 
trainer for the Department of Defense. Am I correct?
    Ms. Nomani. That is right, sir.
    Mr. Thompson. Well, I want to make sure that our record is 
correct, also. Your truth in testimony does not indicate that 
you have worked in that capacity. Can you make that amendment 
to that testimony, so our record is complete?
    Ms. Nomani. Sure. I don't work as an employee to the 
Department of Defense.
    Mr. Thompson. Well, you have a contract?
    Ms. Nomani. Right, but as a--not to the Department of 
Defense.
    Mr. Thompson. So, what--as a trainer, who are you training?
    Ms. Nomani. The students are Department of Defense 
employees, but I will provide you the full details as you need 
them.
    Mr. Thompson. Wait, now. Are these just students or are you 
doing this for the Department of Defense?
    Ms. Nomani. Well, I call them students, but they are--they 
are either soldiers that are deploying or individuals that are 
doing work on the Afghanistan-Pakistan region here in the 
United States.
    Mr. Thompson. Yes, but who--who employed you to do that?
    Ms. Nomani. I work through a consultant company.
    Mr. Thompson. So you--that works for the Department of 
Defense.
    Ms. Nomani. Exactly. Right.
    Mr. Thompson. Well, we just want to make sure we record----
    Ms. Nomani. Sure.
    Mr. Thompson [continuing]. Because you didn't say that.
    Ms. Nomani. Sure.
    Mr. Thompson. All right. Please provide us in your truth in 
testimony statement----
    Ms. Nomani. No problem.
    Mr. Thompson. I yield back.
    Chairman King. I want to thank all the witnesses today for 
their valuable testimony. The Members of the committee may have 
some additional questions, and we will ask all of you to 
respond to those questions in writing if you should get them. 
The hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 12:27 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Bennie G. Thompson for Qanta A.A. Ahmed
    Question 1a. Dr. Ahmed, one of the first things you tell the 
committee in your written testimony is that you are a British citizen. 
You are not an American Muslim. What qualifies you to be able to speak 
to the American Muslim response to these radicalization hearings?
    Have you done extensive research on violent extremism?
    Answer. Response was not received at the time of publication.
    Question 1b. Please tell the committee about the experience you 
have had?
    Answer. Response was not received at the time of publication.
    Question 1c. Give us the statistical data you have collected that 
can illustrate that these hearings were effective.
    Answer. Response was not received at the time of publication.
  Questions From Ranking Member Bennie G. Thompson for M. Zuhdi Jasser
    Question 1a. According to your testimony, these hearings have 
brought an exponential growth in the number of Muslims who are willing 
to courageously step forward in support of American values. First of 
all, what does this mean?
    Second, could you provide the committee with the statistical data 
you collected on these hearings?
    Answer. Response was not received at the time of publication.
    Question 1b. Could you tell us the companies that conducted the 
audit?
    Answer. Response was not received at the time of publication.
    Question 2. Dr. Jasser, on your organization's website, you state 
that ``We will work to engage Muslim youth and empower them with the 
independence to question the ideas of imams, clerics, and so many 
`tribal' leaders of Muslim communities unwilling to look toward reform 
and modernity.'' What exactly, and please be specific, has American 
Islamic Forum for Democracy done to reach out to Muslim youth?
    Answer. Response was not received at the time of publication.
  Questions From Ranking Member Bennie G. Thompson for Asra Q. Nomani
    Question 1. Ms. Nomani, during your testimony, you stated that you 
have trained members of the U.S. military and other Government 
employees. Please provide the committee with the date and time of your 
training sessions. Also, provide the name of the sessions and the 
materials that you used. Also, provide the agency with which you have 
contracts either now or in the past. Also, if you are a contractor or 
subcontractor, provide the name of your company.
    Answer. Response was not received at the time of publication.
    Question 2a. Ms. Nomani, according to your testimony, you said 
American Muslims need to own up to the problem of radicalization and 
extremism in our communities by being honest about your problems and 
you also said that Muslims need to be a part of the solutions. Now, I 
have heard from law enforcement, in this hearing room, on the record, 
that Muslims have been a part of the solution by reporting suspicious 
activity and taking steps forward in their community. Now, what data do 
you have to refute these statements made by law enforcement under oath?
    What verifiable data do you have that illustrates that the series 
of hearings this committee has had has been helpful?
    Answer. Response was not received at the time of publication.
    Question 2b. What law enforcement or counter-terrorism training 
have you had that speaks to the contrary?
    Answer. Response was not received at the time of publication.
    Questions From Ranking Member Bennie G. Thompson for Faiza Patel
    Question 1. Both sides of the aisle want to make sure this country 
is safe from another attack like the ones on September 11. I am 
concerned about the chilling effect this series of hearings has had on 
cooperation between the Muslim community and law enforcement. These 
hearings may not get any more Muslims to come forward to cooperate with 
law enforcement. They may make Muslims who are already wary of our 
intentions even less likely to reach out to a Government that appears 
intent on stereotyping and vilifying their community. Do you have any 
thoughts on this?
    Answer. Like Americans of all faiths, American Muslims want our 
country to be safe from terrorism. The record shows that the Muslim 
community has been a staunch ally in fighting terrorism, providing 
information on about 35 percent of the terrorist plots that have been 
foiled in the past decade. Top law enforcement officials have stressed 
over and over again that the cooperation of the Muslim community is 
critical to our ability to fight terrorism. This valuable cooperation 
may be endangered when American Muslims are treated as potential 
terrorists rather than as partners.
    Question 2a. You have authored a report on radicalization. Why is 
understanding the sources of radicalization relevant?
    What effect does the radicalization myth have on the Government's 
response to terrorism and intelligence-gathering tools?
    Question 2b. Based on your knowledge of the hearings this committee 
has had on radicalization, what are we missing?
    Answer. Over the past decade, various Government agencies have 
attempted to develop theories of ``radicalization,'' which can be 
defined as the process by which individuals turn to ideologically-
inspired violence. The hope is that by studying and understanding 
radicalization, we will be able to identify homegrown terrorists before 
they strike.
    Unfortunately, the process by which an individual turns to violence 
is far from predictable. Social science research (including studies by 
security agencies, academics, and social scientists) suggests that 
there is no profile of the type of person who becomes a terrorist. To 
the contrary, the process by which a person embraces violence is fluid, 
making it nearly impossible to predict who will move from espousing 
``radical'' views to committing violent acts.
    Despite this wealth of research, certain law enforcement agencies--
including the Federal Bureau of Investigation and the New York City 
Police Department--have embraced what can be described as a ``religious 
conveyor belt'' theory of radicalization. This theory posits that 
radicalization runs a predictable course whereby American Muslims who 
harbor grievances against our society or who suffer from a personal 
crisis become more religious, then adopt ``radical'' beliefs, and 
finally commit acts of terrorism. According to this theory, there are 
recognizable markers of this process. These markers include normal 
Muslim religious behaviors such as frequent attendance at a mosque, 
growing a beard, giving up cigarettes and alcohol, wearing traditional 
Islamic garb, and becoming involved in social activism and community 
issues.
    This theory forms the backdrop against which agencies like the FBI 
and the NYPD have formulated their counter-terrorism strategy. The 
belief that certain Muslim religious behaviors can be signs of 
incipient terrorism supports a heavy emphasis on monitoring American 
Muslim communities. Both the NYPD and the FBI have placed informants in 
mosques to report on what Imams and worshippers are saying. The NYPD 
has mapped Muslim communities both inside and outside its jurisdiction, 
and has sent so-called ``rakers'' to keep tabs on the patrons of cafes, 
clubs, barber shops, and other establishments in Muslim neighborhoods. 
There is considerable evidence that some FBI field offices have engaged 
in similar community mapping.
    The tactics supported by the religious conveyor belt theory have 
significant negative consequences. They chill American Muslims' rights 
to freedom of speech, association, and religion. Moreover, they 
undermine efforts to build relationships of trust with American Muslim 
communities, thus jeopardizing the broader counterterrorism agenda. It 
is not only the notion that Muslims are all potential terrorists that 
alienates the American Muslim community. It is also the notion--
suggested by the religious conveyor belt theory--that they should 
report on the religious beliefs and behaviors of their friends and 
colleagues. Understandably, American Muslims who are more than willing 
to provide information about potential criminal activity, and who have 
in fact done so routinely since 9/11, are offended by the idea that 
they must share information about their prayers and religious 
observances with the Government.
    In my view, this committee's hearings on radicalization could have 
benefitted from a more scientific and empirical approach to the issue. 
Rather than relying on an anecdotal approach to an assumed threat of 
radicalization, the committee could draw upon expertise in the Federal 
Government and among social scientists to consider whether, and to what 
extent, the radicalization of American Muslims poses a threat to our 
security.

                                 <all>

</pre></body></html>
